<html>
<title> - STATUS OF VETERANS EMPLOYMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                     STATUS OF VETERANS EMPLOYMENT

=======================================================================



                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 15, 2010

                               __________

                           Serial No. 111-71

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
57-015                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             April 15, 2010

                                                                   Page
Status of Veterans Employment....................................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    35
Hon. Gus Bilirakis...............................................     2
    Prepared statement of Congressman Bilirakis..................    35

                               WITNESSES

Congressional Research Service, Library of Congress, Christine A. 
  Scott, Specialist in Social Policy, Income Security Section, 
  Domestic Social Policy Division................................     3
    Prepared statement of Ms. Scott..............................    36

U.S. Department of Labor:

  Philip L. Rones, Deputy Commissioner, Bureau of Labor 
    Statistics...................................................     6
      Prepared statement of Mr. Rones............................    50
  Hon. Raymond M. Jefferson, Assistant Secretary, Veterans' 
    Employment and Training Service..............................    30
      Prepared statement of Mr. Jefferson........................    88
U.S. Office of Personnel Management, Christine M. Griffin, Deputy 
  Director.......................................................    32
      Prepared statement of Ms. Griffin..........................    93
U.S. Department of Veterans Affairs, Willie Hensley, Principal 
  Deputy Assistant Secretary, Human Resources and Administration.    33
      Prepared statement of Mr. Hensley..........................    95

                                 ______

American Legion, Mark Walker, Deputy Director, National Economic 
  Commission.....................................................    13
    Prepared statement of Mr. Walker.............................    59
Iraq and Afghanistan Veterans of America, Tim S. Embree, 
  Legislative Associate..........................................    14
    Prepared statement of Mr. Embree.............................    63
National Guard Association of the United States, Colonel Peter J. 
  Duffy, USA (Ret.), Deputy Director of Legislation..............    20
    Prepared statement of Colonel Duffy..........................    85
Paralyzed Veterans of America, Richard Daley, Associate 
  Legislation Director...........................................    16
    Prepared statement of Mr. Daley..............................    71
Reserve Officers Association of the United States, Captain 
  Marshall Hanson, USNR (Ret.), Director, Legislative and 
  Military Policy, and also on behalf of Reserve Enlisted 
  Association....................................................    19
    Prepared statement of Captain Hanson.........................    79
Veterans of Foreign Wars of the United States, Justin Brown, 
  Legislative Associate, National Legislative Service............    17
    Prepared statement of Mr. Brown..............................    74

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Follow-up Material:

    Philip L. Rones, Deputy Commissioner, Bureau of Labor 
      Statistics, U.S. Department of Labor, to Hon. Stephanie 
      Herseth Sandlin, Chairwoman, and John Boozman, Ranking 
      Republican Member, Subcommittee on Economic Opportunity, 
      letter dated May 3, 2010...................................    99
    Congressional Research Service Report for Congress, 
      ``Unemployment Compensation (Insurance) and Military 
      Service,'' dated April 22, 2010, RS22440, by Julie M. 
      Whittaker, Specialist in Income Security, Congressional 
      Research Service...........................................   100

Post-Hearing Questions and Responses for the Record:

    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Christine A. Scott, Specialist in Social Policy, Income 
      Security Section, Domestic Social Policy Division, 
      Congressional Research Service, Library of Congress, letter 
      dated April 20, 2010, and response memorandum dated May 11, 
      2010.......................................................   104
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Mark Walker, Deputy Director, National Economic Commission, 
      American Legion, letter dated April 20, 2010, and response 
      letter dated May 24, 2010..................................   106
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Tim Embree, Legislative Associate, Iraq and Afghanistan 
      Veterans of America, letter dated April 20, 2010, and Mr. 
      Embree's responses.........................................   108
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Richard Daley, Associate Legislation Director, Paralyzed 
      Veterans of America, letter dated April 20, 2010, and 
      response letter and attachment dated May 18, 2010..........   109
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Justin Brown, Legislative Associate, National Legislative 
      Service, Veterans of Foreign Wars of the United States, 
      letter dated April 20, 2010, and response from Eric A. 
      Hilleman, Deputy Director, National Legislative Service, 
      Veterans of Foreign Wars of the United States..............   112
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Captain Marshall Hanson, USNR (Ret.), Director, Legislative 
      and Military Policy, Reserve Officers Association of the 
      United States, letter dated April 20, 2010, and Captain 
      Hanson's responses.........................................   113
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Colonel Peter J. Duffy, USA (Ret.), Deputy Director of 
      Legislation, National Guard Association of the United 
      States, letter dated April 20, 2010, and Colonel Duffy's 
      responses..................................................   117
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Hon. Raymond M. Jefferson, Assistant Secretary, Veterans' 
      Employment and Training Service, U.S. Department of Labor, 
      letter dated April 20, 2010, and DOL's responses...........   124
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Christine M. Griffin, Deputy Director, U.S. Office of 
      Personnel Management, letter dated April 20, 2010, and 
      OPM's responses............................................   127
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Willie Hensley, Principal Deputy Assistant Secretary, Human 
      Resources and Administration, U.S. Department of Veterans 
      Affairs, letter dated April 20, 2010, and VA responses.....   131


                     STATUS OF VETERANS EMPLOYMENT

                              ----------                              


                        THURSDAY, APRIL 15, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:13 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Perriello, Adler, 
Teague, and Bilirakis.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity hearing on the Status of Veterans Employment will 
come to order. I ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and that 
written statements be made part of the record. Hearing no 
objections, so ordered.
    Today's hearing will provide us an opportunity to review 
existing programs to help homeless veterans become employed; 
review barriers to employment; discuss hiring authorities; and 
learn about possible causes of high unemployment rates among 
younger veterans and female veterans. Furthermore, we will hear 
from an array of distinguished panelists, who will highlight 
the shortfalls of Federal programs while providing 
recommendations for us to consider regarding veteran employment 
opportunities. While the high unemployment rates among veterans 
is disturbing, we will also receive timely updates from 
Administration officials highlighting their initiatives to 
address the concerns of our veterans population.
    I would like to commend President Obama for implementing 
Executive Order 13518 to strengthen veteran employment 
opportunities within the Federal workforce. I would also like 
to commend the various agencies who have initiated new veterans 
programs that require no Congressional intervention. These 
include the Office of Personnel Management's (OPM) new Feds 
Hire Vets Web site, and the Department of Labor's (DOL's) 
initiative to expand Job Corps participation to military 
veterans.
    I look forward to hearing from all of our witnesses here 
today. I now recognize our Ranking Member, Mr. Bilirakis, for 
any opening remarks he may have.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 35.]

            OPENING STATEMENT OF HON. GUS BILIRAKIS

    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much. Madam Chair, our oversight agenda has covered many 
subjects during the 111th Congress. But this may be the most 
important. It is no secret that the recession has hit America 
hard, and that unemployment rates have stood at record, or near 
record numbers, including the rates for veterans. The March 
2010 data from the Bureau of Labor Statistics (BLS) shows that 
about 50,000, or about 25 percent, of 18- to 24-year old 
veterans were unemployed. At the same time about 955,000, or 
about 9.5 percent of veterans between the ages of 25 and 64 
were unemployed.
    While any unemployed veterans is worthy of our assistance, 
I see significant differences in these two age groups in terms 
of financial resources and financial obligations. For example, 
while our younger veterans are likely eligible for either the 
Montgomery or the Post-9/11 GI Bill and have fewer financial 
obligations, most of the older group has likely passed their 
delimiting dates for the GI Bill, or only have access to the 
less generous Montgomery GI Bill, or have used up their 
entitlement. Older veterans are also more likely to have 
financial obligations, such as mortgages and tuition payments. 
So these differences raise the policy question of where to 
focus whatever scarce resources we have.
    Regardless of where we choose to place these resources, 
they must be efficiently and effectively applied. During this 
recession, Congress has extended unemployment benefits at least 
twice. And while softening the blow of losing one's job is 
important, I believe that we should view this as an opportunity 
to reshape the workforce by retaining the unemployed in skills 
that will be in demand as the economy recovers. And that should 
begin with our veterans, of course.
    It makes no sense to pay people to remain qualified only 
for jobs that may never reappear in the economy. For example, 
it is no secret that the manufacturing sector, such as the auto 
industry, has contracted over the past couple decades. Assembly 
jobs have moved out of the traditional manufacturing States to 
States with lower labor costs, or moved overseas. That means 
that if workers want to remain in the industry where their 
skills are needed they must be willing to relocate. Madam 
Chair, that was the whole idea behind H.R. 1168, actually which 
the Ranking Member introduced, Mr. Boozman, and it passed under 
your leadership.
    So how do we fix the issue? Because without a massive 
reversal of the outflow of jobs, those who have worked in 
downsized industries must gain new and relevant skills to once 
again be fully and adequately employed. Madam Chair, according 
to the Conference Board, an organization which tracks a variety 
of business-related data, national employment peaked in the 
summer of 2008 at about 138 million, and online help wanted ads 
totaled 4.9 million. In February of 2010, national unemployment 
totals about 130 million with help wanted ads running at about 
4 million. Clearly there are jobs out there and our challenge 
is to provide veterans with the skills to fill them.
    Here are the Board's top 10 in demand occupations. Number 
one, health care practitioners and technical; computer and 
mathematical science; management; sales and related; office 
administrative support; business and financial operations; 
architectural and engineering; health care support; 
transportation and material moving; and the last one arts, 
design, entertainment, sports, and media.
    We have all read the gross statistics and what we now need 
to know more about are the whys, as in why are younger veterans 
experiencing such high rates? To that end, I look forward to 
hearing solutions from our witnesses on how to invest in our 
workforce. Thank you, and I yield back Madam Chair.
    [The prepared statement of Congressman Bilirakis appears on
p. 35.]
    Ms. Herseth Sandlin. Thank you, Mr. Bilirakis. And I want 
to thank the other Members of our Subcommittee for joining us 
at the hearing. We welcome all of our panels testifying before 
the Subcommittee today, and I would like to remind each of our 
witnesses that your complete written statements have been made 
part of the hearing record. I would ask that you limit your 
remarks to 5 minutes so we have sufficient time for followup 
with questions once everyone has had the opportunity to provide 
their testimony. We have a number of witnesses here today.
    Joining us on our first panel is Ms. Christine Scott. She 
is a Specialist in Social Policy for the Congressional Research 
Service, and Mr. Phil Rones, Deputy Commissioner, Bureau of 
Labor Statistics, U.S. Department of Labor. We welcome you both 
to the Subcommittee. We look forward to your testimony 
highlighting the important research that you have done. I will 
recognize Ms. Scott first. You are recognized for 5 minutes.

STATEMENTS OF CHRISTINE A. SCOTT, SPECIALIST IN SOCIAL POLICY, 
   INCOME SECURITY SECTION, DOMESTIC SOCIAL POLICY DIVISION, 
CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF CONGRESS; AND PHILIP 
L. RONES, DEPUTY COMMISSIONER, BUREAU OF LABOR STATISTICS, U.S. 
                      DEPARTMENT OF LABOR

                STATEMENT OF CHRISTINE A. SCOTT

    Ms. Scott. Thank you. Chairwoman Herseth Sandlin, Ranking 
Member Bilirakis, and Members of the Subcommittee, my name is 
Christine Scott from the Congressional Research Service and I 
am honored to appear before this Subcommittee today.
    As requested by the Committee, my testimony will focus on 
three topics. The current situation for employment of veterans, 
barriers to employment, and employment assistance to veterans.
    First, the employment situation of veterans. My written 
testimony has a figure in several tables related to this and 
because of time limitations I will be going through them and 
only getting a few of the key points related to each table. 
Okay? The additional details about the data and the tables are 
contained in the written testimony.
    First, figure one shows the monthly unemployment rates 
showing a 3-month moving average from January 2006, before the 
current economic downturn, through December 2009. As you can 
see in the figure, the unemployment rate for Gulf War Veterans, 
Gulf War II Veterans, is higher than for non-veterans. And the 
unemployment rate overall for veterans of other periods of 
service, labeled here as other veterans, is lower than that of 
non-veterans.
    However, this comparison of the overall unemployment rates 
does not show the entire story, what is going on behind the 
unemployment rates. As you can see in table one, the highest 
unemployment rates across all three groups are for those 
individuals ages 18 to 24 and 25 to 34. In addition, as shown 
in table two, the largest changes in unemployment rates between 
2006 and 2009 are for individuals ages 18 to 24, both males and 
females. This is important because 63 percent of the Gulf War 
II veterans population is under age 35. This is driving their 
unemployment rates.
    Between 2006 and 2009, the unemployment rate for male Gulf 
War II veterans increased from 6.4 percent 9.9 percent. While 
the unemployment rates for male veterans of other periods of 
service, and male non-veterans more than doubled. For male 
veterans of other periods of service the unemployment rate 
increased from 3.4 to 7.9 percent, and for male non-veterans it 
increased from 4.4 to 10.3 percent. The unemployment rate for 
female Gulf War II veterans increased from 7 to 11.5 percent, 
while the unemployment rates for female veterans of other 
periods of service increased from 4.9 to 7.0 percent, and for 
female non-veterans from 4.3 to 7.8 percent.
    Table three shows the unemployment rate by periods of 
service, for disabled veterans, those with a service-connected 
disability, and non-disabled veterans. While the rates for 
disabled and non-disabled veterans are very close, the rates 
are higher however for Gulf War I and Gulf War II veterans with 
a service-connected disability.
    Table four relates to what is considered the long-term 
unemployed, that is unemployed 27 weeks or longer. Gulf War II 
veterans have a slightly lower percentage that would be 
considered long-term unemployed, while veterans of other 
periods of service have a slightly higher rate of long-term 
unemployment than non-veterans.
    Table five shows the percentage for full-time and part-time 
for these three groups. Overall, veterans have a higher 
percentage full-time employed than non-veterans. However, there 
are variances for the youngest veterans, 18 to 24, and for the 
older veterans, 65 and older, where the percentage of people 
with part-time employment are significantly higher, even for 
non-veterans.
    Sorry, and I need to go back. Excuse me.
    Table six shows the percentage for each group of public and 
private industry and self-employment. Overall, Gulf War II 
veterans and veterans of other periods of service have higher 
percentages employed in the public sector compared to non-
veterans. In addition, Gulf War II veterans have a lower 
percentage of self-employed compared to non-veterans. Other 
veterans have a higher percentage of self-employed because of 
their older age. Self-employment tends to increase with age. As 
a result, the overall self-employment rate for veterans of 
other periods of service is higher than for non-veterans.
    Table seven shows for the Federal Government, the total 
Federal workforce that is percentage veterans, and the top 10 
executive agencies with the percentages of their workforces 
that are veterans. Between 2005 and 2008, the overall 
percentage for the Federal Government only increased slightly 
from 25.2 to 25.5 percent of the workforce. And the top seven 
did not change between 2005 and 2008 in terms of agencies.
    Federal agencies have three special hiring authorities 
available to them. The Veterans Recruitment Appointment, the 
Veterans Employment Opportunity Act, and 30 Percent or More 
Disabled Veterans. In fiscal year 2008, depending on the type 
of appointment authority, 90 to 95 percent of the special hire 
appointments were by the U.S. Department of Defense (DoD), the 
U.S. Department of Veterans Affairs (VA), or the Armed Forces 
branches.
    Next let me turn to barriers to employment. Veterans, like 
non-veterans, may face one or more barriers to employment, and 
there are a number of different barriers to employment. Four 
major barriers are first education and training. A veteran 
without the education or training for a specific industry will 
have difficulty finding employment in the industry. This is 
true for recently separated servicemembers whose military 
skills may not translate directly to the civilian industry, and 
for older veterans and non-veterans who have worked many years 
but are in an industry that is currently in decline.
    Second, disability. Disability has many forms. Chronic 
conditions, physical impairments, mental impairments, and 
addiction issues. Certainly disabilities, such as post-
traumatic stress disorder (PTSD) and traumatic brain injury 
(TBI) are more prevalent in veterans than in non-veterans. 
Veterans with one or more disabilities will face difficulties 
in finding employment and in dealing with these difficulties in 
the workplace, with these disabilities.
    Third, lack of a mentor and employment network. While 
veterans were serving in the military their non-veterans peers 
were finding and establishing mentors and employment networks 
within their chosen occupation.
    Fourth, homelessness. Living without a fixed address 
creates a number of challenges in finding and maintaining 
employment and research has shown that veterans are 
overrepresented in the homeless population.
    Last, assistance with employment. The Federal Government 
has several programs to assist veterans with employment. Among 
them are the transition programs coordinated by the Departments 
of Defense, Labor and Veterans Affairs; Department of Labor 
grants to State governments for State employments to assist 
veterans in finding employment and promoting hiring of 
veterans. The Department of Labor also makes grants to 
organizations to assist homeless veterans in meeting their 
needs to transition back into the workforce. And finally, but 
not least, the Department of Veterans Affairs has programs for 
veterans with disabilities, including the Compensated Work 
Therapy Program and the Vocational Rehabilitation and 
Employment (VR&E) Program.
    The Department of Labor also operates the America's Heroes 
at Work Web site, which provides among other things, fact 
sheets and other information for employers and veterans related 
to PTSD and TBI in the workplace. There is also the Feds Hire 
Vets service, which contains among other things a listing by 
agency of the individual within that agency who is responsible 
for promoting the hiring of veterans, including their phone 
number and email address.
    That concludes my testimony. And I will be happy to answer 
any questions that Members may have.
    [The prepared statement of Ms. Scott appears on p. 36.]
    Ms. Herseth Sandlin. Thank you, Ms. Scott. We appreciate 
the helpful statistics and your testimony. Mr. Rones? Am I 
pronouncing that correctly?
    Mr. Rones. That is correct.
    Ms. Herseth Sandlin. Very good. You are now recognized for 
5 minutes.

                  STATEMENT OF PHILIP L. RONES

    Mr. Rones. Thank you Madam Chair and Members of the 
Subcommittee. I thank you for the opportunity to discuss the 
employment situation of veterans.
    I would like to start by stressing the way that the Bureau 
of Labor Statistics views these data that might be a little 
different than some others. And what I would caution is that 
people be careful in overanalyzing some data that are thin. And 
let me give you an example. We have heard about the 
unemployment rates of young veterans, and young male veterans. 
And in fact, the most recent figure we put out for March, the 
unemployment rate was 32 percent. And obviously that is a very, 
very high number. But I looked at the whole series of 
unemployment rates for that group. And if I go back a year ago, 
in successive months, the rates were 14 percent and 34 percent. 
Now how does that happen? Out of the roughly 100,000 people 
that we interview for this survey each month, only about 80 are 
these young veterans. I mean, that is their share of the 
population. And maybe 15 of them are unemployed. So we are 
extrapolating to a whole population of young veterans based on 
the 15 who happen to be unemployed in this month, and maybe 25 
next month, or 10 next month. So I would stress that we be very 
careful with taking a single month's data. That is why we 
prefer looking at annual average data, combining 12 months, 
getting a lot more information when we are looking at these 
data.
    Let me go through a couple of the highlights. I have 
submitted both a formal testimony and some slides that back 
that testimony up. The one thing that you have to be careful in 
comparing the veterans with other groups is that you are 
comparing apples and oranges. Demographics are really 
important. For example, many recent veterans are fairly young, 
and younger people, whether veterans or non-veterans, tend to 
have very high unemployment rates. The most salient point I 
could make about all our employment statistics is every group 
has been very severely hurt by this recession, certainly 
veterans included.
    We collect data both every month on veteran status and then 
some very detailed information once a year, and I should point 
out we have actually added a table to our monthly employment 
situation report on the status of veterans and non-veterans 
quite recently.
    In 2009, there were about 22 million veterans in the 
population. About half last served in World War II-era, Korea, 
or Vietnam periods. So virtually all of them are age 55 and 
over and only 3 percent are women. And it is important that 
when we look at the labor force status on veterans in general 
they take into account that there is a very large portion of 
them who are certainly in retirement ages at this point.
    About 2 million veterans served during the period 
designated Gulf War Era II, accounting for nearly one in 10 of 
all veterans. These veterans are young, nearly two-thirds are 
under the age of 35, and far more of them are women than in 
earlier eras. Eighteen percent are women.
    For most age and sex groups employment status does not vary 
very much based on veteran status. Male veterans aged 18 to 24, 
though, are somewhat more likely to have jobs than their non-
veterans counterparts. And I stress that because very often 
people look at the unemployment rates, but the goal in general 
is employment. So I ask people to look at the flip side as 
well. What proportion of the population actually has jobs?
    Veterans of Gulf War Ear II who served in combat or war 
zones had employment rates that were similar to those of 
veterans who did not serve in combat or war zones. And there 
was no statistically significant difference between the 
unemployment rate for female and male veterans overall. The 
rates were actually 8.0 and 8.1 percent respectively last year. 
The jobless rates for female and male veterans of just the Gulf 
War II were not statistically different either.
    In August, 2009 about 2.8 million veterans, or 13 percent 
of the total, reported have a service-connected disability. The 
one thing that I would say about the disability statistics is 
again look at employment rather than unemployment. And even if 
the unemployment rates look similar, what you see for disabled 
veterans, as you would with the disabled population in general, 
is that the more severe the disability rating the lower the 
employment rate. And that to me is the most important 
statistic.
    And I will leave it at that. And certainly I would be glad 
to answer any questions.
    [The prepared statement of Mr. Rones appears on p. 50.]
    Ms. Herseth Sandlin. Thank you, Mr. Rones, for your 
testimony as well, and the charts and statistics that you 
provided with your written testimony. If I could start, Ms. 
Scott are there key characteristics that could account for the 
difference in employment between female Gulf War II veterans 
and female non-veterans?
    Ms. Scott. The primary difference is going to be age, okay, 
in driving a lot of these unemployment rates. For non-veterans 
the population is somewhat evenly distributed across the age 
groups, and between men and women it is very similar. There are 
only a few points difference one way or another until you get 
to the 65 and older where there are fewer males. Gulf War II 
veterans, females like males, are very young. Okay? When you 
get to veterans of other periods of service about 70 percent of 
the veterans of other periods of service who are male are 55 or 
over, where about 51 percent of the female veterans of other 
periods of service are between ages of 35 and 54. Okay? So the 
female veterans of other periods of military service are 
younger than the males. And that is part of what is driving 
their female unemployment rates there.
    Ms. Herseth Sandlin. Then specifically on table seven you 
list the executive agencies that have the highest percentage of 
veterans in their workforce, by the 2 different years. I will 
not pose this question to you, but it is interesting that 
Department of Justice and Department of Labor go slightly down 
the ranks from 1 year to the next, in terms of the chart that 
you provide. In the research that you have done, do you have 
any reasons why these specific agencies have a higher 
percentage than others? I mean, clearly if it is armed forces, 
Department of Defense, Department of Veterans Affairs, Homeland 
Security, there could be relationship as it relates to interest 
and skills that match the agency needs. Do you have other 
reasons when you look across all agencies? Are some doing a 
better job than others in specifically recruiting veterans?
    Ms. Scott. I do not have the research to support any 
definitive conclusions as to why it is in one agency more than 
the other. I would keep in mind that the Departments of Defense 
and Veterans Affairs are among two of the largest in the 
Federal Government.
    Ms. Herseth Sandlin. I do not know which table off the top 
of my head here, but when we looked at public versus private 
sector employment, do veterans with a disability tend to work 
more in the private or the public sector? Do you have that 
information?
    Ms. Scott. Not readily available, but I will get back to 
the Committee.
    [Ms. Scott subsequently provided the following 
information:]


------------------------------------------------------------------------
                       Percentage of Employed Veterans (with a Service-
      Employer                       Connected Disability)
------------------------------------------------------------------------
Private               31.3%
------------------------------------------------------------------------
Public                62.3%
------------------------------------------------------------------------
Self-Employed         6.4%
------------------------------------------------------------------------
Total                 100.0%
------------------------------------------------------------------------
     Source: Congressional Research Service analysis of August 2009
  Veterans Supplement to the Current Population Survey (CPS).




    Ms. Herseth Sandlin. Mr. Rones, have you been able to 
measure as it relates, I understand the caution that you are 
giving us as we look at annual trends and averages versus 1 
month, and the age of some of the veterans groups we are 
looking at. Are Gulf War II Era veterans unemployed and seeking 
employment? Or are they enrolled in school? I mean, are you 
able to break down these numbers to give sort of reasons for 
the percentages and then who is seeking employment versus who 
may be enrolled in courses?
    Mr. Rones. Yes, I did notice that the school enrollment 
rates for veterans aged 25 to 34 seemed to be a bit lower than 
for non-veterans. Or actually, it is not the school enrollment. 
It's educational attainment, which are closely related. What 
seems to happen, though, is the veterans catch up to the non-
veterans by the time they are in the 30's or so, and that makes 
sense.
    Ms. Herseth Sandlin. Right.
    Mr. Rones. That is, veterans are going to school later.
    Ms. Herseth Sandlin. Right.
    Mr. Rones. But we do have data on both enrollment status 
and educational attainment, and of course age.
    Ms. Herseth Sandlin. I may have one or two follow-up 
questions, but I would like to recognize the Ranking Member for 
questions he may have?
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it. For 
the panel, I understand your point about the unemployment has 
hit a record high and is very hard. But why are young veterans 
experiencing an unemployment rate double their non-veteran 
peers? And I understand the sample is low on a monthly basis. 
But if you could answer that question I would appreciate it.
    Mr. Rones. I think they are not, and that was the point I 
was trying to make earlier. If I look at the annual average 
unemployment rates, which would be more reliable because there 
is just more information going into them. So for 2009, if you 
look at 18- to 24-year-old veterans, the rate was 21.1 percent 
and it was 16.6 percent for non-veterans. Because, of course, 
the veterans and non-veterans have a different gender mix, if I 
just look at young men it is 21.6 percent for the veterans and 
19.1 percent for the non-veterans. So they are both high. The 
veterans are slightly higher. But I think some of the press 
reports have gotten that wrong, again, because they focused on 
some of that monthly data, which really show some outliers.
    Mr. Bilirakis. Ma'am, could you give me your opinion as 
well on that?
    Ms. Scott. Mr. Rones is correct. The unemployment rates for 
Gulf War II veterans overall and for men are only slightly 
higher than for comparable non-veterans. For females it is a 
little higher, 19.2 versus 13.9 percent. But there is a small 
number issue related to female Gulf War II veterans in terms of 
overall numbers compared to female non-veterans. So in general, 
the rates are higher because they are younger.
    Mr. Bilirakis. Thank you. I appreciate that. With regard to 
unemployment benefits, does anyone leaving military service 
automatically qualify for unemployment benefits in all 50 
States? Whoever would like to take that?
    Mr. Rones. I am sorry, I do not know the answer to that.
    Mr. Bilirakis. Okay, could you please get back to us on 
that? We would appreciate that, thank you. Thank you, Madam 
Chair. I yield back.
    [Mr. Rones subsequently provided the information in a 
follow-up letter, dated May 3, 2010, which appears on p. 99.]
    [In addition, Ms. Scott subsequently provided the following 
information:]

        Unemployment Compensation for Ex-Servicemembers (UCX) provides 
        unemployment benefits while former active duty military 
        personnel or reservists released from active-duty search for 
        work. The Emergency Unemployment Compensation Act of 1991 (P.L. 
        102-164) provided that ex-servicemembers be treated the same as 
        other unemployed workers with respect to benefit levels, the 
        waiting period for benefits, and benefit duration. The attached 
        Congressional Research Service report RS22440, Unemployment 
        Compensation (Insurance) and Military Service, by Julie M. 
        Whittaker discusses servicemembers' eligibility for 
        unemployment compensation in more detail. [The CRS Report 
        appears on p. 100.]

    Ms. Herseth Sandlin. Thank you, Mr. Bilirakis. And that is 
a very important question. And so in addition to our witnesses 
on this panel taking that question perhaps we might want to 
pose that question to some of the other witnesses, too, to see 
if anyone joining us here today has that information.
    I will just, let us see, let me just pose one more question 
for you, Mr. Rones. Why are retired veterans counted as 
unemployed?
    Mr. Rones. They are not, necessarily.
    Ms. Herseth Sandlin. Is there a separate category?
    Mr. Rones. There are two concepts that we are getting mixed 
up. One is unemployment and the other is non-employment, and I 
will tell you the difference. In our labor force survey, people 
are characterized in one of three categories. You are either 
working, which means we count you as employed, or you are 
actively looking for work and available to work if a job was 
offered to you; then you are unemployed. Or you are out of the 
labor force. So the retired people who are not looking for work 
are not counted as unemployed, they are just out of the labor 
force and they are not part of that unemployment calculation 
because they are not looking for work.
    Ms. Herseth Sandlin. Are we capturing everyone, then?
    Mr. Rones. Sure. Everyone is in one of those three 
categories. You are either----
    Ms. Herseth Sandlin. Even, okay.
    Mr. Rones. And so in our labor force survey, there is no 
upper age limit. We classified people, you know, all the way up 
through 99, and the lower age limit is 16.
    Ms. Herseth Sandlin. What about someone who enlisted at 
18----
    Mr. Rones. Right.
    Ms. Herseth Sandlin [continued]. Retired after 20, and is 
using an education benefit----
    Mr. Rones. Well, if----
    Ms. Herseth Sandlin [continuing]. After they separate from 
service. How are they----
    Mr. Rones. Okay, if they are going to school full-time, and 
not looking for work, then they are out of the labor force. 
They are just like any student would be. Once they start 
looking for work, and they might actually do that as a student 
as well. But once they are looking for work, and would be 
available to take a job, they would be counted as unemployed if 
they are not able to find work.
    Ms. Herseth Sandlin. Okay. So you do not think we need 
another category for the specifically retired?
    Mr. Rones. Well, we have that. Among the people who are not 
in the labor force----
    Ms. Herseth Sandlin. But you----
    Mr. Rones [continuing]. We break that out by reason.
    Ms. Herseth Sandlin. Oh, you do? Okay. All right.
    Mr. Rones. So whether you are retired, or whether it is 
largely disabled, household reasons.
    Ms. Herseth Sandlin. Okay. All right. Any other questions 
for this panel? Okay. Well, I thank you both again for your 
testimony highlighting very important research, making 
important points as it relates to our interpretation of the 
data that is out there in furtherance of the work that we are 
looking at. Mr. Teague, I do not know, did you step out and 
step back in? I apologize. Let me recognize Mr. Teague for any 
comments or questions he has of the panel.
    Mr. Teague. I did want to ask, I see, you know, we have 
been talking about primarily the males. What about the females? 
Have we, what have we been doing to check on them, to separate 
them out?
    Mr. Rones. Well, as I think Ms. Scott mentioned a moment 
ago, the unemployment rates for young veteran females seem to 
be a bit higher than those for non-veterans. But there is a 
double caution. You know, the problem that I said about the 
young men, well only 18 percent of these young veterans are 
women. So we are looking at smaller and smaller cells. 
Literally every month we might have no more than a handful of 
female unemployed veterans in the sample, and this is the 
largest sample survey there is. You know, we are surveying 
100,000 people a month. But these are very, very small groups.
    Mr. Teague. Well, and I understand that. But, you know, you 
are talking about 100,000 a month. And, you know, for the 
national unemployment they do 460,000 a week. And, I mean, they 
have them fill out paperwork and everything, too. So can we get 
that information and get a broader spectrum so that we can take 
care of them?
    Mr. Rones. I do not know whether the, you are talking about 
the unemployment insurance system, which is really unrelated to 
the labor force survey that I have been discussing. I do not 
know whether on intake to the unemployment insurance system 
they have that information on veteran status.
    Mr. Teague. It will just be one more question. And if it is 
a different set of information we should still be able to get 
privilege to it.
    Mr. Rones. I am sure, I am sure the Employment and Training 
Administration that administers that program would be happy to 
let the staff know what information they have about 
unemployment insurance claims. I have never seen anything out 
of that program on veteran status, but Bureau of Labor 
Statistics is not involved. So I could be wrong about that.
    Mr. Teague. Okay, thank you.
    Ms. Herseth Sandlin. Just remind me again, the double 
caution there, what was the annual average for female Gulf War 
II veterans? How did that compare to female non-veterans?
    Ms. Scott. For 2009, the annual average for female Gulf War 
II veterans was 11.5 compared to 7.8 for female non-veterans. 
For 18 to 24 it was 19.2 percent for female Gulf War II 
veterans, and 13.9 percent for female non-veterans. But there 
is a difference in the population, as noted by Mr. Rones. Only 
18 percent of the Gulf War II veterans are female, where almost 
50 percent of the non-veterans are female.
    Ms. Herseth Sandlin. Except it is a similar gap. Right? I 
mean, you just gave me the annual average for all female 
veterans
    Ms. Scott. Right.
    Ms. Herseth Sandlin. Female veterans versus female non-
veterans. But then when you break it down to the 18 to 24, you 
are looking at a four point gap.
    Ms. Scott. Six point gap.
    Ms. Herseth Sandlin. A five or six point gap. I mean, so 
there is something that we need there is something going on in 
terms of overall and this specific age group where I do not 
think you have the same in terms of, well it is, it is about a 
five point gap in terms of overall the 18 to 24, not breaking 
them down male to female. I think this has been very helpful, 
and we appreciate the caution. I think there is in the other 
panels that we will be hearing from some justification of 
causes for the gap that exists. You know, some that we can 
speculate on, some that we have seen in some of the testimony. 
But again, informing sort of gaps in certain programs to reach 
and do more effective outreach to try to find employment for 
our female veterans, regardless of age group.
    I appreciate again your testimony, and we appreciate your 
being here today. Mr. Teague has another followup for the 
panel?
    Mr. Teague. Yes, thank you. I'm sorry. First, I am sorry, I 
want to thank you for holding this hearing because I think it 
is very important. I want to thank you for testifying. I 
appreciate that. But I do want to point a couple of things that 
I just want to be sure that everybody takes a look at it from 
my perspective one time.
    Even though we are talking about 7.8 to 11.5, you know, 
that is two to one. As is the 19 to 13. That is, you know, 50 
percent more in our veterans. And I do not know if that, you 
know, a while ago you said there was a bit of difference. I did 
not think that 50 percent was a bit. I thought it was pretty 
substantial, even if we are talking about a small group. Thank 
you.
    Ms. Herseth Sandlin. Again, thank you for your testimony, 
and your service in each of your agencies that informs not only 
our Committee's work but so many across the different 
Committees here in the U.S. House of Representatives. Thank you 
for being with us today.
    I would now like to ask the second panel to join us at the 
witness table. Joining us is Mr. Mark Walker, Deputy Director 
of the Economics Commission for the American Legion; Mr. Tim 
Embree, Legislative Associate for the Iraq and Afghanistan 
Veterans of America (IAVA); Mr. Richard Daley, Associate 
Legislative Director of the Paralyzed Veterans of America 
(PVA); Mr. Justin Brown, Legislative Associate, National 
Legislative Service for the Veterans of Foreign Wars of the 
United States (VFW); Mr. Marshall Hanson, Director of 
Legislative and Military Policy, Reserve Officers Association 
of the United States (ROA); and Colonel Peter Duffy, Deputy 
Director of Legislation, the National Guard Association of the 
United States (NGAUS).
    Welcome to all of you gentlemen. We appreciate having you 
back to the Subcommittee. We look forward to your testimony on 
this very important topic today. Mr. Walker, we will start with 
you. Again, all of your written statements have been entered 
into the hearing record so you will each be recognized for 5 
minutes.

 STATEMENTS OF MARK WALKER, DEPUTY DIRECTOR, NATIONAL ECONOMIC 
    COMMISSION, AMERICAN LEGION; TIM S. EMBREE, LEGISLATIVE 
 ASSOCIATE, IRAQ AND AFGHANISTAN VETERANS OF AMERICA; RICHARD 
 DALEY, ASSOCIATE LEGISLATION DIRECTOR, PARALYZED VETERANS OF 
    AMERICA; JUSTIN BROWN, LEGISLATIVE ASSOCIATE, NATIONAL 
  LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED 
    STATES; CAPTAIN MARSHALL HANSON, USNR (RET.), DIRECTOR, 
 LEGISLATIVE AND MILITARY POLICY, RESERVE OFFICERS ASSOCIATION 
   OF THE UNITED STATES, ALSO ON BEHALF OF RESERVE ENLISTED 
  ASSOCIATION; AND COLONEL PETER J. DUFFY, USA (RET.), DEPUTY 
  DIRECTOR OF LEGISLATION, NATIONAL GUARD ASSOCIATION OF THE 
                         UNITED STATES

                    STATEMENT OF MARK WALKER

    Mr. Walker. Madam Chairwoman, Ranking Member, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to submit the views of the American Legion 
regarding the status of veterans employment.
    With the high veterans unemployment rate, particularly 
among younger veterans, there is an immense need to ensure that 
veterans are getting trained and are afforded ample 
opportunities to succeed in this unstable job market. The 
American Legion is eager to see the Department of Labor 
Veterans' Employment and Training Service (VETS) expand its 
outreach efforts with creative initiatives designed to improve 
employment and training service for veterans and increase 
training opportunities, support, and options for veterans who 
seek entrepreneurial careers. The American Legion seeks 
legislation that will transfer all disabled veteran outreach 
program specialists and local veteran employment 
representatives from the State agencies to VETS program for 
supervision and oversight in order to ensure that the 
individuals employed to serve veterans are not used for other 
programs.
    Also, the American Legion supports new legislation, H.R. 
929, that would authorize $60 million for the next 10 years to 
fund a program modeled after the highly successful 
Servicemembers Occupational Conversion and Training Act, SMOCTA 
for short. SMOCTA was a unique job training program because 
there was a job for the veteran among completion of training. 
Many local veterans employment representatives and disabled 
veteran outreach program specialists publicly praised the 
effectiveness of SMOCTA because it successfully returned 
veterans to the civilian workforce. In addition, many veterans 
prefer traditional employment and/or require employment for 
personal or family reasons.
    The American Legion recommends that flight training, 
correspondence schools, vocational schools programs and on the 
job training programs be included in the Post-9/11 GI bill. 
This would allow veterans who are seeking traditional 
employment the opportunity to get into the civilian workforce 
sooner. The American Legion believes that veterans should never 
be limited in the manner they use their educational benefits. 
Furthermore, the American Legion supports efforts that require 
DoD to take appropriate steps to ensure that servicemembers may 
be trained, tested, evaluated, and issued any license or 
certification that may be required in the civilian workforce 
prior to separation. The American Legion believes that Federal 
employment programs that are adequately funded, staffed and 
supervised, along with the clear message to the private sector 
that employing veterans is good for business, will make a 
significant difference in veterans obtaining gainful 
employment. America's veterans deserve no less than ample 
opportunities for success in the civilian workforce.
    Again, thank you for the opportunity to submit the opinion 
of the American Legion on this important issue.
    [The prepared statement of Mr. Walker appears on p. 59.]
    Ms. Herseth Sandlin. Thank you, Mr. Walker. Mr. Embree, 
welcome back to the Subcommittee. You are now recognized.

                   STATEMENT OF TIM S. EMBREE

    Mr. Embree. Thank you, ma'am. Madam Chairwoman, Ranking 
Member, and Members of the Subcommittee. On behalf of Iraq and 
Afghanistan Veterans of America's 180,000 members and 
supporters, I would like to thank you for inviting us to 
testify before your Subcommittee today.
    My name is Tim Embree and I served two tours in Iraq with 
the United States Marine Corps Reserve. The status of veterans 
employment is a critical issue facing many Iraq and Afghanistan 
veterans as they come home. IAVA welcomes the opportunity to 
discuss this issue with you.
    IAVA recommends a comprehensive veterans employment bill, 
consisting of job placement, job protection, and job training. 
Our full recommendations are enumerated in my written testimony 
which has been submitted to this Committee. The experience of 
previous generations of veterans suggests that today's veterans 
may continue to struggle for years to come if we do not act 
now. Unemployment rates among new veterans are staggering and 
continue to rise dramatically. According to the Bureau of Labor 
Statistics, in 2009, the average unemployment rate for Iraq and 
Afghanistan-era veterans was 10.2 percent. As of March 2010, 
that number is up to 14.7 percent. IAVA member named Will is 
one of the unemployed making up this 14.7 percent. Will also 
served in the Marine Corps. He was an aviation electronics 
technician with a top secret security clearance. You would 
think this would make him a potentially attractive hire in the 
tech economy. But he has been unemployed since he left the 
service nearly 4 months ago. Will has applied with the VA, the 
California Employment Development Department, and several 
aerospace companies. He has applied at companies like Best Buy, 
Dish Network, and Direct TV. With no end to his unemployment in 
sight, Will has begun applying for minimum wage jobs despite 
years of dedicated service, leadership experience, and 
impressive and specialized skills in the tech industry. Will's 
search has been an emotionally and financially draining 
process. He is very close to losing his home. Unfortunately, it 
is a story playing out in households across the country.
    Look around this room. If everyone in this room were a 
veteran more than one in 10 of you would be searching for 
employment just like Will. Our servicemen and women are doing 
everything they were told would make them a valuable asset to 
civilian employers. We are failing them because we are not 
doing enough. Servicemembers are leaving the military and 
finding a civilian marketplace that does not understand them or 
their skills, and treats them with indifference. We can and 
must do better.
    For veterans like Will IAVA recommends job training, job 
placement, and job protection. Some of these necessary fixes 
include education. It is the best way to ready our veterans for 
high quality, high earning jobs. And the new GI Bill is the 
greatest investment in veterans and their families since World 
War II. It could not have come at a better time. Unfortunately, 
a significant number of veterans are still excluded from the 
new GI Bill. Apprenticeships, on the job training, and 
vocational programs are excluded from the new GI Bill but are 
so vital to veterans' job training. IAVA believes the Post-9/11 
GI Bill should be extended to veterans enrolled in these highly 
beneficial programs.
    Improve job placement programs by increasing the Department 
of Labor VETS budget by $7.3 million for fiscal year 2011. IAVA 
is pleased to see the President's budget for fiscal year 2011 
is asking for a 14 percent increase in funding for the 
Transition Assistance Program, commonly known as TAP. And these 
funds must be used to modernize TAP, and the program must be 
mandatory for all servicemembers to ensure every separating 
veteran receives the job training they need to secure 
meaningful employment.
    Improving TAP is just one part of the equation. We find 
that employers often cannot translate between military 
certifications, training and experience to their civilian 
equivalents. This is what is holding Will back. If employers 
had a real sense of what he brings to the table, they would be 
climbing over themselves to hire him. Another example are the 
military medics, who have performed difficult medical 
procedures under unimaginable conditions, who barely qualify to 
drive an ambulance once they transfer back to the civilian 
world. IAVA requests a Congressional study on the differences 
between DoD and civilian certifications and licenses.
    And we must continue to incentivize hiring Iraq and 
Afghanistan veterans beyond 2010 and by extending the tax 
credits for hiring vets in the American Recovery and 
Reinvestment Act. We must protect Guardsmen and Reservist jobs 
by fully restoring funding to the Employee Support of the Guard 
and Reserve (ESGR) program. It is slated to be cut by 17 
percent in fiscal year 2011.
    Your hard work has led to successful veterans jobs 
programs, such as Vetsuccess.gov, and Warrior Gateway, and 
Helmets to Hardhats. We are pleased the VA is reaching out to 
potential employers and recruiting them to participate on 
Vetsuccess.gov. However, this site should be combined with the 
OPM's Veterans Job Site. We need to coordinate efforts.
    Our servicemen and women have so much more to offer than 
just punctuality and respectful attitude. Our veterans are one 
of our Nation's greatest assets. We must treat them as such. I 
appreciate this opportunity to speak to you today and welcome 
any questions you may have. Thank you very much for your time.
    [The prepared statement of Mr. Embree appears on p. 63.]
    Ms. Herseth Sandlin. Thank you very much for your 
testimony. Mr. Daley, you are now recognized for 5 minutes.

                   STATEMENT OF RICHARD DALEY

    Mr. Daley. Madam Chair, Ranking Member Bilirakis, I would 
like to thank you on behalf of the Paralyzed Veterans of 
America, a veterans service organization comprised of 20,000 
men and women who have honorably served in the military and 
have suffered a spinal cord injury or disease.
    Employment for our members should be a priority as they 
return to civilian life, as it should be for all disabled 
veterans, and all those that have served for this Nation. As a 
Nation we have an obligation to ensure that those that have 
served in defense of this Nation, and those that have been 
injured while serving in that role, have all the support, all 
the medical care, rehabilitation, and opportunities that allow 
them to participate to the best of their ability in civilian 
life. This transition back to civilian life would naturally 
involve employment.
    This Subcommittee, along with the full Committee on 
Veterans' Affairs, has addressed many problems of the new 
veterans from the current conflict and problems of the veterans 
from decades past. With the Congressional oversight and 
direction of this Congress, perhaps they can ensure that more 
veterans are hired in the Federal Government since the Federal 
Government is one of the largest employers in the Nation.
    I would hope that a man or woman that honorably served in 
this Nation in the military would be the first qualified person 
hired by the government. Since the Civil War, Congress has 
passed legislation to ensure that veterans would have a 
preference when seeking Federal employment. Unfortunately, 
these hiring preferences are overlooked when agencies or 
Federal programs decide to fill a vacancy or add to their 
staff.
    The new administration is concerned about the number of 
veterans hired in the Federal Government, and has presented 
specific marching orders to the agencies to hire more veterans. 
On November 9, 2009, the President signed an Executive Order 
entitled, ``The Employment of Veterans in the Federal 
Government.'' By this time next year we will be able to 
determine if the agencies have followed the directions of 
President Obama.
    Yesterday, I had the opportunity to speak with one of our 
replacement counselors that PVA has in their rehabilitation 
program about their employment placement initiatives. They are 
aggressively placing veterans in full-time jobs and career 
positions. I wanted to hear from his perspective about the 
success of placing veterans in the Federal Government. He said, 
``It's amazing how many hiring personnel in the Federal 
Government do not know about the programs to assist hiring 
disabled veterans.'' He said that one program that they do not 
understand is the Schedule A hiring program. This allows a 
Federal agency to hire a disabled veteran without going through 
the nationwide recruitment process, which often takes 6 months 
to 9 months to hire. I asked the counselor, ``They do not know 
about it? Or they just choose to not use it?'' He said, ``Some 
people do not know about it, have no knowledge of the program, 
while other people do not understand it so they just do not use 
it.'' He said that there is a need to be a nationwide 
educational process about this program and other programs for 
hiring veterans.
    It works well for the hiring agencies, the Schedule A 
hiring program, because it allows them to hire a veteran, hire 
somebody that already worked for the Federal Government, and 
been trained by the Federal Government in their occupational 
specialty. And they can put this person on the job within 2 
months as opposed to maybe 6 or 8 months waiting time.
    This issue of not using the Disabled Veterans' Preference 
is only one of many reasons why veterans are not being hired. 
As this Subcommittee probes into the issue of employment of 
veterans, I am hoping that as we learn more about the barriers 
to employment that this Congress, along with the Federal 
agencies, can make the necessary adjustments to assist veterans 
with trying to find employment in the Federal Government.
    That concludes my testimony. I am available for questions.
    [The prepared statement of Mr. Daley appears on p. 71.]
    Ms. Herseth Sandlin. Thank you, Mr. Daley. I appreciate 
your testimony and insights. Mr. Brown, welcome back. You are 
recognized for 5 minutes.

                   STATEMENT OF JUSTIN BROWN

    Mr. Brown. Thank you, Chairwoman. Madam Chairwoman, Ranking 
Member Bilirakis, and Members of this Committee, on behalf of 
the 2.1 million members of the Veterans of Foreign Wars and our 
auxiliaries, I would like to thank this Committee for the 
opportunity to testify. The issues under consideration today 
are of great importance to our members and the entire veteran 
population.
    The VFW believes one unemployed veteran, is one too many. 
In these tough economic times, the number of unemployed 
veterans has skyrocketed to more than 1 million, with nearly 
one in three of our youngest veterans being unemployed. The 
remarkable young men and women who put their lives on the line 
for our Nation deserve better. Congress needs to invest in the 
future of our veterans by providing them with the training, 
skills, and the opportunities for a chance at the American 
Dream. For this reason, the VFW calls on Congress to create a 
comprehensive veterans jobs bill immediately.
    Further, we recognize that Congress alone cannot solve this 
epidemic of unemployment amongst our Nation's veterans. We urge 
Congress to encourage Americans to do their part for these 
veterans and help put them back to work.
    As with other important issues, Congress has convened 
roundtables to explore solutions. We need corporate America, 
union groups, governmental agencies, lawmakers, veterans 
service organizations (VSOs), and unemployed veterans to 
convene for a mission of the utmost importance: getting 
America's veterans in the front of the employment line.
    According to the Pentagon, 75 percent of today's high 
school graduates are unsuitable for military recruitment due to 
aptitude, health, or physical conditioning. That leaves a 25 
percent pool that is also heavily recruited by industry, 
colleges, and universities. Those who volunteer to serve our 
Nation are already the best of the best. Their time in uniform 
makes them better, more mature, more decisive, and more team 
and goal oriented. These are the traits we need to market to 
corporate America immediately.
    We are all too familiar with military marketing campaigns 
that attract talented young Americans to serve their country. 
The same commercials that attract young people to slay dragons, 
become one person armies, and be a force for good should also 
be used to create ideal candidates for American industry and 
business. We urge Congress to authorize and fund a marketing 
campaign within the Department of Labor selling the value and 
the virtues of hiring America's veterans. This should, at 
minimum, include public service announcements, television, 
print, and internet based mediums combined with outreach to 
local chambers of commerce, unions, and job fairs organized by 
Members of Congress. The young soldier, Marine, and others who 
serve our country pay the price for our government's failure to 
push veterans first.
    Some have been through a living hell and now just want an 
opportunity at the American Dream. Yesterday I received a phone 
call from Adrian Johnson, a specialist from Charlottesville, 
Virginia. He did logistics-related activities in a deployment 
to Afghanistan. He got back 2 days before Thanksgiving, and has 
been unemployed since. To quote him, ``There was only one 
person from my unit that has really helped me, and that has 
been my staff sergeant and his mother. Without her, I would not 
even be here right now. I would be dead, to be honest with you. 
Nobody really has helped me. I am dealing with PTSD, anxiety, 
and the constant worrying about bills and not seeing my kids 
has been tremendous. It has been a roller coaster. They say 
call different organizations. I am struggling with my pride. It 
is a struggle. All I want to do is work. All I want is a job.''
    There are more than 1 million similar stories in the United 
States. It is time for a comprehensive jobs bill for America's 
veterans. The VFW believes there are a number of turnkey items 
Congress should include in a comprehensive veterans jobs 
package to include: expanding and doubling the work opportunity 
tax credit, overhauling the VR&E program, providing funds for a 
comprehensive employment campaign, including vocational 
training and certifications in the Post-9/11 GI Bill, 
increasing servicemembers' ability to transfer their training 
and skills, mandating that DOL/VETS do a thorough review of the 
Disabled Veterans Outreach Program/Local Veterans Employment 
Representatives (DVOP/LVER) program, reforming the VETS-100 
filing reports, conducting an annual representative survey of 
unemployed veterans, conducting a job fair in every 
Congressional district, extending unemployment insurance, and 
others that we have included in our written testimony.
    The opportunity to create a veterans jobs bill could not be 
timelier. There are more unemployed veterans currently than 
anytime in recent history. Our Nation's heroes, particularly 
our recently separated servicemembers, often have aggravating 
factors that tend to make quality employment a more difficult 
challenge. These men and women are our Nation's future, and 
will be known as the next great generation of war veterans to 
build, sustain, and create a stronger United States. We 
strongly urge this Committee to do everything in its power, to 
be proactive and invest in these men and women today for a 
better tomorrow. A veterans jobs bill will get us pointed in 
the right direction.
    As America's largest group representing combat veterans, we 
thank you for allowing the Veterans of Foreign Wars to present 
its views on this important matter. Madam Chairwomen, Ranking 
Member Bilirakis, this concludes my testimony and I will be 
happy to answer any questions you or the Members of this 
Committee may have. Thank you.
    [The prepared statement of Mr. Brown appears on p. 74.]
    Ms. Herseth Sandlin. Thank you for your testimony and 
recommendations, Mr. Brown. Captain Hanson, thank you for 
joining us. You are now recognized.

       STATEMENT OF CAPTAIN MARSHALL HANSON, USNR (RET.)

    Captain Hanson. Madam Chairwoman, Mr. Bilirakis, Members of 
the Subcommittee, the Reserve Officers Association thanks you 
for the opportunity to testify.
    Employment and reemployment is a challenge for many young 
men and women who are separating from active service. ROA has a 
unique perspective on this problem. On June 1, 2009, ROA 
established the Servicemembers Law Center with Navy Captain Sam 
Wright as its first Director. This is a service provided to all 
members of the seven uniformed services, including active, 
Reserve, and separated veterans. In just 10 months the law 
center has received over 2,000 requests for information on 
legal issues. Nearly 60 percent of these were on employment and 
reemployment rights. This is a no fee service and does not 
provide legal representation, but referrals are made if legal 
action is necessary.
    As the United States remains involved in overseas 
contingency operations, ROA sees the trend of veteran 
employment as a growing problem. Even the most patriotic 
employer is growing fatigued by nearly 10 years of war. In many 
ways the employers of deployed Guard and Reserve members are 
subsidizing their defense because they are paying additional 
benefits and hiring replacement works. Civilian employers are 
affected to a great or lesser degree by the availability of 
their workers. The Uniform Service Employment and Reemployment 
Rights Act, also known as USERRA, requires that employers make 
time available to their Reservists for military training, 
forbids hiring discrimination, and mandates job protection. 
Many Guard and Reserve members, though, are coming back to find 
that there is no job. It should also be remembered, that 
members separating from active duty also have the right to 
return to the civilian job they had prior to enlistment.
    In fiscal year 2011, the Department of Defense opened a 
record number 1,437 cases based on veterans complaints about 
the violation of USERRA. The Department of Justice also 
reported a record number of lawsuits against employers for 
failing to give returning Reserve component members their jobs 
back. Yet ROA feels that this is just the tip of the iceberg. 
Most reemployment cases are being handled by private lawsuit.
    Communications continues to be part of this issue. Many 
veterans and employers do not know the law, or what their 
rights are, as illustrated by the number of calls that the ROA 
Law Center receives. The ESGR helps field phone calls and acts 
as ombudsman between veterans and employers, but many veterans 
do not know what resources are available and quietly surrender, 
simply seeking work elsewhere. Additionally, civilian employers 
increasingly are choosing not to hire veterans. In a survey by 
Workforce Management Research Center, more than half of 
civilian employers say they will not hire a Reserve component 
member if they knew that a Reservist or Guardsman would be 
called up again. USERRA does not provide the depth of 
protection that Congress intended. ROA is willing to work with 
this Committee to update USERRA to strengthen these 
protections.
    A characteristic of many returning veterans is that they do 
not necessarily want to return to the type of work that they 
did prior to deployment. Newly acquired skills and experiences 
can change the employment ambitions of a combat veteran. The 
Post-9/11 GI Bill provides an opportunity for veterans to seek 
new careers paths. ROA encourages this Committee to expand the 
GI Bill to include technical schools and apprenticeships as 
part of the bill, as has been permitted under the Montgomery GI 
Bill.
    Another challenge for veterans is how to convert their 
military skills and education into a civilian resume. According 
to Military.com, 61 percent of employers do not believe that 
they have a complete understanding of the qualifications ex-
servicemen offer. And more than three-quarters of these 
veterans enter the civilian workforce reporting an inability to 
efficiently translate their military skills into civilian 
terms. Veterans also feel they lack critical career advancement 
skills, like networking and salary negotiations. There is an 
ongoing need to assist in programs that help veterans with this 
transition.
    Last, employers need positive incentives to encourage them 
to hire veterans. As employers look to their bottom line, tax 
credits for hiring veterans is just one option. While this is 
not necessarily under this Committee's jurisdiction, with your 
support ROA hopes that proposed legislation, such as the 
Veterans Employment Transition Support Act of 2009 might be 
considered.
    ROA would like to thank the Committee and its staff for its 
attention to this critical issue, which has become increasingly 
more important and a concern for both veterans and their 
families. We look forward to continuing to work with this 
Committee and its staff.
    [The prepared statement of Captain Hanson appears on p. 
79.]
    Ms. Herseth Sandlin. Thank you, Captain Hanson. I 
appreciate the recommendations. Colonel Duffy, welcome to the 
Subcommittee. You are recognized.

        STATEMENT OF COLONEL PETER J. DUFFY, USA (RET.)

    Colonel Duffy. Thank you, Madam Chairwoman. I would like to 
compliment Marshall. He was dead on 5 minutes. That was good 
work, Marshall.
    I am with the National Guard Association and I appreciate 
this opportunity, Ranking Member as well, to testify. I will 
defer to my written comments. I would like to amplify a few of 
them and briefly discuss the unique background of the National 
Guard member, and Reserve member.
    When our members return from war they are veterans, but for 
the most part they are still drilling members of the select 
Reserve. They still have to attend drill. And they are also 
subject to redeployment within whatever time that happens. It 
could be 2, 3, 4, 5 years. When our members return home and are 
unemployed, they have this double whammy. They are veterans, 
subject to all the biases that may prevent or discourage an 
employer from hiring a vet, but they are also drilling members 
of the Reserve with a guaranteed ticket to be redeployed. As 
Marshall just said, this discourages employers from hiring 
them. It is there. We do not have the stats on that completely, 
it is hard to prove this negative, but it is out there. We need 
all the help we can get.
    We have suggested some initiatives in the writing. The 
first one I list is to amend Title 10. It is a little bit out 
of the lane, but it does relate to helping veterans here before 
this Committee. We recommend amending Title 10 to allow 
employers to offer special incentives to members of the Guard 
and Reserve to opt out of employer-sponsored health care plans 
in favor of TRICARE Reserve Select. We are all going to have to 
have health insurance now, but a member of the Guard and 
Reserve can be insured under TRICARE Reserve Select at the cost 
of $180 a month for a family, and $47.51 for an individual. 
That is dirt cheap health insurance. And this may make our 
members more competitive as prospective hires if the employer 
can have them use their TRICARE Reserve Select coverage and pay 
for that with pretax dollars rather than the employer-sponsored 
health care plan which surely will be more expensive.
    S. 42, it is a bill, only one sponsor, Senator Kerry, in 
the Senate. No sponsors in the House. This would repeal the 
sunset of very important Servicemembers Civil Relief Act 
provisions that were enacted as part of the Housing and 
Economic Recovery Act of 2008. What this bill did was extend 
the moratorium on charging interest rates in excess of 6 
percent on pre-deployment mortgage debt for 1 year post-
deployment. It also stayed any foreclosure sales following 
deployment for pre-deployment mortgages from 3 months to 9 
months. Very important benefits in a subprime mortgage 
environment.
    We also urge full Veterans' Preference points for people 
who have served honorably in the National Guard and Reserve 
domestically. I have attached to my writing the sad story of 
Monique Elling, who served 10 years in the Delaware National 
Guard, and was denied Veterans' Preference points when she 
looked for work because she only had domestic assignments.
    Another very important bill that is before the House right 
now, H.R. 3554, introduced by Representative Loebsack. It would 
amend the Post-9/11 GI Bill to recognize Title 32 active duty 
for benefits under that bill. What is Title 32 active duty? 
Title 32 active duty is the active duty our Guard members 
perform here domestically. If you recall after 9/11, who kept 
this country calm while they were close to a state of panic? It 
was the National Guard guarding our airports. Who went down to 
New Orleans after Katrina and did the bulwark of that operation 
down there? The National Guard. Who protected our borders in 
Operation Jump Start? The National Guard. Who was flying 
missions under Operation Noble Eagle to protect our airspace, 
our air pilots under National Guard Title 32 duty. They do not 
get benefits under this Post-9/11 GI Bill. They are defending 
our country in the truest sense of the word, and some of our 
pilots have been up for over 5 years on Title 32 active duty. 
They cannot benefit under this bill. It is not right, it is not 
fair.
    Representative Kaptur, Marcy Kaptur from Ohio, introduced a 
bill that has not received a lot of publicity, H.R. 4318. It 
would reestablish the Civilian Conservation Corps to employ our 
citizens in public works projects on our public lands, and to 
relieve the distress of unemployment and homelessness. What a 
magnet for veterans. They can work under the most stressful 
conditions, and it would give our country a spark of public 
service and give our veterans a sense of ownership in improving 
this most beautiful of countries.
    Also, 30 seconds left, you cannot separate unemployment 
from mental health. We have to improve community-based mental 
health outreach in all areas for our members and their 
families. We have to encourage the use of VA vouchers that will 
let our veterans go into the community and fully leverage all 
health care facilities in the community. Our civilian health 
care providers need to be trained up more thoroughly by the VA, 
as Rand recommended years ago.
    I am out of time. Thank you very much.
    [The prepared statement of Colonel Duffy appears on p. 85.]
    Ms. Herseth Sandlin. Well, thank you Colonel. I appreciate 
all of our panelists keeping their oral testimony to 5 minutes 
to give us plenty of time for questions for the panel.
    Let me just start with a question for any of you. Because 
some of you touched on it in your written testimony, let us 
talk a little bit about the Disabled Veterans Outreach Program 
specialists, and the Local Veterans Employment Representatives. 
How are they doing? What is your nationwide grade? Do you have 
some State-specific concerns? Do you have concerns that this is 
mostly a training issue? Is it a resource issue? Is it an 
oversight issue? Just give me your thoughts on the DVOPs and 
LVERs. Mr. Daley, do you want to start?
    Mr. Daley. Madam Chair, I think you hit it on the head. It 
is a training issue. It is a resource issue. It is a funding 
issue. It is a little bit of all of that.
    Ms. Herseth Sandlin. I hoped it was going to be primarily 
one of the things I listed, but it is all?
    Mr. Daley. Well it is unfortunately, so we have these, I 
think I said in my written testimony, these new entries into 
State employment. And it is always a veteran, and so they stick 
the veteran over there in that position. And I have been to 
them recently, I think, four years ago when my job with PVA in 
St. Louis ended because of a cash shortage, I, before I came to 
Washington, I went to the State of Missouri employment office 
and the State of Illinois employment office, and I did not 
realize that I had anything different being a veteran and a 
combat era veteran than anybody else, other than in some cases 
there are six chairs against the wall and the veteran has to go 
to chair number two. I have to wait for chair number two to 
open up because that is the veterans guy.
    But no, they did not, I have never received anything and I 
have been to the employment services in the past. When I said 
yesterday, when I talked to the fellow yesterday he said, our 
counselor, he said that the people do not, they do not really 
understand what they are supposed to do. They do not have the 
support. And they are out there, he said most of them are 
veterans, they kind of believe in what they are supposed to be 
doing. But they really do not understand. So it is something 
else. And I may have made a reference to the State of Illinois, 
since that is where I am from. The State of Illinois has good 
employment and good benefits, that is probably why they are 
financially in the hole. But, you know, if you go to work for 
the DVOPs or LVER and if something else comes up, the 
Department of Transportation or something, you bid out. You get 
out of that low paying job to get a better career position.
    So that is probably where those jobs are at right now. 
Unfortunately, and we put, the Nation puts a lot of money, I 
think I said $162 million or $164 million a year into that 
program. And I do not think we are getting much bang for the 
buck.
    Ms. Herseth Sandlin. Other comments?
    Mr. Walker. Yes, we agree. We seem like the big thing is 
oversight. This is a Federal program. This is not a State 
program. But the feds office does not have a lot of oversight. 
So we believe that the veteran is not getting the sort of the 
intensive service that they actually need in order to find 
gainful employment, as well as, you know, some of these DVOPs 
and LVER has other programs, they are dealing with other 
programs that the State is making them do. And so it is just 
real checkered about the services veterans are getting. In this 
sort of economy they absolutely need the best services in order 
to actually be able to obtain this employment.
    And also, the LVERs' job is supposed to actually reach out 
to employers. That is not happening the way we would like. We 
need more aggressive, for them to get out there to make sure 
that they are selling these veterans for all the good and the 
assets that they would give to an employer, and we see that 
that is not happening. So we think that if it is a Federal 
program and they get more oversight and supervision that will 
be fixed and the veterans will have a lot more opportunities 
out there.
    Ms. Herseth Sandlin. Just to clarify, Mr. Walker, since 
they are Federal resources, I mean, it is a little bit like the 
State Approving Agencies. It is a State, they are State 
programs that are getting substantial Federal resources.
    Mr. Walker. Right.
    Ms. Herseth Sandlin. Are there some States that do a better 
job than others on implementing the program, and getting a 
better return on the investment of the Federal dollar?
    Mr. Walker. Yeah, we acknowledge that there are some States 
that are doing a better job at this. But, again, we get mixed 
signals and mixed reviews about different States we talk to. 
And it has become this Federal program, but it is 50 different 
programs. And it is just, we do not feel that it is up to par 
of what these veterans actually need and deserve to kind of get 
out there and receive employment.
    Ms. Herseth Sandlin. So your sense is that Department of 
Labor, in investing Federal taxpayer dollars into the program, 
should have more aggressive oversight, some sort of support, 
some sort of sharing of best practices?
    Mr. Walker. Exactly, because, because----
    Ms. Herseth Sandlin [continuing]. That currently does not 
exist?
    Mr. Walker. Right. Because right now they make, DOL-VETS 
make only 10 percent site visits because of funding and other 
issues. And we just really do not know what is going on. And 
obviously, it is not too good based on the high unemployment 
rate. So we think that is an issue.
    Ms. Herseth Sandlin. Any other comments or questions? Yes, 
Mr. Brown?
    Mr. Brown. Madam Chairwoman, I would absolutely echo my 
colleague's concerns. And I think you hit the nail right on the 
head. The issue with the DVOP/LVER Program is I do not really 
think anybody knows how it is performing. The data is just not 
out there. I mean, there is the entered in, entered out rate, 
but I just do not think it is just not really giving us a full 
picture of the DVOP/LVER issue.
    Ms. Herseth Sandlin. Okay. Yes, Mr. Embree?
    Mr. Embree. Yes, ma'am. One thing that IAVA is concerned 
about this program, but the thing we are concerned about is not 
enough funding to run the program that is currently out there. 
Right now as of last year they helped over 850,000 veterans. 
And so that is real numbers, that is a huge number. And so we 
want to see the Department of Labor actually get increased 
funding for this program in the form of $7.3 million. We feel 
that one of the things is a manpower shortage for the actual 
DVOPs and LVERs out there. And so they are not having enough 
time, some of these folks are splitting time between helping 
veterans and non-veterans. So we see that as major flaw right 
now, and we think that the increased funding would be very 
helpful to that program.
    Ms. Herseth Sandlin. But would IAVA also, in supporting an 
increased amount of resources for the program, share and 
acknowledge that there are some concerns about again how to 
effectively get the return of that dollar, bring more focus, 
more oversight, more accountability and more support, knowing 
that resources would be necessary to provide that. But is it a 
manpower issue plus a training issue?
    Mr. Embree. I really cannot comment on the training issue 
at this time. I can look into that and form an answer for you 
at a later time. But the way we looked at it from, for this 
time right now would be the funding issue. But we could look 
further into the training issue. And if it is a matter of 
accountability, we always encourage more accountability for any 
sort of services that are helping veterans, especially 
something as important as this.
    Ms. Herseth Sandlin. Well, I want to get to Mr. Bilirakis 
for his questions. I think we will hear from the Assistant 
Secretary in the next panel, some ideas that he has for 
improving the services provided. I certainly appreciate the 
need for more resources. This Committee has always wanted to be 
helpful so as to identifying those that are effectively 
providing resources that warrant additional resources. I think 
in this instance because of the concerns that are out there 
with how the program is currently working, some States doing 
better than others, that we may be in a better position to 
advocate for additional resources once we identify how can we 
better target the services that are being provided and measure 
the outcomes. Because in this budget environment, you know, 
even with what we see coming from the President and what the 
Congress may do, I want to make sure our Committee is in the 
best position to advocate for how those additional resources 
are going to be effectively used in a program that has been 
marred by many complaints.
    I will now recognize Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Madam Chair. Thank you for your 
testimony, panel. Mr. Daley discussed this, regarding the 
Veterans' Hiring Preference. I would like to ask the panel, 
what should we be doing differently to improve matters?
    Colonel Duffy. I will answer quickly, as I did in my 
testimony. Any National Guard or Reserve member who serves 
honorably should be given the Veterans' Preference, period. One 
of my brothers in the Military Coalition says that when a 
person joins the Guard and Reserve they give the government a 
blank check to do with them what the government pleases, 
because the government chooses not to deploy them overseas 
should not deny them the Veterans' Preference.
    Mr. Bilirakis. Anyone else? Sure.
    Mr. Embree. Yes, sir. Thank you for the question. When it 
comes to Veterans' Preference, especially for Federal hiring, 
we still have a lot of questions. IAVA has really had a hard 
time trying to figure out what is the actual scale this five or 
10 point Veterans' Preference, where does that fall in? I had 
local government experience and I remember from doing hiring 
and contracts, when you had contracts you had a scale. Certain 
things counted for certain points. But when you talk about 
hiring someone there is a lot of matter that is up to how the 
interview goes, and certain things that are not very tangible. 
You cannot write down, you cannot say, ``This person walked in 
so they get five points. This person knows how to read so they 
get 10 points.''
    And so that is one of the things we have a problem with 
because for a long time folks just talked about the five and 10 
point preference. We want to see an actual preference on paper 
showing what is the value, how does this help these veterans 
get to the top of the list? We feel that the current program 
that OPM is pushing out is a great start. And we are very 
encouraged by DOL and OPM and the programs they have been 
working on. We feel that we are moving in the right direction. 
But at the same time we want to make sure that all Federal 
hiring does include veterans and does take, you know, give a 
preference to veterans who have served recently as well as 
veterans that served 20 years ago.
    If you look at the Federal Government and the amount of 
veterans working in the Federal Government, if you remove the 
VA, and you remove the DoD, there is not a whole lot of 
veterans working in the Federal Government. And the VA and the 
DoD, that kind of makes sense. Veterans would want to serve 
other veterans, and veterans want to stay in the DoD. But when 
it comes to the rest of the Federal Government, you have these 
highly trained, highly skilled, very qualified veterans that 
are not given job opportunities that are phenomenal assets and 
would do phenomenal work throughout all of government. And so, 
we really want to see that encouraged.
    Captain Hanson. In the testimony it has been mentioned how 
veterans oftentimes have difficulty matching skill sets up with 
jobs that they are applying for. The new program that started 
this past September is taking servicemembers through the needed 
steps to acquire a Federal job upon leaving the military. So 
this is taking Veterans' Preference step further because their 
skills are assessed to determine what kind of work they can do 
and they are matching up these skills with the potential 
positions in Federal service. This is the direction that the 
Reserve Officers Association would love to see this program go, 
where we are proactively working with veterans and basically 
finding job placements within the Federal Government to ensure 
Veterans' Preference.
    Mr. Bilirakis. Yes, sir?
    Mr. Brown. Thank you for the question, Congressman. And if 
I could just add to this, I agree absolutely with all my 
colleagues. Particularly what Tim said, if you take DoD, the 
Department of Homeland Security (DHS), and VA out of the 
picture, you are really looking at a bleak Federal employment 
picture. And I think we can look at minor changes. We can say 
if we do this to Veterans' Preference, we are going to see 
better employment. But I think the reality is we need from the 
top down, buy on. And, that is from the secretaries, that is 
from, I just saw Secretary Salazar in the elevator on the way 
here. Not to put him on the spot or anything I said I was going 
to a veterans employment hearing. And he said, ``Well, we are 
going to hire some veterans.'' I laud that. But that is the 
type of attitude we need. We need it coming from the top down, 
to the hiring managers, to the human resources folks. We need 
them to know what the laws are so that when they do have a 
veteran and he clearly has Preference that they know what to do 
and how to apply those Preferences so that we can get more 
veterans employed into our Federal Government.
    But what I would urge you to consider as well is that the 
crux of this problem is not going to lie in hiring veterans 
through our Federal Government. We have to get more veterans 
hired in the private sector if we are really going to attack 
this issue. And we really need Congress' help, and that is why 
we are calling for a comprehensive jobs bill. That is why we 
are calling for more money for a marketing campaign. I know Ray 
Jefferson, and that is what we really need to get these guys 
employed. Thank you.
    Colonel Duffy. Let me pick up from that very quickly. I 
believe a bill was introduced earlier this session by 
Representative Smith from Washington that would require 
military construction contractors to hire a certain percentage 
of veterans before they give them the contract.
    Mr. Bilirakis. Thank you very much. I yield.
    Ms. Herseth Sandlin. Thank you, Mr. Bilirakis. Just a 
couple of quick follow-up questions. Let us talk just briefly 
about USERRA protections, particularly for Reservists. Two 
years ago we had a field hearing in Mr. Donnelly's district in 
Indiana where we had front and center a case that we believe 
exists among many others out there, where our Reservists in 
particular, because they are not on active duty base and they 
do not have an advocate like their State adjutant general or 
others from the unit, you know they tend to be more dispersed. 
They are being called up to fill in terms of the cross 
sectioning that goes on to fill the units that are being 
deployed. If we could talk a little bit more about everyone's 
thoughts following up on Captain Hanson's comments about 
updating and strengthening USERRA protections?
    But also then focusing on the Transition Assistance 
Program. As you know, Mr. Boozman and I have focused a lot of 
our field hearings and other hearings here in Washington on 
TAP, how effective it is, is it reaching enough people or 
should it be modernized? How do you expand the time of 
opportunities? Should it be mandatory? Another area that I 
think the Assistant Secretary is looking at that had come as 
recommendations from some of the field hearings that we had 
done as well is should spouses be involved? To get to Mr. 
Brown's point about expanding the network and empowering the 
separating servicemember to know what is in store in the 
civilian workforce, in the private sector, how to market him or 
herself. But also, is there something that we could modernize 
within TAP? Or with the DVOPs and the LVERs? Again, using all 
the existing tools that we have to network more effectively 
with employers large and small in the private sector.
    Colonel Duffy. I will start on that one, too. In the 
National Guard we use the Transition Assistance Advisor 
program. We have 62 nationwide. We are currently trying to 
expand that to 300. This is not a Web site, this is not a 
powerpoint. This is a live person who interacts with Guard 
members and families prior, during, and post-deployment to make 
them knowledgeable about what the VA has to offer. One of our 
issues in the Guard is that our members, first of all they do 
not enroll as uniformly as they should and they do not know 
what is out there. We like this program but we need more 
interactivity on a personal basis. PowerPoint tends to anger 
the recipients of it.
    Captain Hanson. In fact in the field it is called death by 
PowerPoint. The Yellow Ribbon Program that exists with the 
Guard and Reserve is proving to be very effective for units, 
because the commander tends to have the power to encourage 
their people to participate. In fact, many of the leadership 
out in the field have kind of overlooked the Pentagon's 
directive of not touching individuals for 6 months but 
requiring them to actually come in and participate, including 
families that occur. One problem that does occur that 
challenges all the services, is the lack of funding for travel 
and lodging for the families themselves. And we find that they 
are the great enablers when it comes to any of the benefits for 
transition, to get the serving member to actually participate 
and respond because when spouses and family members, that can 
extend to parents and less immediate families, are the ones 
that can see the telltale signs when individuals have trouble 
mentally or employment, depression, things like this, and can 
do the correction. And this in the long term helps the military 
when it comes to the Guard and Reserve. Because you want to 
retain these people and not lose them just because they get 
into a sorry state.
    As far as, well the other point I want to make on the 
Yellow Ribbon program is the ones that fall through the cracks 
are the individual augmentees. The ones that the Colonel 
mentioned that are cross assigned in, they do not have a unit 
to go back to. So encouraging them to participate is the 
biggest challenge that is faced with these programs. Because 
they are isolated, they are by themselves. And I think when you 
look at all the problems that veterans face, that it is that 
isolationism that has to be overcome. And it is probably key 
with all these issues to improve upon the communications to get 
the word out to these people as well.
    Ms. Herseth Sandlin. Any other comments on TAP or USERRA 
protection? If you like, you can always submit it in writing as 
well if you do not want to take the question now. Mr. Embree.
    Mr. Embree. Yes, ma'am. Actually thank you for asking about 
these two programs. Because if you notice one thing that we all 
are harping on, or just a couple points, and one is this whole 
problem needs to be attached in a comprehensive manner. It just 
cannot be a tax credit to employers. It has to be support of 
the ESGR which is, you know, the Employer Supports Guard and 
Reserves. And a program like that is so important because it 
helps get the private sector on what the Guard and Reservists 
do offer. You know, it has to be everything from job training 
through the Post-9/11 GI Bill, and through vocational schools, 
and OJT programs. It has to be job placement, which is what the 
TAPS program should be getting you ready for, and the DVOPs and 
LVERs should be helping to find jobs and place you in those 
jobs. And it should be job protection. That is USERRA. So 
USERRA needs to protect the National Guard and it needs to 
protect the Reservists just the way it does for everyone else. 
If you are on domestic response you need to be covered just as 
if you were deployed on Federal orders overseas.
    So there are a lot of simple solutions that we see, but we 
also understand how tough it is to get these implemented. In my 
testimony that I have turned in we have a couple of things, 
such as we need to make sure that there are civil and criminal 
penalties for the employers that are abusing USERRA and USERRA 
violations. And also from a former Reservists I remember 
dealing from both times I came back from deployment a lot of my 
junior Marines had no idea what USERRA was or how to file a 
complaint. They just said, ``Hey, you know what, they got me. I 
lost my job, I've got to find a new one.'' So there is a lot of 
bad information out there and a lot of folks just do not know.
    Colonel Duffy. Let me mention this very briefly. Legal help 
is scarce in the private community to help our members enforce 
the USERRA rights, or rights under the Servicemembers Civil 
Relief Act. Our attorneys are not trained up in the civilian 
world. They are not fee producing cases. It is tough to get 
them to take them. One idea that is being piloted in Maine, and 
I think also in Kansas, is to get the Legal Services 
Corporation, which is a free legal services program overseen by 
Congress, to have specialists who can deal with veterans and 
military issues. If they can get trained up and get competent 
they can represent folks when they have to go to court, or have 
the threat of going to court to enforce USERRA. And if this 
catches on it might be a very inexpensive way to afford our 
members legal counsel that can effectively go to court. Our 
Judge Advocate Generals (JAGs) are not going to go to court, 
and our JAGs are spread thin. And it is tough to get the 
civilian attorney world to take these cases.
    Captain Hanson. And the challenges and resources when you 
come to the Department of Labor, Department of Justice, and 
even the employers part of the Guard and Reserve, is the fact 
that the potential is overwhelming. And this is why we need to 
find ways to improve the laws to encourage the private sector 
to assist our returning Guardsmen and Reservists. ROA has 
included in our written statement a number of recommendations. 
In addition, as I mentioned, we have Captain Sam Wright working 
in our Law Center. For those of you who may not know, Sam 
helped write the USERRA law back in its original state. And if 
at any point in the future, in a hearing or a sit down meeting, 
you want to have us bring Sam Wright over to discuss details 
with you, he will talk your ear off. Because you ask him the 
time, he will tell you how to build the watch. So we can build 
a better USERRA if you want to go that direction.
    Ms. Herseth Sandlin. I want to recognize Mr. Bilirakis for 
one final question and then we will need to wrap up. We are 
going to have a series of votes, so I want to get to the 
testimony of our third panel. Mr. Bilirakis.
    Mr. Bilirakis. Thank you. Thank you, Madam Chair. One 
question, do the Guardsmen and the Reservists receive TAP 
before they are deployed? And do you recommend it if they are 
not receiving it?
    Captain Hanson. Both the Guard and Reserve go through 
several stages. They go through a demobilization station where 
they are given a lot of TAP information. But the problem they 
face is information overload. This is why in the follow-up 
program of the Yellow Ribbon, inviting the families along. 
Because the family members tend to take very extensive notes 
even though the eyes of the Guardsmen or Reservists may glaze 
over from ongoing briefings that they have received.
    Colonel Duffy. Yeah, I will amplify that. The briefings 
that we get in the Guard and Reserve pre- and post-deployment 
are likened to drinking water from a fire hose. It is just too 
much and it does not stick. It is probably pretty apt. My good 
State of New Hampshire, the Live Free or Die State that knows 
how to do more with less, has a program run through Easter 
Seals that assigns a care manager to families and members 
before, during and after deployment. And they are there to 
advise members on what the benefits are.
    Also, I am an old time military guy. In the 1970s, each 
company had a personal services NCO who was trained in knowing 
all these benefits. And any member could go to the PSNCO and 
find out what was available after deployment, or even while 
they are in the military. Somehow that has been spread out with 
contractors all over the world, and there is just too much out 
there. This could be simplified very effectively with very 
known information sources right within the military.
    Mr. Bilirakis. Thank you. I yield back, Madam Chair.
    Ms. Herseth Sandlin. Thank you very much. Again, thank you 
for the very helpful insights that each of you have offered us 
today. We look forward to following up with you on some of the 
specific suggestions and recommendations that you have made in 
your testimony and in response to our questions. We have a lot 
of work to do here, a lot of existing things that we can work 
on to improve. We have some good folks on our next panel who 
are working hard to do a lot with very little, Colonel. We want 
to make sure we are leveraging all the best practices and 
resources. Again the sharing of ideas that we have had here 
that I know have been ongoing as you have met with the 
Assistant Secretary and others in the Department of Labor, 
others in the VA, to address these staggering statistics, and 
learn from some lessons of the past. We have been talking about 
TAP for a long time, here, over the last few years. I think we 
have shared a lot of good ideas, and the time to act is now. 
And we look forward to working with you to move forward. So 
thank you again for your ongoing service to our Nation's 
veterans.
    We will have a series of five votes coming up, and so we 
want to move quickly to our third panel. I invite the Honorable 
Raymond Jefferson, Assistant Secretary for Veterans' Employment 
and Training Service, U.S. Department of Labor; Ms. Christine 
Griffin, Deputy Director, Office of Personnel Management; and 
Lieutenant Colonel Willie Hensley, Principal Deputy Assistant 
Secretary, Human Resources and Administration, with the U.S. 
Department of Veterans Affairs. Welcome to all of you, to the 
Subcommittee. We look forward to your testimony. They just 
called votes.
    So here is what we are going to do. Because it is five 
votes, and there are a couple of 15 minute votes, we would have 
to delay the hearing by another hour. Since your written 
testimony is made part of the record, and we can let the floor 
staff know that we are coming, I will recognize each of you for 
3 or 4 minutes for a summary of your testimony, then Mr. 
Bilirakis and I and others on the Subcommittee will submit our 
questions to you in writing. But we will be doing important 
followup. You have had a chance to hear from our prior 
witnesses, many of whom you have met with before. We have made 
it part of the hearing record in the exchange of information. 
So we will go ahead with you, Secretary Jefferson, and 
recognize you for 3 or 4 minutes.

 STATEMENTS OF HON. RAYMOND M. JEFFERSON, ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
 LABOR; CHRISTINE M. GRIFFIN, DEPUTY DIRECTOR, U.S. OFFICE OF 
  PERSONNEL MANAGEMENT; AND WILLIE HENSLEY, PRINCIPAL DEPUTY 
 ASSISTANT SECRETARY, HUMAN RESOURCES AND ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

             STATEMENT OF HON. RAYMOND M. JEFFERSON

    Mr. Jefferson. We are thrilled to be here, and also 
appreciate all the feedback we got from the veterans service 
organizations previously. Let me just get right into it.
    Improvements in current programs, there is a lot of work to 
be done. Number one, TAP, has not been modernized in 17 years. 
It is currently a 180 PowerPoint slide show. We are 
transforming the entire program. We are bringing in transition 
best practices, such as life career work planning, stress 
resiliency, stress reduction techniques, mental resiliency 
training, templates for cover letters, how to transition to a 
civilian culture environment. We are going to move to an 
experiential facilitator approach. And we are also going to 
something very new and different, which is after training 
support. So we are transforming the entire program. We are also 
going to spend $1 million on increasing the awareness of 
spouses, that they have access to it, and providing it in 
languages other than English.
    Jobs for Veterans State Grant, again to improve the 
performance of this program we are going to first have the 
Disabled Veteran Program Outreach Specialists focused 
exclusively on helping disabled veterans. The current outcome 
results are 60 percent for the entered employment and 80 
percent for the retention. I would like to see how we can 
improve that.
    The LVERs are going to be focusing more on employment 
outreach. I am going to talk shortly on what we are doing on 
employer outreach and engagement as a new emphasis.
    We are also collaborating with VR&E, vocational 
rehabilitation here, we are going to outstation our disabled 
veterans at all 57 of their regional offices.
    USERRA, we have finished process analysis and quality 
control process. That has given us recommendations on how we 
can improve the performance, the quality, and the consistency 
of our investigations. One of the first thing we are working on 
right now is implementing an electronic case management system. 
We are also working very closely with OPM to ensure that the 
Federal Government serves as a model employer. But that quality 
control process and implementing those recommendations will 
greatly improve the efficiency and effectiveness of USERRA.
    Number four, for homelessness we have $10 million more this 
year. Five million dollars are going to be spent on identifying 
the best practices to better serve homeless veterans. We are 
going to fund about 25 grantees with that. We are going to take 
$4 million to bring back the Incarcerated Veterans Training 
Program to reduce the recidivism there. We will serve about 
1,500 veterans through 12 sites, and we are going to be serving 
about 21,000 veterans this year, 15,000 next year.
    For new initiatives, a major emphasis of ours is increasing 
engagement with employers, particularly the private sector. We 
are working very closely with the U.S. Chamber of Commerce, we 
have met with the President several times. We are working to 
connect the affiliated chambers around America with our State 
directors, have them bring DVOPs and LVERs with them so they 
are talking to roomful of chief executive officers and 
employers instead of one at a time. A tremendous change in 
focus for vets. It is going to bear a lot of returns.
    We are also working very closely on this Federal hiring 
initiative for veterans, which is going to do a lot to help 
veterans.
    I've more to say, but will wait for the questions. Let me 
just say the latest cover of Fortune Magazine represents where 
we are going and how we are going to get there. The new face of 
business leadership in America, it is a veteran.
    [The prepared statement of Mr. Jefferson appears on p. 88.]
    Ms. Herseth Sandlin. Thank you for summarizing. Ms. 
Griffin, you are recognized for 3 minutes. I apologize. Your 
written testimony is very important to us. In our followup we 
will do more meetings.
    Ms. Griffin. That is fine.
    Ms. Herseth Sandlin. So that the witnesses on the other 
panels will get a sense for some of the responses to our 
questions.
    Ms. Griffin. Okay. And we would be happy to come up and 
brief you on specific things if you want us to.
    Ms. Herseth Sandlin. Very good.

               STATEMENT OF CHRISTINE M. GRIFFIN

    Ms. Griffin. I hate following him. But I love him. I love 
him, I hate following him. Thank you for letting us come. Let 
me tell you that the issue of veteran hiring in the Federal 
Government is one of the highest priorities of Director John 
Berry and myself. It is at the core of OPM's mission to 
recruit, retain, and honor the world class workforce to serve 
the American people. And that was certainly strengthened by the 
President's Executive Order last November. This also, this 
Executive Order also cemented a partnership among the 
Departments of Defense, Labor, Veterans Affairs, Homeland 
Security, and OPM to lead substantially all Federal agencies in 
enhancing employment opportunities for veterans throughout the 
Executive Branch.
    We all know that there are not enough agencies, if you take 
out certain agencies, there are not enough veterans being hired 
by the other Federal agencies and we are working to change 
that. So as we looked more closely at the government-wide 
veteran employment numbers, we realized that there are pockets 
of excellence if we can capitalize on using those best 
practices and spreading them throughout the Federal Government. 
The Executive Order established this Interagency Council on 
Veterans Employment, co-chaired by the Secretaries of Labor, 
Veterans Affairs, and the Director of OPM serving as the vice-
chair. It also includes a number of other agency members, and 
the President can designate other members as well. But the 
Council will be working along with the Steering Committee to 
make sure that we incorporate all aspects of the Executive 
Order as has been outlined, and also the government-wide 
Veterans Recruitment and Employment Strategic Plan for 2010 to 
2012. And this plan really focuses on breaking down the 
barriers to veterans employment by using a number of strategies 
focused on leadership commitment, skills development, 
employment counseling, marketing veterans employment, and 
single source information gateway which became the 
Fedshirevets.gov Web site that you referred to earlier.
    The impact of Veterans' Preference is key. The Executive 
Branch is the Nation's leading employer of veterans. Over half 
a million veterans are employed today in agencies across the 
country and around the world. Twenty-five percent, or one of 
every four current Federal employees, is a veteran. And in 
comparison to the private sector, we hire three times the 
percentage of veterans, seven times, and this answers I think 
an earlier question, seven times the percentage of disabled 
veterans, and 10 times the percentage of severely injured 
veterans. Each year we have seen an increase. And one of our 
most recent statistics show that the number of veterans rose 
from 512,671 out of about 1.9 million Federal employees in the 
year 2009.
    So use of Hiring Veterans Authority is key. That is in my 
written testimony, lots of data there. And I know you want to 
know a lot about the Federal Career Intern Program (FCIP).
    Ms. Herseth Sandlin. Yes.
    Ms. Griffin. And just know that, you know, Veterans' 
Preference applies to the selection of interns in FCIP, it 
does. And we have recently issued guidance talking to the 
Federal agencies again about, you know, what they have to do 
regarding passing over anyone with 30 percent service-connected 
disability preference, and telling them again they have to come 
back to us.
    [The prepared statement of Ms. Griffin appears on p. 93.]
    Ms. Herseth Sandlin. Well I appreciate that, Ms. Griffin, 
that you specifically identified the intern, that will be the 
focus of some of the questions that I will be submitting.
    Ms. Griffin. Right.
    Ms. Herseth Sandlin. And I will followup with you, too, in 
addition to additional actions beyond the guidance to get the 
outcomes that we are looking for.
    Ms. Griffin. Exactly.
    Ms. Herseth Sandlin. Mr. Hensley? You are now recognized 
for 2 to 3 minutes.

                  STATEMENT OF WILLIE HENSLEY

    Mr. Hensley. Thank you, Madam Chair, Ranking Member, 
Members of the Subcommittee. Thank you very much for the 
opportunity to testify before you. I am absolutely delighted to 
join our coworkers here with OPM and Department of Labor who 
have done just a great job in collaborating with us and taking 
care of the young men and women who take care of our Nation on 
battlefields around the country.
    Everyday at VA, Madam Chair, Members of the Committee, we 
take care of the young men who stand up for America. We are 
very supportive of the laws that place these veterans in 
competitive positions for employment in the Federal sector. To 
that end, we feel that affording veterans statutory preference 
is the obligation of a grateful Nation. It also represents good 
business and good government.
    Madam Chair, in VA we have over 90,000 men and women who 
have served this Nation. They represent approximately 29 
percent of the 301,891 veterans in the Department. Over 74,000 
of these men and women are preference eligibles, so we are 
using that flexibility. Twenty-six thousand three hundred 
sixty-six are disabled veterans. During fiscal year 2009, we 
hired 11,588 preference eligible veterans, and another 1,000 
non-preference eligible veterans. Our success has been 
attributed to leadership. It has also been attributed to the 
fact that we understand the mission of our Department, our 
employees understand the mission as well. But we also have 
added another dimension to our efforts, the Veterans Employment 
Coordination Service. We have nine regional coordinators that 
work around the country with some 200 other local Veterans 
Employment Coordinators to reach out to men and women who have 
served this Nation to help them navigate through sometimes a 
very complex hiring process. Helping them with resumes, helping 
them understand skills, knowledge, ability requirements. 
Helping them translate their skills into language that can be 
interpreted and help them get jobs in the Federal sector. We 
have been very successful. We have nine but we are looking at 
expanding that number around the country based on demographics 
of where we see the greater need.
    We have enjoyed, as I mentioned earlier, a wonderful 
working relationship with our colleagues here at the table. We 
are part of the President's Executive Order which set up the 
Employment of Veterans in the Federal Government Council for 
Veterans Employment. We are using our VETS program as a model 
that other Federal agencies can use in an effort to reach out 
to veterans in the same light and achieve the same levels of 
success.
    Madam Chair, again I appreciate the opportunity to address 
you and Members of the Committee. I am available to answer any 
questions, and we look forward to your questions in the future. 
Thank you.u.
    [The prepared statement of Mr. Hensley appears on p. 95.]
    Ms. Herseth Sandlin. Thank you very much, Colonel. I 
appreciate that you mentioned the regional coordinators. We 
will focus on some of that in our questions. I want to commend 
the VA for the impressive statistics as it relates to hiring 
veterans. We know how important it is to advancing the mission 
of the VA, always looking for where we can do better, working 
with other agencies. While we acknowledge the importance of the 
Department of Labor to get our veterans by the private sector, 
the networking, the skills, the communication and marketing 
that is so important, we also know that so many veterans are 
looking for an opportunity to give back directly to veterans in 
the public sector. We appreciate the VA's leadership in doing 
just that.
    I apologize, we do have to wrap up quickly for votes. But I 
thank all of our panelists today for their testimony and 
insights, and the hearing stands adjourned.
    [Whereupon, at 4:01 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman, 
                  Subcommittee on Economic Opportunity

    Today's hearing will provide us an opportunity to: review existing 
programs to help homeless veterans become employed, review barriers to 
employment; discuss hiring authorities; and learn about possible causes 
to high unemployment rates among younger veterans and female veterans.
    Furthermore, we will hear from an array of distinguished panelists 
who will highlight the shortfalls of Federal programs while providing 
recommendations for us to consider regarding veteran employment 
opportunities. While the high unemployment rates among veterans is 
disturbing, we will also receive timely updates from administration 
officials highlighting their initiatives to address the concerns of our 
veterans' population.
    I would like to commend President Obama for implementing Executive 
Order 13518 to strengthen veteran employment opportunities within the 
Federal workforce. I would also like to commend the various agencies 
who have initiated new veteran programs that required no Congressional 
intervention. These include the Office of Personnel Management's new 
feds hire vets Web site and the Department of Labor's initiative to 
expand Job Corps participation to military veterans.

                                 <F-dash>
              Prepared Statement of Hon. Gus M. Bilirakis

    Good afternoon.
    Madam Chair, our oversight agenda has covered many subjects during 
the 111th Congress, but this may be the most important. It is no secret 
that the recession has hit America hard and that unemployment rates 
have stood at record or near-record numbers including the rates for 
veterans.
    The March 2010 data from BLS shows that about 50 thousand or about 
25 percent of 18 to 24 year old veterans were unemployed. At the same 
time, about 955 thousand or about 9.5 percent of veterans between 25 
and 64 years old were unemployed. While any unemployed veteran is 
worthy of our assistance, I see significant differences in these two 
age groups in terms of financial resources and financial obligations.
    For example, while our younger veterans are likely eligible for 
either the Montgomery or Post-9/11 GI Bill and have fewer financial 
obligations, most of the older group has likely passed their delimiting 
dates for the GI Bill or only have access to the less generous 
Montgomery GI Bill or have used up their entitlement. Older veterans 
are also more likely to have significant financial obligations such as 
mortgages and tuition payments.
    So these differences raise the policy question of where to focus 
whatever scarce resources we may have. Regardless of where we choose to 
place those resources, they must be efficiently and effectively 
applied.
    During this recession, Congress has extended unemployment benefits 
at least twice. And while softening the blow of losing one's job is 
important, I believe that we should view this as an opportunity to 
reshape the workforce by retraining the unemployed in skills that will 
be in demand as the economy recovers. And that should begin with our 
veterans. It makes no sense to pay people to remain qualified only for 
jobs that may never reappear in the economy. For example, it is no 
secret that the manufacturing sectors such as auto industry has 
contracted over the past couple decades. Assembly jobs have moved out 
of the traditional manufacturing States to States with lower labor 
costs or moved overseas. That means that if workers want to remain in 
the industry where their skills are needed, they must be willing to 
relocate. Madam Chair, that was the whole idea behind H.R. 1168 which I 
introduced and passed under your leadership.
    So how do we fix the issue because without a massive reversal of 
the outflow of jobs, those who have worked in downsized industries must 
gain new and relevant skills to once again be fully and adequately 
employed.
    Madam Chair, according to the Conference Board, an organization 
that tracks a variety of business-related data, national employment 
peaked in the summer of 2008 at about 138 million and online help 
wanted ads totaled about 4.9 million. In February 2010, national 
employment totals about 130 million with help wanted ads running at 
about 4 million. Clearly, there are jobs out there and our challenge is 
to provide veterans with the skills to fill them. Here are the Board's 
top 10 in-demand occupations:

     1.  Health care practitioners and technical
     2.  Computer and mathematical science
     3.  Management
     4.  Sales and related
     5.  Office and administrative support
     6.  Business and financial operations
     7.  Architecture and engineering
     8.  Health care support
     9.  Transportation and material moving
    10.  Arts, design, entertainment, sports, and media

    We have all read the gross statistics and what we now need to know 
more about are the ``why's'', as in why are our younger veterans 
experiencing such high rates? To that end, I look forward to hearing 
solutions from our witnesses on how to invest in our workforce. Madam 
Chair, I yield back.

                                 <F-dash>
 Prepared Statement of Christine A. Scott, Specialist in Social Policy,
       Income Security Section, Domestic Social Policy Division,
          Congressional Research Service, Library of Congress

Introduction
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
distinguished Members of the Subcommittee on Economic Opportunity, my 
name is Christine Scott, from the Congressional Research Service (CRS). 
I am honored to appear before the Subcommittee today. As requested by 
the Committee, my testimony will highlight the employment situation of 
veterans, barriers to employment, and employment assistance to 
veterans. In addition to this testimony, a CRS report on Federal 
employment assistance to veterans has been submitted for the record.
Current Employment Situation of Veterans
    The current voluntary system for military service began more than 
30 years ago. Legally, the U.S. has been in the Persian Gulf War since 
August 1990. However, it has only been in the last decade that the U.S. 
has been involved in a prolonged period of conflict. Information has 
only been available for the last few years separating the Persian Gulf 
War into two distinct periods (based on last date of active military 
service)--Gulf War I and Gulf War II (post-September 2001).\1\ It is 
possible to compare unemployment rates of veterans and non-veterans, 
using this data, before and during the current economic downturn.
---------------------------------------------------------------------------
    \1\ The Gulf War II period is not defined legally, and is a 
commonly used term for the post-September 2001 period, including 
Operation Enduring Freedom and Operation Iraqi Freedom.
---------------------------------------------------------------------------
Unemployment
    As shown in Figure 1, the monthly unemployment rate\2\ for Gulf War 
II veterans has generally remained higher than that of other veterans 
and non-veterans over the 2006 to 2009 period (before and during the 
current economic downturn). Figure 1 uses a 3-month moving average\3\ 
of the monthly unemployment rates.
---------------------------------------------------------------------------
    \2\ The unemployment rate reflects the percentage of the labor 
force that is looking for work. The labor force consists of persons 
employed or looking for work. Persons who are not employed and not 
looking for work, along with certain institutionalized persons (such as 
incarcerated persons), are not considered part of the labor force.
    \3\ Each 3-month moving average is the average of the current month 
and the two prior months.
---------------------------------------------------------------------------
Figure 1. Unemployment Rates Among Gulf War II Veterans, Other 
        Veterans, and Non-Veterans, January 2006 through December 2009
        [GRAPHIC] [TIFF OMITTED] 57015A.001
        

     Source: Congressional Research Service (CRS) analysis of monthly
 Current Population Survey (CPS) data.
     Notes: Unemployment rates are 3-month moving averages. For example,
 the unemployment rate shown for March 2006 is the average rate for
 January through March 2006.



    The higher unemployment rates for Gulf War II veterans reflects the 
younger age of the Gulf War II veterans population compared to other 
veterans and non-veterans.
Unemployment by Gender and Age
    For unemployment rates, the average annual data\4\ for 2009 in 
Table 1 show higher overall unemployment rates for Gulf War II veterans 
than for other veterans. Unemployment rates vary by age and gender.
---------------------------------------------------------------------------
    \4\ Because of the volatility of the monthly unemployment rates, 
the average annual rates (the average of all the monthly rates for a 
given year) provide a more stable basis of comparison between periods.

    <bullet>  For Gulf War II veterans, other veterans, and non-
veterans, younger persons (ages 18-24 and 25-34) generally have the 
highest unemployment rates.
    <bullet>  The overall unemployment rate for Gulf War II veterans is 
higher than the unemployment rate for other veterans. This is also the 
case for men and women considered separately. However, there are 
differences across age groups.
    <bullet>  Female Gulf War II veterans have a higher overall 
unemployment rate than female non-veterans, while male Gulf War II 
veterans have a lower overall unemployment rate than male non-veterans.
    <bullet>  Overall, Gulf War II veterans ages 45-54 have a lower 
unemployment rate than other veterans or non-veterans in this age 
group. This is also the case for men and women in this age group.
    <bullet>  For other veterans, the overall unemployment rates for 
male and female other veterans are lower than the overall unemployment 
rates for male and female non-veterans.

 Table 1. Unemployment Rates for Gulf War II Veterans, Other Veterans, and Non-veterans by Age and Gender, 2009
----------------------------------------------------------------------------------------------------------------
                                    Gulf War II Veterans          Other Veterans              Non-veterans
              Age               --------------------------------------------------------------------------------
                                  Total     Men     Women    Total     Men     Women    Total     Men     Women
----------------------------------------------------------------------------------------------------------------
18-24                              21.1%    21.6%    19.2%     N.D.     N.D.     N.D.    16.6%    19.1%    13.9%
----------------------------------------------------------------------------------------------------------------
25-34                              10.6%    10.5%    11.6%    11.7%    12.3%     8.5%     9.8%    10.9%     8.6%
----------------------------------------------------------------------------------------------------------------
35-44                               6.0%     5.5%     9.3%     7.5%     7.6%     7.0%     8.0%     8.8%     7.1%
----------------------------------------------------------------------------------------------------------------
45-54                               3.6%     3.8%     3.0%     8.7%     9.0%     6.6%     7.1%     8.2%     6.0%
----------------------------------------------------------------------------------------------------------------
55-64                               7.0%     5.7%     N.A.     7.2%     7.2%     6.5%     6.5%     7.2%     6.0%
----------------------------------------------------------------------------------------------------------------
65 and over                         N.A.     N.A.     N.A.     6.6%     6.6%     N.A.     6.3%     6.6%     6.1%
----------------------------------------------------------------------------------------------------------------
Total                              10.2%     9.9%    11.5%     7.8%     7.9%     7.0%     9.1%    10.3%     7.8%
----------------------------------------------------------------------------------------------------------------
     Source: Congressional Research Service (CRS) analysis of monthly Current Population Survey (CPS) data.
     Notes: N.D.--no data available; N.A.--the denominator for calculating percentages is 35,000 or less.


Change in Annual Statistics 2006 to 2009

    Changes in the unemployment rates between 2006 and 2009 are a 
measure of the impact of the recent economic downturn. Table 2 shows 
changes in unemployment rates by age and gender for Gulf War II 
veterans, other veterans, and non-veterans. For example, between 2006 
and 2009 the unemployment rate for male Gulf War II veterans ages 18-24 
increased by 11.4 percentage points (from 10.2 percent to 21.6 
percent).

    <bullet>  For non-veterans, the increase in unemployment between 
2006 and 2009 was generally greatest for younger age groups. 
Unemployment generally rose less for older workers. In every age group, 
the increase in unemployment was greater for men than women.
    <bullet>  For other veterans, the change in unemployment rates was 
higher for men than women, and was highest for men in the 25-34 and 44-
54 age groups.
    <bullet>  For Gulf War II veterans, unemployment increased the most 
for the youngest age group (18-24), and for both men and women in that 
age group. The percentage point change in unemployment rates for Gulf 
War II veterans aged 18-24 was larger than for comparable non-veterans.
    <bullet>  For male Gulf War II veterans, the change for the older 
age groups was lower than for other veterans and non-veterans.
    <bullet>  For female Gulf War II veterans, the change in 
unemployment rates varied across age groups and may reflect the small 
number of women veterans in each age group.

    Table 2. Percentage Point Change in Unemployment Rates for Gulf War II Veterans, Other Veterans, and Non-
                                         veterans Between 2006 and 2009
----------------------------------------------------------------------------------------------------------------
                                    Gulf War II Veterans          Other Veterans              Non-veterans
              Age               --------------------------------------------------------------------------------
                                  Total     Men     Women    Total     Men     Women    Total     Men     Women
----------------------------------------------------------------------------------------------------------------
18-24                               10.6     11.4      6.8     N.D.     N.D.     N.D.      7.1      8.9      5.2
----------------------------------------------------------------------------------------------------------------
25-34                                3.1      3.0      3.6      6.5      7.4      1.9      5.2      6.5      3.7
----------------------------------------------------------------------------------------------------------------
35-44                                3.8      3.0      8.9      3.8      4.1      1.8      4.4      5.5      3.3
----------------------------------------------------------------------------------------------------------------
45-54                                0.7      1.1     -2.4      5.0      5.4      1.9      4.0      5.1      2.9
----------------------------------------------------------------------------------------------------------------
55-64                               N.A.     N.A.     N.A.      4.1      4.1      4.0      3.6      4.2      3.1
----------------------------------------------------------------------------------------------------------------
65 and over                         N.A.     N.A.     N.A.      3.6      3.5     N.A.      3.5      4.0      3.1
----------------------------------------------------------------------------------------------------------------
Total                                3.7      3.5      4.5      4.3      4.5      2.1      4.7      5.9      3.5
----------------------------------------------------------------------------------------------------------------
     Source: Congressional Research Service (CRS) analysis of monthly Current Population Survey (CPS) data.
     Notes: N.D.--no data available; N.A.--the denominator for calculating percentages is 35,000 or less.


Disabled Veterans

    While the overall unemployment rate of disabled veterans (8.2 
percent) was not statistically different from that of non-disabled 
veterans (8.3 percent) during 2009, the unemployment rate for disabled 
Gulf War II veterans was much higher than the rate for disabled 
veterans of other service periods. Table 3 shows the unemployment rates 
for disabled veterans (veterans with a service-connected disability 
rating) by period of service, and non-disabled veterans for 2009. In 
general the labor force participation rates and unemployment rates for 
veterans decline the longer the time period since the end of the 
conflict (and as the veterans population associated with that conflict 
ages).


                   Table 3. Unemployment Rate of Disabled Veterans by Period of Service, 2009
----------------------------------------------------------------------------------------------------------------
                           Period of Service                                        Unemployment Rate
----------------------------------------------------------------------------------------------------------------
Gulf War II                                                             11.8%
----------------------------------------------------------------------------------------------------------------
Gulf War I                                                              9.3%
----------------------------------------------------------------------------------------------------------------
Vietnam, Korea, World War II                                            5.1%
----------------------------------------------------------------------------------------------------------------
Other                                                                   6.2%
----------------------------------------------------------------------------------------------------------------
Total--disabled veterans of all service periods                         8.2%
----------------------------------------------------------------------------------------------------------------
Non-disabled veterans                                                   8.3%
----------------------------------------------------------------------------------------------------------------
     Source: Bureau of Labor Statistics, Employment Situation of Veterans--2009, March 12, 2010.


Long-term unemployed
    Overall Gulf War II veterans are less likely than other veterans 
and non-veterans to be unemployed long-term (27 weeks or more). Other 
veterans are more likely than non-veterans to be unemployed long-term. 
Table 4 shows the percentage of unemployed by length of unemployment 
for Gulf War II veterans, other veterans, and non-veterans for 2009.


     Table 4. Percentage of Unemployed by Length of Unemployment for
    Veterans, Other Veterans and Non-veterans in Each Age Group, 2009
------------------------------------------------------------------------
                       Gulf War II     Other Veterans     Non-veterans
                        Veterans     -----------------------------------
                   ------------------
        Age            26                26    Over 26     26    Over 26
                     weeks   Over 26   weeks    weeks    weeks    weeks
                    or less   weeks   or less           or less
------------------------------------------------------------------------
18-24                 79.5%    20.5%     N.D.     N.D.    75.0%    25.0%
------------------------------------------------------------------------
25-34                 69.4%    30.6%    65.2%    34.8%    69.7%    30.3%
------------------------------------------------------------------------
35-44                  N.A.     N.A.    71.8%    28.2%    66.7%    33.3%
------------------------------------------------------------------------
45-54                  N.A.     N.A.    65.9%    34.1%    62.2%    37.8%
------------------------------------------------------------------------
55-64                  N.A.     N.A.    60.0%    40.0%    61.0%    39.0%
------------------------------------------------------------------------
65 and over            N.A.     N.A.    60.4%    39.6%    59.9%    40.1%
------------------------------------------------------------------------
Total                 71.2%    28.8%    64.4%    35.6%    67.9%    32.1%
------------------------------------------------------------------------
     Source: Congressional Research Service (CRS) analysis of monthly
  Current Population Survey (CPS) data.
     Notes: N.D.--no data available; N.A.--the denominator for
  calculating percentages is 35,000 or less.


Employed Veterans
    Overall, as shown in Table 5, for every age group veterans are more 
likely to work full-time than their non-veteran peers. Also, veterans 
are significantly more likely to be employed in the public sector as 
shown in Table 6. Self-employment rates generally increase with age, 
and non-veteran age groups generally have higher percentages of self-
employed persons. The exception is other veterans ages 55 and over, who 
have a higher percentage of self-employed than their non-veteran 
counterparts.

 Table 5. Percentage of Full-Time and Part-Time Employment for Gulf War
  II Veterans, Other Veterans, and Non-Veterans in Each Age Group, 2009
------------------------------------------------------------------------
                       Gulf War II     Other Veterans     Non-veterans
                        Veterans     -----------------------------------
        Age        ------------------
                     Full-    Part-    Full-    Part-    Full-    Part-
                      time     time     time     time     time     time
------------------------------------------------------------------------
18-24                 76.2%    23.8%     N.D.     N.D.    57.8%    42.2%
------------------------------------------------------------------------
25-34                 90.2%     9.8%    91.8%     8.2%    85.2%    14.8%
------------------------------------------------------------------------
35-44                 94.1%     5.9%    93.8%     6.2%    86.2%    13.8%
------------------------------------------------------------------------
45-54                 94.7%     5.3%    93.7%     6.3%    86.7%    13.3%
------------------------------------------------------------------------
55-64                 95.0%     5.0%    86.9%    13.1%    82.0%    18.0%
------------------------------------------------------------------------
65 and over            N.A.     N.A.    60.4%    39.6%    55.9%    44.1%
------------------------------------------------------------------------
Total                 90.0%    10.0%    86.1%    13.9%    80.9%    19.1%
------------------------------------------------------------------------
     Source: Congressional Research Service (CRS) analysis of monthly
  Current Population Survey (CPS) data.
     Notes: N.D.--no data available; N.A.--the denominator for
  calculating percentages is 35,000 or less.



  Table 6. Percentage of Public, Private, and Self-Employed for Gulf War II Veterans, Other Veterans, and Non-
                                        Veterans in Each Age Group, 2009
----------------------------------------------------------------------------------------------------------------
                          Gulf War II Veterans              Other Veterans                  Non-veterans
                    --------------------------------------------------------------------------------------------
        Age                                Self-                          Self-                          Self-
                      Public   Private   employed    Public   Private   employed    Public   Private   employed
----------------------------------------------------------------------------------------------------------------
18-24                  20.4%     78.2%        1.5%     N.D.      N.D.        N.D.     8.1%     89.9%        1.9%
----------------------------------------------------------------------------------------------------------------
25-34                  22.7%     74.3%        3.0%    20.8%     76.0%        3.2%    12.3%     83.2%        4.5%
----------------------------------------------------------------------------------------------------------------
35-44                  31.9%     66.1%        1.9%    20.2%     74.7%        5.0%    14.2%     78.9%        6.9%
----------------------------------------------------------------------------------------------------------------
45-54                  39.5%     57.0%        3.4%    22.3%     72.1%        5.6%    16.2%     75.6%        8.2%
----------------------------------------------------------------------------------------------------------------
55-64                  48.3%     46.8%        4.9%    19.7%     70.5%        9.8%    18.9%     71.4%        9.7%
----------------------------------------------------------------------------------------------------------------
65 and over             N.A.      N.A.        N.D.    13.5%     66.6%       19.9%    14.2%     69.3%       16.5%
----------------------------------------------------------------------------------------------------------------
Total                  27.5%     69.7%        2.8%    19.6%     71.4%        8.9%    14.1%     79.2%        6.7%
----------------------------------------------------------------------------------------------------------------
     Source: Congressional Research Service (CRS) analysis of monthly Current Population Survey (CPS) data.
     Notes: Public, Private, and Self-employed for each category sums to 100%. N.D.--no data available; N.A.--
  the denominator for calculating percentages is 35,000 or less.


Federal employment of Veterans
    According to the Office of Personnel Management (OPM), 25.5 percent 
of the Federal Government workforce in FY 2008 was veterans compared to 
8.3 percent for the civilian labor force.\5\ The Federal Government 
also has a larger share of its workforce comprised of disabled veterans 
(6.0 percent) compared to the civilian labor force (0.8 percent).
---------------------------------------------------------------------------
    \5\ Office of Personnel Management, Employment of Veterans in the 
Federal Executive Branch, Fiscal Year 2008, November 2009.
---------------------------------------------------------------------------
    Between FY 2005 and FY 2008, the total share of the Federal 
workforce comprised of veterans increased slightly from 25.2 percent to 
25.5 percent as shown in Table 7. In FY 2005 and FY 2008, the same six 
executive agencies had the highest percentage of veterans in their 
workforces. These six agencies also had a percentage of veterans in 
their workforce that was higher than that of the total Federal 
workforce. Between FY 2005 and FY 2008, all six agencies had an 
increase in the percentage of veterans in their workforces.

   Table 7. Federal Executive Agencies with the Highest Percentage of
          Veterans in the Agency Workforce, FY 2005 and FY 2008
------------------------------------------------------------------------
                     2005                                 2008
------------------------------------------------------------------------
                                  Percent of     Executive    Percent of
        Executive Agency           Workforce      Agency      Workforce
------------------------------------------------------------------------
Air Force                        47.3%         Air Force     50.5%
------------------------------------------------------------------------
Army                             40.5%         Army          43.6%
------------------------------------------------------------------------
Navy                             36.9%         Navy          38.8%
------------------------------------------------------------------------
Department of Transportation     30.8%         Department    33.5%
                                                of Defense
------------------------------------------------------------------------
Department of Defense            27.6%         Department    29.5%
                                                of
                                                Transportat
                                                ion
------------------------------------------------------------------------
Department of Veterans Affairs   26.8%         Department    29.1%
                                                of Veterans
                                                Affairs
------------------------------------------------------------------------
Department of Homeland Security  24.5%         Department    26.8%
                                                of Homeland
                                                Security
------------------------------------------------------------------------
Department of Energy             21.0%         General       20.4%
                                                Services
                                                Administrat
                                                ion
------------------------------------------------------------------------
Department of Justice            18.2%         Department    20.2%
                                                of Energy
------------------------------------------------------------------------
Department of Labor              17.9%         Office of     19.5%
                                                Personnel
                                                Management
------------------------------------------------------------------------
Total Federal Workforce          25.2%         Total         25.5%
                                                Federal
                                                Workforce
------------------------------------------------------------------------
     Source: Table prepared by the Congressional Research Service (CRS)
  from Office of Personnel Management, Employment of Veterans in the
  Federal Executive Branch, Fiscal Year 2008, November 2009, Table 1 and
  Table 2C, and Office of Personnel Management, The Employment of
  Veterans in the Federal Government, FY 2005, November 2006, Table 1
  and Figure 2.


Use of Special Veterans Appointing Authorities
    Three special appointment authorities are available to Federal 
Government agencies related to veterans: (1) Veterans Recruitment 
Appointment (VRA); (2) Veterans Employment Opportunity Acts (VEOA); and 
(3) 30 percent or More Disabled Veteran.
Veterans Recruitment Appointment (VRA)
    The use of a VRA allows agencies to appoint an eligible veteran 
without competition. The VRA is an excepted appointment to a position 
that is otherwise in the competitive service. After 2 years of 
satisfactory service, the veteran may be converted to a career-
conditional appointment in the competitive service.\6\
---------------------------------------------------------------------------
    \6\ A veteran may be given a noncompetitive temporary or term 
appointment based on VRA eligibility. These appointments do not lead to 
career jobs.
---------------------------------------------------------------------------
    Once in Federal employment, VRAs are treated like any other 
competitive service employee and may be promoted, reassigned, or 
transferred. VRA appointees with less than 15 years of education must 
complete a training program established by the agency. Veterans 
eligible for a VRA appointment are

    <bullet>  disabled veterans;
    <bullet>  veterans who served on active duty in the Armed Forces 
during a war, or in a campaign or expedition for which a campaign badge 
has been authorized;
    <bullet>  veterans who, while serving on active duty in the Armed 
Forces, participated in a United States military operation for which an 
Armed Forces Service Medal was awarded; or
    <bullet>  recently separated veterans.

    In addition to meeting the criteria above, veterans must have been 
separated under honorable conditions (i.e., the individual must have 
received either an honorable or general discharge).
Veterans Employment Opportunity Act (VEOA)
    Federal agencies can recruit outside their own workforce from all 
competitive service employees in filling permanent competitive service 
openings. Veterans are eligible to apply for this type of open position 
even if not a current competitive service employee, if the veteran is a 
preference eligible or has completed three or more years of active 
service. The Federal Government agency can then appoint the veteran 
using the VEOA appointment authority.
Thirty Percent or More Disabled Veteran
    The 30 percent or more disabled veteran authority allows a Federal 
Government agency to non-competitively appoint any veteran with a 30 
percent or more service-connected disability to a permanent, temporary 
(1 year or less), or term (1 to 4 years) positions in the competitive 
service. For permanent appointments, the veteran is placed in a time 
limited (60 days maximum) appointment and then converted to permanent 
at management's discretion.
    In FY 2008, almost all of the use of these special appointments 
(89.6 percent to 94.9 percent depending on the specific hiring 
authority), as shown in Table 8, was by branches of the Armed Forces, 
and the Departments of Defense and Veterans Affairs.

    Table 8. Total Special Veterans Appointment Hires and Percent of Total by the Departments of Defense and
                               Veterans Affairs and the U.S. Armed Forces, FY 2008
----------------------------------------------------------------------------------------------------------------
                                                                                      Percent of Special Hire
                                                                  Total Special         Appointments by the
                    Appointment Authority                       Appointment Hires      Department of Defense,
                                                                     FY 2008           Department of Veterans
                                                                                     Affairs, and Armed Forces
----------------------------------------------------------------------------------------------------------------
Veterans Recruitment                                                       6,360                          89.6%
----------------------------------------------------------------------------------------------------------------
Veterans Employment Opportunity Act                                       18,898                          94.2%
----------------------------------------------------------------------------------------------------------------
30% of More Disabled Veteran                                               1,381                          94.9%
----------------------------------------------------------------------------------------------------------------
     Source: Table prepared by the Congressional Research Service (CRS), from Office of Personnel Management,
  Employment of Veterans in the Federal Executive Branch, Fiscal Year 2008, November 2009, Table 5.


Traditional Barriers to Employment
    Veterans and non-veterans can face a number of barriers to 
employment: lack of education or training; disability; lack of an 
employment network or mentors; or homelessness. Other potential 
barriers to employment such as age (55 or older), low-income or poverty 
status, limited work history, and a criminal record will not be 
discussed in this testimony.
Education/Training
    A veteran without the education or training required for a specific 
industry will generally be unable to find employment in that industry. 
This is true for returning servicemembers whose military occupation 
skills do not translate directly to civilian industry and for older 
veterans who had worked for many years in an industry that is in 
decline. Recently discharged veterans can make use of education 
benefits provided for veterans to receive either a higher education or 
specific training to work in a specific industry. However older 
veterans who have become unemployed because of the economic downturn do 
not have that option (as their eligibility for education benefits has 
expired).
Disability
    Disability takes many forms: chronic medical conditions; physical 
impairments; mental impairments; or addiction issues. Because certain 
disabilities (or conditions) such as Post-Traumatic Stress Disorder 
(PTSD) and Traumatic Brain Injury (TBI) are more prevalent in veterans 
than non-veterans, more veterans will face the difficulties of dealing 
with these disorders in finding employment and in the workplace.\7\ 
Veterans with a disability face a barrier to employment in that both 
the veteran and his or her employer must understand the disability and 
make the necessary accommodations. Compounding the barriers is that a 
veteran may have more than one disability, with the disabilities of a 
different nature. For example, mental illness and addictions are often 
co-morbid conditions.
---------------------------------------------------------------------------
    \7\ For more information on Traumatic Brain Injury, see CRS Report 
R40941, Traumatic Brain Injury: Care and Treatment of Operation 
Enduring Freedom and Operation Iraqi Freedom Veterans, by Amalia K. 
Corby-Edwards.
---------------------------------------------------------------------------
Lack of mentors/employment network
    Employment networks and mentors are important to individuals in an 
occupation or industry as they provide advance information about 
employment and other opportunities within the industry. When a young 
person enters an occupation either directly out of high school or 
through pursuing a college education, part of that time at work or in 
college is spent establishing a network of colleagues in that industry 
or occupation and finding a mentor to assist in developing his or her 
career path. However, many younger servicemembers have separated 
themselves from their peers during this process to serve in the 
military. As a result, younger recently separated servicemembers do not 
have the established civilian employment networks of their peers and 
often lack established mentors. Older veterans, like other workers, who 
have spent years working in a specific industry and becoming part of 
the employment network for that industry will lose that network if the 
industry has declined as part of the recent economic downturn.
Homelessness
    Lack of a permanent (or semi-permanent) address imposes limitations 
on an individual's ability to contact or interact with others, 
including potential employers, as it is difficult to maintain links to 
others through telephone, mail or computer; open certain bank or other 
accounts; obtain certain government documents; and the individual does 
not have a safe secure place for storage of personal or other items. 
Research has shown that veterans are over-represented in the homeless 
population--that is, a higher percentage of the veterans population is 
homeless compared to the non-veteran population.\8\
---------------------------------------------------------------------------
    \8\ For more information on veterans and homelessness, see CRS 
Report RL34024, Veterans and Homelessness, by Libby Perl.
---------------------------------------------------------------------------
Federal Programs to Assist Veterans in Finding Employment
Joint Programs for Transitioning Servicemembers
    The Department of Labor (DOL), in cooperation with the Department 
of Defense (DoD) and the VA, operates the Transition Assistance Program 
(TAP) and Disabled Transition Assistance Program (DTAP). Both programs 
are designed to provide information on employment and training for 
servicemembers within 180 days of separation from military service, or 
retirement.\9\
---------------------------------------------------------------------------
    \9\ For more information on TAP and DTAP programs, see the 
Department of Labor's TAP Fact Sheet at http://www.dol.gov/vets/
programs/tap/tap_fs.htm.
---------------------------------------------------------------------------
    TAP is a 3-day workshop conducted at military installations that 
includes sessions on how to look for jobs, current market conditions 
(both labor market and occupation-specific information is provided), 
preparation of job search materials (including resumes), and interview 
techniques. DTAP adds additional hours to the 3-day program focused on 
the special needs of disabled servicemembers.
    In addition to the employment assistance sessions, information is 
provided on veterans benefits administered by the VA.
FedsHireVets
    On November 9, 2009, President Obama issued Executive Order 13518 
which established a Veterans Hiring Initiative and established a 
Council on Veterans Employment co-chaired by the Secretaries of DOL and 
VA. As part of the initiative, the Office of Personnel Management (OPM) 
established a new Web site: www.fedshirevets.gov--to provide 
information for veterans on Federal Government employment. One of the 
features of the Web site is an agency directory providing for each 
agency, the name, email address, and telephone number of the individual 
within each agency responsible for promoting veterans' employment 
within the agency.
America's Heroes At Work
    In January 2009, the DOL began a new program, America's Heroes at 
Work, for veterans with traumatic brain injury (TBI) or post-traumatic 
stress disorder (PTSD). Under the pilot program, DOL will study, 
validate, and disseminate best practices related to helping employees 
with TBI or PTSD succeed on the job. The Web site for the program 
provides information and fact sheets for employers and veterans on 
topics related to TBI and PTSD including how employers can make 
accommodations in their workplace for affected employees.\10\
---------------------------------------------------------------------------
    \10\ The Web site for the program is http://
www.americasheroesatwork.gov/.
---------------------------------------------------------------------------
DOL Programs
    The DOL Veterans' Employment and Training Service (VETS) offers 
assistance to veterans seeking jobs through the Jobs for Veterans State 
Grants (JVSG) Program. Under the program, grants are used to fund 
Disabled Veterans' Outreach Program (DVOP) specialists and Local 
Veterans' Employment Representatives (LVER).\11\ These are State 
positions, funded by the Federal Government, that provide outreach and 
assistance to veterans seeking employment.
---------------------------------------------------------------------------
    \11\ For information on LVER and DVOP grants, see the DOL guide to 
grants at http://www.dol.gov/vets/grants/Final_VETS_Guide-linked.pdf.
---------------------------------------------------------------------------
    DVOP staff in a State are involved in outreach efforts to disabled 
veterans with greater barriers to employment, who therefore need more 
intensive services for employment or training. LVER staff help veterans 
find employment and are involved in outreach to the business community 
to encourage the hiring of veterans (including disabled veterans).
    The VETS office also operates the Veterans' Workforce Investment 
Program (VWIP), a grant program authorized under the Workforce 
Investment Act (WIA, P.L. 105-220).\12\ Grants may be made to fund 
programs operated by eligible State and local workforce investment 
boards, State or local agencies, or private non-profit organizations. 
The grants are intended to help reintegrate veterans into the civilian 
labor force; develop service delivery systems that address the needs of 
veterans entering the civilian workforce; enhance workforce investment 
activities related to veterans; and perform outreach or public 
information activities to promote employment of veterans.
---------------------------------------------------------------------------
    \12\ Ibid. (For information on VWIP grants).
---------------------------------------------------------------------------
    In addition to the JVSG Program and the VWIP program, the VETS 
office in DOL also

    <bullet>  conducts the HireVetsFirst campaign to encourage 
employers to hire veterans;
    <bullet>  provides grants under the Homeless Veterans Reintegration 
Program; \13\ and
---------------------------------------------------------------------------
    \13\ For more information on the program, please see CRS Report 
RL34024, Veterans and Homelessness, by Libby Perl.
---------------------------------------------------------------------------
    <bullet>  provides information to veterans and employers on re-
employment rights under the Uniformed Services Employment and 
Reemployment Rights Act of 1994 (USERRA, P.L. 103-353).

    All VETS activities are required partners in the One-Stop Career 
Center system established by WIA.\14\
---------------------------------------------------------------------------
    \14\ Local one-stop service centers can be found online at http://
www.servicelocator.org/.
---------------------------------------------------------------------------
    Any workforce development, job training, or placement program 
funded in part by DOL must provide a priority in services for veterans 
and eligible spouses. In general, persons covered under the priority of 
service (veterans and spouses) receive access to services and resources 
before non-covered persons.\15\
---------------------------------------------------------------------------
    \15\ Regulations on the priority of service can be found at http://
www.dol.gov/vets/E8-30166.pdf.
---------------------------------------------------------------------------
Homeless Veterans Reintegration Program (HVRP) \16\
---------------------------------------------------------------------------
    \16\ Excerpted from CRS Report RL34024, Veterans and Homelessness, 
by Libby Perl.
---------------------------------------------------------------------------
    The HVRP program has two goals. The first is to assist veterans in 
achieving meaningful employment, and the second is to assist in the 
development of a service delivery system to address the problems facing 
homeless veterans. Eligible grantee organizations are State and local 
Workforce Investment Boards, local public agencies, and both for- and 
non-profit organizations.\17\ Grantees receive funding for one year, 
with the possibility for two additional years of funding contingent on 
performance and fund availability.\18\
---------------------------------------------------------------------------
    \17\ Veterans Employment and Training Service Program Year 2007 
Solicitation for Grant Applications, Federal Register vol. 72, no. 71, 
April 13, 2007, p. 18682.
    \18\ Ibid., p. 18679.
---------------------------------------------------------------------------
    HVRP grantee organizations provide services that include outreach, 
assistance in drafting a resume and preparing for interviews, job 
search assistance, subsidized trial employment, job training, and 
follow-up assistance after placement. Recipients of HVRP grants also 
provide supportive services not directly related to employment such as 
transportation, provision of assistance in finding housing, and 
referral for mental health treatment or substance abuse counseling. 
HVRP grantees often employ formerly homeless veterans to provide 
outreach to homeless veterans and to counsel them as they search for 
employment and stability. In fact, from the inception of the HVRP, it 
has been required that at least one employee of grantee organizations 
be a veteran who has experienced homelessness.\19\
---------------------------------------------------------------------------
    \19\ ``Procedures for Preapplication for Funds; Stewart B. McKinney 
Homeless Assistance Act, FY 1988'' Federal Register vol. 53, no. 70, 
April 12, 1988, p. 12089.
---------------------------------------------------------------------------
    In program year (PY) 2007 (from July 1, 2007, through June 30, 
2008), HVRP grantees were expected to serve a total of 13,446 homeless 
veterans, of whom an estimated 9,061, or 67 percent, were expected to 
be placed in employment.\20\ In 2007, DOL predicted that 64.5 percent 
of veterans who were placed in employment would maintain employment for 
6 months.\21\ The previous year, 64 percent of veterans maintained 
employment for at least 6 months.
---------------------------------------------------------------------------
    \20\ U.S. Department of Labor, Office of the Assistance Secretary 
for Veterans' Employment and Training, FY 2006 and FY 2007 Annual 
Report to Congress, May 21, 2008, p. 10.
    \21\ U.S. Department of Labor, Office of Veterans' Employment and 
Training, FY 2008 VETS Annual Report to Congress, p. 5, http://
www.dol.gov/vets/media/FY 2008_Annual_Report_
To_Congress.pdf.
---------------------------------------------------------------------------
VA Compensated Work Therapy for Disabled Veterans (CWT) \22\
---------------------------------------------------------------------------
    \22\ Excerpted from CRS Report RL34204, Veterans and Homelessness, 
by Libby Perl.
---------------------------------------------------------------------------
    The Compensated Work Therapy (CWT) Program has existed at the VA in 
some form since the 1930s.\23\ The goal of the CWT program is to give 
veterans with disabilities work experience and skills so that they may 
re-enter the workforce and maintain employment on their own. The VA 
either employs veterans directly (in FY 2008, 47.7 percent of veterans 
in the CWT program worked for the VA) \24\, finds work for veterans at 
other Federal agencies, or enters into contracts with private companies 
or nonprofit organizations that then provide veterans with work 
opportunities. Veterans must be paid wages commensurate with those 
wages in the community for similar work, and through the experience the 
goal is that participants will improve their chances of living 
independently and reaching self sufficiency. In 2003, the Veterans 
Health Care, Capital Asset, and Business Improvement Act (P.L. 108-170) 
added work skills training, employment support services, and job 
development and placement services to the activities authorized by the 
CWT program.
---------------------------------------------------------------------------
    \23\ Senate Veterans Affairs Committee, report to accompany S. 
2908, 94th Cong., 2nd sess., S.Rept. 94-1206, September 9, 1976.
    \24\ Sandra D. Resnick, Richard Kaczynski, Debbie Sieffert, et. 
al., Twelfth Progress Report on the Compensated Work Therapy (CWT) 
Program, Fiscal Year 2008, Department of Veterans Affairs Northeast 
Program Evaluation Center, Table 29 (hereinafter, Twelfth Progress 
Report on the Compensated Work Therapy (CWT) Program).
---------------------------------------------------------------------------
    In 1991, as part of P.L. 102-54, the Veterans Housing, Memorial 
Affairs, and Technical Amendments Act, Congress added the Therapeutic 
Transitional Housing component to the CWT program. The housing 
component is authorized through December 31, 2011.\25\ The purpose of 
the program is to provide housing to participants in the CWT program 
who have mental illnesses or chronic substance abuse disorders and who 
are homeless or at risk of homelessness.\26\ Although the law initially 
provided that both the VA itself or private nonprofit organizations, 
through contracts with the VA, could operate housing, the law was 
subsequently changed so that only the VA now owns and operates 
housing.\27\ The housing is transitional--up to 12 months--and veterans 
who reside there receive supportive services. In FY 2008, 11,686 
veterans were admitted into the CWT program. Of the CWT program 
participants, 79.2 percent were found to have a disabling medical 
condition, with nearly all participants (99.8 percent) having a 
psychiatric disorder or disabling medical condition or both.\28\
---------------------------------------------------------------------------
    \25\ The program was authorized as part of the Veterans Benefits, 
Health Care, and Information Technology Act of 2006 (P.L. 109-461). See 
38 U.S.C. Sec. 2031.
    \26\ The VA's authority to operate therapeutic housing is codified 
at 38 U.S.C. Sec. 2032.
    \27\ The provision for nonprofits was in P.L. 102-54, but was 
repealed by P.L. 105-114, Section 1720A(c)(1).
    \28\ Ibid.
---------------------------------------------------------------------------
    This concludes my statement. I will be happy to answer any 
questions the Committee may have.

                               __________
                     Congressional Research Service
                    CRS Report for Congress--RS22666
            Veterans Benefits: Federal Employment Assistance
            Prepared for Members and Committees of Congress
                             April 9, 2010
              Christine Scott, Specialist in Social Policy
Summary
    There are Federal employment and training programs and policies 
specifically targeted to help veterans seeking employment in the 
civilian economy. Transition assistance programs are operated by the 
Department of Defense (DoD), the Department of Veterans Affairs (VA), 
and the Department of Labor (DOL) to assist servicemembers as they 
prepare to leave the military. DOL operates grant programs to States to 
provide outreach and assistance to veterans in finding civilian 
employment. In addition, the Federal Government has policies (including 
veterans preference) that assist veterans in obtaining jobs with the 
Federal Government and Federal contractors. This report provides a 
brief overview of these Federal programs and policies. This report will 
be updated as needed.
Contents
Cash Assistance
Employment Assistance
Transition Assistance Programs
Veterans State Grants Program
Veterans' Workforce Investment Program
America's Heroes at Work
Federal Employment Preferences
Point Preference
Special Appointment (Hiring) Authority
Affirmative Action: Federal Agencies
Affirmative Action: Contractors and Subcontractors
Veterans Hiring Initiative
Other Federal Assistance
Contacts
Author Contact Information
                               __________
    Veterans may participate in the general employment and training 
programs open to everyone seeking jobs, or in certain programs targeted 
specifically to veterans.\1\ In addition, the Federal Government has a 
policy of assisting veterans in employment through the use of 
preferences in Federal employment, and requirements for affirmative 
action in the hiring of veterans by Federal contractors. This report 
will provide an overview of these Federal employment and training 
programs targeted to veterans, and Federal policies to assist veterans 
in obtaining Federal employment.\2\
---------------------------------------------------------------------------
    \1\ This report does not address Federal employment and training 
programs open to everyone seeking jobs.
    \2\ This paper does not provide information on VA education 
benefits for veterans. For more information on education benefits for 
veterans see CRS Report R40723, Educational Assistance Programs 
Administered by the U.S. Department of Veterans Affairs, by Cassandria 
Dortch.
---------------------------------------------------------------------------
When Is a Discharged Servicemember Classified as a ``Veteran'' for the 
                        Purposes of VA Benefits?
    Not all discharged servicemembers are considered ``veterans'' for 
the purposes of the Department of Veterans Affairs (VA) benefits and 
programs. In order to be eligible for most VA benefits, it is necessary 
for the discharged servicemember to be classified as a ``veteran,'' or 
in some circumstances, the survivor of a veteran.
    Federal statutes define ``veteran'' as a ``person who served in the 
active military, naval, or air service, and who was discharged or 
released there from under conditions other than dishonorable.'' [38 
U.S.C. Sec. 101(2); 38 CFR Sec. 3.1(d)]. The VA largely bases its 
determination of veteran status upon military department service 
records. In addition to the member's service records, other factors 
impact his/her classification as a ``veteran'' and may impact future 
benefits. These factors include

    <bullet>  Discharge criteria: (38 U.S.C. Sec. 101(2); 38 CFR 
Sec. 3.1(d)).
    <bullet>  Active military, naval or air service: (38 U.S.C. 
Sec. 101(2); 38 CFR Sec. 3.1(d)).
    <bullet>  Whether the service was during ``time of war:'' (38 
U.S.C. Sec. 101(6)-(11); 38 CFR Sec. 3.2).
    <bullet>  Length of duty requirement: (38 U.S.C. Sec. 101(6)-(11); 
38 CFR Sec. 3.2).

    After it has been proved that the discharged servicemember meets 
these criteria, he/she is considered to be a ``veteran'' and may be 
eligible for certain benefits relating to health care, education, and 
other services which are provided by the VA.
    (Information provided by Douglas Reid Weimer, Legislative Attorney, 
American Law Division, CRS.)
Cash Assistance
    Part of the Servicemen's Readjustment Act of 1944 (The GI Bill, 
P.L. 78-346) provided a cash allowance for returning unemployed 
veterans. This was provided because, at the time, veterans were not 
eligible for unemployment compensation. However, because of a 
combination of factors, including the strong economic growth shortly 
after World War II and the GI Bill's education and training benefits, 
few veterans took advantage of the cash assistance program.
    There is currently no system to provide a cash allowance to 
veterans seeking civilian employment although veterans are eligible for 
unemployment compensation, which provides partial replacement of lost 
cash wages.\3\
---------------------------------------------------------------------------
    \3\ For more information on unemployment compensation for veterans, 
see CRS Report RS22440, Unemployment Compensation (Insurance) and 
Military Service, by Julie M. Whittaker.
---------------------------------------------------------------------------
Employment Assistance
    The Federal Government operates programs to assist veterans seeking 
civilian employment and provides preferences in Federal employment for 
veterans. Outlined below are the major Federal programs and policies to 
assist veterans seeking civilian jobs.
Transition Assistance Programs
    The Department of Labor (DOL), in cooperation with the Department 
of Defense (DoD) and the VA, operates the Transition Assistance Program 
(TAP) and Disabled Transition Assistance Program (DTAP). Both programs 
are designed to provide information on employment and training for 
servicemembers within 180 days of separation from military service, or 
retirement.\4\
---------------------------------------------------------------------------
    \4\ For more information on TAP and DTAP programs, see the 
Department of Labor's TAP Fact Sheet at http://www.dol.gov/vets/
programs/tap/tap_fs.htm.
---------------------------------------------------------------------------
    TAP is a 3-day workshop conducted at military installations that 
includes sessions on how to look for jobs, current market conditions 
(both labor market and occupation-specific information is provided), 
preparation of job search materials (including resumes), and interview 
techniques. DTAP adds additional hours to the 3-day program focused on 
the special needs of disabled servicemembers.
    In addition to the employment assistance sessions, information is 
provided on veterans benefits administered by the VA.
Veterans State Grants Program
    The DOL Veterans' Employment and Training Service (VETS) offers 
assistance to veterans seeking jobs through the Jobs for Veterans State 
Grants (JVSG) Program. Under the program, grants are used to fund 
Disabled Veterans' Outreach Program (DVOP) specialists and Local 
Veterans' Employment Representatives (LVER).\5\ These are State 
positions, funded by the Federal Government, that provide outreach and 
assistance to veterans seeking employment.
---------------------------------------------------------------------------
    \5\ For information on LVER and DVOP grants, see the DOL guide to 
grants at http://www.dol.gov/vets/grants/Final_VETS_Guide-linked.pdf.
---------------------------------------------------------------------------
    DVOP staff in a State are involved in outreach efforts to disabled 
veterans with greater barriers to employment, who therefore need more 
intensive services for employment or training. LVER staff help veterans 
find employment and are involved in outreach to the business community 
to encourage the hiring of veterans (including disabled veterans).
Veterans' Workforce Investment Program
    The VETS office also operates the Veterans' Workforce Investment 
Program (VWIP), a grant program authorized under the Workforce 
Investment Act (WIA, P.L. 105-220).\6\ Grants may be made to fund 
programs operated by eligible State and local workforce investment 
boards, State or local agencies, or private non-profit organizations. 
The grants are intended to help reintegrate veterans into the civilian 
labor force; develop service delivery systems that address the needs of 
veterans entering the civilian workforce; enhance workforce investment 
activities related to veterans; and perform outreach or public 
information activities to promote employment of veterans.
---------------------------------------------------------------------------
    \6\ Ibid. (For information on VWIP grants).
---------------------------------------------------------------------------
    In addition to the JVSG Program and the VWIP program, the VETS 
office in DOL also

    <bullet>  conducts the HireVetsFirst campaign to encourage 
employers to hire veterans;
    <bullet>  provides grants under the Homeless Veterans Reintegration 
Program; \7\ and
---------------------------------------------------------------------------
    \7\ For more information on the program, please see CRS Report 
RL34024, Veterans and Homelessness, by Libby Perl.
---------------------------------------------------------------------------
    <bullet>  provides information to veterans and employers on re-
employment rights under the Uniformed Services Employment and 
Reemployment Rights Act of 1994 (USERRA, P.L. 103-353).

    All VETS activities are required partners in the One-Stop Career 
Center system established by WIA.\8\
---------------------------------------------------------------------------
    \8\ Local one-stop service centers can be found online at http://
www.servicelocator.org/.

    Any workforce development, job training, or placement program 
funded in part by DOL must provide a priority in services for veterans 
and eligible spouses. In general, persons covered under the priority of 
service (veterans and spouses) receive access to services and resources 
before non-covered persons.\9\
---------------------------------------------------------------------------
    \9\ Regulations on the priority of service can be found at http://
www.dol.gov/vets/E8-30166.pdf.
---------------------------------------------------------------------------
America's Heroes at Work
    In January 2009, the DOL began a new pilot program, America's 
Heroes at Work, for veterans with traumatic brain injury (TBI) or post-
traumatic stress disorder (PTSD). Under the pilot program, DOL will 
study, validate, and disseminate best practices related to helping 
employees with TBI or PTSD succeed on the job. The Web site for the 
program provide information and fact sheets for employers and veterans 
on topics related to TBI and PTSD, including how employers can make 
accommodations in their workplace for impacted employees.\10\
---------------------------------------------------------------------------
    \10\ The Web site for the program is http://
www.americasheroesatwork.gov/.
---------------------------------------------------------------------------
Federal Employment Preferences
    The Federal Government has four policies that provide a preference 
to veterans: (1) a system of point preference for hiring; (2) special 
appointment (hiring) authority; (3) affirmative action requirements for 
Federal agencies; and (4) affirmative action requirements for 
contractors and subcontractors.\11\
---------------------------------------------------------------------------
    \11\ For Federal employment purposes, a veteran is an individual 
who has active duty service, with minimum length of service 
requirements, for one of the time periods defined in Title 5, 
Sec. 2108. For more information on Federal employment preferences for 
veterans, see the Office of Personnel Management's VetsInfo Guide at 
http://www.opm.gov/veterans/html/vetsinfo.asp.
---------------------------------------------------------------------------
Point Preference
    Veterans are given a Federal preference in hiring to prevent an 
individual from being penalized for having spent time in military 
Federal service. A five-point preference is given to veterans with an 
honorable or general discharge who served on active duty (not active 
duty for training):

    <bullet>  during any war;
    <bullet>  during the period April 28, 1952, through July 1, 1955;
    <bullet>  for more than 180 consecutive days, any part of which 
occurred after January 31, 1955, and before October 15, 1976;
    <bullet>  during the Gulf War period beginning August 2, 1990, and 
ending January 2, 1992;
    <bullet>  for more than 180 consecutive days, any part of which 
occurred during the period beginning September 11, 2001, and ending on 
the date prescribed by Presidential proclamation or by law as the last 
day of Operation Iraqi Freedom; or
    <bullet>  in a campaign or expedition for which a campaign medal 
has been authorized, such as El Salvador, Lebanon, Grenada, Panama, 
Southwest Asia, Somalia, and Haiti.

    To qualify for a five-point preference, medal holders and Gulf War 
veterans who originally enlisted after September 7, 1980, or entered on 
active duty on or after October 14, 1982, without having previously 
completed 24 months of continuous active duty, must have served 
continuously for 24 months or the full period called or ordered to 
active duty. As of October 1, 1980, military retirees at or above the 
rank of major or equivalent are not entitled to preference unless they 
qualify as disabled veterans.
    A ten-point preference is given to

    <bullet>  honorably separated veterans who qualify as disabled 
veterans because they have served on active duty in the Armed Forces at 
any time and have a present service-connected disability or are 
receiving compensation, disability retirement benefits, or pension from 
the military or the Department of Veterans Affairs;
    <bullet>  honorably separated veterans who are Purple Heart 
recipients;
    <bullet>  the spouse of a veteran unable to work because of a 
service-connected disability;
    <bullet>  the unmarried widow of certain deceased veterans; and
    <bullet>  certain mothers of veterans who died in service or who 
are permanently and totally disabled.\12\
---------------------------------------------------------------------------
    \12\ To receive the 10-point preference, the mother must be either: 
(1) married with a husband who is totally disabled; or (2) widowed, 
divorced, or separated at the time the 10-point preference is claimed 
(the mother loses the 10-point preference when she remarries).
---------------------------------------------------------------------------
Special Appointment (Hiring) Authority
    There are three special appointment authorities available to 
Federal Government agencies related to veterans: (1) Veterans 
Recruitment Appointment (VRA); (2) Veterans Employment Opportunity Acts 
(VEOA); and (3) 30 percent or More Disabled Veteran (30 percent).
Veterans Recruitment Appointment (VRA)
    The use of a VRA allows agencies to appoint an eligible veteran 
without competition. The VRA is an excepted appointment to a position 
that is otherwise in the competitive service. After 2 years of 
satisfactory service, the veteran may be converted to a career-
conditional appointment in the competitive service.\13\
---------------------------------------------------------------------------
    \13\ A veteran may be given a noncompetitive temporary or term 
appointment based on VRA eligibility. These appointments do not lead to 
career jobs.
---------------------------------------------------------------------------
    Once in Federal employment, VRAs are treated like any other 
competitive service employee and may be promoted, reassigned, or 
transferred. VRA appointees with less than 15 years of education must 
complete a training program established by the agency. Veterans 
eligible for a VRA appointment are

    <bullet>  disabled veterans;
    <bullet>  veterans who served on active duty in the Armed Forces 
during a war, or in a campaign or expedition for which a campaign badge 
has been authorized;
    <bullet>  veterans who, while serving on active duty in the Armed 
Forces, participated in a United States military operation for which an 
Armed Forces Service Medal was awarded; or
    <bullet>  recently separated veterans.

    In addition to meeting the criteria above, veterans must have been 
separated under honorable conditions (i.e., the individual must have 
received either an honorable or general discharge).
Veterans Employment Opportunity Act (VEOA)
    Federal agencies can recruit outside their own workforce, to all 
competitive service employees, in filling permanent competitive service 
openings. Veterans are eligible to apply for this type of open position 
even if not a current competitive service employee if the veteran is a 
preference eligible or has completed three or more years of active 
service. The Federal Government agency can then appoint the veteran 
using the VEOA appointment authority.
Thirty Percent or More Disabled Veteran
    The 30 percent or more disabled veteran authority allows a Federal 
Government agency to non-competitively appoint any veteran with a 30 
percent or more service-connected disability to a permanent, temporary 
(1 year or less), or term (1 to 4 years) positions in the competitive 
service. For permanent appointments, the veteran is placed in a time 
limited (60 days maximum) appointment and then converted to permanent 
at management's discretion.
Affirmative Action: Federal Agencies
    Federal agencies must have a separate affirmative action program 
for disabled veterans as part of agency efforts to hire, place, and 
advance persons with disabilities under the Rehabilitation Act of 1973 
(P.L. 93-112).\14\ Agencies are required to
---------------------------------------------------------------------------
    \14\ Each year the Office of Personnel Management (OPM) prepares a 
report with information on the accomplishments of affirmative action 
programs for disabled veterans. The OPM reports are available at http:/
/www.opm.gov/veterans/dvaap.asp.

    <bullet>  provide placement consideration under special 
noncompetitive hiring authorities for VRAs and veterans with a 
disability rating of 30 percent or more;
    <bullet>  ensure that all veterans are considered for employment 
and advancement under merit system rules; and
    <bullet>  establish an affirmative action plan for the hiring, 
placement, and advancement of disabled veterans.
Affirmative Action: Contractors and Subcontractors

    Contractors and subcontractors with Federal contracts in excess of 
$100,000 must report to the DOL on efforts to hire veterans in specific 
categories: disabled veterans, other protected veterans, Armed Forces 
service medal veterans, and recently separated veterans. Contractors 
and subcontractors are required to post job openings through State job 
services or one stop offices, and may post job openings on the Federal 
online service (America's Job Bank).\15\
---------------------------------------------------------------------------
    \15\ The Federal online employment service can be found at http://
www.usajobs.com/.
---------------------------------------------------------------------------
Veterans Hiring Initiative
    On November 9, 2009, President Obama issued Executive Order 13518, 
which established a Veterans Hiring Initiative and established a 
Council on Veterans Employment co-chaired by the Secretaries of DOL and 
VA. As part of the initiative, the Office of Personnel Management (OPM) 
established a new Web site--http://www.fedshirevets.gov--to provide 
information for veterans on Federal Government employment. One of the 
features of the Web site is an agency directory providing for each 
agency, the name, email address, and telephone number of the individual 
within each agency responsible for promoting veterans' employment 
within the agency.
Other Federal Assistance
    The Department of Defense Appropriations Act, 2003 (P.L. 107-248) 
authorized the DoD to transfer funds to the Center for Military 
Recruitment, Assessment, and Veterans Employment. The center is a 
501(c)(6) organization supported by construction employers and building 
and trade organizations within the AFL-CIO to help veterans find 
employment in the construction industry, through operation of the 
``Helmets to Hardhats'' program.\16\ The transfer of funds has been 
done each year since FY 2003, with the FY 2010 transfer being $3.0 
million as provided by the Department of Defense Appropriations Act 
(P.L. 111-118).
---------------------------------------------------------------------------
    \16\ For more Information, see the program Web site at http://
www.helmetstohardhats.com/.
---------------------------------------------------------------------------
    The Department of Education transfers funds to the DoD to provide 
funding for participants in the ``Troops 2 Teachers'' Program. The 
program can provide a stipend of up to $5,000 for eligible military 
personnel to obtain certification as an elementary, secondary, or 
vocational/technical teacher. Instead of the stipend for certification, 
the program may pay a bonus of up to $10,000 to participants who teach 
in a high-poverty school. For FY 2010, the funding for the program is 
$14 million.
Author Contact Information
    Christine Scott Specialist in Social Policy <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294a5a4a465d5d694a5b5a0745464a074e465f">[email&#160;protected]</a>, 7-
7366

                                 <F-dash>
      Prepared Statement of Philip L. Rones, Deputy Commissioner,
          Bureau of Labor Statistics, U.S. Department of Labor

    Madam Chair and Members of the Subcommittee:
    Thank you for this opportunity to discuss the State of veterans' 
employment. In general, the employment situation among veterans overall 
does not differ much from that of nonveterans with similar demographic 
characteristics. However, age and other differences affect labor force 
status. It is important to consider these factors when comparing the 
employment situation of veterans to those of nonveterans, or when 
comparing different groups of veterans, because these groups differ in 
their demographic compositions. For example, recent veterans tend to be 
under the age of 35, and younger workers--whether veterans or 
nonveterans--are more likely to be unemployed than older workers.
    Information on the employment and unemployment status of veterans 
is obtained from the Current Population Survey (CPS), a monthly sample 
survey of about 60,000 households that is the source of the national 
unemployment rate. Basic labor market data about veterans are collected 
each month. Additional data on service-connected disability, Reserve or 
National Guard status, and service in a combat or war zone are now 
collected once a year. I would like to mention that a table showing 
veterans' and nonveterans' labor force status was recently added to the 
monthly Employment Situation news release.
    In the CPS, veterans are defined as men and women who have 
previously served on active duty in the U.S. Armed Forces and who were 
civilians at the time they were surveyed. Veterans are grouped 
according to the era during which they served. Veterans who served in 
more than one wartime period are classified in the most recent one. 
Those who served during a wartime period and another period are 
classified in the wartime period.
    In 2009, there were about 22 million veterans among the civilian 
noninstitutional population ages 18 and over. About half (51 percent) 
of them last served during World War II, the Korean War, and the 
Vietnam era. Virtually all of those veterans are age 55 and older, and 
only 3 percent are women.
    Almost 2 million veterans served during Gulf War era II (September 
2001 forward), accounting for nearly 1 in 10 of all veterans. These 
veterans are young--nearly two-thirds are under the age of 35. Also far 
more are women--18 percent--than were veterans of earlier eras. These 
younger veterans also have much different levels of education than do 
nonveterans of the same age. For example, among 25 to 34 year olds, 
veterans are far less likely to be high school dropouts (2 percent 
compared to 12 percent for nonveterans in 2008), but they are also less 
likely to have received a bachelor's degree (19 percent versus 33 
percent). That college graduation gap nearly disappears among veterans 
in the 35 to 44 age group.
    For most age and sex groups, employment status did not vary much 
based on veteran status. However, male veterans age 18 to 24 were 
somewhat more likely to be employed than were their nonveteran 
counterparts. Veterans of Gulf War era II were more likely to be 
employed than were veterans from World War II, the Korean War, and the 
Vietnam era, but that simply reflects the fact that so many veterans 
from these eras have reached retirement ages.
    Veterans of Gulf War era II who served in combat or war zones had 
employment rates that were similar to those of veterans of the era who 
did not serve in combat or war zones, according to August 2009 data 
from the CPS veterans supplement survey. Noncombat veterans of World 
War II, the Korean War, and the Vietnam era had a somewhat higher share 
of their population in employment than did those who had served in a 
combat or war zone, but that is likely the result of the combat 
veterans being somewhat older.
    The Committee also asked about unemployment rates for female versus 
male veterans. In 2009, there was no statistically significant 
difference between the unemployment rates for female and male veterans, 
as the rates were 8.0 and 8.1 percent, respectively. The jobless rates 
for female and male veterans of Gulf War era II were not statistically 
different either, 11.5 percent versus 9.9 percent. (The standard error 
for the unemployment rate of female Gulf War-era II veterans is large 
because of the relatively small size of this group.)
    Recent press reports have noted the high unemployment rate for 18 
to 24 year old male Gulf War era II veterans, 21.6 percent in 2009. 
This is slightly higher than the rate for male nonveterans of that age. 
The jobless rates for both groups have about doubled since 2007, 
reflecting the impact of the recession. A sharp rise also occurred in 
the unemployment rates for older male Gulf War era II veterans, 
although their rates are lower than those of their young counterparts.
    In August 2009, about 2.8 million veterans, or 13 percent of the 
total, reported having a service-connected disability. Veterans with a 
service-connected disability are assigned a disability rating by the 
U.S. Department of Veterans Affairs. Ratings range from 0 to 100 
percent, in increments of 10 percentage points, depending on the 
severity of the condition. According to the CPS, about 4 in 10 disabled 
veterans reported a disability rating of less than 30 percent, while 
about 1 in 4 had a rating of 60 percent or higher.
    Among veterans who served during Gulf War eras I and II (anytime 
since August 1990), about 20 percent reported having a service-
connected disability in August 2009. The unemployment rate of disabled 
veterans from the Gulf War eras was 10.4 percent, not statistically 
different from the rate for nondisabled veterans (9.7 percent). But the 
effect of their disability tends to reveal itself in employment 
measures, more so than unemployment. Of the disabled Gulf War era 
veterans, 71 percent were employed, compared with 82 percent of 
nondisabled veterans from this period. (This discussion of service-
connected disability looks at Gulf War eras I and II combined in order 
to increase the statistical reliability of the estimates.)
    Veterans are more likely to work for the Federal Government than 
are nonveterans. In August 2009, almost 20 percent of employed veterans 
with a service-connected disability worked for the Federal Government, 
as did about 8 percent of veterans without a service-connected 
disability. By comparison, only 2 percent of nonveterans worked for the 
Federal Government. Younger male Gulf War II era veterans (those 25 to 
34) are more likely than their nonveteran counterparts to work in 
service occupations and in construction, maintenance, and production 
jobs, and less likely to work in professional jobs and in sales and 
office occupations. Veterans in the 35-to-44 age group are more likely 
to be professionals and managers than their younger counterparts.
    Finally, I would like to note that Gulf War-era II veterans who 
were current or past members of the Reserve or National Guard had an 
unemployment rate of 10.6 percent in August 2009, compared with a rate 
of 13.8 percent for those who had not been members. That difference is 
largely related to the older age profile of the Reserve and Guard 
veterans.
    My colleagues and I now would be glad to answer your questions.

                               __________
             [Text and Image Version of Slide Presentation]
                 Employment Situation of Veterans 2009
                            Philip L. Rones
                          Deputy Commissioner
                       Bureau of Labor Statistics
                             April 15, 2010
Where do the data come from?
    <bullet>  The data are collected as part of the Current Population 
Survey (CPS). The CPS is a monthly survey of about 60,000 households.
    <bullet>  The CPS is a joint program between the Bureau of Labor 
Statistics (BLS) and the Census Bureau.
    <bullet>  It is the source of civilian employment and unemployment 
data, including the national unemployment rate.
    <bullet>  Questions are included in the survey that identify 
veterans and their period of service (when they served).
Who are veterans?
    <bullet>  Veterans are men and women who served on active duty in 
the U.S. Armed Forces and were civilians at the time of the survey. 
Members of the Reserve and National Guard are counted as veterans if 
they have ever been called to active duty.
    <bullet>  Nonveterans are men and women who have never served on 
active duty in the U.S. military.
Periods of Service
    <bullet>  Labor force statistics are available by these periods of 
service:

        Gulf War era II = Sept. 2001-present
        Gulf War era I = Aug. 1990-Aug. 2001
        Vietnam era = Aug. 1964-April 1975
        Korean War = July 1950-Jan. 1955
        World War II = Dec. 1941-Dec. 1946
        Other service periods = All other time periods

    ``Other service periods'' are the dates between war periods:
        May 1975-July 1990, Jan. 1947-June 1950,
        Feb. 1955-July 1964, Nov. 1941 or earlier

NOTE: The CPS monthly survey does not identify where a veteran served.
Data on veterans are available monthly from the Current Population 
        Survey (CPS)

    <bullet>  Veterans data are published monthly in the Employment 
Situation news release.
    <bullet>  Additional tables are available from BLS on topics such 
as:

        <bullet>  Age, sex, race, and Hispanic ethnicity
        <bullet>  Occupation and industry
        <bullet>  Full or part-time status
        <bullet>  Class of worker (private, government, self-employed, 
        unpaid family worker)
        <bullet>  Duration of unemployment
Additional data are available from the veterans supplement
    <bullet>  Collected every 2 years since 1985; conducted annually 
beginning in 2009. (August 2009, July 2010, August 2011, August 2012).
    <bullet>  Co-sponsored by the Veterans' Employment and Training 
Service (VETS) and the Department of Veterans Affairs (VA).
    <bullet>  Provides additional information about veterans such as 
presence and rating of service-connected disability, Reserve or 
National Guard status, and service in a combat or war zone.
Employment Situation of Veterans
Characteristics of veterans
Chart 1. Of the 22 million veterans, the largest group is from WWII, 
        Korean War, and Vietnam era
        [GRAPHIC] [TIFF OMITTED] 57015A.002
        

     Note: Gulf War-era II veterans served anywhere on active duty since
 September 2001. Gulf War-era I veterans served anywhere between August
 1990 and August 2001.
     Source: Bureau of Labor Statistics, Current Population Survey,
 annual averages 2009.
 


Chart 2. Most veterans are men
[GRAPHIC] [TIFF OMITTED] 57015A.003


     Source: Bureau of Labor Statistics, Current Population Survey,
 annual averages 2009
 


Chart 3. Overall, veterans are older than nonveterans
[GRAPHIC] [TIFF OMITTED] 57015A.004


     Source: Bureau of Labor Statistics, Current Population Survey,
 annual averages 2009
 


Chart 4. Most Gulf War-era II veterans are under 35 years old
[GRAPHIC] [TIFF OMITTED] 57015A.005


     Source: Bureau of Labor Statistics, Current Population Survey,
 annual averages 2009
 


Chart 5. Among men, veterans age 18-24 are somewhat more likely than 
        nonveterans to be employed
        [GRAPHIC] [TIFF OMITTED] 57015A.006
        

     Source: Bureau of Labor Statistics, Current Population Survey,
 annual averages 2009
 


Chart 6. Women of similar ages are employed at about the same rates
[GRAPHIC] [TIFF OMITTED] 57015A.007


     Source: Bureau of Labor Statistics, Current Population Survey,
 annual averages 2009
 


Chart 7. WWII, Korean War, and Vietnam-era veterans tend to have lower 
        employment rates, largely reflecting their age
        [GRAPHIC] [TIFF OMITTED] 57015A.008
        

     Source: Bureau of Labor Statistics, Current Population Survey,
 annual averages 2009
 


Chart 8. Employment varies little by combat status
[GRAPHIC] [TIFF OMITTED] 57015A.009


     Source: Bureau of Labor Statistics, Current Population Survey,
 annual averages 2009
 


Chart 9. Male veterans and female veterans have similar unemployment 
        rates by period of service
        [GRAPHIC] [TIFF OMITTED] 57015A.010
        

     Note: The unemployment rates of male and female Gulf War-era II
 veterans are similar. The unemployment rate for female Gulf War-era II
 veterans is based on a relatively small sample. Small samples have
 large standard errors.
     Source: Bureau of Labor Statistics, Current Population Survey,
 annual averages 2009
 


Chart 10. Among veterans who served sometime since August 1990, there 
        is little difference in the unemployment rates of those with or 
        without a service-connected disability
        [GRAPHIC] [TIFF OMITTED] 57015A.011
        

     Source: Bureau of Labor Statistics, Current Population Survey,
 August 2009 veterans supplement
 


Chart 11. Among veterans who served sometime since August 1990, those 
        with a service-connected disability are less likely to be 
        employed than those without a service-connected disability
        [GRAPHIC] [TIFF OMITTED] 57015A.012
        

     Source: Bureau of Labor Statistics, Current Population Survey,
 August 2009 veterans supplement
 


Chart 12. 1 of 5 employed disabled veterans works for the Federal 
        Government
        [GRAPHIC] [TIFF OMITTED] 57015A.013
        

     Note: ``Other workers'' includes persons employed in agriculture,
 the unincorporated self-employed, and unpaid family workers. Totals may
 not add to 100 percent because of rounding.
     Source: Bureau of Labor Statistics, Current Population Survey,
 August 2009 veterans supplement.
 


Chart 13. Current or past members of the Reserve or National Guard have 
        higher employment rates and lower unemployment rates than 
        veterans who never were members of the Reserve or National 
        Guard
        [GRAPHIC] [TIFF OMITTED] 57015A.014
        

     Source: Bureau of Labor Statistics, Current Population Survey,
 August 2009 veterans supplement.
 


    Further information is available at: http://www.bls.gov/cps/
demographics.htm#vets or by calling (202) 691-6378

                                 <F-dash>
          Prepared Statement of Mark Walker, Deputy Director,
             National Economic Commission, American Legion

    Madame Chairwoman, Ranking Member Boozman and distinguished Members 
of the Subcommittee, thank you for the opportunity to submit the views 
of The American Legion regarding the ``Status of Veterans Employment.''
    The Department of Labor (DOL) reports that one in three Iraq and 
Afghanistan veterans under the age of 24 are currently out of work. The 
unemployment rate for veterans of all ages was 9.8 percent in March. 
According to the same DOL report, the total number of unemployed 
veterans of the two wars is about 250,000. Unfortunately, many of the 
thousands of servicemembers who are currently leaving the service are 
from the combat arms and non-skilled professions that are not readily 
transferable to the civilian labor market. The American Legion 
understands that, with an overall unemployment rate at 14.7 percent for 
Iraq and Afghanistan veterans, there is an immense need to ensure that 
veterans are getting trained and are afforded ample opportunities to 
succeed in this unstable job market.
DEPARTMENT OF LABOR (DOL) VETERANS' EMPLOYMENT AND TRAINING SERVICE 
        (VETS)
    The American Legion is eager to see VETS grow; and especially would 
like to see greater expansion of entrepreneurial-based, self-employment 
opportunity training. The mission of VETS is to promote the economic 
security of America's veterans. This mission is executed by assisting 
veterans in finding meaningful employment. The American Legion believes 
that by strengthening American veterans, we in turn strengthen America. 
Annually, the Department of Defense (DoD) discharges approximately 
200,000 servicemembers. Recently separated servicemembers will seek 
immediate employment or, increasingly, have chosen some form of self-
employment. In order for the VETS program to assist these veterans to 
achieve their goals, it needs to:

    <bullet>  Expand its outreach efforts with creative initiatives 
designed to improve employment and training services for veterans;
    <bullet>  Provide employers with a labor pool of quality applicants 
with marketable and transferable job skills;
    <bullet>  Provide information on identifying military occupations 
that require licenses, certificates or other credentials at the local, 
State, or national levels;
    <bullet>  Eliminate barriers to recently separated servicemembers 
and assist in the transition from military service to the civilian 
labor market;
    <bullet>  Strive to be a proactive agent between the business and 
veterans' communities to provide greater employment opportunities for 
veterans; and,
    <bullet>  Increase training opportunities, support, and options for 
veterans who seek self-employment and entrepreneurial careers.

    The American Legion believes staffing levels for Disabled Veterans' 
Outreach Program (DVOPs) Specialists and Local Veterans' Employment 
Representatives (LVERs) should match the needs of the veterans' 
community in each State and should not be based solely on the fiscal 
needs of the State government. Such services will continue to be 
crucial as today's active duty servicemembers, especially those 
returning from Iraq and Afghanistan, transition into the civilian work 
world. Education, vocational and entrepreneurial training and 
employment opportunities will enable these veterans to succeed in their 
future endeavors. Adequate funding will allow these programs to 
increase staffing to provide comprehensive case management and job 
placement assistance to disabled and other eligible veterans.
    Section 4103A, title 38, United States Code (USC), requires that 
all DVOP specialists shall be qualified veterans and preference be 
given to qualified disabled veterans in appointment to DVOP specialist 
positions. Section 4104(c), title 38, USC, states: ``A State shall, to 
the maximum extent practicable, employ qualified veterans or eligible 
persons to carry out the services referred to in subsection (a). 
Preference shall be accorded first to qualified service-connected 
disabled veterans; then, if no such disabled veteran is available, to 
qualified eligible veterans; and, if no such eligible veteran is 
available, then to qualified eligible persons.''
    The American Legion believes that military experience is essential 
to understanding the unique needs of the veteran and that all LVERs, as 
well as all DVOPs, should be veterans and should be additionally 
educated to be able to address the needs of veterans who desire 
entrepreneurial support. The American Legion also believes that all 
employees of the Veterans' Employment and Training Services should be 
eligible veterans including Veteran Program Specialists.
    The American Legion supports legislation to restore language to 
Chapter 41, title 38, USC, that requires that part-time DVOP/LVER 
positions be assigned only after approval of the VETS program, and that 
the Secretary of Labor be required to monitor all career centers that 
have veterans on staff. P.L. 107-288 eliminated the requirement DOL-
VETS review all workforce centers annually and this has minimized 
Federal oversight of the programs. The Assistant Secretary (ASVET) has 
drastically cut funds for this activity and established a policy that 
only 10 percent of the centers operated under title 38, USC, will be 
reviewed. P.L. 107-288 removed the job descriptions of DVOPs and LVERs 
from title 38, USC, and gave the States the ability to establish the 
duties and responsibilities, thus weakening the VETS program across the 
country by eliminating the language that required these staff positions 
provide services only to veterans. Additionally, The American Legion 
seeks legislation that will transfer all DVOPs and LVERs from the State 
Agencies to DOL-VETS for supervision and oversight in order to ensure 
that the individuals employed to serve veterans are not used for other 
programs.
    Veterans returning from Afghanistan, Iraq and other tours of duty 
are not always coming back to a hero's welcome--at least from 
employers. The Bureau of Labor Statistics reported that the jobless 
rate for veterans between ages 18 to 24 was 21.1 percent in 2009. 
Numerous national publications have reported veterans are having a more 
difficult time finding jobs compared to non-veterans, due to physical 
and mental health issues, multiple deployments and difficulty with 
translating military skills into civilian workforce language. The 
employment market is tougher for young veterans. This is a major reason 
why funding the VETS program is so critical.
    Veterans need proper training and tools to begin new careers after 
they leave military service. The Veterans Workforce Investment Program 
(VWIP) has received $9.6 million in funding, which allows the program 
to operate in only 15 States. There are thousands of veterans available 
for work, but they lack marketable, technological skills, especially 
for jobs that exist in the Information Age economy. The problem is 
clearly a lack of adequate funding. Veterans are the only participants 
in this program. The budget baseline needs to be increased to allow 
VETS to train eligible veterans in all 50 States in FY 2011.
MILITARY OCCUPATIONAL SPECIALTY TRANSITION (MOST) PROGRAM
    The American Legion supports the new legislation, H.R. 929, 
introduced by Representative Welch (VT) that will authorize $60 million 
for the next 10 years to fund the program modeled after the highly 
successful Servicemembers' Occupational Conversion and Training Act 
(SMOCTA). SMOCTA was originally established to respond to the needs of 
veterans who had been hurt by the downsizing of the military in the 
1990s by providing job training and employment to eligible veterans. 
Veterans eligible for assistance under SMOCTA were those with a primary 
or secondary military occupational specialty that DoD determined were 
not readily transferable to the civilian workforce or those veterans 
with a service-connected disability rating of 30 percent or higher. 
SMOCTA was a unique job-training program because there was a job for 
the veteran upon completion of training. Many LVERs and DVOPs publicly 
praised the effectiveness of SMOCTA because it successfully returned 
veterans to the civilian workforce.
    H.R. 929, The Military Occupational Specialty Transition Act 
(MOST), builds upon the success of SMOCTA and would help veterans who 
are not currently eligible for training or education benefits, are 
unemployed or underemployed, and whose military training does not 
readily transfer to the civilian workforce. MOST would help businesses 
defray the costs of providing veterans with on-the-job training by 
providing up to 50 percent of a veteran's wage during training. The 
Congressional Budget Office estimates MOST could provide 3,000 veterans 
a year with the skills they need to compete in this challenging 
economic environment.
    If enacted, MOST would be the only Federal job training program 
available strictly for veterans and the only Federal job training 
program specifically designed and available for use by State veterans' 
employment personnel to assist veterans with barriers to employment.
    Today, with a tough economy and the high demands this Nation places 
on veterans, the rationale for reestablishing a modernized version of 
an effective job placement and on-the-job training program is stronger 
than ever.
VOCATIONAL REHABILITATION AND EMPLOYMENT SERVICE (VR&E)
    Since the 1940s, VA has provided vocational rehabilitation 
assistance to veterans with disabilities incurred during military 
service. The Veterans Rehabilitation and Education Amendments of 1980, 
Public Law (P.L.) 96-466, changed the emphasis of services from 
training, aimed at improving the employability of disabled veterans, to 
helping veterans obtain and maintain suitable employment and achieve 
maximum independence in daily living. Vocational Rehabilitation and 
Employment (VR&E) program employment goals are accomplished through 
training and rehabilitation programs authorized under Chapter 31 of 
title 38, USC. Title 38, USC, provides a 12-year period of eligibility 
after the veteran is discharged or first notified of a service-
connected disability rating. To be entitled to VR&E services, veterans 
must have at least a 20 percent service-connected disability rating and 
an employment handicap or less than a 20 percent disability and a 
serious employment handicap.
    The mission of the VR&E program is to help qualified, service-
disabled veterans achieve independence in daily living and, to the 
maximum extent feasible, obtain and maintain suitable employment. The 
American Legion fully supports these goals. As a nation at war, there 
continues to be an increasing need for VR&E services to assist 
Operation Iraqi Freedom and Enduring Freedom veterans in reintegrating 
into independent living, achieving the highest possible quality of 
life, and securing meaningful employment.
    The success of the rehabilitation of our disabled veterans is 
determined by the coordinated efforts of every Federal agency (DoD, VA, 
DOL, Office of Personnel Management, Department of Housing and Urban 
Development, etc.) involved in the seamless transition from the 
battlefield to the civilian workplace. Timely access to quality health 
care services, favorable physical rehabilitation, vocational training, 
and job placement play a critical role in the ``seamless transition'' 
of each veteran, as well as his or her family.
    Administration of VR&E and its programs is a responsibility of the 
Veterans Benefits Administration (VBA). Providing effective employment 
programs through VR&E must become a priority. Until recently, VR&E's 
primary focus has been providing veterans with skills training, rather 
than providing assistance in obtaining meaningful employment. Clearly, 
any employability plan that doesn't achieve the ultimate objective--a 
job--is falling short of actually helping those veterans seeking 
assistance in transitioning into the civilian workforce. Eligible 
veterans who are enrolled into the education and training programs 
receive a monthly allowance; those veterans who use VR&E for assistance 
with immediate employment do not. This policy leaves out needed 
assistance for veterans looking for immediate employment, which could 
lead that veteran into a different track and miss out on early entry 
into the civilian workforce.
    Another problem hindering the effectiveness of the VR&E program, as 
cited in reports by the Government Accountability Office (GAO), is 
exceptionally high workloads for the limited number of staff. This 
hinders the staff's ability to effectively assist individual veterans 
with identifying employment opportunities. A recent GAO report noted 
that 54 percent of all 57 regional offices stated they have fewer 
counselors than they need and 40 percent said they have fewer 
employment coordinators than they need. As in the past, achieving ample 
staffing in VR&E is a major concern. Without sufficient staffing, the 
success of VR&E programs becomes extremely challenging, especially due 
to the returning veterans from Iraq and Afghanistan and their more 
complex cases.
    Vocational counseling also plays a vital role in identifying 
barriers to employment and matching veterans' transferable job skills 
with those career opportunities available for fully qualified 
candidates. Becoming fully qualified becomes the next logical objective 
toward successful transition. Veterans' preference should play a large 
role in vocational counseling as well. The Federal Government has 
scores of employment opportunities that educated, well-trained, and 
motivated veterans can fill given a fair and equitable chance to 
compete. Working together, all Federal agencies should identify those 
vocational fields, especially those with high turnover rates, suitable 
for VR&E applicants. Career fields like information technology, claims 
adjudications, and debt collection offer employment opportunities and 
challenges for career-oriented applicants that also create career 
opportunities outside the Federal Government.
LICENSING AND CERTIFICATION
    DoD provides some of the best vocational training in the Nation for 
its military personnel. It establishes measures and evaluates 
performance standards for every occupation within the Armed Forces. 
There are many occupational career fields in the Armed Forces that 
easily translate to a civilian counterpart in the civilian workforce 
that require a license or certification. In the Armed Forces, these 
unique occupations are performed to approved military standards that 
may meet or exceed the civilian license or certification criteria.
    Upon separation, however, many servicemembers, certified as 
proficient in their military occupational career, are not licensed or 
certified to perform the comparable job in the civilian workforce, thus 
hindering chances for immediate civilian employment and delaying career 
advancement. This situation creates an artificial barrier to employment 
upon separation from military service. Military Occupation Specialties 
(MOS) or ratings such as motor transport, corpsman or medic, need to 
undergo additional training, once out of the service, to work in their 
career path. This process slows down the veteran in obtaining gainful 
employment.
    The American Legion supports efforts to eliminate employment 
barriers that impede the transfer of military job skills to the 
civilian labor market. We also support efforts that require DoD take 
appropriate steps to ensure that servicemembers be trained, tested, 
evaluated and issued any licensure or certification that may be 
required in the civilian workforce prior to separation. The American 
Legion supports efforts to increase the civilian labor market's 
acceptance of the occupational training provided by the military.
VETERANS EDUCATION
    With the passage and implementation of the Post-9/11 GI Bill, 
veterans are now able to attend school at no cost to them in additional 
to receiving a housing allowance and an annual books stipend. These 
benefits are entitled benefits to those who have served since September 
11, 2001, and will allow those individuals to gain an education and 
solid employment path. With all the benefits there are still 
disparities that exist in the current Post-9/11 GI Bill.
    Veterans choose different career paths and with that they decide on 
alternate educational path. Veterans receive certain training in the 
military and would like to continue their career path by attending 
vocational schools, apprenticeship program, on-the-job training and 
possible flight training. In order for these veterans to receive 
benefits, they must use the Montgomery GI Bill benefits. Comparatively, 
the Post-9/11 GI Bill provides a more comprehensive payment, but 
because veterans are not attending degree-granting institutions or 
Institutes of Higher Learning, they cannot use Chapter 33 and must rely 
on the Montgomery GI Bill to receive their education.
    They will not receive in-state tuition, not the housing allowance 
nor the books stipend, but instead will receive a small financial 
figure to help them through this education process. The veteran is 
entitled to the Post-9/11 GI Bill, but cannot use their comprehensive 
education benefits for the school of their choosing. Veterans and their 
families need to become productive members of the working force in the 
shortest amount of time and, in most cases, a 10-20 month ongoing 
program is much shorter than spending 4 years getting a degree that 
does not guarantee them employment. Employment in this economy is the 
final outcome. The American Legion wants to ensure that this is the 
final goal and that with the use of all of their benefits that veterans 
have a choice in choosing employment path.
CONCLUSION
    The American Legion strongly believes that with the status of the 
economy and veterans' unemployment being at a staggeringly high number 
that we are duly responsible for the welfare of these veterans and 
their families. The American Legion is working hard to assist veterans 
during their time of need with our Temporary Financial Assistance, and 
direct employment assistance through our Economic Division; however, 
the Federal Government can ensure that the programs that are in place 
are fully staffed, efficient and achieving their goals of finding 
veterans gainful employment. The American Legion will continue to 
assist veterans and their families in their transition to employment 
through our Career Fairs that we sponsor across the country with 
Military.com and RecruitMilitary along with the Small Business 
Development Workshops that we hold during our annual Washington 
Conference and National Convention. Lastly, The American Legion would 
like the opportunity to work with Congress to ensure that veteran-based 
programs are successful.
    Again, thank you for the opportunity to submit the opinion of The 
American Legion on these issues.

                                 <F-dash>
      Prepared Statement of Tim S. Embree, Legislative Associate,
                Iraq and Afghanistan Veterans of America

    Madam Chairwoman, Ranking Member, and Members of the Subcommittee, 
on behalf of Iraq and Afghanistan Veterans of America's one hundred and 
eighty thousand members and supporters, I would like to thank you for 
allowing us to testify before your Subcommittee. My name is Tim Embree 
and I served two tours in Iraq with the United States Marine Corps 
Reserves. The ``Status of Veterans Employment'' is a critical issue 
facing many Iraq and Afghanistan veterans and IAVA welcomes the 
opportunity to discuss this issue at length with you.
Executive Summary:
    America's newest veterans face serious employment challenges. The 
process of returning to civilian life is complicated by the most severe 
economic recession in decades. Furthermore, many Iraq and Afghanistan 
veterans, leaving the active-duty military, find civilian employers who 
do not understand the value of their skills and military experience. As 
a result, unemployment rates for Iraq and Afghanistan veterans are 
staggering. Additionally, the National Guardsmen and Reservists who 
leave behind their civilian lives to serve alongside active-duty 
troops, are inadequately protected against job discrimination. The 
experience of previous generations of veterans who faced similar 
situations suggest that today's veterans may continue to struggle for 
years to come.
    IAVA recommends the following to combat veterans' unemployment:

    <bullet>  Fully restore funding to the ESGR, which provides 
critical USERRA protections for deploying Guard and Reservists. ESGR is 
slated to be cut 17 percent in FY 2011.
    <bullet>  Grant Post-9/11 GI Bill benefits to veterans who enroll 
in apprenticeships, On the Job Training, and vocational programs.
    <bullet>  Allow service-disabled veterans the option to use their 
education benefits and voc-rehab services concurrently.
    <bullet>  Extend the tax credit in the American Recovery and 
Reinvestment Act, which incentivizes hiring Iraq and Afghanistan 
veterans, beyond 2010.
    <bullet>  Increase Department of Labor VETS budget by $7.3 million 
for FY 2011 to improve job placement programs.
    <bullet>  Mandate public reporting of all VETS-100 forms (# of 
veterans hired by Federal contractors).
    <bullet>  Create civil and criminal penalties for employers who 
knowingly violate USERRA protections.
    <bullet>  Extend USERRA protections to National Guardsmen, 
Reservists, and servicemembers working in domestic response operations, 
such as hurricane or wildfire missions.
I. Status of Veterans Employment
``I have had to move my family 2-3 times in search for employment . . . 
      I have had LOTS of difficulty finding employment''--IAVA Vet

    Unemployment rates among new veterans have risen significantly in 
the last 2 years. According to the Bureau of Labor Statistics, in 2009, 
the average unemployment rate for Iraq and Afghanistan-era veterans was 
10.2 percent. Unemployment rates from 2007 and 2008 were 6.1 percent 
and 7.3 percent respectively. The unemployment rate of Reserve and 
National Guardsmen, who often leave behind civilian jobs when they 
deploy, have more than quadrupled since 2007. They now rival that of 
veterans recently discharged from the military--10.6 percent vs. 13.8 
percent.
    Disturbingly, the situation appears to be deteriorating further. 
According to the Bureau of Labor Statistics, in March 2010, the 
unemployment rate of Iraq and Afghanistan-era veterans was 14.7 
percent.<SUP>i</SUP>
---------------------------------------------------------------------------
    \i\ Bureau of Labor Statistics, ``Employment Situation Summary: 
March 2010,'' April 2, 2010, Table A-5: http://www.bls.gov/
news.release/empsit.nr0.htm.
---------------------------------------------------------------------------
        Unemployment Rates of Iraq and Afghanistan-Era Veterans
[GRAPHIC] [TIFF OMITTED] 57015A.015


``All the jobs I found that would hire vets were security jobs that pay 
                      $8 bucks an hour''--IAVA Vet

    Finding a job for a returning veteran is hard, but finding quality 
employment is extremely difficult. Sixty-one percent of employers do 
not believe they have ``a complete understanding of the qualifications 
ex-servicemembers offer'' <SUP>ii</SUP> and recently separated 
servicemembers with college degrees earn on average almost $10,000 less 
per year than their nonveteran counterparts.<SUP>iii</SUP> This wage 
gap could continue for decades; Vietnam veterans earned significantly 
less than their civilian peers till they were in their fifties.
---------------------------------------------------------------------------
    \ii\ Military.com, ``Military.com Study Reveals Profound Disconnect 
between Employers and Transitioning Military Personnel,'' November 5, 
2007: http://www.military.com/aboutus/twocolumn/
0,15929,PRarticle110507,00.html.
    \iii\ Abt. Associates, Inc. ``Employment Histories Report, Final 
Compilation Report,'' March 24, 2008: http://www1.va.gov/vetdata/docs/
Employment_History_080324.pdf.
---------------------------------------------------------------------------
    IAVA is also concerned about the duration of new veterans' 
unemployment. In 2009, 75,000 Iraq and Afghanistan-era veterans 
suffered from long-term unemployment--15 weeks or more. This represents 
more than 45 percent of all unemployed new veterans in 2009.
``First interview question was `Are you going to be hired and then have 
                     to leave again?' ''--IAVA vet

    Employers are growing increasingly wary of hiring or reemploying 
National Guardsmen and Reservists because of their unprecedented 
mobilization rates. Tens of thousands of reservists returning from 
combat are not being promptly reemployed or when reemployed they are 
not receiving the pay, pensions, health care coverage, and other 
benefits they are entitled to. More than 40 percent of Guardsmen and 
Reservists lose income when they are mobilized.<SUP>iv</SUP> Self-
employed reservists are suffering 55 percent earnings losses when they 
are activated.
---------------------------------------------------------------------------
    \iv\ ``41 percent of drilling unit members reported income loss 
[when mobilized for a contingency operation].'' GAO-03-573T, ``Military 
Personnel: Preliminary Observations Related to Income, Benefits, and 
Employer Support for Reservists During Mobilization.'' March 19, 2003: 
http://www.gao.gov/new.items/d03549t.pdf.
---------------------------------------------------------------------------
II. Existing Programs
    Federal veterans' employment services can be categorized into one 
of three types of programs: job training, job placement and job 
protection. A proper balance of attention and resources must be 
dedicated to each category to ensure our Nation's veterans can 
successfully return to work.
A. Job Training Programs
GI Bill Benefits
    ``After approximately 30 interviews and temporary positions I chose 
to attend school under the new GI Bill.''--IAVA Vet

    The new GI Bill is the greatest investment in veterans and their 
families since World War II and it couldn't have come at a better time. 
Veterans, facing tough economic times and high unemployment numbers, 
are flocking to universities across the Nation, making themselves more 
marketable on the job front. The Post-9/11 GI Bill has enabled over 
230,000 students<SUP>v</SUP> to attend first-rate colleges and 
universities.
---------------------------------------------------------------------------
    \v\ Spring 2010 GI Bill Benefit Processing, http://gibill.va.gov/
spring2010.htm
---------------------------------------------------------------------------
 ``This was a huge disappointment to me when I found out my schooling 
    was not covered under the new GI Bill . . . I am a mechanic by 
 vocation, there are no 4-year degree programs for people like me.''--
                                IAVA Vet

    Unfortunately, a significant number of veterans have been short-
changed under the new GI Bill. Apprenticeships, On-the-Job-Training and 
vocational programs are excluded from the new GI Bill. IAVA believes 
the Post-9/11 GI Bill should be extended to veterans enrolled in these 
highly beneficial programs.
    Non-degree granting schools, or vocational schools, are 
specifically excluded from the new GI Bill and no provision was made 
for Apprenticeship and On-the-Job-Training (OJT) programs. Both types 
of programs were covered under the old GI Bill. Oddly, a veteran can 
still use their new GI Bill to obtain a vocational certificate just not 
at a vocational school.
    Veterans pursuing vocational training should not be penalized for 
going to a strictly vocational school. The WWII GI Bill sent over 8 
million veterans to school. More than half of those veterans were not 
seeking a college degree; they participated in some type of vocational 
training program. Unfortunately, nearly 16,000 modern veterans pursuing 
vocational training will not be able to access the new GI Bill.
Vocational Rehabilitation and Employment Services (Voc-Rehab)
    The Voc-Rehab program offers individual rehabilitation programs for 
disabled veterans with an emphasis on employment counseling and 
services, as well as assistance finding a job. For severely disabled 
veterans, unable to return to work, the program gives them the tools to 
live as independently as possible. Participants who complete the 
rehabilitation earn on average six times what they did before the 
program.<SUP>vi</SUP> Over 110,000 veterans participated in FY 
2009<SUP>vii</SUP>; double the number of veterans who participated in 
FY 2003.
---------------------------------------------------------------------------
    \vi\ Department of Veterans Affairs, Office of Policy and Planning, 
``Women Veterans: Past, Present and Future,'' September 2007, p. 19-20: 
http://www1.va.gov/womenvet/docs/WomenVet_History.pdf.
    \vii\ Department of Veterans Affairs, Annual Benefits Report FY 
2009, (Page 67), http://www.vba.va.gov/REPORTS/abr/2009_abr.pdf
---------------------------------------------------------------------------
    Unfortunately, only a small percentage of veterans who enroll in 
Voc-Rehab successfully complete the program.<SUP>viii</SUP> And 
according to a 2004 VA Voc-Rehab Task Force, the type and timeliness of 
its employment services are ``out of sync'' with the 21st century labor 
market and attitudes towards persons with disabilities.<SUP>ix</SUP> 
For example, to use Voc-Rehab to pay for college, veterans must 
convince Voc-Rehab counselors that they are actually smart enough to 
succeed at the college of their choice. We have heard countless 
anecdotal stories where this process has pitted a disabled veteran 
against their counselor when the veteran wants to challenge themselves 
at a tougher school.
---------------------------------------------------------------------------
    \viii\ ``Despite the tens of thousands of VR&E program participants 
in a given year, the number of veterans rehabilitated by obtaining a 
job or achieving independent living goals averages only about 10,000 a 
year.''VA Vocational Rehabilitation and Employment Task Force, ``Report 
to the Secretary of Veterans Affairs: The Vocational Rehabilitation and 
Employment Program for the 21st Century Veteran,'' 2004, p. 4: http://
www1.va.gov/op3/docs/VRE_Report.pdf.
    \ix\ Ibid., at 5.
---------------------------------------------------------------------------
    We believe that by breaking down the bureaucratic wall between the 
new GI Bill and vocational rehabilitation and by allowing service-
disabled veterans the option to use their GI Bill benefits and 
vocational rehabilitation services concurrently, disabled veterans will 
have access to quality rehabilitative services without the hassle of 
proving their mental acuity.
Transition Assistance Program/Disabled Transition Assistance Programs 
        (TAP & DTAP)
    Servicemembers approaching separation can take advantage of the 
Transition Assistance Program (TAP), which provides employment and 
training information as well as a variety of counseling programs. The 
Departments of Defense, Veterans Affairs, Transportation, and Labor 
partner to conduct the 3-day workshops where servicemembers learn 
interview skills, tips for job searches, and how to prepare civilian 
resumes and cover letters. The program has shown some effectiveness; 
servicemembers who participate in TAP find their first post-military 
job 3 weeks faster, according to DOL.<SUP>x</SUP>
---------------------------------------------------------------------------
    \x\ Gerry Gilmore, ``Pentagon Improves Services for Transitioning 
Servicemembers, Families,'' American Forces Press Service, May 19, 
2008: http://www.defenselink.mil/news/newsarticle.
aspx?id=49927.
---------------------------------------------------------------------------
    Regrettably, utilization of TAP is low. The Marine Corps is the 
only branch of service that requires its members to sign up for TAP 
briefings but attendance is still not mandatory. The DoD has 
established a goal of 85 percent participation across the 
services,<SUP>xi</SUP> yet only 60-65 percent of all separating active-
duty servicemembers attend the TAP employment seminars.<SUP>xii</SUP> 
In the National Guard and Reserves, the usage rates are even lower: 
only 30 percent of all separating Reservists or National Guardsmen 
attend some portion of TAP.<SUP>xiii</SUP> In addition, all aspects of 
TAP are not always available and the time constraints of troops' 
demobilization process can also make attending a TAP session difficult, 
if it is available at all.<SUP>xiv</SUP> To encourage greater 
participation, the DoD launched TurboTap.org in 2007. The Defense 
Department Web site allows active-duty and reserve servicemembers 
access to transition resources on their own time, including information 
on military and VA benefits and employment assistance.
---------------------------------------------------------------------------
    \xi\ Joseph C. Sharpe, Jr., Deputy Director of the American Legion 
National Economic Commission, Testimony before the United States House 
of Representatives Committee on Veterans' Affairs, ``U.S. Department of 
Veterans Affairs/U.S. Department of Defense Cooperation in 
Reintegration of National Guard and Reserve,'' June 24, 2008: http://
veterans.house.gov/hearings/
Testimony.aspx?TID=32446&Newsid=260&Name=%20Joseph%20C.%20Sharpe,%20Jr.
    \xii\ Ibid.
    \xiii\ Women Veterans in Transition Pilot Research Study by 
Business and Professional Women's Foundation, ``Building Strong 
Programs and Policies to Support Women Veterans,'' p. 2: http://
www.bpwusa.org/i4a/pages/index.cfm?pageid=5383.
    \xiv\ Department of Labor, ``Employment Situation of Veterans: 
2007,'' April 10, 2008, p. 3: http://www.bls.gov/news.release/pdf/
vet.pdf.
---------------------------------------------------------------------------
  ``Once I learned how to translate my skills into civilian-speak, I 
   found I was in high demand and very competitive for several good 
                         positions.''--IAVA Vet

    While IAVA is happy to see that the President's budget request for 
FY 2011 is asking for a 14 percent increase in funding for TAP 
trainings, we believe that we must modernize TAP and universally 
require the civilian employment training to ensure every separating 
veteran has the skills they need to secure meaningful employment. There 
is no commonly accepted translation of military certifications, 
training and experience to their civilian counterparts. For example, 
Navy Corpsmen and Army medics are performing difficult medical 
procedures under unimaginable conditions but they do not qualify for 
employment in a similar medical field once they transition to the 
civilian world. To improve the TAP courses a study should be 
commissioned that will report recommendations to Congress on the 
differences between DoD and civilian vocational certifications and 
licenses to ease the transition of certifications into the civilian 
world.
B. Job Placement
Tax Credits
    The American Recovery and Reinvestment Act, commonly known as the 
``Stimulus bill,'' authorized a 2 year tax credit for employers who 
hire unemployed Iraq and Afghanistan-era veterans. This tax credit of 
up to $2,400 per unemployed veteran was created to incentivize 
employers to hire veterans who were taking the brunt of the 
unemployment blight.
  ``Many employers say they `value Veterans', but sometimes it's just 
                            about the bottom
  line. Providing monetary or tax incentives may make employers think 
                               more about
                     employing Veterans''--IAVA Vet
    IAVA and many other veterans organizations lauded this tax credit 
when it passed. We believe that this tax credit should be extended 
indefinitely. Given the current state of the economy and the fact the 
other groups, such as ex-felons, are permanently eligible for the same 
tax credit it is the right thing to do.
 ``My employer knew nothing about tax benefit for hiring disabled vet 
                  until after I was hired.''--IAVA Vet

    The unemployed veteran tax credit is accompanied by a permanent tax 
credit for the hiring of disabled veterans, worth up to $4,800 per 
disabled veteran. However, the VA and the Department of Labor VETS 
program have done a poor job advertising either of these tax credits to 
potential employers and job seeking veterans. A tax credit designed to 
spur the hiring of veterans that no one knows about is ineffective and 
can lead to frustration and misunderstanding between veterans and the 
business community. IAVA believes that there needs to be a coordinated 
outreach effort by the VA and Department of Labor to educate employers 
and veterans about this helpful benefit.
Department of Labor Veterans' Employment and Training Services
    Low-income, homeless, or disabled veterans can turn to the 
Department of Labor's Veterans' Employment and Training Service (VETS). 
The VETS program provides grants to State and local agencies to provide 
services, such as training, licensing and certification, one-on-one 
employment counseling, and support services. These programs helped over 
850,000 veterans last year.<SUP>xv</SUP> Other grants fund 
representatives to work with employers and human resources personnel to 
increase employment opportunities for veterans.
---------------------------------------------------------------------------
    \xv\ U.S. Department of Labor, ``Budget in Brief FY 2011'', page 
76, http://www.dol.gov/dol/
budget/2011/PDF/bib.pdf.
---------------------------------------------------------------------------
 ``New York State has a good department of labor in helping vet's find 
                                 jobs''
                               --IAVA Vet

    IAVA is concerned that while the President's request for the VETS 
budget contains a modest increase in funding (2.4%), none of this 
increase will be spent on improving or expanding veterans job placement 
programs. We are also concerned that some VETS programs may not be 
correctly measuring or reporting their effectiveness as reported by the 
Government Accountability Office.<SUP>xvi</SUP> In some States, VETS 
programs are either understaffed or splitting their time between 
serving veterans and nonveterans. IAVA concurs with this Committee's 
minority views and believes the DOL VETS program should have their 
funding increased by an additional $7.3 million.<SUP>xvii</SUP> This 
funding would used to train veteran employment specialists and improve 
Federal oversight of these programs.
---------------------------------------------------------------------------
    \xvi\ GAO-07-594, ``Veterans' Employment and Training Service: 
Labor Could Improve Information on Reemployment Services, Outcomes, and 
Program Impact,'' May 2007: http://www.gao.gov/new.items/d07594.pdf.
    \xvii\ House of Veterans Affairs Committee Minority, Views and 
Estimates for FY 2011, page 9, http://republicans.veterans.house.gov/
documents/FY2011RepublicanVandE.pdf.
---------------------------------------------------------------------------
Federal Hiring: Veterans Preference
    The Federal Government hires three times the percentage of veterans 
as the private sector<SUP>xviii</SUP> and therefore plays a critical 
role in combating veterans' unemployment. Last November President Obama 
issued an executive order outlining the Veterans Employment 
Initiative.<SUP>xix</SUP> This order required enhanced recruitment and 
promotion of employment opportunities for veteran within the Federal 
Government and established a Council on Veterans Employment. The 
Federal Government has already stood up a Web site, 
www.fedshirevets.gov and released a strategic plan to implement this 
goal of increasing the number of veterans working in the Federal 
Government.
---------------------------------------------------------------------------
    \xviii\ Office of Personal Management, ``The Governmentwide 
Veterans' Recruitment and Employment Strategic Plan for FY 2010-FY 
2012,'' page 2, http://www.fedshirevets.gov/pdf/Vets_
Initiative_Strategic_Plan.pdf.
    \xix\ Executive Order, President Obama, November 9th, 2009, http://
www.whitehouse.gov/the-press-office/executive-order-veterans-
employment-initiative.
---------------------------------------------------------------------------
 ``I searched usajobs.gov, submitted applications but never heard from 
 them. I guess there is a magic way to write your job description.''--
                                IAVA Vet

    IAVA is highly encouraged to see the speed and thoroughness of this 
Council in addressing these employment issues. We believe that their 
Web site is well organized and extremely helpful to job seeking 
veterans. However, it still lacks a clear explanation of what the 5 or 
10 point veteran preference actually means in terms of the Federal 
hiring process and the job bank is just a link to usajobs.gov. The 
Council's strategic plan lays out a clear and ambitious set of goals 
and we believe that it will take both the Executive and Legislative 
branch working together to ensure that these goals are implemented all 
the way down to the GS-11 Human Resources Specialist responsible for 
hiring the veterans in each agency.
Federal Contracting
``I ended up getting a job with a company that is contracted out by the 
                               government
and is unionized. So everyone is understandable and supports my actions 
                                with the
                         military.''--IAVA Vet

    The Federal Government is the world's largest buyer of goods and 
services, with purchases totaling over $425 billion each 
year.<SUP>xx</SUP> With this level of spending the Federal Government 
can leverage its purchasing power to require potential contractors to 
increase veterans hiring. Current Federal law mandates Federal 
contracts over $100,000 ``take affirmative action to employ'' 
veterans.<SUP>xxi</SUP> These contractors are required to publish job 
openings with the State job banks and to annually report the number of 
veterans they have retained by submitting a VETS-100 form to the 
Department of Labor. These contractors are also prohibited from 
discriminating against veterans.
---------------------------------------------------------------------------
    \xx\ http://www.sba.gov/contractingopportunities/index.html.
    \xxi\ 38 U.S.C. 4212.
---------------------------------------------------------------------------
    Unfortunately, the data collected from VETS-100 forms is aggregated 
and only partially published in the DOL VETS annual report. IAVA 
believes that these forms should be publically reported, allowing 
interested parties to review whether contractors are actually following 
through on these contracting mandates. The hope is that the public 
disclosure of these forms will create a healthy competition between 
contractors on which contractor hired more veterans. IAVA would love to 
see Boeing and Lockheed Martin making these statistics part of their 
bids for the next big defense contract.
    Failure to comply with established contracting requirements can 
lead to the suspension or disbarment of that contractor from receiving 
future contracts. IAVA believes violations of USERRA protections should 
also be included as grounds for suspension or disbarment.
    Finally, IAVA was troubled to learn the Troubled Asset Relief 
Program (TARP), authorizing up to $770 billion to bailout banks, 
exempted banks receiving Federal bailouts from veterans hiring 
requirements, while protections for minorities, women and disabled 
individuals were still included. IAVA believes that TARP should be 
amended to force compliance with veterans' preference rules and that 
all future stimulus programs should not overlook veterans hiring 
preferences.
Small Business Help
    Many veterans have chosen self-employment over unemployment by 
starting their own small business ventures. Veterans represent 14.5 
percent of small business owners nationally.<SUP>xxii</SUP> For 
reservist and veteran business owners looking for technical or 
financial assistance, support is available through the Small Business 
Administration (SBA) and the Department of Veterans Affairs.
---------------------------------------------------------------------------
    \xxii\ Characteristics of Veteran Business Owners and Veteran-owned 
Businesses Chapter 5 of The Small Business Economy for Data Year 2006, 
A Report to the President, http://www.sba.gov/advo/research/
sbe_07_ch5.pdf.
---------------------------------------------------------------------------
    Last year, the SBA assisted more than 180,000 veterans, reservists, 
active servicemembers and spouses through its entrepreneurial 
counseling and training services.<SUP>xxiii</SUP> The agency offers 
low-interest capital through the new Patriot Express Pilot Loan 
program. The SBA Office of Veterans Business Development also operates 
five veteran-specific business outreach centers and provides Federal 
contracting assistance to veterans, although it has relatively limited 
resources to do so.
---------------------------------------------------------------------------
    \xxiii\ Small Business Administration, FY 2009 Performance Report, 
page 66, http://www.sba.gov/idc/groups/public/documents/sba_homepage/
fy_2011_cbj_09_apr.pdf.
---------------------------------------------------------------------------
    In addition, the SBA has teamed up with the VA and the 
International Franchise Association to create the Veterans Transition 
Franchise Initiative, which offers 30 percent off franchising fees for 
veterans.
    Veterans can also turn to the VA's Center for Veterans Enterprise 
(CVE) for assistance with starting or expanding their businesses. 
However, since this Committee recently held a hearing on this 
particular issue we would like to associate our comments with the 
testimony of Joe Sharpe, from the American Legion when he concluded, 
``The implementation of CVE is small and does not necessarily provide 
the right assistance to veterans. The Vetbiz.gov Web site is not easily 
navigated and needs to become a more user-friendly Web site.''
    ``During my deployment I had to totally shutter the doors on my 
      construction business. It put my family in a very difficult 
                          position''--IAVA Vet

    IAVA believes that the VA must work to mitigate the effect of 
frequent and lengthy deployments by providing small businesses owners 
in the National Guard and Reserves with additional access to capital, 
insurance, and bonding via the VA's Center for Veterans Enterprise. The 
Center for Veterans Enterprise should receive appropriate funding and 
resources to achieve this goal.
Other
    We would be remiss to omit several other veterans' jobs programs 
that exist such as www.vetsuccess.gov, www.warriorgateway.org and 
Helmets to Hardhats. The VA has extensively briefed IAVA on their new 
job search Web site for veterans and more specifically disabled 
veterans. We applaud the VA for reaching out to potential employers and 
recruiting them to participate. However, we believe that vetsuccess.gov 
should be integrated with www.fedshirevets.gov and expanded for all 
veterans creating a single jobs for veterans portal. Warrior Gateway 
was created by the Business Executives for National Security at the 
request of the Chairman of the Joint Chiefs of Staff Admiral Mike 
Mullen to assist OIF and OEF veterans navigate the government agencies 
and non-profits serving veterans. Helmets to Hardhats is a Department 
of Defense funded initiative to place separating servicemembers in 
skilled labor positions and we have heard very good feedback from our 
members about this program.
C. Job Protections
USERRA
    Although National Guardsmen and Reservists are legally protected 
under the Uniformed Services Employment and Reemployment Rights Act 
(USERRA), many troops still experience employment discrimination 
because of their military service.
   ``I can offer no quotes, smoking guns, or neon signs stating that 
                         `reservists' need not
  apply, but I have heard the tone of an interviewer become cold the 
    instant the `reserves' comes up in the conversation.''--IAVA Vet

    Among National Guardsmen and Reservists who have served since 
September 11, 2001, ``Nearly 11,000 were denied prompt reemployment;'' 
<SUP>xxiv</SUP> ``More than 22,000 lost seniority and thus pay and 
other benefits;'' <SUP>xxv</SUP> ``Nearly 20,000 saw their pensions 
cut;'' <SUP>xxvi</SUP> and ``Nearly 11,000 didn't get their health 
insurance back.'' <SUP>xxvii</SUP>
---------------------------------------------------------------------------
    \xxiv\ United States Senate Health, Education, Labor and Pensions 
Committee, ``Kennedy Holds Hearing on Veterans' Employment Issues,'' 
November 8, 2007: http://help.senate.gov/Maj_press/2007_11_08_b.pdf.
    \xxv\ Ibid.
    \xxvi\ Ibid.
    \xxvii\ Ibid.
---------------------------------------------------------------------------
    The Employer Support of the Guard and Reserve (ESGR) is the single 
best resource for educating employers and veterans on USERRA rights and 
for resolving USERRA issues quickly and informally. However, the 
President's budget request for FY 2011 plans to slash the ESGR budget 
by nearly 17 percent, this will effectively cripple this great asset. 
These cuts could not have come at a worse time with the rising number 
of USERRA violations and the fact that of the tens of thousands of 
reserve component troops who have suffered this discrimination, 
approximately three-quarters of them do not seek assistance.\32\
    A common reason veterans are not seeking help is the lack of 
familiarity with USERRA protections and obligations. Twenty-eight 
percent of reservists report not receiving information on USERRA/
reemployment rights during activation or deactivation.\33\ More than a 
third of employers surveyed by Military.com were unaware that USERRA 
regulations required them to give a returning veteran the same or an 
equivalent job.\34\ IAVA believes that the ESGR must be fully funded, 
not cut by 17 percent in FY 2011. We also believe that DoD should 
implement an extensive notification program for servicemembers' 
employers specifically informing them of their USERRA obligations.
``Even though I was hired back right away I lost 3 years of raises and 
my company doesn't trust me because they are scared I will be deployed 
                           again''--IAVA Vet

    We believe that USERRA must be modernized and strengthened to 
handle the historic levels of deployments of the National Guard and 
Reserves. We believe this can be done by:

    <bullet>  Creating civil and criminal penalties for employers who 
knowingly violate USERRA protections.;
    <bullet>  Granting servicemembers their day in court, as intended 
by the original USERRA statute by making USERRA complaints exempt from 
predispute binding arbitration agreements;
    <bullet>  Preventing employers from firing an employee while a 
USERRA claim is being processed, by requiring courts hearing USERRA 
complaints to utilize their full range of legal powers, including 
injunctions when appropriate; and
    <bullet>  Protect Reservists and Guardsmen from termination, loss 
of seniority and loss of sick and vacation time from their civilian 
jobs while they receive DoD medical treatment for injuries the 
servicemember sustained in the uniformed services.

    USERRA compliance is also not uniform across the board. Some 
Federal and State employees do not enjoy the same level of protection 
under USERRA as employees in the private sector. Astonishingly, 
National Guardsmen and Reservists serving in domestic disaster response 
situations are not eligible for USERRA protections at all. IAVA 
recommends extending USERRA protections to National Guardsmen, 
Reservists, and to servicemembers working in domestic response 
operations such as hurricane or wildfire missions and holding Federal 
and State governments to the same standards of USERRA compliance as 
private sector employers.
Department of Labor VETS
    Mobilizations have put a strain on businesses, and especially small 
businesses, that employ reservists.\52\ Employers often struggle to 
maintain their workforce and keep their businesses afloat while their 
reservist employees are called up for multiple tours, often with little 
notice and without a clearly-defined length of absence. For some 
businesses, the cost to train their replacements can be steep. 
According to Dave Miller, vice president of a national trucking firm 
with approximately 50 employees deployed, the company is spending up to 
$100,000 to train each replacement.\53\
    IAVA recommends offering tax credits for employers who, when their 
reserve component employees are called to active-duty for over 90 days, 
continue to support their employees by paying the difference between 
the servicemembers' civilian salary and their military wages. 
Furthermore, tax credits should be provided to businesses that provide 
additional training for returning Reservists and National Guard members 
to bring them up to same level of training as their non-veteran peers.

                                 <F-dash>
 Prepared Statement of Richard Daley, Associate Legislation Director, 
                     Paralyzed Veterans of America

    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, PVA would like to thank you for the opportunity to 
testify today concerning the status of veterans' employment. The Global 
War on Terror has produced a large number of men and women that have 
served the country and have returned to civilian life. Paralyzed 
Veterans of America would like to thank Congress and this Subcommittee 
for helping to make this transition successful.
    At a time when our Nation faces record unemployment, the veterans' 
community has been hit especially hard, with unemployment rates among 
today's veterans eclipsing the national average by more than 2 percent. 
Our veterans have made tremendous sacrifices for our Nation, which is 
why our leaders must make a concerted effort to ensure that veterans 
have access to education, employment, and training opportunities to 
ensure success in an unfavorable civilian job market.
EMPLOYMENT DISINCENTIVES
    Employment policy is vital to veterans and veterans with 
disabilities in today's environment where work is critical to 
independence and self-sufficiency. Many veterans who serve this country 
honorably and are discharged in good health later acquire significant 
disabilities. A veteran that has sustained a catastrophic non-service 
connected injury is identified in the VA medical care system as a 
Priority Group 4 veteran for purposes of receiving health care from the 
VA. If that veteran has the appropriate work credits under Social 
Security, they will likely qualify for Social Security Disability 
Insurance (SSDI). New SSDI beneficiaries will also qualify for Medicare 
after the initial 24 month waiting period. If these veterans' income is 
low enough, they will qualify for VA pension. Each of these programs, 
however, contain within them considerable work disincentives.
    For the non-service connected veteran on SSDI, he or she can 
attempt a return to work and will continue to receive SSA disability 
benefits for a 9 month trial work period. Beyond that trial work period 
is a 36 month extended period of eligibility in which they will 
continue to get a Social Security disability check only in those months 
when the veteran's income falls below SSA's ``substantial gainful 
activity'' (SGA) level. Should the veteran continue to earn above SGA, 
they will lose the SSDI cash benefits, but will retain access to 
Medicare for 93 months. However, if the veteran's work effort proves 
unsuccessful and they are separated from employment within 60 months of 
SSDI benefit termination, they can use SSA's expedited reentry process. 
This allows SSDI beneficiaries the ability to go back on the rolls 
without reapplying for benefits. If, however, the veteran on SSDI has 
been off benefits longer than 60 months, he or she would be required to 
go through the SSDI application process all over again.
    Not surprisingly, these Social Security work incentives are 
complicated and cause considerable anxiety on the part of SSDI 
recipients who would like to go to work. PVA has long supported 
proposals for improving work incentives within the SSDI program that 
would address some of the dilemmas faced by beneficiaries who wish to 
enhance their economic self-sufficiency. Two such reforms are removal 
of the SSDI ``cash cliff'' and continued attachment to the disability 
benefits system.
    As noted above, once someone on SSDI reaches SGA, their disability 
benefits are completely cut off causing an abrupt decline in income. 
This discourages many individuals on SSDI from trying to work. 
Establishing a $1 for $2 earnings offset in Title II to parallel the 
provisions in the Title XVI Supplemental Security Income (SSI) program 
would eliminate the ``cash cliff.'' SSDI beneficiaries who are able to 
work and help ensure that individuals are financially better off by 
earning than by not earning.
    Many SSDI beneficiaries, including veterans fear working to their 
full potential because it might cause a permanent loss of cash and/or 
medical benefits. This is a particular concern for beneficiaries who 
have relapsing/remitting conditions such as mental illness or many 
chronic illnesses, need accommodations that may be available in one 
employment setting, but difficult to obtain in the future. PVA believes 
that these Social Security disability beneficiaries should have a 
``continued attachment'' to the programs as long as their impairments 
last, even if they do not receive cash benefits because of their work 
earnings.
    The Veterans Pension Program is often likened to Supplemental 
Security Income under Social Security. However, unlike SSI, VA 
pensioners face a ``cash cliff,'' in which benefits are terminated once 
an individual crosses an established earnings limit. Because of a 
modest work record, many of these veterans or their surviving spouses 
may receive a small Social Security Disability Insurance benefit that 
supplements their VA pension. If these individuals attempt to return to 
the workforce, however, not only will their SSDI benefit be terminated, 
but their VA pension benefits will be reduced, dollar for dollar, by 
their earnings.
    More than 20 years ago under Public Law 98-543, Congress authorized 
VA to undertake a 4-year pilot program of vocational training for 
veterans awarded a VA pension. Modeled on the Social Security 
Administration's trial work period, veterans in the pilot were allowed 
to retain eligibility for pension up to 12 months after obtaining 
employment. In addition, they remained eligible for VA health care up 
to 3 years after their pension terminated because of employment. 
Running from 1985 to 1989, this pilot program achieved some modest 
success. However, it was discontinued because prior to VA eligibility 
reform, most catastrophically disabled veterans were reluctant to risk 
their access to VA health care by working.
    The VA Office of Policy, Planning and Preparedness examined the VA 
pension program in 2002 and 7 percent of unemployed veterans on pension 
and 9 percent of veteran spouses on pension cited the dollar-for-dollar 
reduction in VA pension benefits as a disincentive to work. Now that 
veterans with catastrophic non-service connected disabilities retain 
access to VA health care, work incentives for the VA pension program 
should be reexamined and policies toward earnings should be changed to 
parallel those in the SSI program. Work disincentives in the Veterans 
Pension Program should be reexamined and consideration given to changes 
that would parallel Social Security work incentives such as a trial 
work period and reduction in benefits as earned income rises.
CENTER FOR VETERANS ENTERPRISE
    In a recent hearing this Subcommittee addressed the role of the 
Center for Veterans Enterprise (CVE) with assisting veteran owned small 
businesses. This program was created to serve the veteran owned small 
business and the service-disabled veteran owned small business as they 
attempt to contract business with the Federal Government. The 
Subcommittee was informed of problems that veterans have encountered 
when seeking assistance from this program.
    Perhaps a vacancy in the leadership position of the Department of 
Veterans' Affairs, Office of Small and Disadvantaged Business 
Utilization (OSDBU), which is responsible for this program, can account 
for the lack of communication with participating veterans and the lack 
of assistance to veterans from the CVE. At that hearing the 
Subcommittee was informed that the complaints directed toward that 
program are being addressed. The new Executive Director of the OSDBU is 
aware of the problems with the program and is committed to make 
improvements to enhance their assistance to veteran owned small 
businesses.
    At that hearing several VSOs testified that they believe CVE needs 
dedicated funding within the VA budget to better address their 
increasing responsibilities. With its new dedicated leadership and with 
adequate, dedicated funding in the future, CVE will be able to direct 
their efforts toward helping small veteran owned businesses. This can 
only have a positive effect on the issue of employment for veterans, 
since we know that veterans often hire other veterans when possible.
DISABLED VETERANS OUTREACH PROGRAM AND LOCAL VETERANS EMPLOYMENT 
        REPRESENTATIVES
    Another issue of concern for PVA and some VSOs is the lack of 
results the Federal Government receives for the employment efforts for 
veterans from the Disabled Veterans Outreach Programs (DVOP) and the 
Local Veterans Employment Representative (LVER) programs. These 
programs are the responsibility of the Department of Labor, Veterans 
Employment and Training Service (VETS) program that created these 
positions to fulfill their role as required by law. DOL's primary 
responsibility is to fund and monitor these programs.
    These positions are funded by grants to the States from the budget 
of the VETS program. There is insufficient accountability for the 
approximate $168 million that is distributed to States for the DVOP and 
LVER positions. These positions report to the local State employment 
office manager who determines their work actives. The issue of 
unemployed veterans may not be a high priority for a State office. 
Often the DVOP and LVER positions are lower paying positions within the 
State employment system and often considered a position to begin 
employment within the State system. Currently some States facing budget 
problems have a hiring freeze for new employees. The DVOP and LVER 
positions will continue to be filled since these positions are 
federally funded. Whenever a higher paying position becomes available 
within the State or civilian work environment, the DVOP or LVER leaves 
for more money and this contributes to the high turnover rate. These 
professional positions should not be a temporary job where the 
employment specialists start their careers
    DVOP and LVERS require an understanding of the workplace 
environment and how a veteran or veteran with a disability can 
contribute to the workplace. This role as an advocate for veterans and 
disabled veterans is critical for those who are returning to employment 
after several years away or looking for their first non-military job. 
DVOP and LVERs primary mission should be getting the man or woman who 
has served their country back into the workforce. Achieving this 
mission is made more difficult, if not impossible, if the veterans 
employment representatives must function with limited goals, lack of 
travel funds, or restricting policies of the local State employment 
office.
    DOL tracks a states performance by the number of registered persons 
entering the workplace. They also track the number of veterans among 
those registered with this information collected by the DVOP and LVER 
program. DOL does not track the number of veterans that gained 
employment solely as a result of assistance veterans received from a 
State's employment programs. In many employment situations these 
programs have limited input into the veteran's employment and often 
they have no input at all. When the veteran becomes employed, even in 
situations of underemployment, this is registered as a positive result 
of the States efforts.
    If these positions were made Federal positions under the Veterans 
Employment and Training Service the salaries could be increased and the 
training improved and expanded. As it stands, Congress may be hesitant 
to increase the funding of programs such as the DVOPs and LVERS that 
have very limited evidence of their effectiveness.
    Perhaps DOL could conduct a pilot program in several States to 
follow up with the veteran after they leave the unemployment roles. 
Although this may be a labor intensive exercise, it may help determine 
if the States' efforts are producing the results that are intended for 
veterans. Such a pilot could answer several important questions. Has a 
veteran found employment or has their unemployment benefit expired, in 
which case they are no longer counted? Is the veteran 
``underemployed,'' making minimum wage to survive? Did their State 
employment office, including the efforts of the DVOP or LVER, have any 
input in securing that job for the veteran?
    The Government Accountability Office (GAO) has never examined the 
states performance of these programs of helping veterans find 
employment. Congress should ask the GAO to report on the effectiveness 
of this Federal funding.
PVA'S EMPLOYMENT PROGRAM
    Paralyzed Veterans of America has successfully placed veterans in 
employment using our new Vocational Rehabilitation Employment Program. 
Beginning less than 3 years ago in Richmond, Virginia, it has expanded 
to Minneapolis-St Paul, Long Beach, California and San Antonio, Texas. 
This year the program will continue to grow as PVA opens an office in 
Boston, Massachusetts and Augusta, Georgia. Each location functions in 
the VA hospital and is privately funded by a partner from the business 
community.
    Placing paraplegic or quadriplegic individuals into employment is a 
difficult task. The placement rate for these individuals is low. It is 
much easier for voc rehab counselors and employment placement personnel 
to find employment for less disabled individuals. In most State, 
Federal, and nonprofit environments these dedicated individuals are 
evaluated not by the difficulty of an employment placement, but by the 
number of persons placed. It this system it is easy for the severely 
disabled individuals to be overlooked.
    Using experienced placement counselors that understand the 
challenge and have knowledge of the workplace, PVA's program is finding 
careers for these individuals. Recently PVA's placement counselor in 
Richmond, Virginia told me that through his networking in the business 
world, he has located positions for disabled veteran throughout the 
Nation. He also explained that most corporations want to hire veterans, 
but cannot dedicate the time to specifically look for veterans. PVA's 
experienced employment counselors must be active in the community, must 
be knowledgeable of State, Federal, and local government employment 
opportunities and on occasion travel to corporate headquarters in other 
States throughout that region to explain the value of hiring a disabled 
veteran.
SERVICEMEMBERS OCCUPATIONAL CONVERSION AND TRAINING
    To address the needs of today's veterans, Congress might consider 
reimplementing a program similar to the Servicemembers Occupational 
Conversion and Training, (SMOCTA) program. Although this program was 
funded by the Department of Defense, it was administered by the VA and 
the DOL. This was considered one of the better programs to serve 
transitioning military personnel. SMOCTA was established during the 
downsizing of the military for veterans discharged after August 1, 
1990, to help those veterans that had limited transferable job skills. 
A similar program would help many of the younger men and women 
transitioning from the military today, and those Reserve and Guard 
members reentering the workforce following deployment.
    This program provided assistance in the form of reimbursements to 
employers who provided job training for veterans that required new 
skills necessary for permanent employment with that employer. The 
program also included funds for assessments, development of training 
plans, and supportive services for the trainee. The DVOP and LVER staff 
was responsible for development of the employment and training plans. 
Veterans eligible for assistance were those with military occupations 
that were not transferable; those that were unemployed for a long 
period of time; and those with a 30 percent or greater service-
connected disability.
    Critics of this program have expressed concern that employers will 
participate in this program primarily to receive this funding to 
supplement their payroll. In these situations when the funding ends, 
the veteran's employment would be terminated. This would be another 
example of the potential value of the DVOPs and LVERs who would monitor 
these employment training positions. These employment professionals 
should be familiar with employer's needs and the nature of the 
training. Their involvement in this program would be the determining 
factor in the value of and the sincerity of the employers training 
program.
    Madam Chair, Ranking Member Boozman, Paralyzed Veterans of America 
would like to thank you for this hearing to discuss the issue of 
veterans employment. We thank you for the opportunity to share our 
concerns on this issue and will continue to work with you to address 
this problem. That concludes my testimony and I would be happy to 
answer any questions you may have.

                                 <F-dash>
  Prepared Statement of Justin Brown, Legislative Associate, National 
   Legislative Service, Veterans of Foreign Wars of the United States

    MADAM CHAIRWOMAN AND MEMBERS OF THIS COMMITTEE:
    On behalf of the 2.1 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, the VFW would like to 
thank this Committee for the opportunity to present its views on this 
very important topic.
    The VFW believes one unemployed veteran is one too many. In these 
tough economic times, the number of unemployed veterans has skyrocketed 
to more than one million, with nearly one in three of our youngest 
veterans being unemployed. The remarkable young men and women who put 
their lives on the line for our Nation deserve better. Congress needs 
to invest in the future of those who have invested in America by 
providing them with the training, skills, and the opportunities for a 
chance at the American dream. For this reason, the VFW calls on 
Congress to create a veterans' jobs bill immediately.
    Further, we recognize that Congress alone cannot solve this 
epidemic of unemployment among our Nation's veterans. We urge Congress 
to encourage America to do her part for these veterans and help put 
them back to work. As with other important issues, Congress has 
convened round tables to explore solutions. We need corporate America, 
union groups, governmental agencies, lawmakers, and both veterans' 
groups and unemployed veterans to come together for a roundtable to 
explore solutions to get America's veterans in the front of the 
employment line!
    The VFW calls on American businesses to hire Veterans First! The 
values of American veterans are the same values that drive businesses 
toward success. Former servicemembers know how to work as a member of a 
team to creatively solve problems. They are trained to lead and know 
how to perform in unforgiving situations. They realize the 
repercussions of their conduct and understand that decisions have an 
impact on their organization. Veterans are punctual, dress 
professionally at all times, lead healthy lifestyles, and are extremely 
trustworthy and motivated self-starters. Many veterans are very 
technologically savvy, and are proficient in the use of computers. The 
battlefield of today requires a `grunt' to do much more than just point 
and shoot. They are civic minded, willing to go the extra mile, and are 
committed loyal employees. We ask Congress to help us market the value 
of American veterans to corporate America.
    Our servicemembers are coming home from Iraq and Afghanistan in 
many instances injured, and fighting to find a job, market their 
skills, and convince employers of the value of their military service. 
These men and women are the most upstanding, hardworking and patriotic 
people our country has to offer. Many of these veterans have never even 
had a job aside from their military service, and therefore, they do not 
know how to market themselves for open positions. The Department of 
Defense (DoD) utilizes ``military values'' and the ``prospects of 
careers'' to recruit. The Department of Labor (DOL) can and should do 
more to sell the value of veterans to corporate America.
    According to the Pentagon, 75 percent of today's high school 
graduates are unsuitable for military recruitment due to aptitude, 
health or physical conditioning. That leaves a 25-percent pool who are 
also heavily recruited by industry, colleges and universities. Those 
who volunteer to serve our Nation in uniform are already the cream of 
the crop. Their time in uniform makes them better--more mature, more 
decisive, and more team and goal-oriented. Their selfless service to 
country earns them a place at the front of the line.
    We are all too familiar with the marketing campaign launched by 
each branch of the military to attract talented young Americans to 
serve their country. The same commercials that attract young people to 
slay dragons, become one-person armies, and be a force for good should 
also be used to create ideal candidates for American industry and 
business.
    We ask Congress to authorize and fund a marketing campaign within 
DOL, selling the value and virtues of hiring America's veterans. This 
should, at minimum, include public service announcements, television, 
print and internet based mediums combined with outreach to local 
chambers of commerce, unions, and job fairs organized by members of 
Congress. The young soldier, Marine, and others who serve our country 
pay the price for our government's failure to push Veterans First. Some 
have been through a living hell and now just want an opportunity at the 
American dream.
    Currently, when a servicemember returns home they tend to rely 
heavily on internet job boards. A young veteran can quickly get 
discouraged with the plethora of impersonal online resources available. 
This is not to say that a great deal of these programs lack merit. Many 
of them do great work to include, Vetjobs; however, not all 
``veterans'' job boards place the best interests of veterans in mind. A 
veteran would benefit greatly with some direction, assistance, and a 
person that cares to help them locate meaningful employment.
    One thing that is important to remember is that many of these 
veterans lack the professional and personal networks that benefit many 
civilians in searching for employment. A servicemember, after 
separation, may be returning to a home they left years ago. This lack 
of networks is what quickly turns a veteran's job search into an 
impersonal, often inefficient, and endlessly frustrating experience.
    Local DVOPs and LVERs may or may not be affective in assisting 
these veterans seeking employment; their effectiveness varies from 
location to location. However, there are a number of private sector 
programs that are doing a great job of leveraging professional and 
personal networks to secure jobs for veterans, for example: Wall Street 
Warfighters, Vets to Vets, American Corporate Partners, 
Entrepreneurship Bootcamp for Veterans with Disabilities, and the 
Wounded Warrior Program. Moreover, there are a number of corporations 
building a workforce of veterans by designing veteran specific 
initiatives such as: General Electric, Home Depot, CACI, and Union 
Pacific. To date, there is no central entity or registry to aid and 
direct veterans to all of these in an easily accessible way.
                        Veterans Need Jobs Now!
    The VFW believes there are a number of turnkey items Congress can 
include in a comprehensive Veterans Jobs Package. Specifically, the VFW 
urges Congress to expand and increase the Work Opportunity Tax Credit 
(WOTC). The economic stimulus expanded the WOTC to include a tax-break 
for employers who hire recently separated servicemembers. However, this 
tax credit affects only those servicemembers who have separated within 
5 years of the hiring date. This excludes at least 765,000 unemployed 
veterans from non-OEF/OIF eras and some OEF/OIF veterans as well. The 
current credit provides $2,400 for non-disabled veterans and $4,800 for 
non-disabled veterans. The VFW urges Congress to double the credit to 
further incentivize the hiring of veterans.
    Furthermore, the WOTC requires a veteran to be unemployed for at 
least 4 weeks; this makes little sense. This provision should be 
changed to provide any unemployed veteran this opportunity immediately 
after becoming unemployed. If a veteran is unemployed for 1 day a tax 
credit is a great incentive for an employer to hire such a veteran and 
will thereby ease the burden on the veteran and his family, while 
saving the government up to 4 weeks in unemployment insurance payments.
    Also, the WOTC is ineffective if employers are unaware of its 
existence. A better job of publicizing this tax credit would go a long 
way to raising the awareness of `veterans first.' Hiring our newest 
heroes first, must be our call to American businesses.
    The Disabled Veterans' Outreach Program Specialists (DVOPs) and 
Local Veterans' Employment Representatives (LVERs) Programs need to be 
fully Reviewed.
    The VFW calls on Congress to mandate that DOL-VETS do a thorough 
review of the DVOP/LVER program and report its findings to Congress. 
The issues with the federally funded and State operated DVOP/LVER 
programs have continued. Inconsistency from State to State, concerns of 
how these individuals are being used at the local level, concerns of 
training or the lack thereof, a lack of clear performance measures and 
accountability, have all been ongoing issues. Also, developing 
solutions to improve employment for our veterans requires evaluation of 
the umbrella one-stop centers under which DVOPs/LVERs operate.
DOL-VETS, the Bureau of Labor Statistics (BLS), and DoD should conduct 
        a joint annual representative survey of veterans and 
        servicemembers in the Guard and Reserve
    The VFW calls on Congress to mandate that DOL-VETS, in conjunction 
with BLS and DoD, identify causative factors for unemployment by 
conducting more detailed surveys of unemployed veterans. We know there 
are roughly 252,000 unemployed OEF/OIF veterans who are more likely to 
be unemployed than their civilian counterparts. However, we can only 
speculate to causative factors as we lack quality data that identifies 
the core issues unemployed veterans are dealing with today. 
Essentially, we think we know what the problems are, but we lack a 
foundation to substantiate our suspicions and to inform our actions.
    Recently, BLS released an annual supplement that concentrated on 
veterans. While this supplement provided additional important 
information, it failed to provide substantive information on the 
primary factors inhibiting veterans from gaining meaningful employment. 
Focusing on the causative issues leading to unemployment will help us 
better address our veterans' employment needs.
The VETS-100 should be transparent and provide value to those who 
        assist veterans in locating employment
    The VETS-100, is an annual filing requirement for Federal 
contractors that receive more than $100,000 in Federal contracts per a 
year. The filing requirement was a result of the Jobs for Veterans Act 
and was meant to help veterans get additional consideration from 
private companies that receive contracts from the Federal Government. 
The VETS-100 was intended to fulfill some of the requirements of the 
Jobs for Veterans Act.
    The Jobs for Veterans Act stipulates: *2035 ``(a)(1) Any contract 
in the amount of $100,000 or more entered into by any department or 
agency of the United States for the procurement of personal property 
and nonpersonal services (including construction) for the United 
States, shall contain a provision requiring that the party contracting 
with the United States take affirmative action to employ and advance in 
employment qualified covered veterans. This section applies to any 
subcontract in the amount of $100,000 or more entered into by a prime 
contractor in carrying out any such contract.
    Currently, the VETS-100 serves no meaningful purpose for our 
government, Federal contractors, and employed or unemployed veterans. 
There are essentially only two required actions for companies who file 
a VETS-100 form: first, they must file the VETS-100 form on annual 
basis and second, they must list most available positions with an 
employment delivery system such as an online employment site (I.E. 
VetJobs). Unfortunately, these mechanisms lack oversight.
    The VFW strongly urges Congress to put measures in place that will 
ensure Federal contractors consider veterans first when hiring new 
employees.

    <bullet>  The VFW believes the VETS-100 report must be made 
transparent and available to the public in an easily searchable online 
format. The public deserves to know if companies are abiding by our 
Nation's law. Public transparency will likely prove to provide better 
oversight then DOL-VETs has in the past. Furthermore, DOL-VETs should 
provide an annual report to Congress on their oversight and 
investigation inquiries to companies that file a VETS-100 report.
    <bullet>  A central repository must be created. An officially 
recognized central repository of contractors should be created and 
updated on a monthly basis with data derived from: the Federal 
Procurement Data System (www.fpds-ng.com), the Central Contract 
Registry (www.ccr.gov), the historical contract data from 
www.usaspending.gov as well as www.defenselink.mil for Pentagon awards. 
This would help DOL-VETs track and monitor Federal contractors to 
insure compliance of veterans' affirmative action laws.
    <bullet>  Serious VETS-100 compliance and reform needs action. The 
present VETS-100 form lacks verification of the three compliance 
principles of `affirmative action in hiring' under the Jobs For 
Veterans Act: 1) proof of affirmative action outreach with the local 
LVER; 2) proof of posting all job openings on a sanctioned job board; 
and 3) proof that all sub-contractors are notified if they have sub-
contracts of $100,000 or more.
    <bullet>  Consequences need to be set for non-compliance. Without 
comprehensive monitoring and serious sanctions for non-compliance, 
there is little reason for businesses to comply with the current 
veterans employment laws.
Conduct a Veterans' Job Fair in Every Congressional District
    Congressman and Congresswomen can be some of the best advocates for 
America's veterans by encouraging their local businesses and donors to 
hire vets first. Last year, the VFW worked with Congressman Glenn Nye 
to host a very successful job fair at one of our local VFW posts in 
Virginia Beach. Nearly 300 veterans and servicemembers showed up for 
the event and met with a host of local corporate recruiters and human 
resource officers, the VA, VSO service officers, and local DVOP's and 
LVER's. The event was a great success and one we would hope to see 
duplicated in every Congressional district in the United States.
Increase Funding for the Helmets to Hardhats Program
    The VFW urges Congress to increase grants for the Helmets to 
Hardhats program. This program has continued to train and place 
veterans in specialized construction careers. According to Helmets to 
Hardhats in 2009, they placed 1,060 veterans into careers. Of these, 49 
were 30 percent or more disabled veterans. As a result of these 
placements, these veterans will receive more than $20 million worth of 
training from the respective companies at no cost to the veteran. On 
average the program has cost $2,830 dollars per a successful placement.
    In FY 2009, the program received 3 million dollars. The VFW urges 
Congress to increase the number of veterans served by increasing their 
funding. It would also benefit the organization if their appropriation 
could be directed into a more stable form of funding over the course of 
multiple years so that they could better manage their recourses year 
after year. We call on Congress to double their funding through a 3 
year appropriation. At the end of this time frame the program should be 
reevaluated for future appropriations. Furthermore, the veterans who 
utilize this program would greatly benefit from an expansion of Post-9/
11 GI Bill eligibility to those who are attending apprenticeship 
programs or trade schools.
Extend Unemployment Insurance for Veterans
    Currently, for many workers unemployment insurance is expiring. The 
VFW is concerned that with the extraordinary unemployment rate of 
veterans they may be disproportionately affected. The VFW urges 
unemployment benefits be extended to all eligible veterans. This will 
ensure that veterans are at least able to feed their families and 
maintain their place of residence.
        Veterans Need Training and Education to be Competitive!
    With the advent of the Post-9/11 GI Bill, hundreds of thousands of 
veterans will and are improving their career trajectory though 
education. Their success is a direct result of Congress's decisive 
action to completely overhaul the GI Bill. This same attention is 
needed with other veterans training and education programs.
Vocational Rehabilitation and Education Program (VR&E)
    The VFW envisions a VR&E for Life program. One that adapts to the 
changing needs of the employment market and the evolving nature of the 
individual veteran's disability. Our Nation's obligation to disabled 
veterans is unparalleled. Through life long training and education 
disabled veterans can achieve high levels of independence and self-
confidence that can only be earned through their own determination.

    <bullet>  Remove the Delimiting Date for VR&E. Currently, the 
delimiting date for VR&E is set to 12 years after military separation 
or 12 years following the date of rating for a service-connected 
disability. Eliminating VR&E's delimiting date would allow veterans to 
access it on a needs basis for the entirety of their employable lives. 
Thus allowing retraining when necessary and lifelong access to VR&E 
employment services.
    <bullet>  Increase VR&E's Educational Stipend to Reflect Chapter 
33. Chapter 33 provides a far more equitable living stipend that 
reflects the real cost of living. VR&E falls dramatically short of 
aiding veterans with the real costs of living. For this reason, the VFW 
strongly urges Congress to create cost of living stipend that mirrors 
the Chapter 33 stipend, which reflects the basic allowance for housing 
(BAH) E-5 with dependents rate based on zip code.
    <bullet>  Additional Assistance for Veterans with Dependents under 
VR&E. For many veterans with dependents the VR&E educational track 
provides insufficient support. Many seriously disabled veterans are 
unable to pursue education or training options due to limited resources 
and the immediate need to support children and spouses. The VFW calls 
on Congress to create a viable VR&E program that will assist a veteran 
pursing education and training to care for the childcare needs of his 
or her children while in this program.
    <bullet>  Jump Start VR&E Enrollment. From the date a veteran files 
for services under VR&E until entrance into a training or education 
program can take many months. This is because VR&E requires validation 
of entitlement, skill and interest assessment of the veteran, and then 
authorization of the training or education program. If a veteran has 
proven eligibility for VR&E it is exceedingly rare that they are not 
allowed to enroll in a training or education program. The VFW believes 
that once a veteran is found eligible for VR&E that entrance into 
training or education should be implicit. The skill and interest 
assessment should serve solely to help a veteran better focus their 
efforts.
    <bullet>  Measure Veterans Long-Term Employment Under VR&E. 
Currently, VR&E measures the ``rehabilitation rate,'' as the number of 
veterans discharged for having achieved their goals. A 
``rehabilitated'' veteran is one who has been gainfully employed for a 
period of 60 days upon completing VR&E. Such a short-term measure, 60 
days of continuous employment, limits VR&E's focus to a short term goal 
of 60 days of employment.

          The VFW urges Congress to redefine the VR&E program's goals 
        to focus on the long-term. At any point over their career a 
        veteran becomes unemployed this should be tracked. If success 
        is measured by long term employability, VR&E employment 
        placement officials will give more credence to career options 
        vice 60 days of employment.
Transferability of Occupational Certifications
    The VFW is very concerned that our military men and women are 
getting high-levels of specialized training only to it be ignored by 
State governments and potential employers. More needs to be done to 
DoD's practices in training our servicemembers. When possible, the VFW 
urges DoD to utilize similar certifications and standards of training 
that civilians in their respective State utilize. For example, if 
someone is being taught to drive a large commercial size military 
vehicle, why can we not also get that servicemember a CDL certification 
in the process? The same can be said for a great deal of the training 
for corpsman, medics, mechanics, and IT occupations who are receiving 
excellent levels of training that makes them in many cases superior to 
their civilian counterparts. Due to the lack of State certification 
employers often insist qualified veterans go through the redundant 
civilian training programs. More must be done to ensure military 
occupations receive certifications recognized in the civilian sector; 
this will help streamline transition for these servicemembers.
DoD should create and distribute to every separating servicemember a 
        list of their equivalent civilian skill sets based on their 
        military occupation and training
    The skill sets one acquires in any military occupation are valuable 
and not always readily apparent to servicemembers separating from the 
military. Skills-translators have recently become available to 
servicemembers who are separating. Some private entities are also 
proposing to do some interesting things to help veterans realize their 
specific skill sets and to search for jobs based on their military 
occupation. However, these tools are largely unavailable and 
servicemembers are often unaware that these services exist or they 
cannot locate them. Having DoD provide a standard skill translation 
based on an individual's training would ensure veterans are aware of 
their skill sets and know how they translate into the civilian sector. 
This should also be a requirement of servicemembers that attend TAP, 
DTAP or DoD's Yellow Ribbon Program.
Improve the Post-9/11 GI Bill
    Congress has an opportunity to invest in a proven program that 
yields lasting results for America. The VFW believes a number of 
changes need to be made to the Post-9/11 GI Bill to address the needs 
of today's servicemembers and their families. The original GI Bill 
provided training apprenticeships and vocational training for World War 
II veterans. The Post-9/11 GI Bill should also provide veterans the 
same opportunity to seek careers in skilled trades. The VFW supports 
the standardization, simplification and restructuring of all education 
programs, with an eye toward equitable benefits for equitable service, 
to include:

    <bullet>  Remaining Chapter 30 programs (lump sum payments, 
vocational training, distance learning) should be moved into Chapter 
33.
    <bullet>  Title 10, Section 1606, the Guard and Reserve Select 
Reserve GI Bill, needs to reflect the Chapter 33 scale.
    <bullet>  Chapter 35 survivors and dependent educational benefits 
should also be comparable to Chapter 33.
    <bullet>  Ultimately, phase out Chapter 30 and simplifying benefits 
based on Chapter 33.

    Furthermore, the VFW believes that members of the National Guard 
and Reserve who serve under Title 32 USC, Active Guard Reserve program, 
should have their service recognized under Chapter 33. By virtue of 
their status, approximately 45,000 veterans who serve our country under 
Title 32 do not receive credit toward accruing benefits under the Post-
9/11 GI Bill, even though their service was often in support of Federal 
initiatives. All military men and women should be rewarded equally.
    The VFW also supports allowing veterans who attend on-line 
universities to be eligible for the Post-9/11 GI Bill, and therefore, 
draw an equitable living stipend. Veterans often decide to attend 
online universities through necessity--family and work obligations, 
service-connected disability limitations, as well as financial 
restrictions that prevent them from becoming traditional, on-campus 
students. Veterans enrolled in online universities today receive no 
cost of living stipend. The VFW wants this inequity fixed, and supports 
their receiving a cost of living stipend based on their home zip code.
    While this testimony is not all inclusive of the issues facing 
veterans' employment, we believe these to be some of the most 
important. There are more unemployed veterans currently then at anytime 
in recent history. The recession is likely the number one catalyst, but 
our Nation's heroes, particularly our recently separated 
servicemembers, often have aggravating factors that tend to make 
quality employment a more difficult challenge. These men and women are 
our Nation's future and will be known as the next great generation of 
war veterans to build, sustain, and create a stronger United States. We 
strongly urge this Committee to do everything in its power to be 
proactive and invest in these men and women today, for a better 
tomorrow.
    As America's largest group representing combat veterans, we thank 
you for allowing the Veterans of Foreign Wars to present its views on 
this important issue.
    Madam Chairwoman, this concludes my testimony and I will be pleased 
to respond to any questions you or the Members of this Committee may 
have. Thank you.

                                 <F-dash>
 Prepared Statement of Captain Marshall Hanson, USNR (Ret.), Director,
  Legislative and Military Policy, Reserve Officers Association of the
     United States, also on behalf of Reserve Enlisted Association

Preface
    Mr. Chairman and distinguished Members of the House Veterans 
Affairs Subcommittee on Economic Opportunity on behalf of 1.1 million 
Reserve Component members, the Reserve Officers Association (ROA) of 
the United States and the Reserve Enlisted Association (REA) of the 
United States expresses its appreciation for the opportunity to submit 
testimony about the status of veterans' employment. Over the past year 
veterans, servicemembers, and their families have seen an increase in 
Congressional and Presidential support.
    As contingency operations bring about increased mobilizations and 
deployments, many outstanding citizen Soldiers, Sailors, Airmen, 
Marines, and Coast Guardsmen have put their civilian careers on hold 
while they serve their country in harm's way. Since September 11, 2001, 
more than 725,000 Reserve and Guard servicemembers have been mobilized, 
with nearly one third of those having been deployed more than twice. 
They share the same risks and their counterparts in the Active 
Components, but aren't guaranteed career longevity like the full time 
professionals.
    Yet, many return home to find unemployment or underemployment.
Executive Summary
    Issues supported by the Reserve Officers and Reserve Enlisted 
Associations are to:
Support for Hiring Veterans:
    <bullet>  Implement DoD forms that would inform employers of skills 
potential veteran gained through their military service.
    <bullet>  Support employer incentives specific to the hiring of 
returning veterans and reserve component members.
    <bullet>  Oversee Veterans' Recruitment and Employment Strategic 
Plan.
Veteran Status:
    <bullet>  Improve communications to field on new veteran preference 
program.
    <bullet>  Extend veteran status to Guard and Reserve members who 
don't serve on active duty to 180 days.
Education:
    <bullet>  GI Bill--pass legislation that adds technical, On Job 
Training, and apprenticeship programs to the Post-9/11 GI Bill 
eligibility
Reserve and Guard Small Business Owners:
    <bullet>  Support incentives permitting deployed small business 
owners to keep their businesses.
Employment Protections--Improve USERRA & SCRA:
    <bullet>  Suggested improves follow in written testimony.
Introduction

    The consequences of mobilization and demobilization do not solely 
impact the military member; it also has an effect on families and 
employers. Families and employers play a large role in a citizen-
warrior's decision on whether or not to enlist and to remain in the 
military. In personnel surveys, employer pressure is listed as one of 
the top two reasons why Guardsmen and Reservists quit military service.
    Reserve forces cannot train or deploy without the continued 
cooperation of their civilian employers, who hire Reservists, and who 
provide the required time off and rearrange work schedules to 
accommodate their Reservist employees' training and deployment 
schedules.
    As Reserve activations and deployments increase during this 
extended Global War on Terrorism, employers' costs associated with 
hiring Reservists also increase, and with these higher costs, the 
employers' reluctance to hire Reservists may grow as well. If 
Reservists believe that their civilian livelihoods are adversely 
affected by their Reserve affiliation, they will end that affiliation.
    The aggregate success of an all-volunteer Total Force depends on an 
appropriate reliance on Guard and Reserve forces. An all volunteer 
active force is very expensive, and must be kept at a manageable and 
affordable level. This force must be augmented by a capable Reserve 
Component. The accessibility to these Reserve Component forces depends 
in large measure on the acquiescence and support of the employers of 
our citizen-soldiers. Without a viable Guard or Reserve, a larger 
Active duty force will raise the expense of National Defense.
An Encumbrance
    Reservist's employers are being burdened by extra costs to support 
national defense when their Reserve Component employees are called up 
multiple times.
    Civilian employers' work and production schedules (and the bottom 
line) are affected to a greater or lesser degree by the availability of 
their workers. The Uniform Service Employment and Reemployment Rights 
Act (USERRA) requires that employers make time available to their 
Reservist-employees for military training, forbids hiring 
discrimination, and mandates job protection for deployed Guard and 
Reserve members. Yet USERRA doesn't necessarily provide the depth of 
protection that Congress intended.
    Small businesses, which the Internal Revenue Service (IRS) defines 
as having a 100 or fewer employees, employ 60 percent of the Nation's 
workforce, and have created two-thirds of the new jobs since 1970. Some 
small companies, however, are much more vulnerable to these 
mobilization risks from the Global War on Terrorism and other call-ups 
such as Hurricane Katrina.
    Businesses that operate in communities near military bases will 
suffer as U.S. forces are deployed overseas and local economies are 
stressed. National Guard call-ups are another potential worry for 
employers. Key workers could be asked to report to duty for prolonged 
and unpredictable periods. Somewhere between 100,000 to 200,000 members 
from the National Guard may be used either to help the war effort in 
Iraq and Afghanistan or to replace the vacancies left by deployed 
active-duty officers at home.
    Many small businesses are unable to continue operating and face 
going out of business, when their Reserve employees are asked to leave 
their jobs and serve the Nation in the war on terrorism, also forcing 
other employees from their jobs. Most small businesses cannot afford to 
provide differential pay and supplemental benefits.
    Civilian employees increasingly are choosing not to hire veterans. 
In an online survey by Workforce Management Research Center it showed 
that more than half civilian employers would if they knew that a 
Reservist or Guard member could be called up again, being taken away 
from their civilian job for an indeterminate period, would not hire a 
RC member.
    Despite initiatives created by Congress, the unemployment rate for 
veterans and servicemembers has continue to increase at an alarming 
rate.
Employment Protections
    Veterans and servicemembers are provided protections through the 
National Committee for Employer Support of the Guard and Reserve 
(ESGR), the Uniformed Services Employment and Reemployment Rights Act 
(USERRA), and the Servicemembers' Civil Relief Act (SCRA).
    Though the Reserve Components have jobs when they leave for a 
deployment once they return too often those jobs are no longer 
available despite Federal law requiring employers to hold their 
positions. In the Federal FY 2009 Department of Labor opened a record 
number, 1,437 cases based on veterans' complaints about violations in 
law. The Department of Justice (DoJ) also reported during the same 
period a record number of lawsuits against employers for failing to 
give returning RC members their jobs back. As it stands many RC 
members, more than 40 percent, lose income when they mobilize.
    In an IAVA report published January 2009 employers surveyed 
demonstrates their lack of knowledge of USERRA with 36 percent unaware 
of the protections they are supposed to provide servicemembers and 61 
percent do not have an understanding of military service 
qualifications.
    Notwithstanding the protections afforded veterans and 
servicemembers, and antidiscrimination laws it is not unusual for 
members to lose their jobs due to time spent away while deployed. 
Sometimes this is by employers who go out of business, but more because 
it costs employers money, time, and effort to reintroduce the employee 
to the company.
ROA strongly urges Congress to pass legislation granting tax credits to 
        employers of Reserve Component members.
Improvements to USERRA
    While the Department of Labor's December 2005 regulations 
positively affect USERRA enforcement, many other things still need to 
be done to improve USERRA. ROA and REA encourage Congress to support 
further USERRA provisions that will protect employment of the Reserve 
Components and encourages compliance by employers.

    <bullet>  Do not permit employers to discriminate by asking 
prospective employees if they are in the Guard or Reserve.
    <bullet>  Exempt employees from penalties when their insurance 
lapses if their motor carrier license expires while mobilized (i.e., 
the Federal Motor Carrier Safety Administration).
    <bullet>  Work with Federal agencies to abide by USERRA/SCRA 
standards.
    <bullet>  Provide protection of mobilized Guard and Reserve 
students by granting academic leaves of absences, guarding academic 
standing and refund guarantees.
    <bullet>  Expand USERRA's definition of ``service in the uniformed 
services'' to include an employee's need to be absent from work for 
purposes of medical treatment (from DoD or Department of Veterans 
Affairs facilities) for a wound, injury, or illness incurred or 
aggravated during a period of service in the uniformed services.
    <bullet>  Amend 38 U.S.C. 4323(d)(1)(C)--the ``liquidated damages'' 
provision to require employers who have violated USERRA to remunerate 
to the servicemember an amount of $20,000 or the amount equal to the 
actual damages, whichever is greater. Provide a provision in section 
4324 allowing for liquidated damages when the employer is a Federal 
executive agency and the violation was willful, such as found in 
section 4323 as it applies to States, political subdivisions of States, 
and private employers.
    <bullet>  Amend Title 38 U.S.C. 4323(e) to mandate (rather than 
simply permit) injunctive relief to prevent or correct a USERRA 
violation.
    <bullet>  Amend Title 49 U.S.C. 44935 to apply USERRA to 
servicemembers employed by the Transportation Security Administration 
(TSA) as screeners.
    <bullet>  Amend 38 U.S.C. 4302(b) to make clear that USERRA 
overrides an agreement to submit future USERRA disputes to binding 
arbitration.
    <bullet>  Amend 38 U.S.C. 4303 (definition of ``employer'') to 
clarify that a successor in interest (a new employer often resulting 
from a merger, transfer of assets or takeover of a function between 
companies) inherits the predecessor's USERRA obligations and that a 
merger or transfer of assets is not necessary to support a finding of 
successor liability.
    <bullet>  Amend 38 U.S.C. 4323 and 4324 to authorize punitive 
damages for willful and egregious USERRA violations.
ROA Servicemembers Law Center

    While USERRA is supposed to provide protection, the U.S. government 
can't provide the legal support resources for the ever increasing 
number of reemployment cases. National Guard and Reserve members and 
returning veterans are forced to seek private legal representation. 
Because of its USERRA expertise, it was suggested that ROA develop a 
Servicemembers Law Center, advising Active and Reserve servicemembers 
who have been subject to legal problems that occur during deployment. 
The center was opened in June 2009.
    The legal center will help encourage new members to join the 
Active, Guard and Reserve components by providing a non-affiliation 
service to educate prior service about USERRA and Servicemember Civil 
Relief Act (SCRA) protections, and other legal issues. It would help 
retention as a member of the staff could work with Active and Reserve 
Component members to counsel those who are preparing to deploy, 
deployed or recently deployed members facing legal problems.
    The Legal Center can advise, refer by providing names of attorneys 
who work related legal issues and amicus curiae briefs, encourage law 
firms to represent servicemembers, and educate and training lawyers, 
especially active and reserve judge advocates on servicemember 
protection cases. The center could also be a resource to Congress.
Needed Improvements to the Servicemen's Civil Relief Act
    In the age of internet back ground checks, employers can check 
credit scores and financial backgrounds before hiring a new employee. 
Veterans who have been deployed have certain protections, but 
improvements can be made. WhileSCRA made major improvements in the 
SSCRA, but new problem areas continue to surface. This section proposes 
seven SCRA amendments to address these problem areas. The Reserve 
Officers Association would be pleased to work with the Veterans Affairs 
Committees on furthering these and other corrections.
    Amend the SCRA to forbid discrimination based on membership in a 
Reserve Component or the possibility of future utilization of SCRA 
rights: Under section 518 of the SCRA (50 U.S.C. App. 518), it is 
unlawful for a creditor or other party to discriminate against or take 
an adverse action against a servicemember based on the servicemember 
having applied for or received a stay, postponement, or suspension 
under the SCRA. Under the current law, it is not unlawful for a 
creditor or potential creditor to deny credit based on the prospective 
borrower's membership in a Reserve Component and the possibility that 
the prospective borrower could be mobilized in the future and could 
apply for or receive a stay, postponement, or suspension. ROA proposes 
that Congress amend the SCRA to close this loophole.
    Amend the SCRA to broaden the types of leases and contracts which 
the person entering active duty can terminate without penalty: Under 
the SSCRA, since 1917, a person entering active duty has been permitted 
to terminate a lease on premises (apartment, house, office, farm, 
etc.). In 2003, Congress broadened this provision to enable the person 
entering active duty to terminate a vehicle lease. In 2008, Congress 
enacted a new provision to permit a servicemember to terminate a cell 
phone contract under certain circumstances. Congress needs to amend the 
SCRA to include leases and contracts for small businesses, in addition 
to leases of premises, vehicles, and cell phones.
    Amend the SCRA to make the right to a continuance and the 
protection against default judgment apply to arbitration proceedings: 
The individual who is on active duty may be unable to respond promptly 
to a civil lawsuit or administrative proceeding, especially if the 
individual is deployed to a place like Iraq or Afghanistan. Since 1917, 
the SSCRA has given the individual in this situation some protection, 
including the right to a continuance and default judgment protection if 
military service interferes with a timely response. In 2003, Congress 
expanded these provisions to make them apply to administrative as well 
as judicial proceedings, but the provision has been held not to apply 
to arbitration proceedings.
    Amend the SCRA to forbid exorbitant overdraft fees and late fees 
for deployed servicemembers: There have been instances where deployed 
servicemembers have been charged hundreds or thousands of dollars in 
overdraft fees or late fees for a low-dollar overdraft on a checking 
account or a late payment on a credit card. Such exorbitant fees should 
be forbidden.
Unemployment
    The national unemployment rate for 2009 was 9.3 percent, the 
highest since 1983, while the rate for Operations Iraqi Freedom (OIF) 
and Enduring Freedom (OEF) veterans as of March 2010 is 14.7 percent.
    Gulf War (August 1990-present) veterans comprise about one-third 
National Guard and Reserve (current or past). Among the Gulf War-era RC 
veterans the unemployment rate as of August 2009 was 10.9 percent. The 
overall unemployment rates for OIF and OEF of Reserve Component 
veterans was 10.2 percent in 2009.
    Young male veterans (18 to 24 years) had an unemployment rate of 
21.6 percent in 2009 with nearly two-thirds of all veterans from the 
current conflicts are under 35 years.
    Approximately 21 percent of OIF and OEF veterans have service-
connection disabilities.
    Other unique characteristics of the current veteran population is 
that women make up 18 percent of OIF and OEF veterans compared to 3 
percent for past conflicts. Also OIF and OEF veterans are far more 
likely to work for the Federal Government than nonveterans, 15 percent 
veterans compared to 2 percent nonveterans. Also veterans' unemployment 
has on average increased about 1 percent since 2007 although for 
Reserve Components it has actually quadrupled in the same period.
Post-9/11 GI Bill
    With rising unemployment among OIF and OEF including Guard and 
Reserve members, transitioning members need the opportunity to gain new 
skills, education, and experience to compete for jobs especially in our 
current difficult economic situation. Yet the Post-9/11 GI Bill does 
not include on the job (OJT), apprenticeship, and flight training 
programs.
    ROA and REA urge Congress to pass legislation that adds OJT, 
apprenticeship, and flight training programs to the Post-9/11 GI Bill 
eligibility.
    Additionally it's believed that the unemployment rate for veterans 
would be far worse than reported if so many veterans were not enrolling 
in educational institutions utilizing the Post-9/11 GI Bill. These 
veterans are not counted as being unemployed even though many need to 
continue working to support their families while attending school.
Barriers to Employment of Veterans
    There are two very significant barriers that servicemembers and 
veterans face. One is the lack of knowledge regarding the transition 
from military to civilian life. The other is the lack of ability of the 
veteran as well as a potential employer to translate the veteran's 
skills and education into a civilian job.
    According to a Military.com 2007 survey 61 percent of employers 
don't believe they have ``a complete understanding of the 
qualifications ex-servicemembers offer,'' and more than three-quarters 
of veterans entering the civilian workforce reported ``an inability to 
effectively translate their military skills to civilian terms.'' 
Veterans also feel they lack critical career advancement skills like 
networking and salary negotiation.
    Civilian employers are also wary of hiring RC members because of 
potential disruptions in the employee's work schedule due to their 
service requirements as well as medical appointments and war-related 
health problems.
    H.R. 2847 Hiring Incentives to Restore Employment Act was signed 
into law creating new tax breaks for hiring and retaining unemployed 
workers. Several other bills were also introduced this past year.
    ROA and REA encourage the implementation of certifications or form 
that would inform employers of skills potential veteran and 
servicemember employees gained through their military service.
    While not under this committees jurisdiction we hope that the 
Veterans Committee can support specific incentives to hire returning 
veterans and Guard and Reserve members.
Federal Government Employment
    At the end of Fiscal Year (FY) 2008 there were about 480,000 
veterans working within the Federal Government.
    In comparison to the private sector, the Federal Government hires 
three times percentage of veterans, seven times percentage of disabled 
veterans, and 10 times the percentage of severely injured veterans.
    Agencies within the government that demonstrate distinction should 
be studied and the results shared with all agencies as well as the 
private sector. For example nearly 80 percent of veterans are employed 
in three agencies--Departments of Defense (DoD), Veterans Affairs (VA), 
and Homeland Security (DHS)--which makes up approximately 58 percent of 
the workforce.
    In OPM's FY 2010-2012 Government-wide Veterans' Recruitment and 
Employment Strategic Plan they identified key barriers to increasing 
the number of veterans employed in the Federal Government which are 
listed below:

    <bullet>  Lack of clear leadership regarding the value and 
importance of hiring veterans
    <bullet>  Infrastructure that doesn't support advocacy of veterans' 
employment within Federal agencies
    <bullet>  Insufficient understanding of Veterans' Preference and 
utilization of special hiring authorities by human resources 
professionals and hiring officials
    <bullet>  Inadequate understanding of Veterans' Preference and 
Federal hiring process by veterans and transitioning servicemembers
    <bullet>  Absence of systems to match veterans' skills and 
education to positions within the Federal Government
    ROA and REA encourage this Committee to closely oversee OPM's 
strategic plan for veterans' recruitment employment to utilize 
information and gain a better understanding of obstacles and potential 
opportunities.
Veterans' Status and Preference

    Contrary to the legacy veteran's preference program where veterans 
were given 5 or 10 points on their application for Federal service, a 
new program began this past September taking servicemembers through the 
needed steps to acquire a Federal job upon leaving the military. Their 
skills are assessed to determine what kind of work they can do in 
Federal service then directed to those corresponding positions. ROA and 
REA support expansion of this program.
    Current law defines members of the Reserve Components who completed 
20 or more years of service as ``military retirees.'' At the age of 60, 
these retirees are eligible for all the benefits afforded active duty 
military retirees, such as military retired pay, and TRICARE health 
care. But they are not considered as Veterans as they didn't serve a 
qualifying period of 180 days of Federal active duty. In some cases, 
these individuals have even directly supported contingency operations, 
but on ``training'' orders.
    Many States and cities grant benefits to veterans, such as 
education and employment benefits, and use the Federal definition of a 
veteran to determine eligibility. So certain Guard and Reserve retirees 
aren't eligible for these local benefits, either.
    Congressman Tim Walz (D-Minn.) introduced a bill in October 2009. 
His H.R. 3787 would amend Title 38, United States Code, to deem certain 
service in the Reserve Components as active service for purposes of 
laws administered by the secretary of Veterans Affairs. In early 
January his bill had 30 co-sponsors.
    The Reserve Officers Association supports this bill and hopes that 
the Committee will release it for consideration by the House.
Small Business Owners
    Reserve Component small business owners are particularly challenged 
by deployments. About 22 percent of self-employed Reservists find their 
activations impact their personal businesses, creating very serious 
problems. Many have to sell out partnerships, or close down businesses. 
And as many of these Reserve Component members are employers of others, 
many non-military are laid off when the business owner is deployed.
    ROA and REA support initiatives to provide small business owners 
with protections for their businesses to be sustained while on 
deployment, for example a potential program in which a trained 
substitute if one is not available to run the business while the member 
is out country.
Conclusion
    ROA and REA would like to thank the Committee and its staff for its 
attention to this crucial issue which has increasingly become a 
pressing concern for veterans and their families. Even more so for RC 
members that are being utilized at a high operation tempo, requiring 
longer and more frequent periods of absence from their civilian jobs.
    Servicemembers and veterans as well as their families face daunting 
obstacles to their futures once they are separated from the military. 
The unemployment rate nationally is a growing problem, yet for veterans 
there situation is compounded for varying reasons causing their 
unemployment likelihood to be higher especially for the young veterans.
    ROA and REA appreciate efforts by this Committee to address 
employment issues that veterans face. We look forward to continuing to 
work with the Committee and staff.

                                 <F-dash>
   Prepared Statement of Colonel Peter J. Duffy, USA (Ret.), Deputy 
   Director of Legislation, National Guard Association of the United 
                                 States

Background--Unique Citizen Servicemember/Veteran
    The National Guard is unique among components of the Department of 
Defense in that it has the dual State and Federal mission. While 
serving operationally on Title 10 active duty status in Operation Iraqi 
Freedom (OIF) or Operation Enduring Freedom (OEF), National Guard units 
are under the command and control of the President. However, upon 
release from active duty, members of the National Guard return to the 
far reaches of their states as both veterans and continuing serving 
members of the Reserve Component but under the command and control of 
their governors. As a special branch of the Selected Reserves they 
train not just for their Federal missions but for their potential State 
active duty missions such as fire fighting, flood control and providing 
assistance to civil authorities in a variety of possible disaster 
scenarios.
    While serving in their States, members are scattered geographically 
with their families as they hold jobs, own businesses, pursue academic 
programs and participate actively in their civilian communities. 
Against this backdrop, members of the National Guard remain ready to 
uproot from their families and civilian lives to serve their governor 
domestically or their President in distance parts of the globe as duty 
calls and to return to reintegrate within the same communities when 
their missions are accomplished.
    Military service in the National Guard is uniquely community based. 
The culture of the National Guard remains little understood outside of 
its own circles. When the Department of Defense testifies before 
Congress stating its programmatic needs, it will likely recognize the 
indispensable role of the National Guard as a vital Operational Force 
in the Global War on Terror (GWOT) but it will say little about and 
seek less to redress the benefit disparities, training challenges and 
unmet medical readiness issues for National Guard members and their 
families at the State level before, during and after deployment. We 
continue to ask that they be given a fresh look with the best interests 
of the National Guard members and their families in mind.
Enhance Employability for Our National Guard Veterans by Amending 10 
        USC 1097c to Allow Employers to Offer Incentives for Them to 
        Enroll in TRICARE Reserve Select and Decline Employer Sponsored 
        Health Plans
    TRICARE Reserve Select (TRS) has been available to members of the 
Reserve Components since October 2007 but it remains under subscribed 
with only 7 percent of the eligible population participating according 
to the Department of Defense. This is surprising given the low monthly 
premium rates of $180.00 for family coverage and $47.51 for individual 
coverage.
    Under current law, 10 USC Section 1097c, employers of members of 
the Select Reserve cannot offer incentives to members of the Select 
Reserve to decline coverage under the Employer's more expensive health 
care plan and enroll in less expensive TRICARE Reserve Select with the 
premiums paid with pre tax dollars by their employers.
    The current law prevents our member veterans from leveraging their 
ability to be covered with low cost health insurance as an inducement 
for prospective employers to hire them. It is a challenge for all of 
our unemployed members to convince employers that they are worth hiring 
in the face of the certainty of disruptive long term absences from 
deployments. Amending 10 USC 1097c would have the beneficial effect of 
making our member veterans more attractive to potential employers 
because they would be less expensive to insure. This savings would loom 
large for employers now required to provide employees with health 
insurance under the new health care law.
Support for Expanding the Transition Assistance Advisor Program
    The Yellow Ribbon Program needs to expand by statute the Transition 
Assistance Advisor (TAA) Program to at least three hundred positions 
managed by the Joint Staff of the National Guard Bureau under the 
auspices of the Department of Defense Office of Reintegration. The ``go 
to'' feature of TAA makes it invaluable and personal to our members and 
their families to learn and understand the benefits programs that exist 
at the VA and elsewhere pre, during and after deployments. So many 
programs have proliferated during the current war that many members and 
family complain that that the information thrown at them at benefit 
briefings is like ``drinking from a fire hose''. The reintegration 
briefers from the behavioral care staff of Johns Hopkins refuse to use 
``power point'' because its lack of interactivity loses the trust and 
attention of the audience. The TAA program provides a necessary 
interactive and trustworthy alternative to the one time electronic 
briefing or the many lost in the shuffle Web sites. TAA has staying 
power and simply put-it works. It needs to be resourced and sustained 
with statutory backing.
S. 842 to repeal the sunset of SCRA foreclosure and interest rate 
        protections scheduled to expire December 31, 2010
    As part of the Housing and Economic Recovery Act of 2008, Congress 
strengthened the protections for our veterans under the Servicemembers' 
Civil Relief Act by extending both the 6 percent interest cap on pre 
deployment mortgage interest to 1 year after the period of military 
service and the stay against foreclosures from 90 days to 9 months 
after the period of military service. Unfortunately, these protections 
are scheduled to sunset (expire) December 31, 2010.
    S. 842 sponsored by Senator Kerry in the Senate would repeal the 
pending sunset of these protections . There are no cosponsors yet in 
the Senate and currently no House companion bill to S. 842. These are 
important protections in a difficult economic environment which need to 
be maintained beyond this year. It will be difficult for our member 
veterans to fully concentrate on their civilian employment with the 
specter of subprime mortgage hikes and foreclosures following close on 
their heels as they return from deployments.
Veterans' Preference Status for All Who Have Honorably Served in the 
        National Guard and Reserve
    NGAUS recently received a letter from Monique Elling, a former 
member of the Delaware National Guard, who served honorably for 10 
years in domestic assignments but who has been denied veterans 
preference points because her only title 10 active duty time was in 
training status after enlistment. With her permission, a copy of her 
letter is set forth in the Appendix. Such restrictive definitions of 
veteran disrespect the honorable service of our members and unfairly 
restrict employment opportunities for otherwise qualified candidates. 
Veterans' employment preference points must be extended to all those 
who have served honorably in the Select Reserve and active forces.
H.R. 3554--Amending the Post-9/11 GI bill to Recognize Title 32 Active 
        Duty
    Amid great celebration and expectations, the bill providing 
Educational Assistance for Members of the Armed Forces Who Serve After 
September 11, 2001, more commonly known as the Post-9/11 GI Bill, was 
hurriedly enacted as part of the Supplemental Appropriations Act, 2008 
Public Law 110-252 but with one glaring omission; Congress excluded all 
National Guard Title 32 active duty service after 9/11 from qualifying 
for benefits under this program.
    The impact of this legislation is that Congress has effectively 
denied benefits to our dedicated men and women who have served our 
country on Title 32 active duty post 9/11 as AGRs and in mobilized 
operations such as Operation Noble Eagle, Operation Jump Start, and in 
the critically needed airport security operations in the desperate days 
immediately following the 9/11 attacks on the homeland. What is 
particularly upsetting is the fact that the bill provides benefits for 
domestic active duty service of Reserve AGRs and other active forces on 
Title 10 orders who are performing virtually the identical service as 
our National Guard AGRs and other members on Title 32 orders who are 
denied the same benefits.
    In a time of limited employment opportunities, our members need to 
be given full opportunity, financial assistance and encouragement under 
the Post-9/11 GI Bill to pursue higher education to enhance their 
employability while waiting for the economy to correct.
    H.R. 3554, introduced by Representative David Loebsack (D-IA),with 
94 current co sponsors and its companion bill in the Senate, S. 1668, 
introduced by Senator Michael Bennet (D-CO), with 13 current co 
sponsors would include Title 32 active duty in the calculation of 
benefits under the Post-9/11 GI Bill. These bills will need broader co 
sponsorship and support in Congress to succeed.
    The Congressional Budget Office has recently estimated the cost of 
H.R. 3554 at $1.14 billion over 10 years. It is important to note that 
when it passed the Post-9/11 GI Bill, Congress rightfully disregarded 
its normal budgeting concerns which annually block legislation needed 
to correct longstanding benefit inequities faced by the National Guard. 
Money was not an object when the Post-9/11 GI Bill was enacted and it 
should not now be a bar to taking this corrective action.
H.R. 4318--Establishment of a Civilian Conservation Corps
    H.R. 4318, introduced by Representative Marcy Kaptur, would 
establish a 21st century Civilian Conservation Corps to employ our 
citizens in public works projects on our public lands to relieve the 
distress of unemployment and homelessness.
    A Civilian Conservation Corps (CCC) would provide a particularly 
effective venue for veterans who are already trained to work and live 
as a team in the most challenging of environments. It would provide an 
imaginative spark to public service in this country that would give our 
veterans and all others employed in a CCC program a sense of ownership 
and pride in improving our Nation. In a dispirited time for so many, a 
CCC program would raise the collective spirit of our Nation by 
initiating meaningful projects to employ veterans that would protect 
the environment and provide the necessary care and upkeep for our 
beautiful country.
Expanded Military Mental Health Care Training of Civilian Providers, 
        Veterans and Families and Issuance of VA Voucher
    The issues of veterans' employment and mental health maintenance 
cannot be separated. Before veterans can maintain gainful employment in 
a challenged job environment, they must be able to maintain a workable 
level of mental health and establish supportive social networks.
    The Rand Corporation in its study, ``The Invisible wounds of War'' 
reported that as of October 2007, 300,000 veterans of Operation Iraqi 
Freedom and Operation enduring Freedom suffered from either PTSD or 
major depression, a number which has only grown in the interim. The 
harmful effects of these untreated invisible wounds on our veterans 
hinder their ability to work productively and live independently.
    Rand emphatically recommended increasing the cadre of trained and 
certified providers and to deliver evidence based care to veterans 
whenever and wherever services are provided they are located. In 
addition to training providers, veterans and their families must be 
trained on how to recognize the signs of behavioral illness and how and 
where to obtain treatment for the same.
    In order to fully leverage the health care providers in our 
communities, veterans must have the ability to utilize trained and 
certified services in their communities wherever they are available. To 
facilitate this, the VA must issue a voucher card that will allow our 
veterans to seek fee based treatment with certified providers outside 
the brick and mortar of the Veterans Administration facilities which 
are often located hundreds of miles from a veteran in need. Requiring a 
veteran, once employed, to drive hundreds of miles to obtain care at a 
VA facility necessitates the veteran taking time off from work which 
most employers can ill afford.
APPENDIX

---Original Message--


From:                              Elling, Monique A Mrs CTR U.S. NG NGB
                                    ARNG [mailto:
                                    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="216c4e4f485054440f644d4d484f466154520f40534c580f4c484d">[email&#160;protected]</a>]
Sent:                              Wednesday, March 17, 2010 1:14 PM
To:                                Richard Green
Subject:                           The Unstatus Soldier (UNCLASSIFIED)
 
Classification:                    UNCLASSIFIED
 
Caveats:                           FOUO
 


    Mr. Green,
    Thank you for taking time out of your schedule to listen to my 
concerns. I was an officer in the Delaware National Guard who served 
over 10 years--seven of which were full-time as a ``military 
technician''. I've recently been applying for Federal jobs and on the 
job application it ask ``are a veteran of the armed forces?''. My 
instinctive reply to the question was ``yes''.
    Naturally 10 years of service in the Army National Guard qualifies 
me as a veteran. The question of my veteran status was proceeded by the 
quantifying statement ``served honorably on active duty in the armed 
forces of the United States for 180 days or more (Reserve and National 
Guard active duty for training does not qualify)''. It's not a matter 
of wanting monetary benefits but the Federal Government's recognition 
my years of service.
    Counterintuitive to everything I had been trained to do and lived, 
I had to put ``no''. No, my 10 years of training, operational exercises 
and drills are not quantifiable to 180 days of active duty. No, having 
to meet the same standards and required to attend the same schools as 
my active duty brothers is not quantifiable to 180 days of active duty. 
Is it a matter of perceived sacrifice? I too, upon the ramp-up of the 
war spent days and weeks away from my family preparing Soldiers and 
families for deployments. In fact, during the first serge of the war I 
was taking care of my father with cancer. I often found myself 
teetering between traveling to mobilization stations preparing my 
Soldiers and managing the care of my father. My father lost his battle 
with cancer. A part of me blames myself for splitting my time and not 
making him my sole priority. I share the next story not because I fancy 
morbidity, but to use my personal experience to illustrate the shared 
sacrifice of our ``Citizen'' Soldiers to their ``Active'' counterparts. 
I received my commission through the State OCS program. The length of 
the program was approximately 15 months. Twelve months into the program 
I became pregnant. Unaware of my pregnancy, I continued training and 
subsequently miscarried. I was told it was more than likely the 
physical stress I subjected upon myself. I've never publicly shared 
this story with anyone. I now gladly share but for the larger good it 
may do in the effort of changing the narrow definition of a 
``veteran.''
    To add insult to injury, I recently interviewed and was chosen for 
a position working for the National Guard Bureau but it was revoked due 
to my reinstatement eligibility status. I found out that due to the 
fact military technicians are ``excepted'' status Federal employees 
they cannot be considered for employment when the position is opened to 
only competitive status and reinstatement eligible Federal employees. I 
researched the issue further and found out there were exceptions to 
allowing certain ``excepted'' status candidates to compete through the 
Department of Defense Interchange Agreement. Upon further investigation 
I was shocked to find out that the National Guard does not have such an 
agreement with Department of Defense. I am perplexed that the National 
Guard Bureau, the very agency that oversees the various State National 
Guards is closed to military technicians. Again I ask, what is my 
status? I don't received the same status of my fellow guardsmen who are 
AGR and yet I'm not afforded the same treatment as a competitive 
Federal employee. Ironically, I'm hunted by a phrase I use to tell my 
Soldiers about the equality of each Soldier regardless of color, 
nationality or sex. ``Despite all of our differences we are all green 
on the inside''.
    Again, I thank you for your time and hope that my experience may 
help another
    Soldier. Unstatus but still ``green'' on the inside.

            Sincerely,

                                                  Monique A. Elling
                                                           IIF Data
                                                     Senior Analyst
                                                       703.601.7576

Don't wait to strike the iron when it's hot. Strike it and make it hot!

Classification: UNCLASSIFIED
Caveats: FOUO

                                 <F-dash>
            Prepared Statement of Hon. Raymond M. Jefferson,
    Assistant Secretary, Veterans' Employment and Training Service,
                        U.S. Department of Labor

    Madam Chair, Ranking Member Boozman, and Members of the 
Subcommittee:
    Thank you for your service to our Nation's Veterans and for the 
opportunity to testify before you today about what the Department of 
Labor's (DOL) Veterans' Employment and Training Service (VETS) is doing 
to help our Veterans and transitioning servicemembers.
    VETS proudly serves Veterans and transitioning servicemembers by 
providing resources and expertise to assist and prepare them to obtain 
meaningful careers, maximize their employment opportunities and protect 
their employment rights.
    I am deeply humbled to have the privilege of serving our Nation as 
the Assistant Secretary for Veterans' Employment and Training. 
Secretary Solis has been an incredible source of guidance and support, 
and has made Veterans and VETS one of her top priorities. Our programs 
are an integral part of Secretary Solis's vision of ``Good Jobs for 
Everyone,'' and her commitment to help Veterans and their families get 
into the middle class and maintain stability.
    Every day, we are reminded of the tremendous sacrifices made by our 
servicemen and women, and by their families and one way that we can 
honor those sacrifices is by providing them with the best possible 
services and programs our Nation has to offer. Secretary Solis and I 
believe strongly that Veterans deserve the chance to find good jobs and 
VETS works closely with the DoD and the Department of Veterans Affairs 
(VA) to help them get there. All of us--and that certainly includes 
Congress as well as the Administration--have to work together to help 
our Veterans overcome the challenges they face to finding a good job 
when they return to civilian life.
                              Aspirations
    The Secretary's guiding vision and the discussions I've had since 
my confirmation with servicemembers, Veterans, Veterans' Service 
Organizations, private sector leaders, and employment and training 
professionals have informed five core aspirations that VETS will pursue 
during my tenure as Assistant Secretary:

    1.  We will provide Veterans and transitioning servicemembers a 
voice in the workplace by serving as the national focal point for 
Veterans' employment and training needs. Specifically this involves the 
following:

        a.  Helping more Veterans by increasing awareness of our 
        resources, making our programs more accessible, and improving 
        the employment outcomes for those who participate in them.
        b.  Improving communication and collaboration with partners and 
        stakeholders.
        c.  Paying close attention to populations with unique needs, 
        especially Veterans and transitioning servicemembers who are 
        women, Native Americans, homeless, live in rural areas, or are 
        wounded, ill or injured.

    2.  We will create a better path to good jobs for Veterans through 
increased engagement with employers, with a particular emphasis on the 
private sector.
    3.  We will help servicemembers transition seamlessly into 
meaningful employment and careers while emphasizing success in emerging 
industries such as green jobs.
    4.  We will facilitate a return to work for servicemembers and 
protect vulnerable populations by increasing awareness of and 
commitment to USERRA's rules that protect Veterans.
    5.  We will invest in VETS' team members and emphasize continuous 
improvement to better serve the Secretary's vision and the Nation's 
Veterans.
                    Improvements in Current Programs
    We have four main programs at VETS which serve the Secretary's goal 
of providing ``Good Jobs for Everyone'' that we are working to improve:

    <bullet>  The Jobs for Veterans State Grants (JVSG);
    <bullet>  The Transition Assistance Program Employment Workshops 
(TAP);
    <bullet>  The Homeless Veterans' Reintegration Program (HVRP); and
    <bullet>  The Uniformed Services Employment and Reemployment Rights 
Act (USERRA).
Jobs for Veterans State Grants
    The Jobs for Veterans State Grants helps Veterans find good jobs 
through services provided at One-Stop Career Centers and other 
locations. Grants are provided to State Workforce Agencies to hire 
Veteran-dedicated staff such as Disabled Veteran Outreach Program 
specialists (DVOPs) and Local Veterans' Employment Representatives 
(LVERs), who serve as the ``front line'' for the employment and 
reemployment of our Nation's Veterans.
    The Jobs for Veterans Act of 2002 (JVA) changed the DVOP and the 
LVER programs by making delivery of intensive services the principle 
focus for DVOP specialists and by providing LVERs with a dual mission 
of providing employer outreach and facilitating services. For FY 2011, 
the President's budget proposes an initiative that will more closely 
align the service delivery duties of DVOPs with providing intensive 
services, and continue to emphasize the LVER outreach to employers. We 
will accomplish this by beginning with a pilot and progressing to 
system-wide implementation.

    <bullet>  Under the budget proposal, DVOPs will:

        <bullet>  Offer tailored intensive services to Veterans with 
        employment barriers; and
        <bullet>  Reduce the emphasis on delivery of core services to 
        Veterans.

    <bullet>  LVERs will increase their emphasis on job development and 
employer outreach.

    We expect to publish policy guidance this month, and then conduct 
pilot programs with full implementation by September 2011.
    Also under the Jobs for Veterans Act of 2002, Veterans receive 
priority of service in all qualified job training programs that are 
directly funded, in whole or in part, by the Department of Labor, 
including programs offered at DOL-funded One-Stop Career Centers. The 
Department published regulations in 2009 to implement this rule, and 
recently, released joint guidance from VETS and DOL's Employment and 
Training Administration (ETA), which administers the Career Centers.
    These Centers provide high-quality employment and training services 
at more than 3,000 locations across America and last year, helped over 
1.5 million Veterans and provide an array of services including:

    <bullet>  Skills assessment and interest surveys;
    <bullet>  Career guidance;
    <bullet>  Job search assistance;
    <bullet>  Skills training for jobs in high-demand in specific local 
communities;
    <bullet>  Child care; and
    <bullet>  Transportation.

    VETS is also collaborating with VA's Vocational Rehabilitation and 
Employment (VR&E) service by stationing DVOP specialists at VA Regional 
Offices and other points of entry to VR&E services to help VR&E 
participants find good jobs.
Transition Assistance Program (TAP) Employment Workshops
    DOL provides TAP Employment Workshops at military installations 
world-wide to make it easier for servicemembers and their spouses to 
transition from military service to civilian employment. These are 
comprehensive 2\1/2\ day employment workshops.
    In response to external assessments and stakeholder feedback 
regarding TAP's performance, we are working closely with DoD, VA and 
the Department of Homeland Security (DHS) to redesign the workshops to 
make them more relevant and engaging. Presently, the 2\1/2\ day 
workshop consists of about 240 slides that haven't been modernized in 
about 17 years. We need to and we will make them more engaging, 
relevant, and applicable to Veterans preparing to come home.
    The FY 2011 budget establishes the TAP program as a separate budget 
activity to highlight the significant role this program plays in 
helping returning servicemembers find good jobs. The requested increase 
of $1,000,000 in FY 2011 will be used to raise awareness that spouses 
are eligible to attend the program, and to provide the course to 
spouses in languages other than English.
    We also worked with DoD, VA, and DHS late last year, to develop a 
multi-year, strategic plan for servicemembers as they transition from 
the military. This effort goes beyond the TAP Employment Workshop and 
encompasses the entire transition experience. We're all committed to 
ensuring the plan is action-oriented and will have a measurable, 
positive impact. It will involve an increased emphasis on the 
employment needs of the Reserve components and servicemembers who have 
been wounded, ill or injured.
Homeless Veterans' Reintegration Program (HVRP) and Veterans' 
        Homelessness
    Secretaries Solis, Shinseki, Sebelius, and Donovan share a 
commitment to eliminating homelessness among Veterans. Our 
appropriation for FY 2010 is $36,330,000 and we have requested an 
additional $5,000,000 for a total of $41,300,000 for FY 2011. We have 
strengthened our interagency collaboration at all levels to mobilize 
for this important and necessary goal. VETS' contribution to this 
effort will include the following:

    <bullet>  Continue reaching out to homeless Veterans and assisting 
them in becoming reintegrated into the workforce through the Homeless 
Veterans' Reintegration Program. VETS expects to serve 21,000 
participants in FY 2010. The requested increase of $5 million for FY 
2011 will boost that number to an estimated 25,000 participants.
    <bullet>  Through the Incarcerated Veterans Transition Program 
(IVTP), VETS will continue its efforts to help incarcerated Veterans 
and will coordinate these efforts with the Department of Veterans 
Affairs. Of the $36 million for HVRP in FY 2010, VETS plans to use $4 
million for IVTP, which will serve approximately 1,500 Veterans, 
through 12 grants, who will be transitioning from incarceration back to 
society. We plan to continue this program at that level in FY 2011.
    <bullet>  Of the $10 million increase for the HVRP in FY 2010, we 
will use up to $5 million for a major new undertaking--to provide 
customized employment services for homeless women Veterans and homeless 
Veterans with families, a population that is on the rise and in need of 
specialized services. We expect to fund about 25 grantees with this $5 
million increase, and will continue this effort in FY 2011.
Uniformed Services Employment and Reemployment Rights Act (USERRA)

    VETS is not only an employment and training agency; it is also a 
worker protection agency with a vital role in enforcing the employment 
and reemployment rights for uniformed servicemembers.
    VETS recently completed an assessment of USERRA in order to 
increase responsiveness to Veterans. Through this assessment we will 
move towards more consistent and high standards in our investigations, 
and determine other steps to improve the program and its outcomes.
    We have also begun work on an electronic case management system to 
improve efficiency by eliminating unnecessary paper-work in our 
investigations. Access to this system will be shared with our Federal 
enforcement partners.
    Finally, we are also working closely with the Office of Personnel 
Management to ensure that the Federal Government serves as model 
employer in carrying out the provisions of USERRA.
                  Increased Engagement with Employers
    In addition to improving current programs, VETS is working on new 
efforts to highlight the value of hiring Veterans to the private sector 
and making the Veterans hiring process more convenient and efficient.
    There is tremendous opportunity for increased engagement with 
private employers and VETS is working with them and their organizations 
to enlist their advice and support:

    <bullet>  On November 12, 2009, Secretary Solis and VETS 
participated in a major outreach initiative to promote Veterans' hiring 
sponsored by the U.S. Chamber of Commerce. The goal is to form a link 
between local private sector employers and the Veterans who are looking 
for employment through the One-Stop Career Centers. This event was an 
important first step in developing a partnership with the Chamber and 
as a result each of VETS' 52 State directors are now reaching out to 
regional and local Chambers of Commerce.
    <bullet>  Last month, DOL's Assistant Secretary for Disability 
Employment Policy, Kathy Martinez, and I facilitated a discussion with 
50 human resources personnel at Chamber headquarters and, later this 
Spring, Secretary Solis will be having a similar discussion with 25 
CEOs.
    <bullet>  VETS is in the process of developing relationships with 
other important business associations, such as the Executive Leadership 
Council, Business Executives for National Security, business 
roundtables, economic development boards and high-tech associations.
                               Job Corps
    In addition to working with the private sector and other Federal 
Government partners, VETS is working with other agencies within DOL. 
For example, we're developing a program with Jobs Corps to encourage 
transitioning servicemembers to enroll in Job Corps training.
    The program will provide Veterans with the academic, career 
technical and social skills they need to become employable and 
independent in the civilian labor force. Residential and training space 
has been set aside at three Job Corps sites. In the pilot, a total of 
300 Veterans will be chosen from selected TAP sites across the country 
to participate in this program and receive training in various fields 
including, advanced manufacturing, automotive repair, construction, 
finance, business, health care, homeland security, hospitality and 
culinary arts, information technology, renewable resources, retail 
sales and transportation.
                          Targeted Populations
    There are several populations of Veterans who have historically 
been under-served whom VETS is developing additional tailored programs 
for, including Native American Veterans and Veterans who are wounded, 
injured, or ill.

    1.  To gather input from Native Americans, Secretary Solis hosted a 
Summit of Tribal Leaders at DOL that VETS participated in, where the 
problems facing Native American Veterans in finding good jobs were 
discussed. Furthermore, VETS has recently completed a study on the 
employment needs of Native American Veterans living on tribal lands, 
which should be released within 2 months, and will also be 
participating in a number of additional Native American outreach events 
in 2010.
    2.  To help the brave heroes who are wounded, ill or injuredfind 
good jobsVETS has two special initiatives:

        a.  The Recovery and Employment Assistance Lifelines 
        (REALifelines) provides one-on-one services to our wounded 
        warriors to ease their transition into civilian employment. We 
        have special REALifelines coordinators stationed at military 
        treatment facilities on a full-time basis who provide services 
        to wounded, injured, or ill personnel on those bases and at 
        other nearby facilities.
        b.  America's Heroes at Work (AHAW) is a joint initiative with 
        DOL's Office of Disability Employment Policy. AHAW is an 
        outreach and anti-stigma campaign that educates America's 
        employers about the simple on-the-job accommodations and steps 
        they can take to help Veterans with post-traumatic stress 
        disorder and/or traumatic brain injury to excel in their 
        careers. This program is the result of strong collaboration 
        with DoD, VA and other Federal agencies and stakeholders.
                 Veterans' Green Energy Jobs Initiative
    VETS also is working to prepare Veterans for the jobs of tomorrow 
and so in July 2009, we awarded 17 competitive grants under the 
Veterans' Workforce Investment Program, totaling $7.5 million to help 
train approximately 3,000 Veterans for jobs in green energy 
occupations. Fields of employment include energy efficiency, renewable 
energy, modern electric-power development and clean vehicles. This 
program will help Veterans overcome employment barriers and ease their 
transition into this growing industry. For FY 2010 we received an 
increase of $2,000,000, and plan to award up to an additional four 
grants in July, and will continue this program at that same funding 
level in FY 2011.
                           Federal Employment
    I know that your Committee is also interested in Veterans 
employment within the Federal Government. BLS Deputy Commissioner Rones 
will offer more details on that subject but I can say that according to 
OPM Veterans made up 25.5 percent of the Federal workforce for both 
fiscal years 2007 and 2008.
    (Source: United States Office of Personnel Management Employment of 
Veterans in the Federal Executive Branch Fiscal Year 2008)
    VETS is also leading the effort to implement Executive Order 13518 
Employment of Veterans in the Federal Government, which President Obama 
signed on November 9, 2009. This order establishes a Council on 
Veterans' Employment co-chaired by Secretaries Shinseki and Solis with 
the Director of OPM serving as Vice Chair. The overall goal is to 
increase the number of Veterans in the Federal workforce.
Additionally, agencies are required to establish a Veterans Employment 
Program
office, or designate an agency officer or employee with full time 
responsibility for its Veterans Employment Program. A new Web site has 
been created www.fedshirevets.gov.
    The Council has developed a Strategic Plan and established three 
work groups to cover skills development and employment, marketing 
Veterans suitability for employment, and providing information to 
Federal hiring managers. VETS has a representative on all three groups 
and chairs the Skills Development and Employment group.
                               Conclusion
    Thank you for the opportunity to present some of what we're doing 
at VETS. We will continue working tirelessly, passionately and 
innovatively to help our Veterans and transitioning servicemembers 
create meaningful lives, rewarding careers and become productive 
citizens and leaders in their communities.

                                 <F-dash>
      Prepared Statement of Christine M. Griffin, Deputy Director,
                  U.S. Office of Personnel Management

    Good afternoon, Chairwoman Herseth Sandlin, Ranking Member Boozman, 
and Members of the Subcommittee. Thank you for inviting me to this 
important hearing on the status of veterans' employment and the role of 
the U.S. Office of Personnel Management (OPM) within it. As a veteran 
of the United States Army, having served on active duty from 1974-1977, 
I understand the importance of making sure that our veterans are able 
to find and retain jobs.
          Governmentwide Recruitment and Retention of Veterans
    Ensuring that veterans have full access to Federal civilian jobs 
following their separation from military service is one of the highest 
priorities of Director John Berry and myself; it is also at the very 
core of OPM's mission: To recruit, retain and honor a world-class 
workforce to serve the American people. President Obama reinforced our 
commitment to veterans' employment when he signed Executive Order 13518 
last November. This order established the Veterans Employment 
Initiative, which will guide this Administration's efforts to 
reinvigorate the recruitment and retention of veterans in the Federal 
workforce.
    The Executive Order cemented a partnership among the Departments of 
Defense, Labor, Veterans Affairs, Homeland Security, and OPM and 
directed Federal agencies to enhance employment opportunities for 
veterans employed in the executive branch. Our partners in this 
initiative employ nearly 80 percent of all veterans in the Federal 
workforce. As we looked more closely at the government-wide veteran 
employment numbers, we realized there are pockets of excellence in the 
recruitment and employment of veterans that can benefit other Federal 
agencies. By leveraging the practices of successful agencies, the 
Government will increase its effectiveness in recruiting, on-boarding, 
and providing career counseling to veterans seeking Federal employment. 
As part of this effort, OPM is collaborating with the Department of 
Veterans Affairs (VA) Vocational Rehabilitation and Employment (VR&E) 
Program.
    The Executive Order also established an Interagency Council on 
Veterans Employment (the Council), co-chaired by the Secretaries of 
Labor and Veterans Affairs, with the Director of the Office of 
Personnel Management serving as Vice-Chair. The Council members also 
include a number of other agencies, and the President may designate 
other members. The Council had its inaugural meeting in December 2009 
to outline the responsibilities under the Executive Order, affirm its 
commitment to enhance the employment of veterans in the Federal 
Government, and to chart a strategic course forward.
    On January 29, 2010, OPM released The Governmentwide Veterans' 
Recruitment and Employment Strategic Plan for FY 2010-FY 2012. The 
Strategic Plan focuses on aggressively breaking down barriers to 
veterans' employment by using a number of strategies focused on the 
following four areas:

        Leadership Commitment--establishes a governance structure and 
        infrastructure dedicated solely to the employment of veterans 
        in the Federal Government.

        Skills Development and Employment--focuses on providing 
        employment counseling and aligning the talents and aspirations 
        of veterans and transitioning servicemembers with civil service 
        career opportunities.

        Marketing Veterans' Employment--creates a marketing campaign, 
        aimed at (1) highlighting for veterans and transitioning 
        servicemembers the benefits of continuing their careers with 
        the Federal civil service and (2) raising awareness among 
        hiring officials of how veterans can meet demands for needed 
        skills in their organizations.

        Information Gateway--creates a single-source Web site for 
        disseminating accurate and consistent veterans' employment 
        information and resources for veterans, human resources 
        professionals, and hiring officials.

    In addition, OPM established a Veterans Employment Program Office 
to provide Governmentwide leadership on the Veterans Employment 
Initiative and launched the comprehensive veterans' employment 
information gateway www.fedshirevets.gov. Veterans now have a formal 
employment advocate in the 24 Federal agencies identified in the 
Executive Order.
                     Impact of Veterans Preference
    Veterans' preference recognizes the economic loss often suffered by 
citizens who have served, restores veterans to a favorable competitive 
position for Government employment, and acknowledges the larger 
obligation we owe to disabled veterans. The Executive branch of the 
Federal Government is the Nation's leading employer of veterans. Over 
half a million veterans are employed today in agencies across the 
country and around the world. Approximately 25 percent of, or one of 
every four, current Federal employees is a veteran. In comparison to 
the private sector, the Federal Government hires three times the 
percentage of veterans, seven times the percentage of disabled 
veterans, and 10 times the percentage of severely injured veterans. 
Each year we continue to see an increase in the number of veterans 
employed by the Federal Government. In FY 2007 there were 462,744 
veterans out of 1,811,459 total employees. Again in FY 2008, the number 
of veterans rose to 481,223 out of 1,886,720 total employees, and our 
most recent numbers show that the number of veterans rose to 512,671 
out of 1,986,005 total employees in FY 2009.
    Not only is hiring veterans the right thing to do, it also makes 
good business sense. The Government invests significant resources in 
the training and development of military service personnel. Acting 
aggressively to retain transitioning military service personnel within 
the Federal Government helps maximize our return on this investment. As 
noted in the Executive Order, veterans possess a wide variety of skills 
and experiences, as well as a dedication to public service, that can be 
of enormous benefit to the Government as an employer. The Government 
has a number of skills gaps these individuals can fill immediately, 
thereby reducing overall training costs and accelerating productivity.
                       Use of Hiring Authorities
    In FY 2009, the Veterans Employment Opportunities Act (VEOA) 
accounted for the largest number of veterans hired in the Federal 
Government (20,214), followed by the Veterans Recruitment Act (6,659), 
and the 30 percent or more disabled veterans (1,729) hired through 
various authorities. Under the Executive Order, OPM is aggressively 
pursuing a program aimed at educating hiring managers on the strategic 
use of the various hiring authorities that can be used for veterans. 
OPM is also working with VA to educate agencies on the strategic hiring 
of veterans who have participated in a VA Vocational Rehabilitation and 
Employment program under 38 U.S.C. Chapter 31.
                     Federal Career Intern Program
    The Federal Career Intern Program (FCIP) was established by 
Executive Oder in 2000 to help agencies recruit exceptional individuals 
and to prepare them for careers in analyzing and implementing public 
programs. FCIP is a training and development program, generally of 2 
years' duration, that agencies utilize to groom subject matter experts 
in a variety of jobs. Agencies are required to develop 2-year formal 
training and job assignment programs for each career intern. Upon 
successful completion of the 2-year internship, agencies have the 
option of bringing the interns into their permanent workforce.
    Since the program's inception in 2000, agencies have steadily 
increased their hiring through the FCIP. This trend may be partly 
attributable to agency succession planning efforts to address the 
retirement wave that was anticipated at that time.
    It is important to note that veterans' preference applies to the 
selection of career interns under the FCIP. Veterans' preference has 
long been a cornerstone of the civil service. Accordingly, when OPM 
issued guidance implementing the FCIP, agencies were made aware of the 
applicability of this important entitlement when hiring under this 
program. Since this program was created, OPM has not been aware of any 
systemic abuses or violations with respect to the application of 
veterans' preference to the FCIP. Practices concerning how an agency 
pursues a request to ``pass over'' a preference eligible with a 
compensable, service-connected disability of 30 percent or more were 
recently modified, through OPM guidance, to ensure full compliance with 
controlling case law.
    The table below shows the number of FCIP hires in each of the last 
9 fiscal years; including how many of these were preference eligibles.


----------------------------------------------------------------------------------------------------------------
                                                   Fiscal Year
-----------------------------------------------------------------------------------------------------------------
                                    01       02       03       04       05       06       07       08       09
----------------------------------------------------------------------------------------------------------------
Total FCIP Hires                    411     2871     5674     6676    10297    11929    16706    24431    26709
----------------------------------------------------------------------------------------------------------------
# Pref eligibles                     17      167      379      507      757     1266     2336     3114     2902
----------------------------------------------------------------------------------------------------------------
% Pref eligibles                    4.1      5.8      6.6      7.5      7.3     10.6     13.9     12.7     10.8
----------------------------------------------------------------------------------------------------------------

    Our data shows that the percentage of FCIP hires that were 
preference eligibles has increased significantly since 2001, the first 
full year for which we have data. However, it is still well below the 
percentage of the overall Federal workforce represented by veterans. 
OPM is currently conducting a comprehensive review of the FCIP as part 
of an overall hiring reform initiative.
                               Conclusion
    Madam Chairwoman, in addition to preserving and protecting 
veterans' preference, OPM is aggressively dismantling any barriers that 
limit the entry or success of veterans or transitioning servicemembers 
in civil service. We are proud of our efforts to fulfill the 
President's vision to increase the number of veterans employed by the 
Federal Government.
    I would be happy to answer any questions you or other Subcommittee 
Members may have.

                                 <F-dash>
         Prepared Statement of Willie Hensley, Principal Deputy
        Assistant Secretary, Human Resources and Administration,
                  U.S. Department of Veterans Affairs

    Madam Chairwoman and Members of the Subcommittee--good afternoon. 
Thank you for your invitation to appear before you today to offer 
testimony on the status of Veteran Employment efforts within the 
Department of Veterans Affairs' (VA).
    Every day at VA we serve Veterans who have sacrificed to defend and 
support this country. The Department fully supports the laws that place 
Veterans, and particularly disabled Veterans, in a favorable 
competitive position for Government employment. We believe that 
affording Veterans a statutory preference in employment is not merely 
the obligation of a grateful Nation; it is good government and good 
business. It gives us an advantage in recruiting and retaining 
employees from a pool of the Nation's most highly motivated, 
disciplined, and experienced candidates.
    As of March 31, 2010, over 90,000, or just under 30 percent of VA's 
301,891 employees are Veterans. Over 74,000 of these employed Veterans 
are preference eligible, and 26,366 are disabled. VA ranks first among 
non-Defense agencies in the number of Veterans hired.
    VA's success in attracting and hiring Veterans is due in great part 
to the work of our staff offices and administrations and, especially, 
the Veterans Employment Coordination Service (VECS). This program, 
created in 2007, has successfully built on lessons learned from 
previous efforts dating back to 2001 when VA established its first 
National Veterans Employment program. VECS operates from within the 
Office of Human Resources Management and leads the Department's efforts 
to attract, recruit, and hire Veterans nationwide, particularly 
severely injured Veterans from Operation Enduring Freedom and Operation 
Iraqi Freedom (OEF/OIF). VECS staffs Regional Veterans Employment 
Centers located in Seattle, WA, San Diego, CA, Denver, CO, San Antonio, 
TX, Augusta, GA, Louisville, KY, Fayetteville, NC, New York, NY and 
Washington, DC. This team of 9 Regional Veteran Employment Coordinators 
(VECs) works closely with over 200 local collateral duty VECs situated 
at VA facilities across the country to assist Veterans seeking 
employment with VA. These dedicated regional and local coordinators 
also serve as advocates for Veterans--coordinating with VA's human 
resource professionals--working to raise awareness of Veteran specific 
appointment authorities and reinforcing with hiring managers the VA's 
commitment to increase Veteran employment throughout the Department.
    We also are proud of the leadership role VA has played and 
continues to play--along with our partners at the Departments of Labor 
and Defense, the Office of Personnel Management (OPM), and other key 
agencies--in the creation and work of the Interagency Council on 
Veterans Employment. The Council was established by the President's 
Executive Order on Employment of Veterans in the Federal Government. 
Through VA's participation on the Council, we have shared our success 
with the VECS program as a best practice.
    OPM references VECS as a model for establishing Veterans' 
employment offices within other Federal departments. As a result of the 
recent Executive Order, OPM routinely refers agencies to us as they 
establish their Veteran Employment program offices. To date, we have 
shared our experiences with several other agencies, such as the 
Departments of State and of Commerce, as well as the National 
Aeronautics and Space Administration, and the Environmental Protection 
Agency.
    VA regularly uses special appointment authorities, e.g., Veterans 
Recruitment Appointment, Veterans Employment Opportunities Act 
appointment, and 30 percent compensable disabled Veteran appointment, 
to hire Veterans. VA aggressively hires Veterans using other 
appointment authorities as well. During fiscal year (FY) 2009, VA hired 
11,588 preference eligible Veterans and another 1,009 non-preference 
eligible Veterans.
    The success of VA outreach and recruiting strategy has enabled us 
to maintain the high percentage of Veterans in our workforce--
approximately 30 percent for the last year--even as high numbers of 
Vietnam Era Veterans are increasingly eligible to retire from the 
Department.
    While we are hiring Veterans in sufficient numbers to replace those 
retiring, we are employing new strategies to market VA jobs to Veterans 
and Servicemembers so that Veteran applicants have a better sense of 
VA's organization and operations and can more effectively match their 
skill set to potential employment opportunities. Finally, we have 
placed a renewed emphasis on training and career counseling. Our 
approach has been to ``mine'' lessons learned from the successful 
initiatives implemented in each of our administrations, examine 
statistics within each region to assess where to focus our training and 
awareness efforts, and instill a recommitment from the top on down to 
hire and retain Veterans. In addition, we are looking at ways to 
improve how we reintegrate employees who return to VA jobs after 
deployment.
Employment Outreach Efforts
    It is estimated that on any given night there are over 107,000 
Veterans who are homeless and many more who are at risk of 
homelessness; some of these are Veterans returning to civilian life 
after service in OEF/OIF or other areas of the world. Employment 
outreach is part of Secretary Shinseki's commitment to end the cycle of 
homelessness among Veterans.
    As mentioned earlier, there are a number of hiring authorities 
available to promote employment of Veterans. However, many who are 
homeless do not meet the requirements for employment as disabled 
Veterans or preference eligibles. Consequently, they are not able to 
take full advantage of some Veteran focused employment efforts. 
Further, the fact that a Veteran is homeless generally means that he or 
she cannot:

    <bullet>  Present himself or herself to prospective employers in a 
credible fashion;
    <bullet>  Commute to interviews or worksites;
    <bullet>  Access computers, State employment services offices, 
libraries, etc., to find employment opportunities; or,
    <bullet>  Dedicate time to anything other than to the basic effort 
to survive.

    To address this need, VA will work with its partners on the 
Interagency Council on Veterans Employment to leverage existing 
authorities and identify new strategies that will enable Federal 
agencies to hire homeless Veterans for Federal civilian positions for 
which they are qualified.
    Employing a homeless Veteran does not result in any additional 
costs to the Federal Government. However, as homeless Veterans return 
to the workforce, we would expect this change to generate significant 
savings not only to the Federal Government but also to the State and 
local governments.
    Staff from VA's National Cemetery Administration (NCA) attend, 
speak, and exhibit at more than 40 major outreach events and hundreds 
of smaller, local, outreach opportunities around the country every 
year. NCA uses these opportunities to recruit Veterans for employment 
at VA. NCA has also benefitted from the services provided by VECS, 
which consistently refers quality candidates to fill NCA positions. 
VECS offers top-quality, motivated candidates, which saves hiring 
managers time in filling positions, and provides an ``express lane'' to 
Veteran employment with NCA. NCA has had great success with this 
program. Through referrals from VECS, NCA has hired 116 OEF/OIF 
Veterans to its workforce since the beginning of 2009.
    Retention of employees is also a priority within NCA. In order to 
improve core competencies and explore new areas for the growth and 
development among its Veteran employees, NCA developed the NCA 
Leadership Institute, the Cemetery Director Intern Training Program, 
and other specialized in-person training opportunities located at the 
NCA National Training Center in St. Louis, Missouri.
    The Veterans Health Administration (VHA) is currently piloting a 
National Recruitment Initiative (NRI) to supplement the general 
recruiting practices conducted at individual VA medical centers 
nationwide. As part of this initiative, VHA has broadened its efforts 
to reach out to clinicians with prior military experience. The pilot 
program is staffed by 8 retired military health care recruiters who are 
involved in an array of activities that range from participating in 
briefings for military residents to identifying military practitioners 
through the Federal Practitioners Directory. NRI staff also attend 
local Transition Assistance Program briefings and partner with a 
variety of organizations that associate with health care professionals 
who have prior military service. Each year, VHA sends representatives 
to the Association of Military Surgeons of the United States' annual 
conference where they market employment opportunities in VHA. VHA also 
has created a recruitment brochure specifically marketed to Veterans. 
The brochure is distributed to military offices across the country and 
is available online.
Vocational Rehabilitation and Education (VR&E) Service Provides Support 
        to Veterans Pursuing Education Benefits
    Chapter 36 Educational and Vocational Counseling Services can be 
provided to transitioning Servicemembers within 6 months of discharge 
from active duty or within 1 year following discharge from active duty. 
Eligibility for this service is based on having eligibility for one of 
the other educational benefits programs under title 38, United States 
Code. Counseling services provided under Chapter 36 are designed to 
help the Servicemember or Veteran choose a vocational direction and 
determine the course needed to achieve the chosen goal. This service 
also can facilitate a seamless transition from active duty military to 
Veteran status. Specifically, by completing interest and aptitude 
testing, initiating occupational exploration, and setting occupational 
goals under Chapter 36, the Veteran will be well positioned to begin a 
training and rehabilitative program under Chapter 31 of title 38.
    VR&E Employment Coordinators work directly with their local 
regional office managers in each business line to stay informed of job 
vacancies and refer qualified Veterans for direct hires when 
appropriate. They also coordinate with VECS employment coordinators 
across the Nation. In FY 2009, VA Central Office hired 700 Veteran 
graduates of the VR&E program--4 in NCA, 302 in VHA, and 394 in VBA.
    The VA's VetSuccess on Campus pilot program was created to ease the 
transition of Servicemembers to Veteran status and ensure the 
coordinated delivery of benefits and services to Veteran-students. The 
program provides outreach and transition services to the general 
Veteran population during their transition from military to college 
life. The mission of the VetSuccess on Campus Veteran Recruitment 
Center (VRC) is to liaison with VA certifying officials, perform 
outreach, and communicate with Veteran-students to ensure their health, 
educational, and benefit needs are met, enabling them to stay in 
college to completion of their degrees. The VRC provides vocational 
testing, career and academic counseling, and adjustment counseling to 
resolve problems interfering with completion of education programs and 
entrance into employment. The VRC also assists Veterans with 
information about other VA benefits. The Vet Center Outreach 
Coordinator provides peer-to-peer counseling and referral services as 
needed. Currently, the pilot program has been expanded from the 
University of South Florida to two additional sites, Cleveland State 
University, and San Diego State University.
    Every day at VA, we see firsthand the sacrifice that our Veterans 
have made for our Nation. It is our responsibility and privilege to 
support their return to meaningful employment. Through continued hard 
work and dedication, we are committed to continuing our successful 
focus on Veteran hiring in VA. The attached appendix provides 
additional specifics about the status of Veterans employment in VA.
    Madam Chairwoman, thank you again for the opportunity to testify 
today. I am prepared to respond to any questions Members may have.
Appendix--Veteran Employment in the Department of Veterans Affairs
    This data was extracted from the Department of Veterans Affairs 
(VA) personnel-payroll system as of February 28, 2010
How many Veterans and/or disabled Veterans applied for jobs at VA?
    While VA currently does not have a Department-wide automated system 
that captures data on applicants for all VA positions, we can provide a 
count of applications VA processed in 2007 under its delegated 
authority to announce title 5 competitive positions to the general 
public. The 177,555 applications received under these delegated 
examining announcements resulted in 3,706 selections, of which 1,056 or 
28.5 percent of the selectees are preference eligibles.
    Over the next 2 years, VA is aggressively expanding its use of the 
automated USA Staffing system, which will enable us to capture more 
fully data on Veterans' preference and other applicants.
What authorities are used most often by VA to hire Veterans?
    The following are the authorities most often used:

VETERANS EMPLOYMENT OPPORTUNITY ACT (VEOA)
DELEGATING EXAMINING UNIT (DEU)
TITLE 38 USC
VETERANS RECRUITMENT APPOINTMENT (VRA)

How many vets were hired through each of the various hiring authorities 
        at VA? (See last page)
    In the first 6 months of FY 2010, VA hired 16,179 employees, of 
whom 5,184 or 32.0 percent are Veterans. Two thousand and seventy-four 
(2,074) of these Veterans have earned 10-point disability preference 
for Federal jobs, including 1,341 who have 30 percent or higher 
service-connected disabilities, and another 547 who have disability 
ratings below 30 percent but high enough to warrant VA compensation. VA 
also appointed 59 others entitled to 10-point Veterans' preference 
based on derived preference as the wife or mother of a permanently, 
totally disabled Veteran, or widow or widower of a servicemember who 
died in a war or campaign-badge military action.
    The Veterans Employment Opportunities Act (VEOA) authority for 
appointing honorably discharged Veterans with 3 years military service 
and Veterans and others entitled to Veterans' preference accounts for 
2,115, or 8.8 percent, of the total hires from 2007 to date.
    Another 769 Veterans, or 3.2 percent of the total hires, were hired 
under the excepted Veterans Recruitment Appointment (VRA) authority.
    VA also appointed 37 disabled Veterans under the non-competitive 
hiring authority for disabled Veterans with 30 percent or higher 
service-connected disabilities.
What percentage of your employees are Veterans and or disabled vets?

                                 <bullet> Non-preference Veterans                      215,836 = 5.2 percent
                                 <bullet> 5-point Veterans' preference (vp) eligible   48,003 = 15.9 percent
                                  Veterans
 
                                 <bullet> 10-point vp disabled Veterans                2,293 = 0.8 percent
                                 <bullet> 10-point vp compensably disabled Veterans    7,668 = 2.5 percent
 
                                 <bullet> 10-point vp 30% compensably disabled         16,329 = 5.4 percent
                                  Veterans
                                 <bullet> Total for combined 5 categories above        90,129 = 29.8 percent
 
 
(VA Total Population 301,891)


In what area of work are most Veterans employed at VA?
    Over half of VA's Veteran employees (53%) are in the following 10 
occupations which are located within VHA and VBA:

        Housekeeping Aides
        Nurses
        Veteran Service Reps
        Food Service Workers
        Medical Support Specialists
        Program Support Specialists/Assistants
        Police Officers
        Social Workers
        Patient Services Assistants
        IT Specialists
What percentage of your employees in GS 9 and above are Veterans?
    VA has 85,596 employees at GS-9 and above, including 24,579 
Veterans or 28.7 percent. We note that many higher-level positions in 
VA require advanced degrees and professional certifications or 
registrations. Since VA does not have a comprehensive applicant count, 
the number of Veterans who have applied for such professional positions 
is unknown. We can state that VA employs 84,316 physicians, dentists, 
chiropractors, nurse anesthetists, registered nurses, podiatrists, 
optometrists, physician assistants, and expanded function dental 
auxiliaries, and 11,229 or 13.3 percent of them are Veterans.
                   MATERIAL SUBMITTED FOR THE RECORD

                                           U.S. Department of Labor
                                         Bureau of Labor Statistics
                                                    Washington, DC.
                                                        May 3, 2010

Honorable Stephanie Herseth Sandlin
Chairwoman, Subcommittee on Economic Opportunity
House Committee on Veterans' Affairs
House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Honorable John Boozman
Ranking Republican Member, Subcommittee on Economic Opportunity
House Committee on Veterans' Affairs
House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Chairwoman Sandlin and Ranking Member Boozman,

    On April 15th I testified at a hearing you held in the Veterans 
Affairs Subcommittee on Economic Opportunity regarding the status of 
veterans employment. During my testimony, there were two questions--one 
asked by Congressman Bilirakis and one asked by Congressman Teague--
that I was unable to respond to because they related to information 
that isn't tracked or gathered by BLS. After the hearing, I instructed 
my staff to direct these questions to the appropriate agency so I could 
provide the requested information, which follows below:
    Congressman Bilirakis asked if veterans separating from military 
service automatically qualify for unemployment benefits in all 50 
States.
    The Department of Labor's Employment and Training Administration 
(ETA) administers the Federal Government's role in the unemployment 
compensation program and is the appropriate agency to respond to this 
inquiry. After reviewing Congressman Bilirakis' question, ETA staff 
provided the following response:

        Individuals leaving military service do not ``automatically'' 
        qualify for Unemployment Compensation for Ex-Servicemembers 
        (UCX). An ex-servicemember must have been honorably separated 
        from the military and must have completed his or her full term 
        of service to qualify for UCX. In general, individuals must 
        have served on active duty. For National Guard members and 
        reservists, active duty must be 90 continuous days or more.

        Except where inconsistent with Federal law, UCX benefits are 
        paid under the same conditions that apply to individuals 
        covered under the unemployment compensation law of the State 
        where the UCX claim is filed. This means individuals must be 
        able to work and available for work, and in most States 
        actively seeking work.

    Congressman Teague asked whether better information about the 
employment characteristics of returning female servicemembers could be 
made available by analyzing data gathered by the national unemployment 
insurance system.
    ETA, because it administers the Federal Government's role in the 
unemployment compensation program, is the appropriate agency to answer 
this question as well. After reviewing Congressman Teague's question, 
ETA staff responded: ``The Employment and Training Administration does 
not collect gender or other demographic data for purposes of the 
Unemployment Compensation for Ex-Servicemembers (UCX) program.''
    We hope this information is helpful to you and your members. Please 
let me know if there is other information that BLS can provide.

            Sincerely,

                                                    Philip L. Rones
                                                Deputy Commissioner

                                 <F-dash>
                     Congressional Research Service
                          Library of Congress
                   CRS Report for Congress, #RS22440
       Unemployment Compensation (Insurance) and Military Service
         By Julie M. Whittaker, Specialist in Income Security,
                     Congressional Research Service
                             April 22, 2010
Summary
    The Unemployment Compensation (UC) program contains several 
provisions relevant to current and former military service personnel 
and their families. The UC program does not provide benefits for 
military servicemembers on active duty. However, former active duty 
military personnel (and certain reservists) separated from active duty 
may be eligible for Unemployment Compensation for Ex-Servicemembers 
(UCX).
    Spouses of military service personnel who voluntarily quit a job to 
accompany their spouses on account of a military transfer may be 
eligible for UC benefits, based on the laws of the State where the 
civilian spouse was employed.
    Military service of business owners, employees, and employees' 
spouses may impact the State unemployment tax rate that certain 
employers face. States may choose to create provisions that remove or 
limit these tax increases in certain situations.
    Individuals should contact their State's unemployment agency to 
obtain information on how to apply for and receive unemployment 
benefits based upon military service. The U.S. Department of Labor 
maintains a Web site with links to each State's agency at http://
www.workforcesecurity.doleta.gov/map.asp.
    This report will be updated as events warrant.
Contents
    Unemployment Compensation Benefit Eligibility for Former Military 
Personnel
        UCX Eligibility and Benefit Level
          Self-Employed and Sole Proprietor Ex-Servicemembers
    UCX Financing
    Civilian Spouses Who Quit Employment Because of Military Spouse 
Transfers
        Transferred Spouse Exception (Unconditional on Military 
        Service).
        Military Spouse Exception
    Impact of Military Service on Employers' State Unemployment Taxes
Tables
    Table 1. Unemployment Compensation Benefit Eligibility for Workers 
Who Voluntarily Quit Because of a Spousal Transfer
Contacts
    Author Contact Information
Unemployment Compensation Benefit Eligibility for Former Military 
        Personnel
    Unemployment Compensation for Ex-Servicemembers (UCX)\1\ provides 
income support while former active duty military personnel or 
reservists\2\ released from active duty search for work. The Emergency 
Unemployment Compensation Act of 1991 (P.L. 102-164) provides that ex-
servicemembers be treated the same as other unemployed workers with 
respect to benefit levels, the waiting period for benefits, and benefit 
duration.\3\
---------------------------------------------------------------------------
    \1\ Established by the Ex-servicemen's Unemployment Act of 1958 
(P.L. 85-848, 5 U.S.C. Sec. Sec. 8521-8525) in 1958.
    \2\ In this report, the terms reserves or reservists include the 
Army and Air National Guard and their servicemembers.
    \3\ Previously, in 1982, Congress had placed restrictions on 
benefits for ex-servicemembers (P.L. 97-362). In addition to a number 
of restrictive eligibility requirements, ex-servicemembers were 
required to wait 4 weeks from the date of their separation from the 
service before they could receive benefits. The maximum number of weeks 
of benefits an ex-servicemember could receive based on employment in 
the military was 13 (as compared with 26 weeks under the regular UC 
program for civilian workers).
---------------------------------------------------------------------------
    Once entitlement to regular unemployment benefits are exhausted, 
ex-servicemembers may qualify for both Emergency Unemployment 
Compensation (EUC08) and the Extended Benefit (EB) payments.\4\ All 
benefits (UCX, EUC08, and EB) are temporarily augmented by the weekly 
$25 Federal Additional Compensation (FAC) payment.
---------------------------------------------------------------------------
    \4\ For information on the EUC08 benefit, see CRS Report RS22915, 
Temporary Extension of Unemployment Benefits: Emergency Unemployment 
Compensation (EUC08), by Katelin P. Isaacs, Julie M. Whittaker, and 
Alison M. Shelton. For information on the Extended Benefit program, see 
CRS Report RL33362, Unemployment Insurance: Available Unemployment 
Benefits and Legislative Activity, by Julie M. Whittaker, Alison M. 
Shelton, and Katelin P. Isaacs.
---------------------------------------------------------------------------
    The Federal Government funds these benefits through the transfers 
from the appropriate military services' budgets\5\ to the Unemployment 
Trust Fund \6\ (UTF) to reimburse the appropriate states for the UCX 
benefits distributed to unemployed ex-servicemembers. For the 12 month 
period ending March 2010, approximately $1,185 million in unemployment 
benefits (UCX, EUC08, EB, and the $25 FAC) were distributed to former 
military personnel.
---------------------------------------------------------------------------
    \5\ For example, if a former naval officer claimed UCX benefits, 
the Navy would transfer funds into the UTF to pay for those benefits.
    \6\ For details on the Unemployment Trust Fund, see CRS Report 
RS22077, Unemployment Compensation (UC) and the Unemployment Trust Fund 
(UTF): Funding UC Benefits, by Julie M. Whittaker and Kathleen Romig.
---------------------------------------------------------------------------
    Military personnel on active duty do not qualify for regular State 
Unemployment Compensation (UC) or UCX benefits because they are 
considered to be working.
UCX Eligibility and Benefit Level
    Ex-servicemembers generally apply for UCX benefits in the State 
where they are searching for employment. UC eligibility criteria and 
benefits vary by State. The ex-servicemembers must meet the same 
criteria that civilian workers are required to meet for their UC 
benefit eligibility. Thus, two ex-servicemembers with the same earnings 
and work history may qualify for different amounts of benefits if they 
file for UCX in different States. The equivalent military measurement 
of wages and time in service are used to determine eligibility and 
benefit levels.\7\
---------------------------------------------------------------------------
    \7\ The State in which the former servicemember files for a claim 
determines the UCX benefit level and duration. The weekly and maximum 
amounts of UCX payable to an individual under the UCX program are 
determined under the applicable State laws. The UCX benefit is required 
to be the same amount, on the same terms, and subject to the same 
conditions as the State UC that would be payable to the individual 
under the applicable State law. The individual's Federal military 
service and Federal military wages are assigned or transferred as 
employment and wages covered by that State law, subject to the use of 
the applicable Schedule of Remuneration. That is, for claims purposes, 
military wages are determined by the pay grade at separation from 
military service. A wage table is provided by the Federal Government to 
calculate the equivalent civilian wages for each military pay grade.
---------------------------------------------------------------------------
    If the ex-servicemember was originally in the active duty military, 
he or she must have left military service under honorable conditions 
and either completed a full term of service or have been released early 
under a qualifying reason. If the ex-servicemember was a reservist 
formerly on active duty, he or she must have been on active duty for at 
least 90 continuous days. UCX benefits are not payable during periods 
in which the ex-servicemember is eligible to receive certain allowances 
or educational assistance allowances from the Survivors' and 
Dependents' Educational Assistance Program or the Department of 
Veterans' Affairs Vocational Rehabilitation and Education Program. 
Participation in the Montgomery GI bill does not preclude receipt of 
UCX benefits; however, having student status does limit UC benefit 
eligibility in most States and these limitations would extend to those 
workers receiving UCX benefits. Many States exclude workers while they 
attend school and some States include vacation periods in that 
exclusion.
Self-Employed and Sole Proprietor Ex-Servicemembers
    When an ex-servicemember was previously self-employed or was a 
sole-proprietor, the worker would have been excluded from receiving UC 
benefits. After active duty, if the ex-servicemember is unemployed, the 
ex-servicemember would qualify for UCX benefits based on military 
service. However, most States require that the worker be searching for 
employment and would not cover a worker who was reestablishing self-
employment or a small business.\8\
---------------------------------------------------------------------------
    \8\ An exception to this are those States that offer a Self-
Employment Assistance (SEA) program. Eight States have active SEA 
programs: Delaware, Maine, Maryland, New Jersey, New York, Oregon, 
Pennsylvania, and Washington. Individuals enrolled in an SEA program 
receive weekly allowances. These allowances are the same as the 
individual's regular unemployment weekly benefit amount. Participants 
engaged full-time in activities relating to the establishment of a 
business and becoming self-employed are considered to be unemployed. 
Provisions of State law relating to availability for work, search for 
work, and refusal to accept work do not apply to these participants.
---------------------------------------------------------------------------
UCX Financing
    The UCX benefit is funded by the Federal Government through its 
Federal account in the Unemployment Trust Fund (UTF). \9\ Each State is 
reimbursed by the Federal Government for each unemployed worker whose 
base period wages included Federal military wages.
---------------------------------------------------------------------------
    \9\ See CRS Report RS22077, Unemployment Compensation (UC) and the 
Unemployment Trust Fund (UTF): Funding UC Benefits, by Julie M. 
Whittaker and Kathleen Romig, for an explanation of how funds are 
transferred.
---------------------------------------------------------------------------
Civilian Spouses Who Quit Employment Because of Military Spouse 
        Transfers
    Civilian spouses who quit their employment because their military 
spouse was transferred may not qualify for UC benefits. Many State UC 
programs do not award UC benefits to workers who quit their jobs 
because a spouse was transferred, deeming this as a ``voluntary quit.'' 
The laws of three States (Maryland, Ohio, and Texas) go further and 
include a specific disqualification for claimants who quit work to 
relocate with a spouse until certain additional income is generated. 
However, Maryland and Texas both exempt military spouses from this 
disqualification.
    The disqualification following a ``voluntary quit'' continues until 
the claimant returns to work, completes a specified duration of work, 
and earns wages of a specified amount. In other States, the 
disqualification is time-limited. These States penalize the worker for 
quitting, but recognize that economic conditions may be such that even 
a person who diligently seeks work may find none. The reasoning is that 
beyond a certain point, if a diligent job seeker is still unemployed, 
such continuing unemployment is attributable to labor market conditions 
rather than their decision to quit. Thus, spouses relocating to areas 
of high unemployment or limited opportunities may become eligible for 
benefits even if initially disqualified.
Transferred Spouse Exception (Unconditional on Military Service)
    Twenty-three States allow workers who quit because of their 
spouse's job transfer to receive UC benefits. Table 1 lists these 
states, designating them in the column labeled ``Spouse Transfer'' with 
a ``Y.''
Military Spouse Exception
    In addition to the 23 States allowing UC benefits if a worker quits 
to accompany a spouse who has been transferred, 15 States have special 
exceptions for workers who quit to join their transferred military 
spouse. These exceptions are labeled as ``Military only'' or ``Federal 
spouse'' in Table 1. Thus, a total of 38 States allow the civilian 
spouse of a transferred military servicemember to receive UC benefits.

 Table 1. Unemployment Compensation Benefit Eligibility for Workers Who
             Voluntarily Quit Because of a Spousal Transfer
------------------------------------------------------------------------
                                      Spouse                    Spouse
              State                 Transfer       State      Transfer
------------------------------------------------------------------------
Alabama                           ............  Montana     Military
                                                             only
------------------------------------------------------------------------
Alaska                            Y             Nebraska    Y
------------------------------------------------------------------------
Arizona                           Y             Nevada      Y
------------------------------------------------------------------------
Arkansas                          Y             New         Y
                                                 Hampshire
------------------------------------------------------------------------
California                        Y             New Jersey  Military
                                                             only
------------------------------------------------------------------------
Colorado                          Y             New Mexico  Military
                                                             only
------------------------------------------------------------------------
Connecticut                       Y             New York    Y
------------------------------------------------------------------------
Delaware                          Y             North       Y
                                                 Carolina
------------------------------------------------------------------------
District of Columbia              Military      North       ............
                                   only          Dakota
------------------------------------------------------------------------
Florida                           Military      Ohio        ............
                                   only
------------------------------------------------------------------------
Georgia                           Military      Oklahoma    Y
                                   only
------------------------------------------------------------------------
Hawaii                            Y             Oregon      Y
------------------------------------------------------------------------
Idaho                             ............  Pennsylvan  Y
                                                 ia
------------------------------------------------------------------------
Illinois                          Y             Rhode       ............
                                                 Island
------------------------------------------------------------------------
Indiana                           Y             South       Military
                                                 Carolina    only
------------------------------------------------------------------------
Iowa                              ............  South       ............
                                                 Dakota
------------------------------------------------------------------------
Kansas                            Y             Tennessee   ............
------------------------------------------------------------------------
Kentucky                          Military      Texas       Military
                                   only                      only
------------------------------------------------------------------------
Louisiana                         ............  Utah        ............
------------------------------------------------------------------------
Maine                             Y             Vermont     ............
------------------------------------------------------------------------
Maryland                          Military      Virginia    Military
                                   only                      only
------------------------------------------------------------------------
Massachusetts                     Y             Washington  Y
------------------------------------------------------------------------
Michigan                          Military      West        ............
                                   only          Virginia
------------------------------------------------------------------------
Minnesota                         Y             Wisconsin   ............
------------------------------------------------------------------------
Mississippi                       Military      Wyoming     Military
                                   only                      only
------------------------------------------------------------------------
Missouri                          Federal       ..........  ............
                                   spouse only
------------------------------------------------------------------------
     Source: CRS compilation from Comparison of State Unemployment
  Insurance Laws, 2010 (and errata), and interim updates, U.S.
  Department of Labor, Employment and Training Administration, Office of
  Workforce Security. Additional requirements may be imposed to qualify
  for these exceptions.

Impact of Military Service on Employers' State Unemployment Taxes
    State unemployment taxes are levied on employers based on a 
combination of established rates and the employer's past history of its 
workers using the UC system. Generally, employers with a greater 
history of unemployed workers would have a worse experience rating and 
would pay higher State unemployment taxes. Military service of business 
owners or employees may impact the tax rate that certain employers 
face. Furthermore, if workers who quit to join a transferred military 
spouse receive UC benefits, this may impact the overall State 
unemployment tax burden of most, if not all, of the State's employers. 
Below are some examples of these situations.

    <bullet>  A business owner, if called up for active military 
service, may need to lay off some or all of the business's workers. 
Once the business owner returns from military service, the revival of 
the business may mean that the small business may face a new, higher 
State unemployment tax rate.
    <bullet>  If the servicemember serves for less than 2 years, some 
of the worker's UCX benefit may be based on nonmilitary work. (These 
workers receive a hybrid UC/UCX benefit.) In some States, their former 
(civilian) employers may face a State unemployment tax increase as a 
result.
    <bullet>  Workers who quit their jobs and move to accompany their 
military spouse may receive UC benefits in 38 States. These states do 
not charge UC benefits to employer accounts when workers voluntarily 
quit their jobs to accompany a transferred military spouse. The 
benefits paid to a worker accompanying a military spouse generally 
would not increase the State unemployment taxes of the worker's former 
employer. However, these benefits are still charged to the State's 
account within the UTF. As a result, the cost of the benefits are 
passed on to the State's employers as a socialized cost and may 
increase the overall State unemployment tax rate.

    States may choose to create provisions that remove or limit these 
tax increases in certain situations. For example:

    <bullet>  In Illinois, business owners who are called to active 
duty from the reserve and had to close their firms are not charged for 
the increases attributable to UC benefits for the workers who lose 
their jobs on account of the closure. When the business owner returns 
and reopens his or her business, the business's State unemployment tax 
rate is not increased.
    <bullet>  In Texas, if an employee was called to active military 
service but then qualifies for UC benefits, the employer does not face 
a higher State unemployment tax rate.
    <bullet>  Maine, South Dakota, Montana, Virginia, Washington, and 
Wyoming provide for the non-charging of benefits for unemployment 
directly resulting from reinstatement of another employee upon his or 
her completion of uniformed service duty.

Author Contact Information

Julie M. Whittaker
Specialist in Income Security
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7cdd0cfced3d3c6ccc2d5e7c4d5d489cbc8c489c0c8d1">[email&#160;protected]</a>, 202-707-2587

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 20, 2010

Ms. Christine A. Scott
Specialist in Social Policy, Income Security Section,
Domestic Social Policy Division,
Congressional Research Service
1101 Independence Avenue SE, stop #7440
Washington, DC 20540-7440

Dear Ms. Scott:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on the Status of Veterans Employment on April 15, 2010. Please 
answer the enclosed hearing questions by no later than Tuesday, May 18, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
                     Congressional Research Service

Memorandum
                                                       May 11, 2010

To:                                Honorable Stephanie Herseth Sandlin
                                    Attention: Orfa Torres
From:                              Christine Scott, Specialist in Social
                                    Policy, ext 7-7366
Subject:
 
                                   Questions for the Record and
                                    Deliverables Related to the Hearing
                                    on the Status of Veterans Employment
 

    This memorandum is in response to your request of April 20, 2010 
for a submission answering two questions for the record, and providing 
two deliverables, related to the April 15, 2010 hearing of the 
Committee on Veterans Affairs, Subcommittee on Economic Opportunity on 
the status of veterans employment.
Questions for the Record:
    1.  Under the hiring authority Veterans Recruitment Appointment, 
are veterans most often under the competitive or non-competitive 
appointment?
    The Office of Personnel Management (OPM) has stated that all of the 
6,360 appointments in FY 2009 using the Veterans Recruitment 
Appointment (VRA) were permanent appointments in the excepted 
service.\1\
---------------------------------------------------------------------------
    \1\ Email communication between the Office of Personnel Management 
and the Congressional Research Service on April 27, 2010.
---------------------------------------------------------------------------
    Federal jobs fall into three categories: (1) competitive service; 
(2) excepted service; and (3) Senior Executive Service. Competitive 
service jobs are under OPM's jurisdiction and subject to the civil 
service laws passed by Congress to ensure that applicants and employees 
receive fair and equal treatment in the hiring process. Excepted 
service positions are excepted by law, executive order, or by OPM 
action placing a position or group of positions in excepted service 
(Schedules A, B, or C). For example, agencies such as the U.S. Postal 
Service and the Central Intelligence Agency are excepted by law. In 
other cases, certain jobs or classes of jobs in an agency are excepted 
by OPM. This includes positions such as attorneys, chaplains, student 
trainees, and others. The Senior Executive Service (SES) was 
established by Title IV of the Civil Service Reform Act (CSRA) of 1978. 
The SES was set up completely separate from the competitive and 
excepted services. The SES joins top management positions in a unified 
and distinct personnel system that provides for agency authority and 
flexibility. SES positions are classified above GS-15 or equivalent.
    2.  You discuss a new Department of Labor pilot program known as 
America's Heroes at Work. Do you have any preliminary information on 
the program?
    The Employment Pilot was undertaken to determine which strategies 
may work best in assisting veterans with post-traumatic stress disorder 
(PTSD) and traumatic brain injury (TBI) in finding and retaining 
employment. At the end of the pilot program, the America's Heroes at 
Work program began implementing some of their recommendations such as 
providing fact sheets to employers and veterans with PTSD and TBI. The 
fact sheets providing information on issues such as dealing with PTSD 
and TBI in the workplace, and other information for employers and 
veterans related to employment can be found on the Web site for 
America's Heroes at Work http://www.americasheroesatwork.gov/. Attached 
is the final report for the One-year Employment Pilot. [The attached 
report, ``Employment Pilot Year One Final Report,'' by America's Heroes 
at Work, dated September 25, 2009, is being retained in the Committee 
files.]
Deliverables (Also Appearing in Hearing Transcript)
    1.  Provide the Subcommittee with the distribution of employment 
(private versus public) for disabled veterans.

----------------------------------------------------------------------------------------------------------------
                                                    Percentage of Employed Veterans (with a Service-Connected
                   Employer                                                Disability)
----------------------------------------------------------------------------------------------------------------
Private                                          31.3%
----------------------------------------------------------------------------------------------------------------
Public                                           62.3%
----------------------------------------------------------------------------------------------------------------
Self-Employed                                     6.4%
----------------------------------------------------------------------------------------------------------------
Total                                           100.0%
----------------------------------------------------------------------------------------------------------------
     Source: Congressional Research Service analysis of August 2009 Veterans Supplement to the Current
  Population Survey (CPS).


    2.  Do servicemembers transitioning out of the military 
automatically qualify for unemployment benefits in all 50 States?

    Unemployment Compensation for Ex-Servicemembers (UCX) provides 
unemployment benefits while former active duty military personnel or 
reservists released from active duty search for work. The Emergency 
Unemployment Compensation Act of 1991 (P.L. 102-164) provided that ex-
servicemembers be treated the same as other unemployed workers with 
respect to benefit levels, the waiting period for benefits, and benefit 
duration. The attached Congressional Research Service report RS22440, 
Unemployment Compensation (Insurance) and Military Service by Julie M. 
Whittaker discusses servicemembers' eligibility for unemployment 
compensation in more detail. [The CRS Report appears on p. 100.]
    If you have any questions or require additional information, please 
contact me.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 20, 2010

Mr. Mark Walker
Deputy Director, National Economic Commission
The American Legion
1608 K Street, NW
Washington, DC 20006

Dear Mr. Walker:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on the Status of Veterans Employment on April 15, 2010. Please 
answer the enclosed hearing questions by no later than Tuesday, May 18, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
                                                    American Legion
                                                    Washington, DC.
                                                       May 24, 2010
Honorable Stephanie Herseth Sandlin, Chair
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Chair Herseth Sandlin:

    Thank you for allowing The American Legion to participate in the 
Subcommittee hearing on the Status of Veterans Employment on April 15, 
2010. I respectfully submit the following in response to your 
additional questions:
1. In your written testimony you state that there is an immense need to 
        ensure that veterans are getting trained and afforded ample 
        opportunities to succeed. What kind of training should a combat 
        arms veteran receive versus a non-combat arms veteran to 
        succeed in the job market?
    In most occasions, both the combat and non-combat veteran would 
need additional training after active-duty service to hone their skills 
as well as learn new skills to aggressively compete in today's 
marketplace. However, the combat veteran would require more specialized 
training that readily fits into a professional setting. Technological 
skills, soft skills and networking skills are critical ingredients in 
succeeding into the civilian workforce. The American Legion's goal is 
to see combat and non-combat veterans receive training, retraining, and 
support services that lead to long-term and high wage career jobs.
    Furthermore, The American Legion supports H.R. 929, introduced by 
Representative Welch (VT) that would authorize $60 million for the next 
10 years to fund a program modeled after the highly successful 
Servicemembers' Occupational Conversion and Training Act (SMOCTA). If 
enacted, MOST would be the only Federal job training program available 
strictly for veterans and the only Federal job training program 
specifically designed and available for use by State veterans' 
employment personnel to assist veterans with barriers to employment.
2. Is the Veterans' Employment and Training Service program meeting its 
        goal of assisting veterans with employment?
    The American Legion believes that VETS could provide better 
intensive services to veterans who are desperately in need of 
meaningful employment. Since P.L. 107-288 passed, VETS has not been 
required to monitor or review all of the State Workforce Agencies 
Service Delivery Points. As a result, VETS policy changed and oversight 
was reduced to only about 1 percent of the centers, not an effective 
policy. Consequently, the type and quality of service that veterans 
currently receive through VETS is varied State by State, which is why 
we seek legislation that will transfer the DVOP and LVER program to 
VETS for oversight in order to ensure that the individuals employed to 
serve veterans are not used for other programs.
    Presently, VETS cannot tell Congress or the veteran community who 
are the best and/or worst DVOPs/LVERs in the country, due to lack of 
control and oversight of this very important program. Veterans deserve 
the best service that VETS can provide, so they can successfully 
transition from active-duty into the civilian workforce.
3. You state that the Legion is eager to see the Veterans' Employment 
        and Training Service program (VETS) grow. How should VETS grow 
        and what should it be doing?
    Over the past 20 years, the level of funds for the grants under 
VETS has remained virtually flat lined in consideration of inflationary 
influences. This flat line in funding equates to a loss of DVOP/LVER 
staff available to serve a growing veteran population. The American 
Legion believes VETS needs more funding in order to have the staffing 
levels for DVOPs and LVERs match the needs of the veteran's community 
in their State. It is critical that veterans have access to DVOPs/
LVERs, so they can receive advice and access to the job market in their 
local communities. VETS should be a more proactive agent between the 
business and veterans communities to provide greater employment 
opportunities for veterans, while providing employers with a labor pool 
of quality applicants with marketable and transferable job skills.
    In addition, VETS should expand its outreach efforts with creative 
initiatives designed to improve employment and training services for 
veterans. For example, VETS could host hiring fairs (veterans already 
vetted and hired on the spot), internships with Fortune 500 Companies, 
and training in high potential industries (i.e., green jobs and health 
care). VETS must give a clearer signal to the private sector that 
hiring veterans is good for business and the economic health of 
America.
4. What role should DoD play in assisting veterans get their civilian 
        licenses and certificates before they separate from the Armed 
        Services?
    The American Legion strongly believes that DoD needs to take the 
lead role in ensuring that servicemembers be trained, tested, evaluated 
and issued any licensure or certification that may be required in the 
civilian workforce prior to separation. As you know, there are many 
occupational career fields in the Armed Forces that easily translate to 
a civilian counterpart in the civilian workforce that require a license 
or certification. Upon separation, many servicemembers, certified as 
proficient in their military occupational career, are not licensed or 
certified to perform the comparable job in the civilian workforce, thus 
hindering chances for immediate civilian employment and delaying career 
advancement.
    At the very least, we would like to see DoD and the private sector 
create a partnership that once servicemembers leave active-duty, there 
would be minimal training to obtain employment in fields that they're 
highly qualified to fill.
5. Is DOL doing an adequate job in investigating USERRA complaints?
    The American Legion is concerned with the time it takes for a claim 
to be resolved. The USERRA claim process can take 6 months to 2 years 
to resolve. This time frame puts an undue financial pressure on 
veterans and their families looking to regain their employment. The 
long wait can also push a veteran not to file his/her USERRA claim and 
just go out and find another job, which doesn't bring to light the 
current problem of veterans not being reemployed.
    Although USERRA defines individual agency roles and 
responsibilities, it does not make any single individual or office 
accountable for maintaining visibility over the entire complaint 
resolution process. In a report addressing USERRA issues by the 
Government Accountability Office (GAO) in October 2005, it noted that 
the ability of Federal agencies to monitor the efficiency and 
effectiveness of the complaint process was hampered by a lack of 
visibility resulting, in part, from the separated responsibilities for 
addressing complaints from among multiple agencies. The GAO report 
recommended that Congress consider designating a single individual or 
office to maintain visibility over the entire complaint resolution 
process from DoD through DOL, DOJ, and OSC. This would encourage 
agencies to focus on overall results than agency-specific outputs and 
thereby improve Federal responsiveness to servicemember complaints that 
are referred from one agency to another. The American Legion supports 
this recommendation by GAO.
6. In your testimony you refer to staffing and funding levels for 
        Disabled Veterans' Outreach Program Specialists and Local 
        Veterans' Employment Representatives. What would you consider 
        ``adequate funding'' for DVOPs and LVERs to properly address 
        the employment needs of our veteran population?
    The American Legion recommends $267 million to DOL-VETS State 
Administration Grants for FY 2011 (please note that the amount 
recommended for State Grants include funds for the Transition 
Assistance Program). This increase in funding would allow staffing 
levels for DVOPs and LVERs to match the needs of their States, which 
ultimately leads to more individualized attention to veterans, along 
with more time needed to build community connections (i.e., private 
sector, NGOs, Faith-based organizations) in order for veterans to have 
ample employment opportunities.
    Thank you for your continued commitment to America's veterans and 
their families.

            Sincerely,

                                                        Mark Walker
                      Deputy Director, National Economic Commission

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 20, 2010

Mr. Tim Embree
Legislative Associate
Iraq and Afghanistan Veterans of America
308 Massachusetts Ave, NE
Washington, DC 20002

Dear Mr. Embree:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on the Status of Veterans Employment on April 15, 2010. Please 
answer the enclosed hearing questions by no later than Tuesday, May 18, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
                Iraq and Afghanistan Veterans of America


TO:
 
                                   House Committee on Veterans' Affairs
                                    Subcommittee on Economic Opportunity
RE:                                Follow-Up questions from IAVA's
                                    testimony on April 15, 2010
PREPARED BY:                       Tim Embree, Legislative Associate
 

1. How can we help employers understand the qualification veterans and 
        servicemembers have to offer?
    IAVA has proposed several legislative fixes to help employers 
understand the overall business skills that veterans and servicemembers 
have to offer. First, there needs to be a nationwide Federal 
advertising campaign that outlines the management and general business 
skills our servicemembers and veterans bring to the civilian workforce.
    Second, the Federal Government should lead by example and promote 
the hiring of veterans throughout the Federal Government. The U.S. 
Office of Personnel Management has created a Government-wide Veterans 
Recruitment and Employment Strategic Plan for FY 2010-FY 2012 but there 
must be oversight of the implementation of this plan.
    Third, to help ease servicemembers' transition into the civilian 
world, we must identify common training courses and skills learned in 
military service to those in similar civilian career fields. For 
example, combat medics with advanced training and experience in 
battlefield medicine are not even qualified to drive an ambulance in 
the civilian world. In order to accomplish this, the Department of 
Defense should conduct a study and report recommendations to Congress 
on the differences between DoD and civilian vocational training, 
certifications and licenses. This study and report will help the DoD 
improve the skills of our fighting force as well as ease the 
servicemembers' transition later into the civilian workforce.
2. Have you approached the House Appropriations Committee regarding 
        your funding recommendations for Employer Support of the Guard 
        and Reserve under the Department of Defense?
    Unfortunately, we have not yet had the opportunity to discuss 
restoring funding to the ESGR with the House Appropriations Committee. 
IAVA can update this Committee in the future when this status changes.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 20, 2010

Mr. Richard Daley
Associate Legislative Director
Paralyzed Veterans of America
801 18th Street, NW
Washington, DC 20006

Dear Mr. Daley:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on the Status of Veterans Employment on April 15, 2010. Please 
answer the enclosed hearing questions by no later than Tuesday, May 18, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
                                      Paralyzed Veterans of America
                                                    Washington, DC.
                                                       May 18, 2010

Honorable Stephanie Herseth Sandlin
Chairwoman, Subcommittee on Economic Opportunity
House Committee on Veterans Affairs
335 Cannon House Office Building
Washington, DC 20515

Dear Chairwoman Herseth Sandlin:

    Thank you for the opportunity to respond to questions from 
Paralyzed Veterans of America's testimony on April 15, 2010, regarding 
Status of Veterans Employment.
    I have included with this letter a response to each of the 
questions that you presented following the hearing.

            Sincerely,

                                                      Richard Daley
                                     Associate Legislation Director

                               __________
                        Questions for the Record

    Question 1: How many veterans have the Paralyzed Veterans of 
America's employment program placed within the last 3 years?

    Response: Our program is currently located in four cities with a 
total of 566 spinal cord injured veterans registered with the program. 
Of the voc rehab eligible veterans, these are considered very 
difficult, if not impossible to place in employment. In our four 
locations, two have only been in existence for approximately one year. 
A total of 97 severely disabled veterans have become employed through 
our program.

    Question 1(a): How many of those veterans have maintained their 
employment beyond 6 months?

    Response: Of the 97 initially employed, 72 have been employed more 
that 6 months. Of those 72 employed longer than 6 months, 65 are still 
employed today. Many of the veterans still employed have been promoted, 
given a salary increase based on performance, or in some cases the 
disabled veteran has increased from part-time employment to full-time 
employment.

    Question 2: What action should DOL be taking to improve the 
Disabled Veterans Outreach Program Specialists (DVOP) and Local 
Veterans Employment Representatives (LVER) program and does it have 
sufficient oversight?

    Response: As the programs are defined in regulation the DOL has 
very little authority over these positions. Their primary role is to 
oversee the process of distributing funding to the States. The 
positions of DVOP and LVER are employees of the State they represent, 
under the direction of the State, and report to the State on activities 
pertaining to the goals and objectives of the State program.
    Each State tracks the number of veterans that register with their 
employment and unemployment office each month. The State monitors the 
employment status for all persons collecting unemployment benefits in 
the State. The standard unemployment benefit length is 26 weeks, except 
for periods of unusually high rates of unemployment when the Federal 
Government extends that period. After the 26 week period, the 
unemployed veteran falls off the roster of unemployed and is not 
counted among the unemployed unless they chose to maintain regular 
contact with the State employment office. Information that is not known 
by DOL is the number of veterans that remain unemployed after 9 months 
or 12 months. DOL does not know how many veterans were sent to job 
interviews by the State office. Since each State is receiving 
additional funding for their division of employment service to 
specially help veterans, what additional services are they providing 
for those veterans?
    To improve the DVOP and LVER program, it would be necessary to have 
these positions working under the same authority, with the same goals, 
and using the same method to help veterans' find employment. This would 
be contrary to the existing structure of 50 different programs. This 
would require legislative action and additional funding, but would be 
more beneficial for the unemployed veteran.

    Question 3: If the Disabled Veterans Outreach Program Specialists 
and Local Veterans' Employment Representatives from State are 
underperforming, who should be held accountable?

    Response: Underperforming would be a subjective evaluation of these 
positions. These positions perform similar functions for the veteran as 
the State employment personnel perform for non veterans. In other 
words, they are adequately performing by that State's criteria.
    With the addition of Federal funds to the State's employment 
program specifically to help unemployed veterans, a veteran would 
expect to receive additional guidance in their employment search. As 
stated at the hearing, often the position of LVER is performed by a 
previously unemployed veteran who becomes the newest employee in the 
State employment office. This person would be performing this roll only 
until they can move to a higher paying State position. I recently had a 
discussion with a LVER that was going to school part-time, working as a 
LVER part-time, while searching for a career position for himself. 
Under these circumstances, I did not feel that this person had 
employment for other veterans as their top priority. No one entity can 
be held accountable. Under the existing program DOL, and the State 
employment program are fulfilling their responsibilities of the 
program.

    Question 4: You mention that even in situations of underemployment, 
DOL records it as a positive result. How should DOL record this type of 
employment, if at all?

    Response: In order to show success or failure of State employment 
efforts, a positive response is indicated when the veteran takes a low 
paying job. Often an applicant must take a job that pays 50 or sixty 
percent of their last earnings. This is not indicative of a successful 
future for the veteran. If a veteran who had a military occupation such 
as electronics' technician decides to take a minimum wage job to help 
feed his family, this is not success. In a State's records, this is 
indicated as an employed veteran. This temporary employment situation 
will soon bring about financial problems caused by not keeping current 
with living expenses and past financial obligations. The financial 
problems may be accompanied by interpersonal problems within the family 
ultimately leading to divorce and disintegration of the family.
    In order to provide programs to help these veterans complete their 
successful transition to civilian life, the VA and DOL would need to 
know how many veterans are underemployed. In these situations the 
veterans' representative should continue working with the veteran. The 
current option for recording the veteran's status is either employed, 
or unemployed. To more accurately represent the status of new veterans 
that have recently separated from the military as well as older 
veterans there should be a third category of underemployed. This would 
be not earning up to ones potential and previous income. Veterans in 
this category would receive all the support, guidance, and follow-up in 
their search for employment same as unemployed veterans would.

    Question 5: What key practices should DOL incorporate into their 
program from PVA's Employment program?

    Response: The success of PVA's employment program is achieved by 
intense one-on-one case management for the severely disabled veterans. 
This would require more specialized staff than currently available in 
the VR&E program.
    The prospective employers must be contacted and visited by the 
employment office. We were told by our employment counselors that of 
the veterans that have been placed in employment, none of the employers 
came searching for a disabled veteran to hire. Instead these employers 
were contacted by our representatives.
    Through the work of the DVOPs and LVERs, the future employers would 
be informed of the benefits of employing a veteran, or disabled 
veteran. They would understand that some flexibility may be required 
along with minor accommodations with the position. The employment 
representative after understanding the needs of the employer then 
matches the work environment and requirements with the perspective 
veterans in their program.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 20, 2010

Mr. Justin Brown
Legislative Associate
National Legislative Service
Veterans of Foreign Wars of the United States
200 Maryland Avenue, SE
Washington, DC 20002

Dear Mr. Brown:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on the Status of Veterans Employment on April 15, 2010. Please 
answer the enclosed hearing questions by no later than Tuesday, May 18, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
                     Response from Eric A. Hilleman
                   THE STATUS OF VETERANS EMPLOYMENT

    Question 1: In your opinion is the Transition Assistance Program 
meeting the needs of our veterans?

    Response: The Veterans of Foreign Wars remains concerned that 
servicemembers are not receiving adequate counseling upon separation 
from active-duty, National Guard, or Reserve type duties. Currently, 
TAP or the yellow-ribbon program upon separation is not a required for 
all servicemembers.

    Furthermore, the VFW is also concerned that TAP classes, as well as 
the Yellow Ribbon Program, offer sessions that vary greatly. Anecdotal 
information seems to suggest that the TAP contractors tend to do a 
better job than the DVOPs/LVERs who are balancing a number of duties. 
However, this could also be due to a lack of standardization across the 
TAP program.
    There is also a need to for a centralized resource that is user 
friendly, helpful, and easily searchable for veterans and their 
families. While the Turbo-Tap manual that is a substantial, it is 
generally unknown. There is also the National Resource Directory, which 
covers essentially everything a young disabled veteran may need.
    DOL-VETS and the DVOP/LVER program should be creating a best 
practices model to help veterans more easily transition. Services need 
to be individualized and offer ease of access, connecting a vet with a 
point of contact for that resource. For example, if a veteran 
identifies that they are searching for employment online, a pop up 
should and could offer the local DVOP/LVER and their contact 
information. An even more user friendly interface would allow the 
veteran to schedule a physical or phone call appointment with that 
representative on the spot. What a veteran should not get after 
clicking a button titled ``employment'' is two pages of various links 
that lead to more links. Services need to be creative and render 
results--to help these veterans more thoroughly identify the 
opportunities and resources available to them.
    In conclusion, the VFW continues to remain concerned that the 
Transition Assistance Program is not meeting the needs of our veterans.

    Question 2: Do you think that DOL is properly investigating veteran 
claims and assisting veterans with their USERRA concerns?

    Response: The Veterans of Foreign Wars has received complaints from 
veterans who believe DOL was not thorough in their investigation of 
their claim. The VFW remains concerned that DOL investigations do take 
too long. When a veteran is waiting on a diction that impacts their 
livelihood and their ability to support their family any wait time is 
excruciating.

    Question 3: What are your top five concerns regarding employment 
for veterans?

    Response:

    1.  More attention is needed to promote the value of veterans to 
the private sector.
    2.  Current programs, I.E. the Post-9/11 GI Bill and VR&E need to 
be enhanced equip veterans to compete in today's economy.
    3.  Existing programs such as the DVOPs/LVERs program and the 
processes such as the Vets 100 must be made more successful.
    4.  More emphasis needs to be placed identifying critical skills 
learned in uniform and how to translate those skills into the private 
sector.
    5.  Guard and Reserve units with successful reemployment rates need 
to be studied to improve how the whole Guard and Reserve force is 
addressing this issue.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 20, 2010

Mr. Marshall Hanson
Director of Legislation and Naval Services
Reserve Officers Association of the United States
1 Constitution Avenue, NE
Washington, DC 20002

Dear Mr. Hanson:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on the Status of Veterans Employment on April 15, 2010. Please 
answer the enclosed hearing questions by no later than Tuesday, May 18, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
                  QUESTIONS FOR THE RECORD PROPOUNDED
                  TO THE RESERVE OFFICERS ASSOCIATION
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
              Hearing on ``Status of Veterans Employment''
                      Hearing date: April 15, 2010

Ref: By letter dated April 20, 2010, Representative Stephanie Herseth 
        Sandlin
(Chairwoman of the Subcommittee on Economic Opportunity) propounded the 
        following four questions to Mr. Marshall Hanson, the Director 
        of Legislation and Naval Services of the Reserve Officers 
        Association (ROA). These are ROA's responses.

    Question 1: How many Active and Reserve members has your Legal 
Center advised?

    Question 1(a): How many of those have you referred to an attorney?

    Response: In almost a year of operation (June 1, 2009 through May 
6, 2010), the Servicemembers Law Center has advised 2150 individuals, 
by telephone and/or e-mail, and in a few instances in person. Of those 
2150, approximately 1720 (80 percent) were Active or Reserve Component 
(overwhelmingly Reserve Component) members of the Armed Forces.
    The ROA Servicemembers Law Center has also heard from and has 
provided information to attorneys, employers, Congressional staffers, 
State legislators and staffers, reporters, and veterans who are not 
currently Active or Reserve Component members of the Armed Forces but 
have been in the past.
    Of those who have contacted us, the ROA Servicemembers Law Center 
has referred about 5 percent to an attorney. The Servicemembers Law 
Center also refers individuals to the National Committee for Employer 
Support of the Guard and Reserve (a Department of Defense organization) 
and/or the Veterans' Employment and Training Service (a Department of 
Labor organization).
    The large majority of National Guard and Reserve personnel who 
contact the Servicemembers Law Center do not have any immediate need 
for legal representation. They call us or e-mail us seeking guidance, 
mostly about the Uniformed Services Employment and Reemployment Rights 
Act (USERRA). For example, USERRA includes a 5-year cumulative limit on 
the duration of the period or periods of uniformed service that an 
individual can perform, with respect to a single employer relationship, 
but there are eight statutory exemptions (kinds of service that do not 
count toward the limit). Every day, ROA receives at least one inquiry 
about what counts and what does not count toward exhausting the live-
year limit.

    Question 2: In your opinion is DOL doing a good job of 
investigating USERRA complaints?

    Response: Over the years, in ROA's ``Law Review'' articles and 
otherwise, ROA has been critical of DOL-VETS with respect to the 
timeliness and thoroughness of USERRA investigations. In the fall of 
2008, Congress amended USERRA to establish timelines on USERRA 
investigations and referrals. There has been some improvement in 
timeliness since that amendment went into effect.

    DOL-VETS frequently asks the claimant for a waiver, when the 
investigation is not completed within the 90 days mandated by law, but 
at least the need to ask for a waiver focuses attention on the need for 
timeliness.
    The main problem is that DOL-VETS personnel who do not specialize 
in USERRA are conducting most of the USERRA investigations, and some of 
those personnel are poorly trained and motivated.
    Within DOL-VETS, there is a ``director'' for each State, and in the 
larger States there are one or more ``assistant directors'' depending 
upon a census of veterans provided by the Department of Veterans 
Affairs. These directors and assistant directors spend the majority of 
their time performing functions completely unrelated to USERRA. When 
they are tasked to do USERRA investigations, they often seem clueless 
and unmotivated.
    DOL-VETS has only one investigator (Robert Kuenzli) who does USERRA 
investigations full-time, and he does them quite well. Although his 
office is in South Carolina and he is administratively part of the DOL-
VETS Atlanta Region, he is assigned ``hard cases'' (often reopened 
cases) all over the country. DOL-VETS needs to develop a cadre of well-
trained and dedicated USERRA investigators, at least one in each 
region.
    ROA also believes that DOL needs to change the arrangement of how 
it gets its attorneys involved in USERRA cases and referrals to the 
Department of Justice (DOJ) and the Office of Special Counsel (OSC). 
Under the current system, someone in DOL-VETS (usually a State director 
or assistant State director) conducts an investigation and refers the 
report to the DOL-VETS regional office (Boston, Philadelphia, Atlanta, 
etc,), The DOL-VETS regional office then forwards the file to the 
regional office of the Solicitor of Labor (SOL). An attorney in the SOL 
regional office (often an attorney with no prior USERRA experience) 
writes a ``legal analysis'' that accompanies the DOL-VETS report and 
case file when they are referred to DO] or OSC (in the case of cases 
against Federal agencies, as employers).
    Frequently, in the course of drafting the legal analysis, the SOL 
regional attorney will perceive a gap in the investigation. That will 
require that the case file go back to the investigator for a follow-up 
investigation, causing still more delay. Moreover, DOJ and OSC find the 
legal analyses to be largely pointless-citing case law that DOJ and OSC 
attorneys already know well.
    Instead of getting the lawyers involved only at the end, ROA 
suggests that the lawyers should be involved from the beginning. When 
DOL-VETS receives a USERRA complaint, an attorney should work with the 
assigned investigator to identify which section or sections of USERRA 
apply and to identify the elements of proof for the claimant to prevail 
on his or her claim. ROAs want to minimize the waste of time by the 
investigator looking into intellectual questions that are not relevant 
or not contested, while inadvertently omitting other factual questions 
that are very relevant.
    ROA also suggests that DOL-VETS needs to review its metrics system 
for judging the performance of its personnel. The system currently in 
use rewards timeliness above all other things. If an agency is tempted 
to emphasize timeliness above all else, said agency will close cases as 
``no merit'' shortly after opening them. All too often, DOL-VETS 
investigators (especially those who do USERRA cases only occasionally) 
accept at face value the employer's assertions about fact and law and 
then close the ease quickly as ``no merit.'' DOL-VETS is not serving 
the claimant unless the agency conducts a real investigation and tries 
to find facts that support the claim.

    Question 3: What practical things should be government do to assist 
reservists who own a business?

    Response: ROA proposes six amendments to the Servicemembers Civil 
Relief Act (SCRA) to address the needs of the Reserve Component member 
who has been or may be called to the colors:

          i. Broaden right to terminate lease--ROA suggests that 
        Congress amend the SCRA to give the person who is being called 
        to active duty the right to terminate a lease on business 
        equipment. The SCRA, as currently written, gives the individual 
        the right to terminate a lease on premises (apartment, house, 
        office, farm, etc.), a lease on a vehicle, and (under limited 
        circumstances) a cell phone contract. This right-to-terminate 
        should be broadened to include other leases and contracts.

        The Servicemembers Law Center has heard from a Reserve Medical 
        Corps officer who has been called to active duty, and who as a 
        result will be closing his private medical practice. He has a 
        six-figure lease on certain medical equipment that he has been 
        using in his practice. He cannot take the equipment with him to 
        Afghanistan, when he reports to active duty. He wants to return 
        the equipment to the lessor and cancel the remaining payments 
        due under the lease, but the SCRA as currently written does not 
        give him this right.

          ii. Expand right to continuance and default judgment 
        protection to include arbitral proceedings.

        Since 1917, the Soldiers' and Sailors' Civil Relief Act (SSCRA) 
        has provided protection against default judgment and the right 
        to a continuance to a person who has been sued in Federal or 
        State court and whose military service precludes the person 
        from offering a defense. In 2003, when Congress enacted the 
        SCRA, these protections were broadened to include Federal, 
        State, and local administrative proceedings as well. But the 
        SCRA does not apply to proceedings before an arbitrator. ROA 
        favors an amendment to make these important protections 
        applicable to arbitral proceedings.

          iii. Expand the SCRA right to reinstate ``health insurance'' 
        to include income replacement insurance as well. Many National 
        Guard and Reserve personnel who are self-employed owners of 
        small businesses have health insurance and income replacement 
        insurance policies. It has been held that the returning veteran 
        has the right to reinstatement of his or her health insurance 
        (narrowly construed) but not income replacement insurance. This 
        loophole cries out for a legislative fix.
          iv. Clarify that the SCRA creates a private right of action. 
        A right without a remedy is of little value. We need Federal 
        legislation clarifying that the SCRA creates a private right of 
        action, authorizing the individual to sue in Federal court, 
        with his own lawyer and in his own name.
          v. Provide for the court to award attorney fees to the 
        prevailing SCRA plaintiff.

        USERRA provides that if an individual brings an action through 
        private counsel and prevails, the court can award attorney fees 
        to the prevailing plaintiff. Congress should amend the SCRA to 
        provide for similar rights in USERRA cases.

          vi. Make it unlawful for a prospective creditor to deny 
        credit or downgrade one's credit score based on the possibility 
        that one might be called to active duty.

Note: ROA is willing to work with the professional staff to develop 
language to support the above suggestions.

    Question 4: What type of assistance do Active and Reserve members 
seek when they reach out for assistance to your Law Center?

    Almost 2/3 of the inquiries that the ROA Servicemembers Law Center 
has received relate to problems with civilian employers, concerning 
participation in the National Guard or Reserve. These calls and emails 
relate overwhelmingly to USERRA, but also to Federal and State laws 
governing paid military leave for public employees and Federal and 
State veterans preference laws.
    Many of these calls relate to the USERRA eligibility criteria, 
especially the 5-year limit. These servicemembers are trying to ensure 
that they meet the criteria, in order to preserve their right to 
reemployment. Other calls relate to questions as to how to respond to 
employer hostility and harassment, motivated by Reserve Component 
service. The ROA Servicemembers Law Center hears from members who have 
been unlawfully fired or denied reemployment, and the Servicemembers 
Law Center hears from members who have complained to DOL-VETS and have 
had what they consider to be meritorious cases closed as without merit.
    Of the other 113 of the inquiries, those not involving civilian 
employment, the subject matter (in descending order of incidence) are 
military voting rights, military personnel administration, the 
Servicemembers Civil Relief Act, VA benefits, military family law, 
military justice, and other matters.

Source: Answers were developed by CAPT Sam Wright, USNR (ret.) Director 
of the ROA Servicemembers Law Center.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 20, 2010

Mr. Peter J. Duffy
Deputy Director Legislation
National Guard Association of the U.S.
One Massachusetts Avenue, NW
Washington, DC 20001

Dear Mr. Duffy:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on the Status of Veterans Employment on April 15, 2010. Please 
answer the enclosed hearing questions by no later than Tuesday, May 18, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
         PETER J. DUFFY'S RESPONSE TO QUESTIONS FOR THE RECORD
               HCVA SUBCOMMITTEE ON ECONOMIC OPPORTUNITY
            HEARING ON THE STATUS OF VETERANS EMPLOYMENT ON
                             APRIL 15, 2010

    Question 1: Do the Guard/Reserve forces need a Transition 
Assistance program similar to active duty forces?

    Response: The National Guard Transition Assistance Advisor (TAA) 
program differs from the active duty program primarily in the time and 
manner in which assistance is delivered and the content of assistance 
programs. Whereas the active duty program will allow the TAAs to work 
over a matter of days with a captured active duty audience to provide 
training on job searching skills, the National Guard TAAs have time to 
deliver only very short briefings during the limited time our members 
remain on active duty at installations before returning to their homes. 
However, the TAAs remain reachable to provide personalized service to 
all callers at all stages of deployments. A TAA program similar to the 
active forces could be considered if our returning members remained on 
active duty longer at National Guard installations after deployment.

    The TAAs serve as statewide points of contact primarily to provide 
a professional person to assist in accessing Veterans benefits and 
medical care for members and families before, during and after 
deployment. However, they can troubleshoot virtually all deployment 
related issues ranging from processing medical compensation claims, 
accessing veterans' benefits, pursuing medical care options, assisting 
with job searches, financial assistance, referral for counseling, and 
obtaining dependent care. The TAAs, 90 percent of whom are either 
veterans or spouse of military members, make themselves available to 
members of all components and veterans of any service. It is the ``go 
to'' feature and personal interaction follow up that distinguishes the 
TAA program from other reintegration assistance programs.
    A description of what a TAA does is best provided by the following 
message sent in response to a NGAUS inquiry by Marine, Steven B. 
Sheppard, TAA for the Massachusetts National Guard.

        ``As the single point of contact for all Veterans of all 
        branches of all eras, TAA's are very busy. We track our troops 
        through both the Military and civilian health care sectors, 
        which can be daunting to say the least. Often the more 
        complicated cases require significant follow-up care. Veterans 
        rarely call with just one problem. A typical case that is 
        brought to the TAA desk looks something like this:

        <bullet>  Unemployed Guard Member with no service connection 
        has no capability to travel because his vehicle needs service
        <bullet>  SM has been unemployed for 8 months with no end in 
        sight
        <bullet>  health problems due to Line-of-Duty injuries/illness
        <bullet>  can't afford car payment/rent/vehicle repair

    This means that the TAA has to:

        <bullet>  help fill out need-based financial grant applications 
        for emergency aid
        <bullet>  coordinate with financial planning and State 
        resources to prevent foreclosure
        <bullet>  help coordinate military health services for possible 
        return to active duty for treatment
        <bullet>  coordinate VA Health care services, i.e. enrollment, 
        primary care and specialty clinic care
        <bullet>  compensation and pension evaluation and VA Disability 
        claim via Certified National Service Officer
        <bullet>  employment consultation with LVER/DVOP and Career 
        Center Training/Services
        <bullet>  arrange for legal consultation if necessary (home 
        foreclosure, child support modification, will/power of 
        attorney, etc.)

        Now multiply this by any number of cases that the TAA may be 
        managing, add in follow-up care and you can see that this adds 
        up quickly. This is in conjunction with helping Veterans of all 
        eras which present additional hurdles. Though our primary 
        mission is to focus on the OIF/OEF era Veterans, coordinating 
        end-of-life care, or elder care for WWII and Korean era 
        Veterans is a necessary and much needed skill-set. This brings 
        us to what I like to call, my ``weekend job.''

        At least once a month, sometimes more, the TAA facilitates 
        seminar and classroom learning sessions at Yellow Ribbon 
        reintegration events. We meet individually and in groups with 
        returning or deploying Veterans in order to educate Guard/
        Reserve members on benefits and services. Because of the large 
        number of troops in the outgoing/incoming stages of deployment, 
        this means that the TAA often works multiple weekends a month, 
        if not all of them.

        Most TAA's also are on a number of planning committees to help 
        coordinate services and events in the future as well. Panel 
        discussions, coordination and feedback meetings with VHA and 
        VBA, and consultation with the military chain-of-command are 
        additional duties that help to forge the working relationships 
        that we use on a daily basis. The bottom line is that the TAA 
        is, by definition a central point of contact, and we are used 
        heavily by every State, Federal, military and Veteran 
        organization on a regular basis.

        Pete is this the type of issue you are looking for? Comes right 
        from the top.''

    Although necessarily different from the active duty program because 
of the limited time our members remain on active duty at National Guard 
our installations post deployment, clearly, the TAA program in the 
National Guard performs a valuable service to members and families. The 
program needs to be expanded.

    Question 2: What should the government be looking at when trying to 
address the benefit disparities and other unmet needs of the Guard and 
Reserve?

    Response:

Amend the Post-9/11 GI Bill to Recognize Title 32 Active Duty service
    Amid great celebration and expectations, the bill providing 
Educational Assistance for Members of the Armed Forces Who Serve After 
September 11, 2001, more commonly known as the Post-9/11 GI Bill, was 
hurriedly enacted as part of the Supplemental Appropriations Act, 2008 
Public Law 110-252 but with one hurtful omission; Congress excluded all 
National Guard Title 32 active duty service after 9/11 from qualifying 
for benefits under this program.
    The impact of this legislation is that Congress has effectively 
denied benefits to our dedicated men and women who have served our 
country on Title 32 active duty post 9/11 as AGRs and in mobilized 
operations such as Operation Noble Eagle, Operation Jump Start, and in 
the critically needed airport security operations in the desperate days 
immediately following the 9/11 attacks on the homeland. What is 
particularly upsetting is the fact that the bill provides benefits for 
domestic active duty service of Reserve AGRs and other active forces on 
Title 10 orders who are performing virtually the identical service as 
our National Guard AGRs and other members on Title 32 orders who are 
denied the same benefits.
    With the current call from many quarters to have the National Guard 
mobilize to protect the borders, Congress must keep in mind that it 
will do so dutifully, as it always does, away from home likely on Title 
32 active duty orders without earning any benefits under the Post 9/11 
GI Bill for the service. This is patently unfair and, unfortunately, 
further evidences how the ``always ready always there'' service of the 
National Guard can be taken for granted. This must be changed.
    H.R. 3554 would correct this omission. With respect to ``pay go'' 
requirements to fund H.R. 3554, the costs for the needed corrections 
could be made as an emergency spending measure under the new law.
Amend the Montgomery GI Bill Chapter 1607 (REAP) eligibility to 
        recognize all Title 32 Active Duty service
    To qualify under chapter 1607 of the Montgomery GI Bill one must 
meet the following requirements: a 90 day Title 10 mobilization or a 90 
day Title 32 call up in response to a presidential or a Secretary of 
Defense declaration of a national emergency. This similarly does not 
fully recognize all Title 32 active duty to protect the homeland from 
disaster or border incursion and needs to be changed.
    A Facebook message that NGAUS has received from the field from a 
National Guard member who shall remain unnamed illustrates this:

        ``Too bad they put these soldiers on Title 32 orders. Title 32 
        is just another way to screw National Guard soldiers out of 
        future benefits. I spent 3\1/2\ years on Title 32 orders with 
        the Army National Guard and I am ineligible for Montgomery GI 
        Bill educational benefits. Only Title 10 soldiers are eligible. 
        That means all Reserve soldiers are covered but no National 
        Guard soldiers. We can be depended upon to fulfill the mission, 
        but we're not worthy of all the benefits!''
Establish retroactivity to 9/11 of changes in the 2008 NDAA lowering 
        the Reserve retirement pay eligibility age

    H.R. 208, the ``National Guard Retired Pay Equity Act of 2009,'' 
introduced by Representatives Joe Wilson (R-SC) and Dan Boren (D-OK), 
has broad support of 145 cosponsors in the House of Representatives. 
Its companion bill in the Senate, S. 831, introduced by Senator John 
Kerry (D-MA), has 29 cosponsors. These bills would allow our retirees 
to draw retirement pay 3 months sooner for each aggregate of 90 days 
per fiscal year of deployed service performed after September 11, 2001 
in support of a contingency operation or national emergency.
    The current law inequitably only applies to qualifying service 
after January 28, 2008, the date of enactment of the 2008 National 
Defense Authorization Act (NDAA) which brought about the first changes 
in Reserve component retirement pay in 60 years. The original language 
of the bill which introduced these historic changes would have 
recognized all qualifying service after September 11, 2001.
    Excluding otherwise qualifying service in the Global War on Terror 
after September 11, 2001 but prior to January 28, 2008 from the benefit 
of this law is simply not fair to those who bravely served our country 
in the most difficult years of the current conflicts. H.R. 208 and S. 
831 would correct this inequity by crediting all qualifying active duty 
service performed after September 11, 2001.
    Because this benefit represents a cost of war, funding for the bill 
under the recent ``pay go'' legislation could be accomplished as an 
emergency spending measure in the War Supplemental if there is the 
political will to do so.
End discriminatory bonus programs
    In prepared remarks, Lt. Gen. Harry Wyatt, Air National Guard 
director, told Congress last month that he wanted to ``make an 
interesting point'' about incentives. He first described one of the Air 
Guard's tactical air control party specialists who ``recently returned 
from a fifth deployment overseas in Afghanistan,'' where he ``led 19 
close air support missions for nine operations, spent more than 135 
hours outside the wire on combat patrol, and successfully prosecuted 18 
precision strikes on enemy positions that saved American lives under 
fire.'' Wyatt then stated, ``In the Air National Guard this skill set 
is in such great demand we offer a re-enlistment bonus of $15,000, but 
only for re-enlistments of 6 years.''
    He followed with this clincher: ``If the same skill set were to re-
enlist in the Regular Air Force, it would qualify for a $90,000 bonus 
to re-enlist for 3 years.''
    Other bonus disparities exist with the National Guard members who 
become technicians (civilian employees working for the Guard but who 
wear the uniform). They are required to pay back education, retention 
and reenlistment bonuses. This is discrimination without any rational 
basis.
    These discriminatory bonus provisions need to be changed.
Administer Post Deployment medical programs in a fair manner to 
        returning National Guard veterans
    There is mounting concern that our National Guard members are not 
receiving fair treatment at demobilization sites relative to their 
service connected injuries being either properly identified or treated. 
The concern is that the active forces are encouraging our wounded 
members to return home to be treated by the Veterans Administration 
rather than remain on active duty for further treatment and evaluation 
which is hurtful to the wounded members and the member's family. There 
follows a recent article from the Army Times highlighting this problem 
with the Oregon National Guard.
           Oregon Lawmakers Want Guard Medical Care Reviewed
               By Peter Urban--Gannett Washington Bureau
                Posted: Monday May 17, 2010 19:11:00 EDT

    Two Oregon lawmakers are seeking an investigation into the quality 
of medical treatment provided to National Guard and Reserve troops 
before and after combat deployment to Iraq.
    Senator Ron Wyden and Rep. Kurt Schrader sent joint letters Monday 
to the Army's inspector general and the Government Accountability 
Office seeking an investigation after their offices uncovered evidence 
that Joint Base Lewis-McChord treated active-duty soldiers differently 
from National Guard members and reservists returning from Iraq and 
Afghanistan.
    They also wrote to Army Secretary John McHugh asking him to 
investigate their concerns that returning National Guard members and 
reservists are being treated as ``second-class soldiers.''
    ``I am outraged after hearing troubling reports about the 
disrespectful and inequitable treatment received by Oregon Guardsmen,'' 
Schrader said in a news release issued with Wyden.
    Schrader wants all the soldiers' cases to be reviewed. Some 
National Guard members have already been released without receiving 
appropriate medical treatment, he said. In the letter to McHugh, 
Schrader asked that he ``personally ensure their proper care and 
treatment.''
    Schrader's staff members were alerted to potential problems at the 
former Fort Lewis from a constituent complaint. They received several 
more complaints and, upon further investigation, found evidence that 
the problem may be broader, they said.
    In particular, they said that a PowerPoint presentation created at 
the base showed that Lewis-McChord had instituted a process for 
handling the medical needs of active-duty soldiers differently from 
those of National Guard members and reservists. The presentation 
included an image labeling National Guard soldiers as ``weekend 
warriors.''
    ``We can't just chalk this up as the actions of one rogue office; 
rather my concern is that this is a symptom of a culture that views 
National Guard and reservists as second-class soldiers,'' Wyden said.
    Army Surgeon General Eric Schoomaker sent a letter to Wyden last 
Friday apologizing for the PowerPoint presentation, which had been 
presented in March to staffers at Madigan Army Medical Center, located 
near Lewis-McChord, and saying he was ``appalled by the insensitivity'' 
of one of his officers.
    Schoomaker said the commanding general of Lewis-McChord had also 
directed an investigation
Medical Screenings at the home station by the VA
    NGAUS is supporting legislation that would provide our members 
returning from deployment with the option of being examined at home by 
VA health care providers before they are discharged from Title 10 
active duty status.
    It is imperative post-deployment, that our members while still on 
active duty deployment orders, be examined confidentially at the home 
station by qualified health care providers in order to address the 
under reporting of physical and mental health conditions that occurs on 
the self administered Post Deployment Health Assessment (PDHA). The 
PDHA is currently being completed by a homeward-bound member at a 
demobilization site often several States away from home.
    When the PDHA is completed, it is accompanied by the 
``instruction'' that the self assessing member may be ``medically 
held'' on active duty at the demobilization site if he or she reports a 
medical condition requiring that action. To avoid the risk of being 
held at the demobilization site after a long deployment, members are 
simply not fully reporting their physical and behavioral injuries. This 
under-reporting not only delays treatment and the critical 
identification of a service connected injury but can prejudice later 
claims with the VA for service connected disabilities arising from 
conditions not previously reported on the PDHA.
    What is disturbing is the revelation that although blood is being 
drawn from our members at the demobilization station, the blood is not 
being analyzed only stored. This is a wasted screening opportunity for 
our members at the most critical time before reintegration. (See the 
message attached from Dr. Dana Headapohl)
    What is needed forthwith is fully analyzed blood and lab work 
provided to the member before he or she is released from active duty. 
This needs to be combined with giving our members returning from 
deployment at least the option of obtaining a free and confidential 
sharing of any laboratory data and the reporting of physical and mental 
health conditions at the home station, stigma free, to a health care 
provider trained both to elicit medical and behavioral that information 
and to properly screen the member without the member's fear of being 
medically held far from home. If medically holding the member is 
advisable, it should be done as close to home as possible.
    The irony in the current PDHA under-reporting phenomenon is that a 
medical hold is usually in the best interest of the member and his or 
her family as it allows pay and benefits to continue during treatment 
for a condition that may well render the member unemployable once 
discharged. The medical hold should not cynically be administered as a 
threat to discourage reporting of injuries when, if properly 
administered in a friendly environment, it offers substantial benefits 
to the members and his or her family.
    Insurance companies, in performing their due diligence before the 
issuance of an insurance policy do not allow an applicant's self 
assessment of health to be the only determinant. Neither should the 
military. If geographical separation from families is causing under 
reporting and non-reporting of physical and psychological combat 
injuries on the PDHA, then moving this process to the home station 
would likely produce a better yield at a critical time when this 
information needs to be captured in order for prompt and effective 
treatment to be administered. If necessary and appropriate, the 
examining health care provider in coordination with the National Guard 
J-1 and State's Surgeon General can cause the member to be retained on 
active duty locally for further treatment and evaluation.
    This is especially critical in screening for behavioral conditions. 
It is absolutely imperative that members returning from deployment be 
screened with full confidentiality at the home station while still on 
active duty by trained and qualified mental health care providers from 
VA staff and/or qualified health care providers from the civilian 
community that could include primary care physicians, physician 
assistants and nurse practitioners who have training in assessing 
psychological health presentations. Prompt diagnosis and treatment will 
help to mitigate the lasting effects of mental illness.
    Please see the copy of a November 5, 2008 electronic message to 
NGAUS from Dr. Dana Headapohl (a practicing occupational physician in 
Missoula, MT) set forth below which strongly recommends a surveillance 
program for our members before they are released from active duty. Dr. 
Headapohl opines the obvious in stating that ``. . . inadequate medical 
screening of our members before they are released from active duty is 
``unacceptable to a group that has been asked to sacrifice for our 
country.'' (emphasis added)
    Colonel Duffy--I am sending links to articles about the importance 
of providing medical surveillance examinations for workers in jobs with 
specific hazardous exposures. I believe this approach could be modified 
to evaluate National Guard members returning from Iraq and Afghanistan 
for PTSD, TBI and depression.

    The OSHA medical surveillance model includes the following basic 
elements:

    1.  Identification of potential hazardous exposures (chemical, 
physical, biologic).
    2.  Screening workers for appropriateness of placement into a 
specific work environment with such exposures. For example, individuals 
with compromised liver functions should not be placed in environments 
with unprotected exposures to hepatotoxins.
    3.  Monitoring workers after unprotected exposure incidents. 
Examples- monitoring pulmonary function in an worker exposed to a 
chlorine gas spill, or following hepatitis and HIV markers in a nurse 
after a needle stick injury.
    4.  Conducting exit examinations at the end of an assignment with 
hazardous exposures, to ensure that workers have not suffered adverse 
health effects from those exposures.

        (including concussive explosions or other traumatic events).

    Surveillance exams of all types (OSHA mandated surveillance 
programs, population health screening for chronic disease risk factors) 
have been a part of my practice of Occupational and Preventive Medicine 
in Montana for the past 22 years. Early diagnosis and treatment is 
especially essential for potential medical problems facing military 
members serving in Iraq and Afghanistan--Post-Traumatic Stress Disorder 
(PTSD), Traumatic Brain Injury (TBI) and depression. Timely diagnosis 
and aggressive treatment is essential especially for these problems, to 
maximize treatment success and functioning and to mitigate suffering.
    There are a number of organizations that design and implement 
medical surveillance programs. There is no reason the same approach 
could not be applied to the specific exposures and potential medical 
problems facing National Guard troops in Iraq and Afghanistan. With 
proper program design and local provider training, this program would 
not need to be costly. In my clinical experience, male patients 
especially are more likely to report symptoms of PTSD, TBI, or 
depression in the context of an examination rather than questionnaire. 
Findings can present subtly, but if untreated can have devastating 
effects on the individual, family and work place.
    In my practice, I have seen a number of Vietnam veterans, and more 
recently National Guard members who have returned from deployment in 
Iraq or Afghanistan, who have been inadequately screened and/or are 
suffering unnecessarily because of geographical barriers to adequate 
treatment. This is unacceptable treatment of group that has been asked 
to sacrifice for our country. They deserve better.
    I applaud your organization's efforts to lobby for better post 
deployment screening and treatment of the National Guard members 
returning from Iraq and Afghanistan.

Dana Headapohl, M.D.

http://www.aafp.org/afp/20000501/2785.html

https://www.desc.dla.mil/DCM/Files/QSRHealth%20Medical%20Exam_1.pdf. 
This is about military surveillance exams.

http://www.lohp.org/graphics/pdf/hw24en06.pdf

http://www.cdc.gov/niosh/sbw/management/wald.html

http://www.ushealthworks.com/Page.aspx?Name=Services_MedSur

NGAUS Resolution to establish equitable treatment of National Guard 
        members, veterans and retirees
    The following current NGAUS resolution sets forth a list of several 
benefits our membership has asked Congress to adjust in order to 
provide equitable treatment for our National Guard members, veterans 
and retirees.

                     131st NGAUS GENERAL CONFERENCE
                           RESOLUTION--J #26
         RELATING TO EQUITABLE TREATMENT OF ALL NATIONAL GUARD
                     MEMBERS, RETIREES AND VETERANS
Recommendation
    To ensure more equitable treatment of members and veterans of the 
National Guard, the National Guard Association of the United States 
supports:

         A.  Eliminate the disparity between Title 10 and Title 32 
        service by making retiree medical benefits of Title 32 Active 
        Guard and Reserve (AGR) servicemembers the same as Title 10 
        active component (AC) members
         B.  Institute a funding mandate to allow priority use of 
        Qualified Military Buglers in a Retired Status (QMBIRS) at 
        funeral honors when an active duty or reserve bugler is not 
        available
         C.  Allow for a seamless transition from the Department of 
        Defense (DoD) to the Department of Veterans Affairs (VA)
         D.  Provide eligibility to retired National Guard members 
        Federal retired annual payment for residency in State veterans' 
        homes, and limit their required payment to no more than 50 
        percent of the allowed VA rates
         E.  Provide equal burial rights and veteran status for 
        National Guard and Reserve members who have successfully 
        completed their military service obligation
         F.  Increase burial plot allowance to $1,000
         G.  Change the definition of a ``veteran'' to include 
        traditional National Guard Soldiers and Airmen who have served 
        honorably in the National Guard for qualification to receive 
        veteran benefits
         H.  Provide parity of compensation for special skills and 
        qualifications consistent with active component special pay, 
        compensation, and benefits
         I.  Establish parity with the active forces in the 
        administration, rates and eligibility standards for Chapter 
        1606 Montgomery GI Bill benefits
         J.  Revise the annual point limitation on the number of 
        inactive duty points creditable toward reserve component 
        retirement so that it is subject only to a cap of 365/366 on 
        all annual points earned for reserve retirement
        K.  Allow all dual status military technicians to receive 
        enlistment/reenlistment bonuses, student loan repayments
         L.  Matching pay increases for active duty pay and retired pay 
        for cost of living adjustments
        M.  Amend Section 1491 (b)(2) of Title 10 to set priority 
        standards for the use of Qualified Military Buglers in Retired 
        Status (QMBIRS) whenever available prior to using any recording 
        to sound ``Taps''
         N.  Require at least two members of the funeral honors detail 
        for a veteran's funeral to be members of the armed forces 
        (other than members in a retired status), with at least one of 
        them a member of the armed force of which the deceased veteran 
        was a member; the remainder of the detail may consist of 
        members of the armed force (including members in a retired 
        status), or members of veterans organizations or other or 
        organizations approved for purposes of this section under 
        regulations prescribed by the Secretary of Defense; military 
        buglers (including members in a retired status) are preferred 
        for the playing of ``Taps''
         O.  Clarify the use of QMBIRS and the uniform requirements in 
        Title 10, Section 1491 (b)(2) and (c)
         P.  National Guard Bureau solicit those QMBIRS members 
        available for military funeral honors duty to capitalize on 
        this valuable source of military buglers
        Q.  Amend Title 38 to allow additional education benefits to 
        all post 9/11 veterans who would have otherwise been qualified 
        for educational benefits had their benefits not previously been 
        exhausted
         R.  Amend the language in the new Post-9/11 GI Bill to allow 
        for the portability of any unused benefit to immediate family 
        members of an eligible servicemember, living or deceased
         S.  Holding the GI Bill education benefits of a deceased 
        member in trust for any minor dependent of the servicemember, 
        until the minor dependent reaches the age of 18, when the 
        benefit should enter the 15 year use window, not the age 26 
        restriction currently in the legislation
         T.  Provide that the education benefits be seen as an 
        ``account'' for the family, and to be used by any and all 
        family members subject to the stressors of the military 
        lifestyle
         U.  Pay the education benefit account in its entirety upon the 
        death of the servicemember when the death occurs as a result of 
        an act of war or terrorism
         V.  Cap the education benefit only by a dollar figure, not the 
        number of beneficiaries
        W.  Allow minor children of servicemembers the same 15 year 
        period in which to utilize the benefit upon reaching the age of 
        18
         X.  Eliminate the disparity between Title 10 and Title 32 
        education benefits under the Post-9/11 GI Bill by extending 
        full benefits under the law to include Title 32 Active Guard 
        and Reserve (AGR) servicemembers
         Y.  Include full-time Title 32 active duty service in the 
        calculation of benefits under the Post-9/11 GI Bill
         Z.  Provide a full 4-year college education to members of the 
        National Guard who have been discharged because of a service-
        connected disability arising from Title 32 active duty service.
                a.  Amend Title 10,16163(a)2 to include retention of 
                Chapter 1607 entitlements for those servicemembers who 
                complete their service contract in both the Individual 
                Ready Reserve (IRR) and Inactive National Guard (ING) 
                (6 years selected reserve, 2 years IRR or ING) under 
                honorable conditions

JOINT PERSONNEL TASK FORCE
NOTHING FOLLOWS

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 20, 2010

The Honorable Raymond M. Jefferson
Assistant Secretary for Veterans' Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

Dear Assistant Secretary:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on the Status of Veterans Employment on April 15, 2010. Please 
answer the enclosed hearing questions by no later than Tuesday, May 18, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
       Deliverable from the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                Hearing on Status of Veterans Employment
                             April 15, 2010
                       Questions for the Record:

    Questions: Are all the Disabled Veterans' Outreach Program 
Specialists and Local Veterans' Employment Representatives performing 
adequately?

    Response: Based upon performance metrics, the Disabled Veterans' 
Outreach Program Specialists (DVOPs) and Local Veterans' Employment 
Representatives (LVERs) are presently performing adequately. For the 
last program year, the entered employment rate (EER) achieved by all 
job seekers served at One-Stop Career Centers was 60 percent and the 
employment retention rate (ERR) was 80 percent. Veteran job seekers 
served by DVOPs and LVERs achieved an EER of 60 percent and an ERR of 
81 percent. In addition the Veterans served by DVOPs and LVERs achieved 
average annual earnings of approximately $32,000, compared with average 
annual earnings of approximately $22,000 achieved by all job seekers.

    Question 2: Which groups of Veterans are struggling the most with 
employment?

    Response: The unemployment rate for Veterans 20 to 24 years of age 
has consistently exceeded that for non-Veterans. In 2009, the 
unemployment rate for these Veterans was 21.1 percent, which translates 
to an estimated 50,000 unemployed young Veterans in this age group. 
However, about 9 months after discharge, the unemployment rate for 
young Veterans decreases to a lower level than the unemployment rate 
for young non-Veterans. For older age groups, the unemployment rates of 
Veterans and non-Veterans are similar. In April 2010, for example, the 
unemployment rates were 9.3 percent for non-Veterans and 9.1 percent 
for Veterans.
    Disabled Veterans also continue to experience lower employment 
rates than other Veterans. According to the Bureau of Labor Statistics, 
only 71 percent of disabled Veterans from the Gulf War era II are 
employed, compared with 76.1 percent of nondisabled Veterans from that 
period.
    The Veterans' Employment and Training Service VETS has established 
two programs specifically designed to address the employment needs of 
disabled Veterans. Our Recovery and Employment Assistance Lifelines 
(REALifelines) program provides one-on-one services to our wounded 
warriors to ease their transition into civilian employment. We have 
full-time REALifelines coordinators stationed at military treatment 
facilities to provide services to wounded, ill, or injured personnel.
    We also initiated an outreach project called America's Heroes at 
Work. This initiative educates employers on issues affecting 
Servicemembers and Veterans who are living with Post-Traumatic Stress 
Disorder (PTSD) and/or Traumatic Brain Injury (TBI). This is a joint 
initiative with DOL's Office of Disability Employment Policy (ODEP) to 
help Veterans succeed in the workplace. This is a collaborative effort 
with the Departments of Defense, Veterans Affairs and Health and Human 
Services.
    VETS also collaborates with VA's Vocational Rehabilitation and 
Employment (VR&E) program to serve disabled Veterans seeking 
employment. DVOPs identified as Intensive Service Coordinators are 
assigned to each VA regional office to ensure that Veterans 
participating in VR&E who are in need of employment services are 
appropriately referred and receive the services they need.

    Question 3: In your testimony you state that you will begin a pilot 
program that will offer tailored intensive services. What services are 
you looking to offer and what type of Veterans are you seeking to 
target?

    Response: We are refocusing the efforts of DVOPs to increase the 
delivery of specialized intensive services. DVOPs will provide 
intensive services to meet the employment needs of eligible Veterans 
with emphasis on economically or educationally disadvantaged Veterans 
and other Veterans with barriers to employment. The full range of 
intensive services identified under the Workforce Investment Act 
include: (1) comprehensive assessments, such as in-depth interviewing 
to identify employment barriers and employment goals; (2) development 
of individual employment plans; (3) group counseling; (4) individual 
counseling and career planning; (5) case management; and (6) other 
services, such as job-interviewing skills.

    Question 4: Many Veteran service organizations raise concerns that 
Veterans are not getting priority of service. With shrinking State 
budgets how does DOL check to see that Veterans do get priority of 
service?

    Response: We share the concerns expressed by the Veterans' Service 
Organizations (VSOs) that the intent of priority of service has not yet 
been fully achieved. However, VETS is collaborating closely with the 
Employment and Training Administration (ETA) to advance the 
implementation of priority of service. For example, ETA and VETS 
conduct an annual review of Veteran participation in all Department of 
Labor-funded workforce programs to evaluate priority of service.

    Joint planning is also underway between VETS and ETA to assure 
priority of service is addressed in each State's performance plan. We 
have also initiated joint program reviews with ETA at the State level 
in order to monitor the implementation of priority of service. In 
November 2009, VETS and ETA issued joint guidance to the States 
following up on the priority of service regulations, which became 
effective in January 2009. It should be noted that VETS will continue 
to focus considerable effort on meeting priority of service 
requirements.

    Question 5: Have the small businesses in the U.S. Chamber of 
Commerce raised any issues or concerns in hiring Veterans?

    Response: VETS is engaged with the U.S. Chamber of Commerce, which 
has committed to providing our VETS team with access to their local 
chapters. This will improve access to employers for our State Veteran 
representatives. At a recent meeting sponsored by the U.S. Chamber of 
Commerce's National Chamber Foundation and hosted by Assistant 
Secretary Kathy Martinez from our Office of Disability Employment 
Policy (ODEP) and myself, the following concerns were expressed by the 
employers in attendance:

    <bullet>  Matching the skill sets of Veteran candidates to 
employers' needs
    <bullet>  Information on Veterans' disabilities by employers if 
accommodations are required
    <bullet>  Agreement to a common point of access for employers to 
post job openings and for Veterans to post resumes
    <bullet>  Assistance for employers to determine the transferability 
of Veterans' military skills to the civilian sector

    In order to respond to these concerns, we are reaching out through 
our State Directors to collaborate with State and local Chambers of 
Commerce. We are also working with the Society for Human Resource 
Management (SHRM) to enhance corporate hiring managers' appreciation 
for the value that Veterans bring to their organizations.

    Question 6: According to the American Legion testimony, ``Public 
Law 107-288 eliminated the requirement DOL-VETS review all workforce 
centers annually and this has minimized Federal oversight of the 
programs. The Assistant Secretary has drastically cut funds for this 
activity and established a policy that only 10 percent of the centers 
operated under title 38, USC, will be reviewed.'' In your opinion was 
this the right decision, and if so, why?

    Response: The policy referenced in the American Legion's testimony 
was issued by VETS in 2004. We are currently reviewing this policy with 
the intent to make any needed improvements. We will advise the American 
Legion, and other VSOs of any policy changes.

    Question 7: Why does the Veterans Workforce Investment Program 
operate in 15 States only?

    Question 7(a): Is there a need to expand it?

    Response: The number and locations of Veterans' Workforce 
Investment Program (VWIP) grantees are based on budgetary 
considerations and the quality of the proposals that are submitted. The 
FY 2009 appropriation of $7.6 million supports 17 grants. Grants are 
competitively awarded based on merit. For FY 2010, VETS received an 
additional $2 million in VWIP funding, which will allow us to fund four 
additional grants. The FY 2011 budget request will allow us to maintain 
that level of effort.

    Question 8: You plan to raise awareness that spouses are eligible 
to attend Transition Assistance Program. What role will DoD play in the 
awareness program?

    Response: DOL/VETS shares responsibility for the Transition 
Assistance Program (TAP) with the Departments of Defense (DoD), 
Veterans Affairs (VA) and Department of Homeland Security (DHS). The 
TAP Employment Workshop is the DOL/VETS component that is also 
available to spouses. DOL/VETS is the co-chair of the TAP Steering 
Committee which includes representatives from DoD, VA and DHS. The 
Steering Committee is involved in the efforts to design a targeted 
strategy to reach out to military spouses by encouraging them to attend 
TAP Employment Workshops. The Steering Committee, through the Military 
Services, is engaging the Family Support Centers to play a key role in 
raising spouses' awareness about the opportunity to attend TAP 
Employment Workshops.

    Question 9: How big is the Veteran prison population?

    Response: According to a 2007 Bureau of Justice Statistics report, 
the estimated number of Veterans incarcerated in State and Federal 
prisons is 156,000.

    Question 10: What are the locations for the 17 grants awarded for 
Veterans' Green Energy Jobs?

    Response: The locations of the current 17 VWIP Grantees are listed 
below.

                                              PY 2009 VWIP Grantees
----------------------------------------------------------------------------------------------------------------
                 State                                     Grantee Name                             City
----------------------------------------------------------------------------------------------------------------
AZ                                      County of Pima                                      Tucson
----------------------------------------------------------------------------------------------------------------
CA                                      Swords to Plowshares                                San Francisco
----------------------------------------------------------------------------------------------------------------
CA                                      United States Veteran Initiative                    Long Beach
----------------------------------------------------------------------------------------------------------------
CO                                      Colorado Department of Labor and Employment         Denver
----------------------------------------------------------------------------------------------------------------
CT                                      The Workplace Inc.                                  Bridgeport
----------------------------------------------------------------------------------------------------------------
IN                                      Indiana Department of Workforce Development         Indianapolis
----------------------------------------------------------------------------------------------------------------
MA                                      Commonwealth of Massachusetts                       Boston
----------------------------------------------------------------------------------------------------------------
MA                                      Veterans Inc. (formerly Massachusetts Veterans      Worcester
                                         Inc)
----------------------------------------------------------------------------------------------------------------
MD                                      Way Station, Inc.                                   Frederick
----------------------------------------------------------------------------------------------------------------
MN                                      RESOURCE, Inc.                                      Minneapolis
----------------------------------------------------------------------------------------------------------------
NC                                      Asheville Buncombe Community Christian Ministry     Asheville
                                         Inc.
----------------------------------------------------------------------------------------------------------------
NY                                      Veterans Outreach Center, Inc.                      Rochester
----------------------------------------------------------------------------------------------------------------
OK                                      East Central University                             Ada
----------------------------------------------------------------------------------------------------------------
OR                                      Community Solutions for Clackamas County            Oregon City
----------------------------------------------------------------------------------------------------------------
PA                                      Commonwealth of Pennsylvania, Dept.: Labor and      Harrisburg
                                         Industry
----------------------------------------------------------------------------------------------------------------
TX                                      American G.I. Forum National Veterans Outreach      San Antonio
                                         Program, Inc.
----------------------------------------------------------------------------------------------------------------
TX                                      Goodwill Industries of Houston, Inc.                Houston
----------------------------------------------------------------------------------------------------------------

    Thank you for the opportunity to respond to these questions for the 
record.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 20, 2010

Ms. Christine M. Griffin
Deputy Director
Office of Personnel Management
1900 E Street NW
Washington, DC 20415

Dear Ms. Griffin:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on the Status of Veterans Employment on April 15, 2010. Please 
answer the enclosed hearing questions by no later than Tuesday, May 18, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
              United States Office of Personnel Management
                 Responses to Questions for the Record
              Hearing on the Status of Veterans Employment
                         Held on April 15, 2010

    Question 1: What is OPM doing to educate hiring managers on the 
various hiring authorities?

    Response: OPM is currently in the process of designing and 
developing mandatory annual training for hiring managers and human 
resources (HR) practitioners on veterans' preference and special 
veterans' hiring authorities, as mandated by Executive Order (E.O.) 
13518. Veterans' preference eligibility (preference eligibles) includes 
certain non veteran individuals, such as widows and widowers, spouses, 
and mothers, who derive their preference from the death or disability 
of a veteran. In addition, we are developing training on the Uniformed 
Services Employment and Reemployment Rights Act (USERRA), and 
noncompetitive appointment of military spouses as part of this 
initiative.

    We will ensure that this training can be deployed in the GoLearn/
USALearning environment and ensure that reports on individuals who have 
completed the training can be tracked.
    Finally, we are planning to hold a Veterans Employment Symposium 
for agencies to ensure that Veterans Employment Program Offices and 
hiring managers have a firm foundation of knowledge, information, 
resources, and best practices regarding veterans' employment. The 
primary goal of this symposium is to provide a learning forum to 
discuss strategies and issues relating to the employment of veterans. 
The symposium will consist of presentations, workshops, and panel 
discussions on a wide variety of issues that impact the current state 
of veterans' employment in the Federal Government.

    Question 2: The Committee has often heard that the Federal Career 
Intern Program is often used to by-pass veterans preference. Can you 
assure us that this is not happening?

    Response: The term `veterans preference' usually refers to the 
addition of points to a veteran's final score when competing for a 
competitive service appointment.

    The Federal Career Intern Program (FCIP) involves an excepted 
service appointment at the outset. Agencies making appointments 
pursuant to the excepted service are not required to use points. The 
excepted service offers a range of approaches to the selection of 
candidates, each affording veterans their preference. When points are 
used, veterans receive their points in the usual way. When points are 
not used, veterans' preference is applied in other ways, pursuant to 
OPM regulations.
    In all cases, whether or not points are used, veterans must receive 
the preference afforded them in law for that specific type of 
appointment.
    OPM's mission ensures that veterans get the appropriate 
consideration and preference for every type of appointment. It also 
guarantees veterans that safeguards are in place, and that they have 
all the pertinent information needed to pursue their rights.
    Consistent with the President's May 11, 2010 memorandum, OPM also 
plans on evaluating FCIP and providing the President with 
recommendations on that program.

    Question 3: You referred to employed veteran on page two of your 
testimony. Can you tell us what employed entails in this case such as: 
full-time, part-time, interns, contractors, paid fellows, etc.?

    In my testimony, I referred to the more than half a million 
veterans employed by the Executive Branch of the Federal Government 
according to our central personnel database file. These veterans may be 
full or part-time, seasonal, student, or other types of Federal 
employees. Companies who do business with the Federal Government and 
their employees (referred to as contractors) are not counted in this 
number.

    Question 4: During a visit to a military base a veteran expressed 
concern about the age limit in some law enforcement agencies. Should 
the age limit requirement of 37 for law enforcement jobs be increased 
to 45 for veterans who bring the same skills?

    Response: Based on controlling case law, qualified preference 
eligibles may now apply and be considered for vacancies regardless of 
whether they exceed the maximum entry age requirements identified at 5 
U.S.C. Sec. 3307. In order to determine whether it must waive a maximum 
entry-age requirement, an agency must first analyze the affected 
position to determine whether age is essential to the performance of 
the position. If the agency decides age is not essential to the 
position, then it must waive the maximum entry-age requirement for 
veterans' preference eligible applicants. In instances where the 
maximum entry-age is waived, the corresponding mandatory retirement age 
for these individuals will also be higher because it will be reached 
after 20 years of Law Enforcement Officer (LEO) service for the 
entitlement to an immediate enhanced annuity.

    Question 5: Is it correct that for fiscal year 2008 the Federal 
Career Intern Program hiring accounted for 50 percent of the new 
professional/administrative hires at GS 5 to GS 9 levels?

    Response: Yes. For fiscal year 2008, the amount of full time 
permanent (FTP) FCIP new hires was 56.9 percent, or 14,734 out of 
25,904 total FTP new hires for that year.

    FCIP has been referenced in a number of studies conducted by the 
Merit Systems Protection Board's Office of Policy and Evaluation and 
was the exclusive focus of a 2005 study entitled ``Building High-
Quality Workforce: The Federal Career Intern Program.'' (See http://
www.mspb.gov/netsearch/viewdocs.aspx?docnumber=224108&
version=224327&application=ACROBAT). The 2005 study surveyed FCIP in 
detail and highlighted certain perceived advantages of the program, 
including the ability to use more streamlined hiring processes and the 
ability to use the entire internship (typically 2 years) as a trial 
period to assess the qualifications and performance of the intern 
against established standards. It is likely that some of the growing 
interest in the program has resulted from such publicity.
    However, consistent with the President's Memorandum, issued on May 
11, 2010, OPM is currently reviewing FCIP and will make a 
recommendation within 90 days.

    Question 6: Since hiring with the Federal Career Intern Program can 
be done without public notice is it limiting fair and open competition?

    Response: Although public notice (i.e., advertising through 
USAJOBS.gov) is not required when filling jobs under FCIP, competition 
is not necessarily limited. Agencies may choose to advertise FCIP 
positions on USAJOBS.gov; agencies may choose to advertise on their own 
Web sites; or agencies may choose to use other social media. In 
addition, because FCIP positions are entry level, FCIP is often used as 
an on-campus recruiting tool; thereby advertising the positions on 
college campuses.

    Question 7: Do you have any preliminary results from the 
implementation of Executive Order 13518?

    Response: In our efforts to implement E.O. 13518, Federal agencies 
have begun the process of building an infrastructure to support the 
E.O. Since the signing of the E.O., OPM has launched a Governmentwide 
marketing campaign to brand ``America's Veteran.'' In addition, we 
opened a Governmentwide and internal Veterans Services Office; launched 
an information portal www.fedshirevets.gov on Federal employment for 
veterans; released the Governmentwide Veterans Recruitment and 
Employment Strategic Plan; and are currently reviewing agency 
operational plans for adherence to the Governmentwide strategic plan.
    Currently, all agencies covered under the E.O. have established 
Veteran Employment Program Offices and are providing employment 
services to veterans.

    Question 8: On average are Federal agencies consciously hiring 
veterans or is more of coincidence?

    Response: Federal agencies are striving to recruit and hire the 
best applicants, and veterans are among the best qualified applicants 
seeking Federal employment.

    Question 9: According to VA testimony, OPM references Veterans 
Employment Coordination Service as a model for establishing Veterans' 
employment offices within Federal departments. Why?

    Response: The Veterans Employment Coordination Service was used as 
a model because the service was established, fully functioning, and 
producing results. Additionally, it demonstrated to other Federal 
agencies how dedicated resources to the employment of veterans in a 
Department or agency could operate.

    Question 10: In your written testimony you state that OPM has 
modified practices on how an agency pursues a request to ``pass over'' 
a preference eligible. How was this modified?

    Response: We recently modified our procedures concerning an 
agency's request to pass over a preference eligible with a compensable 
service-connected disability of 30 percent or more for an excepted 
service position. In the past, agencies acted on such actions 
themselves. However, to ensure full compliance with controlling case 
law, we are requiring agencies to send pass over requests to us for 
adjudication. These procedures apply only to excepted service positions 
covered under title 5, United States Code, which have been excepted 
from the competitive service by the President or by OPM.
    Therefore, at this time, pass over requests for veterans with a 30 
percent or more compensable service-connected disability have to go to 
through OPM. This includes positions in the excepted and competitive 
service.

    Question 11: Does OPM have an idea of what is the picture of the 
average veteran? Are they educated, have experience, non/combat arms, 
are jobs white collar or blue collar.
    Veterans comprise approximately 25 percent of Federal Executive 
Employment with the following general characteristics:

    <bullet>  Male: 84 percent, Female: 16 percent;
    <bullet>  No Disability/Not Identified: 91 percent, Disabled: 9 
percent
    <bullet>  White collar: 83 percent, Blue collar: 17 percent
    <bullet>  Minority: 32 percent, Non-minority: 68 percent
    <bullet>  With Bachelors: 35 percent, Without Bachelors: 65 percent
    <bullet>  Average age: 49
    <bullet>  Average salary: $67,603

    Question 12: Can you elaborate on your partnership with VA on the 
Vocational Rehabilitation and Employment Program?

    Response: Since the inception of E.O. 13518, VA has been an 
integral partner to this initiative along with the Departments of 
Defense, Labor and Homeland Security. Our partnership is based on 
ensuring that we leverage the resources of not only the Vocational 
Rehabilitation and Employment program, but all the available resources 
that the Department of Veterans Affairs brings to bear for the 
training, recruitment, and employment of veterans and the success of 
this initiative.

    Question 13: Is OPM going to introduce a more rigorous Federal 
Career Intern Program and if so what are the changes to the current 
version?

    In accordance with the May 11, 2010 Presidential Memorandum--
Improving the Federal Recruitment and Hiring Process, we will evaluate 
FCIP as established by E.O. 13162 of July 6, 2000. In addition we will 
provide recommendations concerning the future of that program, and 
propose a framework for providing effective pathways into the Federal 
Government for college students and recent college graduates.

    Question 14: How often does OPM check Federal agencies for 
compliance with current law?
    OPM's Merit System Audit and Compliance (MSAC) conducts rigorous 
oversight to ensure that Federal agencies comply with merit system 
principles, veterans' preference, and related H.R. laws and 
regulations. The frequency of OPM's H.R. audits varies based on agency 
size and OPM requirements.
    We audit H.R. programs at small agencies on a 4-year cycle. The 
larger departments and agencies are required by OPM regulation to 
assess their own H.R. programs periodically with OPM's guidance and 
participation. Some large departments and agencies self-assess their 
entire H.R. operations every 2 years. The largest agencies in 
government may take longer. For agencies with longer self-assessment 
cycles, OPM will fill in the gap by independently auditing the 
agencies' use of delegated hiring authority. OPM will generally audit 
every delegated examining unit in government every 3 years.
    In FY 2009, OPM conducted independent H.R. audits at 92 Federal 
installations and 170 delegated examining units. OPM also participated 
as full partners in an additional 176 agency-led H.R. audits. In each 
of these audits, OPM ensured that these agencies followed veterans' 
preference and adhered to merit system principles.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                     April 20, 2010

Mr. Willie Hensley
Principal Deputy Assistant Secretary for
Human Resources and Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, D.C. 20420

Dear Mr. Hensley:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on the Status of Veterans Employment on April 15, 2010. Please 
answer the enclosed hearing questions by no later than Tuesday, May 18, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________
                        Questions for the Record
                The Honorable Stephanie Herseth Sandlin
                  House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                     Status of Veterans Employment
                             April 15, 2010

    Question 1: VA ranks first among non-Defense agencies in the number 
of Veterans hired. What is VA doing differently from other Federal 
agencies to account for the numbers?

    Response: Helping Veterans overcome some of the employment 
challenges was a primary reason for establishing the VA National 
Veterans Employment Program (NVEP) in 2001, and more recently, the 
Veterans Employment Coordination Service in 2007. Under these 
initiatives, Veterans learn valuable information about Veterans' 
preference and how to use it effectively to gain employment in the 
Federal Government. They also learn key aspects of how to maneuver 
through the Federal hiring process and how special hiring authorities 
established specifically for Veterans can assist them in the selection 
process. These efforts provided dedicated, full-time employees to the 
mission of attracting, recruiting, and hiring Veterans in the 
Department. We aggressively pursue outreach to Veterans at Veteran or 
Military-related career fairs, and work with both the Army's Wounded 
Warrior Program and the Marine Corps' Wounded Warrior Regiment to 
identify potential Veteran applicants. At the same time, we encourage 
our hiring managers, selecting officials, and Human Resources 
professionals to make maximum use of the provisions of Veterans' 
preference and the non-competitive appointing authorities available to 
hire Veterans.

    Question 2: Can you elaborate on how the Veteran Employment 
coordinators came about, its size, and day-to-day duties?

    Response: In November, 2007, the Secretary of Veterans Affairs 
announced the creation of the Veterans Employment Coordination Service 
within the Office of Human Resources Management to attract, recruit, 
and hire Veterans into VA nationwide, particularly severely injured 
Veterans from Iraq and Afghanistan.

    In addition to the Director and Deputy, the office consists of nine 
Regional Veterans Employment Coordinators (VECs) located throughout the 
U.S. to focus these efforts within the VA and to work with those 
Veterans interested in employment at VA locations nationwide.
    Regional VECs are located in Seattle, WA; San Diego, CA; Denver, 
CO; San Antonio, TX; Augusta, GA; Louisville, KY; Fayetteville, NC; New 
York City, NY, and Washington, DC.
    Regional VECs also work closely with over 200 previously-
established collateral duty VECs at local Human Resources offices 
nationwide to identify potential employment opportunities and work with 
selecting officials.
    Regional VECs assist Veterans by providing hands-on case management 
to include:

    <bullet>  Skills qualification and career match
    <bullet>  Introduction to VA careers
    <bullet>  Resume and Knowledge, Skills and Ability (KSA) 
preparation
    <bullet>  Job interview techniques
    <bullet>  Collaboration with Vocational Rehabilitation and 
Employment Service

    Veterans Employment Coordination Service conducts monthly Local VEC 
Conference Calls to disseminate information, coordinate efforts, and 
discuss best practices (calls average between 60-75 participants).
    By helping to ensure that managers and supervisors throughout the 
VA are aware of the special hiring authorities at their disposal, VA 
hopes to open opportunities to Veteran employment.

    Question 3: What existing authorities does the Interagency Council 
on Veterans Employment seek to leverage and what new strategies have 
been identified to recruit and hire homeless Veterans.

    Response: VA seeks to maximize the understanding and use of 
existing Veterans employment authorities to include the Veterans 
Employment Opportunities Act, Veterans Recruitment Appointment, and 30 
percent or more Service-connected disabled Veterans appointment 
authority. In addition, the Interagency Council on Veterans Employment 
has established a working group chaired by VA's Assistant Secretary for 
Human Resources and Administration, to look specifically at these 
existing authorities and make any recommendations to improve or expand 
those authorities. Those recommendations are due to the Council by mid-
July 2010.

    Question 4: Is the National Recruitment Initiative limited to 
hiring only people with a medical background?

    Response: The National Recruitment Initiative is limited to hiring 
medical professionals to improve recruitment of hard to fill positions 
within the Veterans Health Administration (VHA). The program provides 
guidance and support to Veterans Integrated Service Networks (VISN) 
recruiters in development of student employment and internship programs 
to build student recruitment pipelines. It also focuses on engaging 
hiring managers in the process to profile skill sets of highly 
qualified candidates.

    The Hiring Recruitment Initiative generates cost-savings by 
consolidating recruitment and marketing efforts across geographic 
regions. It also has resulted in reduced contracting costs in some 
areas. Through this initiative VA actively applies a wide variety of 
private sector recruitment and social networking strategies to identify 
potential candidates for specific positions. VA intends to expand the 
National Recruitment Initiative program and conceivably use it to 
recruit for administrative positions as well.

    Question 5: In the written testimony you mentioned that OPM 
references Veterans Employment Coordination Service as a model for 
establishing Veterans' employment offices within other Federal 
agencies. What agencies have been referred to the VA?

    Response: The Director of the VA Veterans Employment Coordination 
Service presented an informational briefing during a recent Office of 
Personnel Management-sponsored Chief Human Capital Officers Training 
Academy forum. In addition, the Director and Deputy Director provided 
in-depth presentations to Human Resources officers at: State 
Department, NASA, Department of Health and Human Services, Department 
of Commerce, Environmental Protection Agency, Department of Education, 
and the National Institutes of Health.

    Question 5(a): Of those agencies, which have successfully 
established a Veterans Employment Coordination Service?
    As of March, 2010, all of the Chief Human Capital Officer (CHCO) 
agencies including those listed above have established a Veteran 
Employment Program Office in accordance with the recent Veterans 
Employment Initiative launched by the President's November 2009 
Executive Order.

    Question 6: How does the VA work to help homeless Veterans who are 
interested in working for the VA but are faced with some or all of the 
deterring aspects that you mentioned, such as being unable to commute 
to interviews or worksites or being unable to dress suitably for a job 
interview?

    Response: VA's Compensated Work Therapy program helps Veterans 
obtain job skills to include preparing resumes and learning 
interviewing techniques. VA also provides a transportation subsidy to 
assist Veterans in getting to interviews. Additionally, VA collaborates 
with the Department of Labor's Homeless Veteran Reintegration Program 
to assist Veterans in both preparing for, and gaining, employment. VA's 
Vocational Rehabilitation and Employment Service helps disabled 
Veterans with job preparation and training needs.

    Question 7: Has the VA previously hired any homeless Veterans?

    Response: Although VA does not currently have a listing of the 
number of previously homeless Veterans employed by VA, we do know that 
thousands have received VA services. By informal reports VA is aware of 
several hundred Veterans being hired each year through supportive 
employment programs with many eventually serving in full time 
employment in a variety of positions. VA will focus on a means to 
capture how many Veterans participated in a homeless program in the 
past and now work for VA. In the future, the homeless registry will 
provide us with real time information.

    Question 8: Regarding the 90,000 hires, is this strictly full-time 
employees or does this include others such as paid interns, fellows, 
part-time employees and contractors?

    Response: The 90,000 Veteran employees include full-time and part-
time employees and intermittent work schedules including student 
trainees. This does not include medical residents, those on extended 
leave without pay, volunteers or contractors.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
